                            Message from the Inspector General


The Department of Defense Inspector General Semiannual Report to Congress for the reporting period covering April 1, 2008
to September 30, 2008, is more than just a means of complying with the Inspector General Act of 1978, as amended. It is
the embodiment of two important concepts upon which this organization is based – accountability and transparency. In the
                          course of exercising our statutorily mandated mission to detect and prevent fraud, waste and abuse
                          within the Department of Defense, we demand accountability and transparency from others. So it is
                          fitting that we apply those same standards to ourselves, which is the purpose of this report.

                           This is our report card. It provides Congress and the U.S. taxpayer with a detailed account of what
                           this organization has done during the second half of Fiscal Year 2008. To better understand the
                           challenges we face, it is important to remember that the Department of Defense is America’s oldest
                           and largest government agency, as well as being the Nation’s largest employer with around 3 million
                           active duty, civilian, National Guard, and Reserve forces.

                          The challenges of providing effective oversight are enormous and complex. So in order to better
                          understand them and the role of the DoD IG, we have divided them into five functional challenge
                          areas – financial management; acquisition processes and contract management; joint warfighting
and readiness; information security and privacy; and health care. As you read through this report, you will learn about what
the DoD IG and our counterparts in the Department have accomplished in these areas.

During this reporting period DoD IG audit issued 64 reports and identified $743 million in funds that could be put to
better use. DoD IG investigations included work in the areas of cyber crime and computer intrusion; the illegal transfer
of technology and sensitive equipment; corruption and fraud; and defective, substituted, and substandard products.
Investigations returned a total of $398 million to the U.S. government.

DoD IG intelligence oversight included work in the areas of personnel security; special access programs; evaluating the policies,
practices, and capabilities for security and control of U.S. nuclear weapons; and other sensitive areas within the Department.
Policy and Oversight issued 23 oversight reports in such areas as medical care for wounded warriors and initiatives to improve
the DoD safety program. Special Plans and Operations deployed teams to Iraq, Afghanistan, and Pakistan to provide real time
assessments such as the “Assessment of Arms, Ammunition, and Explosives Accountability and Control; Security Assistance;
and Sustainment for the Iraq and Afghan Security Forces” as well as the “Assessment of DoD-Funded Programs supporting the
Government of Pakistan.”

These accomplishments have a direct impact on supporting the four focus areas that the Secretary of Defense has established
for the Department. They are to prevail in the Global War on Terror; strengthen joint warfighting capabilities; focus on
people; and transform enterprise management.

Ultimately, we are accountable to the American people and to the warfighters who have been called upon to defend America.
This is our report to them and why we have gone to great lengths to be as open and informative as possible. In addition, it
is essential that we work together with the Department, to facilitate credibility, integrity and efficiency in its programs and
operations.
I want to thank our DoD IG employees for the work they do to support Congress, the Department, and especially our
warfighters who are bravely serving our country. Many of the audits, investigations, evaluations, and assessments produced are
used by Congress and senior leadership in the Department to improve the economy and efficiency of vital DoD programs and
operations.

In closing, we wish to express our gratitude to, and admiration for the people we serve – the men and women in DoD,
both military and civilian. Our commitment to them is to continue to provide independent, objective, timely and relevant
information to the Department, Congress, and the American people.



Submitted October 31, 2008.




                                                   Gordon S. Heddell
                                                 Acting Inspector General
                                                           FRONT COVER
                                                                                                                                                                                                                                                                                                                     Contents


                                                                                                                                                                                                                                            DoD IG COVER
FMMBTBVEJUSFQPSUBOEUFTUJNPOZUFYUBSFBWBJMBCMFPOUIF*OUFSOFUBUXXXEPEJHNJM
OGPSNBUJPOPOPSDPQJFTPGUIJTSFQPSUNBZCFPCUBJOFECZXSJUJOHPSDPOUBDUJOH
   0ċDFPGUIF*OTQFDUPS(FOFSBMPGUIF%FQBSUNFOUPG%FGFOTF
     0ċDFPG$PNNVOJDBUJPOTBOE$POHSFTTJPOBM-JBJTPO
      "SNZ/BWZ%SJWF"SMJOHUPO7"


        .S+PIO3$SBOF%4/




                                                                                                                                                                                                                                                                           Global war on terror	                                      1
                                                                                                                                                                                                                                                                           	 GWOT Goals			                                            3
                                                                                                                                                                                                  employees, the Department increases
                                                                                                                                                                                                  risk within contract management
                                                                                                                                                                                                                                            62 ACQUISITION PROCESSES &
                                                                                                                                                                                                  which had already been reported by
                                                                                          FEATURED ARTICLE




                                                                                                                                                                                                  the Government Accountability Office
                                                                                                                                                                                                  as a high risk area. This is especially
                                                                                                                                                                                                                                              CONTRACT MANAGEMENT
                                                                                                                                                                                                  true when contractors are performing




                                                                                                                                                                                                                                                                           	 GWOT Highlights				                                      9		
                                                                                                                                                                                                  tasks closely associated with source
                                                                                                                                                                                                  selection and surveillance. Major
                                                                                                                                                                                                  prime contractors have, in many cases,
                                                           FEATURED ARTICLES




                                                                                                                                                                                                  assumed responsibilities for selection
                                                                                                                                                                                                  and oversight of subcontracting with
                                                                                                                                                                                                  little or no government involvement.
                                                                                                                                                                                                  The increased use of contractors when




                                                                                                                                                                                                                                                                             DoD IG				                                              14
                                                                                                                                                                                                  combined with the urgencies created
                                                                                                                                                                                                  by contracting for contingency
                                                                                                                                                                                                  operations in Iraq, Afghanistan, and
                                                                                                                                                                                                  contingency situations after natural
                                                                                                                                                                                                  disasters such as Hurricane Katrina
                                                                                                                                                                                                  creates an environment ripe for fraud,




                                                                                                                                                                                                                                                                           	 Army					                                               36		
                                                                                                                                                                                                  waste and abuse.

                                                                                                             Acquisition Processes and                                                            Our audit coverage during the past 6
                                                                                                                                                                                                  months has reported problems related
                                                                                                             Contract Management                                                                  to contracting during contingencies
                                                                                                                                                                                                  and contractor influence on an
                                                                                                             The DoD acquisition and contracting        that DoD is relying on contractors        economic price adjustment factor




                                                                                                                                                                                                                                                                             Navy					                                               43		
                                                                                                             community, in an attempt, to               to perform tasks that closely support     as well as continuing issues with
                                                                                                             manage the large increases in defense      inherently governmental functions         adherence to guidance for major
                                                                                                             spending with a smaller and less           such as contracting support,              weapons programs and directing
                                                                                                             capable workforce have increasingly        intelligence     analysis,     security   contracts to preferred sources. Audit
                                                                                                             turned to contractors to fill roles held   services, program management,             coverage also identified problems
                                                                                                             by government employees. Spending          engineering, and technical support        with interagency purchases, but




                                                                                                                                                                                                                                                                             Air Force	                                              49
                                                                                                             for goods and services in FY 2007          for program offices. The GAO              improvements in this area are
                                                                                                             exceeded $315 billion. This level of       surveyed officials from 52 of DoD’s       beginning to be implemented.
                                                                                                             spending is more than double the           major weapons programs. From
                                                                                                             level of spending from FY 2001.            that survey they reported that over       Contracting During
                                                                                                             The difference in the DoD budget           45 percent of program office staff
                                                                                                             from FY 2001 and FY 2008 is just           was composed of individuals from
                                                                                                                                                                                                  Contingencies
                                                                                                                                                                                                  On the DoD IG audit of Hurricane
                                                                                                             as significant. The DoD budget for         outside DoD. In addition, in August




                                                                                                                                                                                                                                                                           		
                                                                                                                                                                                                  Relief Effort Costs on the Navy
                                                                                                             FY 2008 including supplemental             2008, the Congressional Budget
                                                                                                                                                                                                  Construction Capabilities Contract,
                                                                                                             and bridge funding is almost $700          Office reported that there were
                                                                                                                                                                                                  the audit team identified that
                                                                                                             billion. The budget for FY 2001 was        over 190,000 contractor personnel
                                                                                                                                                                                                  NAVFAC Southeast contracting
                                                                                                             only $335 billion.                         supporting the war effort in the Iraq
                                                                                                                                                                                                  officials did not effectively implement
                                                                                                                                                        Theater (about the same numbers as
                                                                                                                                                                                                  cost control procedures for three
                                                                                                             Increased                                  war fighters in Iraq) and at least two
                                                                                                                                                                                                  CONCAP contract task orders
                                                                                                             Contractor Reliance                        and a half times higher than the ratios




                                                                                                                                                                                                                                                                           DoD IG Oversight							                                   57
                                                                                                                                                                                                  issued to Kellogg, Brown and Root
                                                                                                             The Government Accountability              from other U.S. major conflicts. In
                                                                                                                                                                                                  for recovery efforts associated with
                                                                                                             Office reported in recent testimony        allowing contractors to assume duties
                                                                                                                                                                                                  Hurricanes Ivan and Katrina. As
                                                                                                                                                        previously performed by government

                                                                                                             62
                                                                                                                                                                                                            Semiannual Report to Congress




                                                                                                                                                                                                                                                                           	   Highlights								                                    58
                                                                                                                                                                                                                                                                           	   Audit			             				                             60
                                                                                                                                                                                                                                            71 AUDIT ADVISORY COMMITTEES




                                                                                                                                            Audit Advisory Committees
                                                                                                                                                                                                                                                                           	   Investigations						                                  74		
                                                                                          FEATURED ARTICLE




                                                                                                                                                                       A Tool in the War Against Fraud, Waste, and Abuse




                                                                                                             The Office of the Assistant Inspector General for Audit Policy and Oversight within the Department of Defense Office
                                                                                                             of the Inspector General recently issued a report on “Best Practices for Audit and Financial Advisory Committees
                                                                                                             Within the Department of Defense.” Whereas we do not “oversee” audit committees, we do recognize the value they
                                                                                                             bring towards the goal of creating accountability and transparency within the DoD. The Assistant Inspector General
                                                                                                             for Audit Policy and Oversight suggested that we ascertain best practices for audit committees to assist the Department
                                                                                                             in audit preparedness for a financial statement audit or in facilitating a financial statement audit. In accomplishing this
                                                                                                                                                                                                                                                                               Policy and Oversight						                            83
                                                                                                                                                                                                                                                                           	
                                                                                                             effort, we were not necessarily interested in recommending that every DoD organization that develops and submits
                                                                                                             financial statements or that is working towards audit preparedness start an audit committee. However, what we did
                                                                                                             want to create was useful information that highlight the benefits of audit committees; facilitate an understanding of
                                                                                                             their value and make it easier for DoD organizations considering establishing audit committees (whether required or
                                                                                                             not) to understand what they were doing and how to do it.

                                                                                                             Hitting the Highlights




                                                                                                                                                                                                                                                                           Services Oversight						                                  85
                                                                                                             The purpose of this article is to hit the highlights of our review of Audit and Financial Advisory Committees within
                                                                                                             the Department of Defense and to bring more visibility to a tool that can foster transparency and accountability for
                                                                                                             Federal Government organizations and entities. We recognize that there is no one-size fits all solution to achieving
                                                                                                             quality financial statements and audits. As stated in the “Foreword” to the Best Practices Review Report, “Financial
                                                                                                             audit advisory committees benefit an organization either by assisting with audit preparedness or by providing increased
                                                                                                             confidence in the credibility of the organization’s financial statements…. If effectively designed, the committee can




                                                                                                                                                                                                                                                                           	   U.S. Army		     				                                  86
                                                                                                             be a strategic partner in conducting quality audits, preparing auditable financial statements, and improving business
                                                                                                             operations.”

                                                                                                             What is an “Audit Advisory Committee” anyway?

                                                                                                             Audit advisory committees in DoD generally serve one of two functions: financial statement audit preparedness or
                                                                                                             financial statement audit oversight. Committees for audit preparedness provide oversight and make recommendations




                                                                                                                                                                                                                                                                           	   U.S. Navy						                                       92		
                                                                                                             to help the organization improve business operations through improvements to financial reporting processes
                                                                                                             and procedures. The scope of each committee’s work depends on the status of financial management within the
                                                                                                             organization. When the entity is prepared to undergo a financial statement audit, the committee’s focus shifts from
                                                                                                             audit preparedness to oversight of the financial statement audit, and the committee assumes additional oversight and
                                                                                                             advisory responsibilities. A financial audit advisory committee can provide independent oversight of an organization’s
                                                                                                             annual financial statement audit, risk management plan, internal control framework, and compliance with external




                                                                                                                                                                                                                                                                               U.S. Air Force							                                 97
                                                                                                             requirements. Acting in an advisory role, the committee promotes independence, enhances accountability, and
                                                                                                             facilitates communication between management and the external auditor that conducted the financial statement
                                                                                                             audit. The scope of each committee’s work varied depending on the status of financial management within the
                                                                                                             organization.




                                                                                                                                                                                                                                      71
                                                                                                             Department of Defense Inspector General




                                                                                                                                                                                                  ordered to pay restitution of $2.97
                                                                                                                                                                                                                                                                           DoD IG Outreach            				                          107
                                                                                                                                                                                                                                                                               	Congressional Testimony					                        108
                                                                                                                                                                                                  million for their involvement in a
                                                                                                                                                                                                  scheme to defraud the U.S. Govern-
                                                                                          FEATURED ARTICLE




                                                                                                                                                                                                  ment through bribery and kickbacks
                                                                                                                                                                                                                                            76 CORRUPTION AND FRAUD




                                                                                                                                                                                                  paid in connection with construction
                                                                                                                                                                                                  contracts with the US Army Medical
                                                                                                                                                                                                  Command, Fort Sam Houston, San
                                                                                                                                                                                                  Antonio, Texas.

                                                                                                                                                                                                  The individuals created shell compa-
                                                                                                                                                                                                  nies to collusively bid on contracts,
                                                                                                                                                                                                  and also paid kickbacks and bribed
                                                                                                                                                                                                  officials.
                                                                                                                                                                                                                                                                           	    Defense Hotline					                                109		
                                                                                                                                                                                                                                                                                DoD IG Website			                                   111
                                                                                                                                                                                                  Money Laundering

                                                                                                                                                                                                  Thomas Theodore Kontiogiannis was
                                                                                                                                                                                                  sentenced to serve 97 months incar-
                                                                                                                                                                                                  ceration, 3 years supervised release,
                                                                                                                                                                                                  and ordered to pay $1,050,100 in
                                                                                                                                                                                                  fines and special assessments on May




                                                                                                                                                                                                                                                                                PCIE/ECIE Activities				                            112
                                                                                                             Corruption and Fraud                                                                 16, 2008.

                                                                                                             DCIS has primary jurisdiction over         DCIS protects America’s warfighters       Kontiogiannis admitted to using his
                                                                                                             matters involving most contract and        by vigorously investigating alleged       nephew’s company to launder money
                                                                                                             procurement actions awarded by De-         and suspected procurement fraud,          and pay off a $525,000 mortgage on
                                                                                                             fense Agencies, OSD components,            corruption, and other breaches of         former U.S. Representative Randall




                                                                                                                                                                                                                                                                           	    DCIE Activities				                                 113
                                                                                                             and field activities.                      public trust that impact critical DoD     “Duke” Cunningham’s Rancho Santa
                                                                                                                                                        programs.                                 Fe, California mansion in furtherance
                                                                                                             Additionally, DCIS has jurisdiction                                                  of a bribe. Representative Cunning-
                                                                                                             over, “any allegations [involving DoD]     DCIS investigations focus on matters      ham previously plead guilty and is
                                                                                                             that the IG DoD considers appropri-        such as bribery, theft, procurement       serving a sentence for receiving bribes
                                                                                                             ate for investigation by DCIS.”            fraud, illegal receipt of gratuities,     in connection with DoD contracts.
                                                                                                                                                        bid-rigging, defective and substituted




                                                                                                                                                                                                                                                                           	    Speeches/Conferences                                113
                                                                                                             This broad authority affords DCIS          products, and conflicts of interest.      Fraudulent Claims
                                                                                                             the ability to easily partner with other
                                                                                                             federal, military, and state agencies in   DCIS is very proactive in their efforts   Health Vision Corporation and its
                                                                                                             an effort to protect the integrity of      to combat fraud and public corrup-        former President/CEO were convict-
                                                                                                             the entire DoD procurement and ac-         tion. Methods to combat financial         ed in U.S. District court for defraud-
                                                                                                             quisition process -- from countering       threats are included in the following     ing TRICARE between October 1,




                                                                                                                                                                                                                                                                           	    Awards				                                          114
                                                                                                             fraud impacting initial research and       examples.                                 1998 and August 2004 by entering
                                                                                                             development, to investigating fraud                                                  into a kickback scheme with medical
                                                                                                             during contract execution, to ensur-       Bribery and                               providers in the Philippines.
                                                                                                             ing appropriate disposal of products       Kickbacks
                                                                                                             no longer needed by DoD compo-                                                       Health Visions inflated bills and
                                                                                                             nents.                                     Six individuals plead guilty in federal   submitted fictitious and fraudulent
                                                                                                                                                        district court and received sentences     claims to TRICARE for payment.
                                                                                                                                                        ranging from 60 to 84 months and


                                                                                                             76
                                                                                                                                                                                                            Semiannual Report to Congress




                                                                                                                                                                                                                                                                           DoD IG Components		                                      115
                                                                                                                                                                                                                                                                           	   Deputy Inspector General for Auditing			             116	
                                                                                                                                                                                                                                                                           	   Deputy Inspector General for Investigations			       118		
                                                                                                                                                                                                                                                                               Deputy Inspector General for Policy and Oversight	   121
                                                                                                                                                                                                                                                                           	   Deputy Inspector General for Intelligence            124
                                                                                                                                                                                                                                                                           	   Office of Special Plans and Operations				           126

                                                                                                                                                                                                                                                                           lIST OF appendices                                       127
                         DoD IG Reporting Requirements


IG Act				                              Reporting Requirements			                                                   Page
References


Section 4 (a)(2)    ►“review existing and proposed legislation and regulations...make recommendations...”           N/A
Section 5 (a)(1)    ► “description of significant problems, abuses, and deficiencies...”                            57-83
Section 5 (a)(2)                                                                                                    57-83
                    ►“description of recommendations for corrective action...with respect to significant
                    problems, abuses, and deficiencies...”
Section 5 (a)(3)    ►“identification of each significant recommendation described in previous semiannual            116-
                    reports on which corrective action has not been completed...”                                   117
Section 5 (a)(4)    ►“a summary of matters referred to prosecutive authorities and the prosecution and              57-83
                    convictions which have resulted...”
Section 5 (a)(5)    ► “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...”        N/A
                    (instances where information requested was refused or not provided,)
Section 5 (a)(6)    ► “a listing, subdivided according to subject matter, of each audit report issued...” showing   127-
                    dollar value of questioned costs and recommendations that funds be put to better use.           141
Section 5 (a)(7)                                                                                                    57-83
                    ►“a summary of each particularly significant report...”
Section 5 (a)(8)                                                                                                    143
                    ►“statistical tables showing the total number of audit reports and the total dollar value of
                    questioned costs...”
Section 5 (a)(9)    ►“statistical tables showing the total number of audit reports and the dollar value of          143
                    recommendations that funds be put to better use by management...”
Section 5 (a)(10)   ►“a summary of each audit report issued before the commencement of the reporting period         143
                    for which no management decision has been made by the end of reporting period...”
Section 5 (a)(11)   ►“a description and explanation of the reasons for any significant revised management           N/A
                    decision...”
Section 5 (a)(12)   ► “information concerning any significant management decision with which the Inspector          N/A
                    General is in disagreement...”
Section 5 (a)(13)   ► “information described under Section 804 [sic] of the Federal Financial Management            N/A
                    Improvement Act of 1996...” (instances and reasons when an agency has not met target
                    dates established in a remediation plan)
Section 5 (b)(2)    ►“statistical tables showing the total number of audit reports and the dollar value of          144
                    disallowed costs...”
Section 5 (b)(3)    ►“statistical tables showing the total number of audit reports and the dollar value of          144
                    recommendations that funds be put to better use by management agreed to in a management
                    decision...”
Section 5 (b)(4)    ►“a statement with respect to audit reports on which management decisions have been             147-
                                                                                                                    192
                    made but final action has not been taken, other than audit reports on which a management
                    decision was made within the preceding year...”
Section 8 (f)(1)    ►“information concerning the number and types of contract audits...”                            145
Chapter 1:
Global War
on Terror
Department of Defense
  Inspector General
These are the people we work for....




    and they deserve the best!
Global War on
Terror Goals
      A look at the Global War on Terror goals of the
      Department of Defense Inspector General




The DoD IG is committed to supporting the GWOT and the needs of the men and women fighting this war. Overall,
the DoD IG is responsible for providing oversight to more than $800 billion in funds dedicated for the GWOT. The
responsibility of the DoD IG is to identify and help fix critical mission support problems that impact Operations
Enduring Freedom and Iraqi Freedom. The DoD IG has established the following goals:

Goal 1                                    Goal 2                                  Goal 3
________________________                  ________________________                ________________________
Increase the DoD IG presence in           Expand coverage of DoD GWOT-            Continue to actively support Joint
Southwest Asia to work on priority        related programs and operations by      Terrorism Task Forces, and increase
issues directly supporting efforts for    providing oversight in fundamental      efforts to prevent the illegal transfer
Operation Enduring Freedom and            areas such as contract surveillance,    of strategic technologies and U.S.
Operation Iraqi Freedom.                  financial management, accountability    Munitions List items to proscribed
                                          of resources, as well as training and   nations, terrorist organizations, and
                                          equipping of personnel.                 other criminal enterprises.

                                                                                                                       3
Department of Defense Inspector General
                    Goal 1: Increase DoD IG Presence

To accomplish its oversight mission, the DoD IG has adopted a strategy that is based on maintaining the right-size
presence in theater, but which also recognizes that much of our work can be done away from the war zones, ensuring
safety of personnel and saving the unnecessary monetary funds it would cost to send our people there. An important
part of our oversight effort is to improve inter-service and inter-agency coordination and collaboration to minimize
duplication of effort and ensure that we have only the staff needed in theater to accomplish the mission.

To provide a more effective and efficient oversight role, the DoD IG has established field offices in strategic Southwest
Asia locations and continues key placement of DoD IG personnel in Southwest Asia. This facilitates timely reviews and
reporting of results in theater and minimizes disruption to the warfighter. The DoD IG has adopted an expeditionary
workforce model to support efforts throughout all of Southwest Asia. The DoD IG has core staff forward deployed at all
times. The core contingent is comprised of individuals serving between 6 and 12 month deployments. Expeditionary
team members deploy for as long as needed to complete the review. The actual number of auditors, investigators, and
inspectors in Southwest Asia fluctuates depending on the requirements.



    Afghanistan



As additional resources for the Global War on Terror are needed in Afghanistan, the DoD IG must begin to relocate
its oversight capabilities to the rebuilding country. In addition to maintaining its current levels in Iraq, the DoD IG
                                                    is now expanding its operations in Afghanistan, which has placed
                                                    additional requirements on an already lean workforce.

                                                   To accomplish its mission and meet its requirements, the DoD IG
                                                   has adopted a strategy involving both permanent staff in-country
                                                   supplemented by visiting teams of auditors, agents and investigators
                                                   who serve in the area on a temporary basis as they focus on specific
                                                   tasks and issues. This is an important part of the DoD IG mission
                                                   as we attempt to stamp out instances of fraud, waste and abuse in an
                                                   increasingly heated conflict.

                                                 The DoD IG Afghanistan Field Office at Bagram Air Base was
Auditors obtaining viewpoint of a DoD            established in coordination with the Commander, Combined Joint
surgeon in Afghanistan.                          Task Force-82 and the U.S. Central Command. It is staffed by three
                                                 full time auditors, who, along with a six-member expeditionary
                                                 team are conducting several projects including audits on “The
Procurement and Use of Nontactical Vehicles at Bagram Air Field, Afghanistan” and “Management and Accountability
of Property Purchased at Regional Contracting Centers in Afghanistan.” In addition, the auditors in Afghanistan



4
                                                                                            Semiannual Report to Congress
issued a report regarding contingency construction contracting procedures implemented by the Joint Contracting
Command-Iraq/Afghanistan. Our auditors in Afghanistan are providing support to DoD IG teams based in the
continental United States looking at contractor issues within Southwest Asia.

Additionally, DCIS has established a full-time presence in Afghanistan. Two special agents are deployed to Afghanistan.
These agents work alongside partner agencies, such as the U.S. Army Criminal Investigation Command and the
Federal Bureau of Investigation to investigate fraud, waste, and abuse impacting theater operations.



       Iraq


In coordination with the Commanding General, Multi-National Force-Iraq and the U.S. Central Command, the
DoD IG established field offices in Iraq at Camp Victory and the International Zone. The Iraq offices are staffed
with up to five auditors at a time. Auditors from the Iraq offices recently performed a joint follow-up review with the
MNF-I Inspector General’s Office on the equipment status of forces in Iraq. In addition, the DoD IG has assigned
auditors in Iraq to provide the Defense Criminal Investigative Service support for ongoing criminal investigations
pertaining to contract fraud. The auditors in Iraq also provide support to DoD IG teams based in the continental
United States performing oversight related to Iraq such as the management of contractor issues within Southwest Asia
and the Army Reset program.

DCIS has established a permanent presence in Iraq. Two special agents are currently assigned to the International Zone
and one special agent is assigned to Camp Victory. At the end of September 2008, DCIS deployed one special agent to
the Balad Airbase. An additional special agent has been temporarily deployed to support a special cell investigating issues
relating to weapons accountability. These in-theater agents are the forward deployed elements of the approximately 85
DCIS special agents in CONUS and OCONUS participating in Southwest Asia investigations.


     Qatar


The DoD IG established a field office in Qatar collocated with U.S. Central Command Air Forces on Al Udeid Air Base,
Qatar. The Qatar office is our logistical support hub to facilitate our oversight staff deploying into and redeploying
from theater to conduct oversight efforts. The Qatar office staff facilitates and may augment other teams that require
temporary travel in theater to conduct specific reviews. Also, the personnel in Qatar are providing support to DoD IG
teams based in the continental United States looking at the management of contractor issues within Southwest Asia.


    Kuwait


The DoD IG field office in Kuwait is staffed by two DCIS special agents who are focused on contract fraud, corruption,
and other potential criminal activities in Kuwait that impact Southwest Asia efforts. These agents are collocated and
work jointly with special agents from the U.S. Army Criminal Investigation Command and the FBI.

                                                                                                                         5
Department of Defense Inspector General
                     Goal 2: Expand DoD IG Oversight

GWOT, especially operations in Southwest Asia, continues to be a top priority of the DoD IG and its five components
(Auditing, Investigations, Policy and Oversight, Intelligence, and Special Plans and Operations) have 224 ongoing
or completed projects; 71 in Auditing, 134 in Investigations, 9 in Policy and Oversight, 5 in Intelligence, and 5 in
Special Plans and Operations.

Those 224 projects provide oversight of various functions and activities such as contracts, readiness, logistics, funds
management, contract fraud, accountability, theft, corruption, and intelligence efforts. DoD IG has completed or is
conducting oversight efforts that cover approximately $102.8 billion related to DoD GWOT efforts.

To maintain a forward presence, the deployment and redeployment of our personnel will continue to be a critical issue
warranting additional management attention and efforts. We will adjust the number of deployed personnel according
to the:

• Warfighter’s ability to sustain the size of our presence
• Priority of work being performed
• Actual workload demands

         Audits               Investigations            Evaluations         Intelligence Reports      SPO Assessments
          71                      134                        9                       5                        5
                          In June 2008, the DoD IG, working with the Southwest Asia Joint Planning Group,
                          facilitated the compilation and issuance of the Comprehensive Audit Plan for Southwest
                          Asia. The comprehensive plan was developed in response to the FY 2008 National Defense
                          Authorization Act which required the Inspector General of the Department of Defense and
                          the Special Inspectors General for Iraq Reconstruction and Afghanistan Reconstruction to
                          develop comprehensive plans for a series of audits respective to their outlined areas of oversight
                          responsibilities in Iraq and Afghanistan (Public Law 110-181, Section 842, “Investigation
                          of Waste, Fraud, and Abuse in Wartime Contracts and Contracting Processes in Iraq and
                          Afghanistan”). The Comprehensive Audit Plan for Southwest Asia included the individual
                          audit plans of the Inspectors General of the Department of Defense, Department of State,
                          and the U.S. Agency for International Development; and the Special Inspector General for
Iraq Reconstruction. It also included the planned audit work of the Army Audit Agency, Air Force Audit Agency,
and Defense Contract Audit Agency because of the major contributions they make to improve the efficiency and
effectiveness of support to the military.

As of September 30, 2008, the DoD IG Joint Planning Group was facilitating a FY 2009 update to the Plan. This
update will include inputs from the same organizations as the FY 2008 plan and the Naval Audit Service. Future
updates to the Comprehensive Audit Plan for Southwest Asia will include the planned and ongoing efforts of the Special
Inspector General for Afghanistan Reconstruction which is now commencing operations. Additionally, future updates
to the plan will also include projects to address the requirements of the FY 2009 National Defense Authorization Act
(P.L. 110-417), Section 852, “Comprehensive Audit of Spare Parts Purchases and Depot Overhaul and Maintenance
of Equipment for Operations in Iraq and Afghanistan.” We will continue to coordinate updates to the plan through
the Southwest Asia Joint Planning Group and other existing working groups and councils.
6
                                                                                               Semiannual Report to Congress
                      Goal 3: JTTFs & Technology Protection

Joint Terrorism Task Forces
....................................................................................................................................................................................

The Defense Criminal Investigative Service continues to actively support Joint Terrorism Task Forces throughout the
country. DCIS currently staffs 43 JTTFs on a full-time or part-time basis. Additionally, a full-time DCIS representative
position is assigned to the National Joint Terrorism Task Force located at the National Counterterrorism Center.
DCIS JTTF agents are currently playing key roles in many terrorism investigations. Two recent examples follow:

A joint investigation was conducted by the Federal Bureau of Investigation and DCIS under the auspices of the Los
Angeles Joint Terrorism Task Force. The investigation was initiated based upon information provided by the Torrance
Police Department. The TPD notified the LAFO-JTTF that they had arrested two individuals, Levar Washington
and Gregory Patterson, in connection with a string of armed robberies. Washington and Patterson participated in the
armed robberies in order to purchase weapons and bomb making components, and were part of a domestic terrorist
cell, identified as Jam’iyyat Ul-Islam Is-Shaheen. JIS was formed when some of its members met in Folsom State
Prison. Search warrants executed at Washington’s and Patterson’s apartment uncovered plans to conduct a violent
jihad against the United States Government. Specifically, the plans were to attack various Department of Defense
facilities and personnel, including United States military recruiting stations, California National Guard installations,
and civilian targets. Further investigation disclosed that Washington and Patterson were leaders of the terrorist cell
that intended to commit these acts against the U.S. Government. As a result of this investigation, Washington pled
guilty to one count of Conspiracy to Levy War against the United States Government through Terrorism (18 USC
2384) and Conspiracy to Possess and Discharge Firearms in furtherance of Criminal Violence (18 USC 924) and
Patterson’s plea is under seal. On June 23, 2008, Washington was sentenced to 22 years imprisonment. On July 21,
2008, Patterson was sentenced to 151 months imprisonment.

On May 19, 2008, Al Maliki Nour, an Arabic linguist formerly employed by Titan National Security Solutions, a
division of Titan Corporation (a top 100 DoD Contractor), was sentenced to 121 months incarceration, and ordered
de-naturalized. In February 2007, Nour pled guilty to four counts of illegally possessing national defense documents.
Nour was a naturalized-U.S. citizen who resided in Brooklyn, NY and worked as an interpreter for an intelligence
unit of the U.S. Army’s 82nd Airborne Division. The investigation revealed that in his application for a top secret
clearance, Nour lied about his true identity. Nour also used a false identity to procure his U.S. citizenship. While
assigned to the 82nd Airborne, Nour downloaded a classified document and took hard copies of several other classified
documents. The documents detailed the 82nd Airborne’s mission in Iraq regarding insurgent activity, including the
coordinates of insurgent locations, as well as plans for protecting Sunni Iraqis traveling on a pilgrimage to Mecca. Nour
also photographed a classified battle map identifying troop routes used in August 2004 during the battle of Najaf,
where U.S. and Iraqi security forces sustained serious casualties. In September 2005, the NY JTTF recovered the
aforementioned classified documents during a search of the Nour’s Brooklyn apartment. This was a joint investigation
between DCIS, the FBI, and other law enforcement agencies.

Creation of the JTTFs involved a costly investment of personnel and equipment; however, they produce qualitative
results in the form of improvements to interagency coordination and cooperation, sharing of intelligence, and effecting
arrests and convictions in counterterrorism investigations. DCIS will continue to support JTTFs in an effort to reduce
the threat of terrorist acts against Department of Defense interests.

                                                                                                                                                                                  7
Department of Defense Inspector General
Technology Protection
....................................................................................................................................................................................

DCIS continues to take an active role in combating the growing national security threat posed by the illegal exports
of restricted U.S. military and dual-use technology to foreign nations and terrorist organizations. To this end, the U.S.
Attorney’s offices around the country have formed Counter-Proliferation Task Forces designed to enhance interagency
cooperation. Building upon this cooperative spirit, new task forces have opened up around the country and now total
15 and growing.

To augment these efforts, DCIS has teamed up with DoJ and spearheaded the formation of the Technology Protection
Enforcement Working Group. The TPEG, initially established in November 2007, is comprised of Technology
Protection decision makers from various agencies to include the Air Force Office of Special Investigations, Army
Military Intelligence, Department of Commerce, Office of Export Enforcement, FBI, and ICE. Meeting monthly,
this forum has developed into an invaluable network for sharing critical information among the participating agencies
investigating technology transfer violations.

Given the success of this group, the TPEG has reached out to other agencies with similar interests and invited them
to take part. Most recently, the Central Intelligence Agency has participated in this forum. Invitations to these and
other stakeholders ensure that all relevant enforcement agencies have a seat at the table. DCIS plays a crucial role in
this increasingly cooperative national effort to combat the illegal export of restricted U.S. technology.


                                      #08-828: Sixteen Foreign Nationals and Corporations Indicted on Cha...g Potential Military and Explosives Components to Iran (2008-09-17)




                                     FOR IMMEDIATE RELEASE                                                                                                           NSD
                                     Wednesday, September 17, 2008                                                                                         (202) 514-2007
                                     WWW.USDOJ.GOV                                                                                                     TDD (202) 514-1888

                                            Sixteen Foreign Nationals and Corporations Indicted on
                                              Charges of Illegally Exporting Potential Military and
                                                        Explosives Components to Iran

                                     MIAMI -- A federal grand jury in Miami, FL, has returned a Superseding Indictment charging
                                     eight individuals and eight corporations in connection with their participation in conspiracies to
                                     export U.S.-manufactured commodities to prohibited entities and to Iran. The defendants are
                                     named in a thirteen (13) count Indictment – returned on Sept. 11, 2008 and unsealed today --
                                     that includes charges of conspiracy, violations of the International Emergency Economic Powers
                                     Act and the United States Iran Embargo, and making false statements to federal agencies in
                                     connection with the export of thousands of U.S. goods to Iran.

                                     The charges were announced today by R. Alexander Acosta, U.S. Attorney for the Southern
                                     District of Florida; Patrick Rowan, Acting Assistant Attorney General for National Security, U.S.
                                     Department of Justice; Mario Mancuso, Under Secretary of Commerce for Industry and
                                     Security, U.S. Department of Commerce; Adam Szubin, Director, Department of the Treasury,
                                     Office of Foreign Assets Control (OFAC); Sharon Woods, Director, Defense Criminal
                                     Investigative Service (DCIS); and Julie L. Myers, Homeland Security Assistant Secretary for U.
                                     S. Immigration and Customs Enforcement (ICE).

                                     The Superseding Indictment alleges that the defendants purchased, and then illegally exported
                                     to ultimate buyers in Iran, numerous "dual use" commodities. "Dual-use" commodities are goods
                                     and technologies that have commercial application, but could also be used to further the military
8                                    or nuclear potential of other nations and could be detrimental to the foreign policy or national
                                     security of the United States. In this regard, the Superseding Indictment alleges that the      Semiannual                                   Report to Congress
                                     defendants caused the export of 120 field-programmable gate arrays, more than 5000
GWOT
Highlights
         A look at Department of Defense Inspector General
         efforts in the Global War on Terror




The worldwide campaign against terrorism is the top priority of the DoD IG. Meeting the challenges of combating
terror and upholding our commitment to support the warfighter will continue to place stress on budgetary, manpower,
and materiel resources for both the DoD IG and the Department.

Through FY 2008, Congress has appropriated more than $800 billion to DoD for the GWOT. Each dollar not
prudently spent results in a dollar unavailable for GWOT priorities.

This report highlights the following efforts made by the DoD IG during this reporting period to support the
GWOT:

•	 Quick Response Assessments			
•	 Review of Electrocutions			
•	 Congressional Testimony
                     Assessment Missions in Southwest Asia

The DoD IG established the Office of Special Plans and Operations in April, 2008, to augment the Global War on
Terror work currently being conducted by other agency components. SPO focuses on performing high-value, high-
visibility assessments for senior level decision-makers in the military commands, DoD and Congress which are related
to the Global War on Terror, especially in Southwest Asia.

This office performs assessment missions characterized by flexibly prioritized, time-sensitive national security issues.
These can be identified by the Secretary of Defense, Deputy Secretary of Defense, Chairman of the Joint Chiefs of
Staff, other members of senior DoD leadership, the Combatant Commanders, as well as members of Congress, or by
DoD IG/SPO itself. SPO teams focus on issues of critical importance to management with the objective of providing
actionable recommendations to address key problems and issues in “real time.”

Accountability of Iraq Security Forces Arms and Munitions
....................................................................................................................................................................................

As discussed in the previous Semiannual Report to Congress, the DoD IG organized an interagency team to perform
an assessment of the control and accountability of arms and ammunition in Iraq, in September and October 2007.
The results of that assessment and recommendations for corrective actions were published in the classified DoD IG
Report No. SPO-2008-001, “Assessment of the Accountability of Arms and Ammunition Provided to the Security
Forces of Iraq,” issued July 3, 2008.

Iraq Security Forces Arms and Munitions Accountability and Control
....................................................................................................................................................................................

The assessment team returned to Iraq from April - May 2008, to conduct a follow-up evaluation concerning the
accountability and control of arms, ammunition, and explosives; the responsiveness of U.S. Foreign Military Sales
processes supporting ISF; and the development of logistics sustainment capability for ISF. In addition, the evaluation
is addressing the status of the Iraqi military health care system and its sustainment base. The project is ongoing.

Afghan Security Forces Arms and Munitions Accountability and Control
....................................................................................................................................................................................

Before returning to Iraq, the assessment team visited Afghanistan in April 2008. Led by the Principal Deputy Inspector
General, the team assessed issues involving the accountability and control of arms, ammunition, and explosives; the
responsiveness of U.S. Foreign Military Sales processes supporting the Afghan National Security Forces; and the
development of logistics sustainment capability for ANSF. This includes the related issue of building the Afghan
military health care system and its sustainment base. The project is ongoing.




10
                                                                                                                                          Semiannual Report to Congress
DoD-Funded Programs Supporting the Government of Pakistan
....................................................................................................................................................................................

This classified project, requested by the Secretary of Defense, will provide a strategic and systemic assessment of certain
DoD-funded programs supporting the Government of Pakistan. The team deployed within 3 weeks of the request,
visiting organizations and individuals in the United States, U.S. Central Command, and U.S. Embassy- Pakistan who
are responsible for the management, operation, and oversight of these programs. The project is ongoing.

Accountability and Control of Night Vision Devices in Iraq
....................................................................................................................................................................................

This project, which is focused on DoD oversight of night vision devices provided to the Iraqi Security Forces, is in
its CONUS-based organizing and research phase prior to a planned deployment to Iraq scheduled for late October
2008.

Wounded Warrior Initiative
....................................................................................................................................................................................

A team has been organized to address issues concerning the DoD Wounded Warrior program. Its initial focus will be on
follow-up medical care for Traumatic Brain Injury and Post Traumatic Stress Syndrome, among other key matters.




                                                                                                                                                                                11
Department of Defense Inspector General
                                 Review of Electrocutions


                                                 In February 2008, the Pentagon requested that we review contracting
                                                 matters relating to the death of a U.S. Army staff sergeant who
                                                 was electrocuted while showering in his Iraqi-built quarters in the
                                                 Radwaniyah Palace Complex, Baghdad Iraq. The Pentagon request
                                                 responded to a letter from Representative Jason Altmire to the Secretary
                                                 of Defense alleging that the Defense Contracting Management Agency
                                                 and contractor officials knew of the electrical hazard but failed to take
                                                 corrective action. We announced a review of relevant management,
                                                 contracting, and maintenance actions prior and subsequent to the
                                                 incident.

Meeting with Multi-National Force - Iraq.
                                         Following additional inquiries from members of Congress during the July 30,
                                         2008, House Committee on Oversight and Government Reform hearing, we
                                         expanded the scope of the project to include reviews of the command actions
and investigation case files, and safety mishap investigations of eight additional electrocution deaths in Iraq caused by
improper grounding or other equipment problems.

As of September 2008, we are aware of 18 electrocution deaths in Iraq since 2003: 10 Army, 1 Navy, 5 Marine Corps,
and 2 contractors. For 9 of the 18 cases, the individual contacted power lines during operations. The remaining
nine cases are included in the expanded scope discussed above. The DoD IG team visited pertinent locations in Iraq,
reviewed over 75,000 documents, and interviewed over 35 witnesses.


                                  Congressional Testimony

The DoD IG is given the opportunity to provide information to Congress by participating in congressional hearings
and briefings. During this reporting period, the DoD IG has testified six times before Congress regarding the Global
War on Terror, specifically:

The Hon. Gordon S. Heddell, Acting Inspector General Department of Defense, testified on July 30, 2008, before the
House Oversight and Government Reform Committee on “Maintenance of Electrical Systems in Facilities Occupied
by Military and Contractor Personnel in Iraq.” Mr. Heddell was accompanied by Mr. Donald M. Horstman, Deputy
Inspector General for Policy and Oversight. Mr. Heddell detailed our ongoing efforts regarding the relationship
between electrocution deaths and the maintenance of electrical systems in facilities occupied by military, civilian, and
contractor personnel in Iraq.

The Hon.Gordon S. Heddell, Acting Inspector General of the Department of Defense, testified on July 23, 2008 before
the Senate Appropriations Committee on “The Effectiveness of U.S. Efforts to Combat Waste, Fraud, and Abuse in
Defense Department Contracts Supporting Activities in Iraq and Afghanistan.” Mr. Heddell was accompanied by Ms.

12
                                                                                             Semiannual Report to Congress
                                                                 Mary L. Ugone, Deputy Inspector General for Auditing.
                                                                 Mr. Heddell provided information to the Committee on
                                                                 DoD IG oversight efforts in Southwest Asia that include
                                                                 39 on-going Iraq-related audit projects and 124 on-
                                                                 going investigations. He also outlined recent initiatives
                                                                 to improve oversight efforts such as the “Comprehensive
                                                                 Audit Plan for Southwest Asia.” This document includes
                                                                 the audit plans of the DoD IG as well as those of other
                                                                 inspectors general and DoD audit agencies. The audits
                                                                 in the plan will help to identify abuses and defects in
                                                                 contracts, systems and processes.

Acting Inspector General Heddell and Deputy Inspector
General for Auditing Mary Ugone.

Ms. Mary L. Ugone, Deputy Inspector General for Auditing, testified on May 22, 2008, before the House of
Representatives Committee on Oversight and Government Reform. The Committee held the hearing to assess the
accountability of funds to support the Iraq War. Ms. Ugone responded to questions which focused on DoD IG Audit
Report No. D-2008-098 “Internal Controls Over Payments Made in Iraq, Kuwait and Egypt,” dated May 22, 2008,
and Audit Report No. D-2000-026, “Management of the Iraq Security Forces Fund in Southwest Asia - Phase III,”
dated November 30, 2007.

Mr. Charles W. Beardall, Deputy Inspector General for Investigations, testified on April 10, 2008, before the
National Security and Foreign Affairs Subcommittee of the House Oversight and Government Reform Committee on
“Investigations into the Sale of Sensitive, In-Demand Military Equipment and Supplies on the Internet.” Mr. Beardall
detailed the Inspector General’s efforts to stem the theft and sale of sensitive military equipment and supplies on the
Internet. He also testified that one of the Inspector General’s top investigative
priorities is the illegal sale and export of controlled Defense technologies and U.S.
Munitions List Items in violation of International Traffic in Arms Regulations.

Ms. Mary L. Ugone, Deputy Inspector General for Auditing, testified on April
10, 2008, before the Air and Land Forces Subcommittee of the House Armed
Services Committee on “Army Acquisition Programs and Strategy” during
which she addressed a recently released DoD IG audit titled “DoD Procurement
Policy for Body Armor.” The audit raised concerns about the adequacy of First
Article Testing of body armor components in 13 contracts and orders, based on
documentation reviewed.
                                                                             Deputy Inspector General for Auditing Mary Ugone
Mr. Thomas F. Gimble, Principal Deputy Inspector General, briefed
                                                                                                         testifies on body armor.
the Commission on Wartime Contracting on September 16, 2008,
regarding Inspector General efforts related to contracting and
contract oversight in Iraq and Afghanistan. Mr. Gimble provided the commission with an overview of our completed,
ongoing, and planned audit, evaluation, and investigative efforts. The briefing specifically focused on sharing with the
Commission information on suspensions and debarments, intergovernmental coordination, and general observations
and challenges related to contracting in Iraq and Afghanistan.

                                                                                                                              13
Department of Defense Inspector General
                                                        Inspector General

During this reporting period, the DoD IG increased its coverage of DoD GWOT-related
efforts. The scope of DoD IG oversight authority encompasses all DoD funded operations
and activities for the GWOT, which, as of September 30, 2008, amounts to approximately
$800 billion in appropriations. The DoD IG has 224 ongoing and completed GWOT
projects. Those 224 actions provide oversight and probe various functions and activities
such as readiness, principled governance, capacity building, contracts, logistics, contract
fraud, funds management, corruption, theft, and intelligence efforts.



                                                                            Audit

The DoD IG completed 12 GWOT-
related projects since April 1, 2008, and                              DoD IG FY 2008 GWOT Audit Projects
has 59 ongoing GWOT-related projects
as of September 30, 2008. The projects
address issues related to acquisition
and contracting, funds management,
readiness, logistics, and equipping the
warfighter. The magnitude of DoD IG
ongoing projects is about $88.1 billion
related to DoD GWOT efforts. As of
September 30, 2008, the DoD IG had
15 auditors assigned to the Southwest
Asia field offices.

In November 2007, we realigned
internal core mission assets to support
Southwest Asia audit field operations
by establishing an expeditionary audit
division comprised of about 30 people.
This expeditionary group is complemented by other U.S. based audit teams. During the reporting period, we had 332
personnel conducting audits related to GWOT and deployed over 100 personnel in theater in support of OIF/OEF.

Completed Audits
....................................................................................................................................................................................

The 12 completed GWOT-related projects have resulted in findings involving critical issues in readiness, logistics,
contract surveillance, and funds management. A brief overview of each audit follows:


14
                                                                                                                                          Semiannual Report to Congress
Construction Contracting Procedures Implemented by the Joint Contracting Command-Iraq/Afghanistan:
Regional Contracting Command Bagram contracting officials accepted construction projects at Bagram Air Field
that required extensive rework by KBR, formerly known as Kellogg Brown and Root, Inc., to be useable by U.S.
troops. Regional Contracting Command Bagram did not adhere to the Federal Acquisition Regulation guidance on
contract documentation and quality oversight requirements that would have prevented the substandard quality of the
construction projects. As a result, the U.S. Government incurred additional costs of at least $3.4 million to perform
additional work on newly constructed, refurbished, and remodeled buildings in Afghanistan. In addition, U.S. military
units and organizations experienced delays in receiving fully useable facilities throughout Afghanistan.

The 42 construction contract actions selected for review were either not available or had contract documentation
deficiencies. Regional Contracting Command Bagram was unable to locate 2 contract files, and the other 40 contract
files did not contain:
• quality assurance surveillance plans,
• contractor quality control plans, and
• contracting officers’ representative designation letters.

Regional Contracting Command Bagram did not follow required Federal Acquisition Regulation standards for
contracting procedures relating to:
• price reasonableness,
• quality assurance, and
• contract oversight.

Requiring Radio Frequency Identification in Contracts for Supplies: The Defense Logistics Agency made progress
implementing passive radio frequency identification in the DoD supply chain; however, additional work is needed. We
visited four Defense Logistics Agency distribution depots and judgmentally sampled shipments from various suppliers.
Based on our evaluation of contracts and on our sample, we found that contracting officers awarded 23 of 220 supply
contracts (10 percent) without the required radio frequency identification clause; suppliers for 84 of 197 contracts
(43 percent) with the required clause did not apply passive radio frequency identification tags to shipments they sent
to the depots; and Defense Logistics Agency is not apt to realize a near-term return on investment from passive radio
frequency identification.

Joint Follow-On Evaluation of the Equipment Status of Operation Iraqi Freedom Forces: We found that units
deploying to Iraq generally had the required equipment to conduct their missions. Units deployed with the equipment
listed on their Modified Table of Organization and Equipment, and they assumed possession of the appropriate
theater-provided equipment to accomplish their missions.

Payments for Transportation Using PowerTrack®: The DoD IG identified that the Military Surface Deployment
and Distribution Command did not maintain adequate control over ocean freight payments made using PowerTrack.
We statistically sampled 171 of the 6,812 high-risk ocean freight transactions made through the “non-direct” and
“direct” booking processes and found control problems with 132 of the transactions tested.

Based on a sample of high-risk “non direct” booking transactions, we statistically projected that 1,315 (23.4 percent),
totaling $14.1 million, were duplicate payments and another 3,387 (60.3 percent), totaling $19 million, were at
risk for potential fraudulent duplicate payments. If Surface Deployment and Distribution Command took action to
recoup duplicate payments not yet refunded, DoD may realize potential monetary benefits of $5.2 million. Of the

                                                                                                                    15
Department of Defense Inspector General
30 high-risk “direct” booking transactions tested, 9 transactions were vulnerable for duplicate payments. We did not
project the direct booking test results to the population of high-risk direct booking transactions because of the small
sample of transactions tested.

Security Over Radio Frequency Identification: The results are For Official Use Only.

Internal Controls over Navy, General Fund, Cash and Other Monetary Assets Held Outside the Continental
United States: The DoD IG identified that the Department of the Navy lacked effective internal controls over cash
and other monetary assets held outside of the continental United States in several areas. Specific issues found include
standard operating procedures which inappropriately instructed accountants to classify the total amount of disbursing
officer accountability as Cash and Other Monetary Assets for financial statement reporting purposes. In addition, the
Department of the Navy did not consistently apply internal controls over disbursing appointments, operational cash,
physical cash and other monetary assets security, Limited Depository Account reconciliations, and unannounced cash
verifications. Also, the Naval Support Activity-Bahrain paid more than $93,000 in excess exchange costs because the
disbursing officer did not solicit financial institutions for the most beneficial exchange rate. Further, the Personnel
Support Detachment-Naples provided check-cashing and Euro-conversion services that duplicated services offered by
on-base banks.

Status of Training Vehicles for U.S. Ground Forces Deploying in Support of Operation Iraqi Freedom: The DoD
                                            IG identified that competing requirements for equipment in theater as
                                            well as units being reset for redeployment have created challenges for
                                            Combat Training Centers. The National Training Center and the Joint
                                            Readiness Training Center have encountered challenges in obtaining
                                            theater-specific equipment such as High Mobility Multipurpose
                                            Wheeled Vehicles for training. Despite these challenges, the Combat
                                            Training Centers have maintained equipment and have taken additional
                                            steps to make substitutions or have units bring their own equipment
                                            from home stations to ensure that levels of equipment were sufficient
                                            for training.

                                                      The Army has recognized issues with outdated equipment, and it has
                                                      taken steps to modernize the prepositioned fleet of High Mobility
 The heavily-armored Buffalo is designed for route
 clearance, giving patrols a closer look at suspected Multipurpose Wheeled Vehicles at the National Training Center and
 improvised explosive devices.                        Joint Readiness Training Center. The Army completed modernization
                                                      of the prepositioned fleet at the National Training Center in April 2008.
To ensure the most realistic and effective training for units deploying in support of Operation Iraqi Freedom, the Army
must complete the modernization of the prepositioned fleet at the Joint Readiness Training Center as it has done at
the National Training Center.

Defense Hotline Allegations Concerning Contracts Issued by U.S. Army TACOM Life Cycle Management
Command to BAE Systems Land and Armaments, Ground Systems Division: The DoD IG substantiated 3 and
partially substantiated 3 of the 11 allegations. TACOM Life Cycle Management Command and Defense Contract
Management Agency contracting officials constrained the Defense Contract Audit Agency’s ability to perform
effective and meaningful audits in support of contracts awarded to BAE Systems Land and Armaments, Ground
Systems Division. Specifically, contracting officials did not include the Defense Contract Audit Agency in the Alpha

16
                                                                                                 Semiannual Report to Congress
contracting process for the FY 2005 Bradley vehicle procurement to ensure the Defense Contract Audit Agency could
perform an effective review of material costs. Additionally, contracting officials did not require BAE Systems Land
and Armaments, Ground Systems Division forward pricing rate agreement proposals to be current, accurate, and
complete, as required by the Federal Acquisition Regulation. As a result, TACOM Life Cycle Management Command
contracting officials may have overpriced firm-fixed-price contracts awarded to BAE Systems Land and Armaments,
Ground Systems Division.

Internal Controls Over Payments Made in Iraq, Kuwait, and Egypt: The objective was to determine whether
internal controls over payments made in Iraq, Kuwait, and Egypt supporting the Global War on Terror provided
reasonable assurance that payments were properly supported and recorded.

The internal controls over commercial payments made by seven Army contingency disbursing stations were inadequate
for commercial payment support. This occurred because Army finance personnel did not ensure that payment voucher
documentation was available and complete, and finance personnel were not adequately trained. In addition, Army
and DFAS internal control responsibilities for commercial payments in contingency operations needed to be clearly
defined. As a result, we estimated that the Army made $1.4 billion in commercial payments that lacked the minimum
documentation for a valid payment, such as properly prepared receiving reports, invoices, and certified vouchers. We
also estimated that the Army made an additional $6.3 billion of commercial payments that met the 27 criteria for
payment but did not comply with other statutory and regulatory requirements. These other requirements included
taxpayer identification numbers, contact information, and payment terms.

In addition, the DoD 7000.14-R, DoD Financial Management Regulation and Defense Federal Acquisition Regulation
Supplement did not contain guidance addressing procedures to be used in a military contingency environment. The
Office of Management and Budget allowed the DoD discretion in establishing the scope of contingency operations
in 5 Code of Federal Regulations 1315 when applying the Prompt Payment Act. However, DoD has not established
procedures addressing contingency operations. In addition, DoD needs to obtain clarification on the intent of the
Office of Management and Budget regulation. As a result, DoD personnel relied upon the requirements of the DoD
7000.14-R, DoD Financial Management Regulation and Defense Federal Acquisition Regulation Supplement for
making and processing commercial payments in Iraq and Kuwait.

Also, DoD did not ensure that $1.8 billion of seized and vested assets payments made to Iraqi representatives
were adequately accounted for and auditable, as prescribed by Executive Order 13290. In addition, DoD did not
maintain a complete audit trail for $134.8 million in Commander’s Emergency Response Program payments made to
representatives of foreign governments. DoD did not have policies in place to ensure that finance personnel obtained
and maintained documentation supporting the justification and use of seized and vested asset payments; and finance
personnel properly supported and reconciled the payment of Commander’s Emergency Response Program funds to
Coalition Partners. As a result, DoD was unable to provide reasonable assurance that the seized and vested asset funds
were accounted for as prescribed and that Commander’s Emergency Response Program funds provided to Coalition
Partners were used for the purposes intended.

Further, the U.S. Army Corps of Engineers Finance Center has been unsuccessful in its attempts to resolve the $5.7
million of advanced Iraqi seized and vested asset funds. The Corps Finance Center did not contact the Office of the
Under Secretary of Defense (Comptroller) to obtain direction on the disposition of the funds. As a result, the Corps
has not made these funds available to pay for Iraqi debts with the U.S. Government.


                                                                                                                   17
Department of Defense Inspector General
Planning Armor Requirements for the Family of Medium Tactical Vehicles: The Army used the operational needs
statement process effectively to identify, validate, and fund theater commander armor kit urgent needs to support the
Global War on Terror because the Army had not completed establishing armor kit requirements through the Joint
Capabilities Integration and Development System process. Army Training and Doctrine Command personnel began
the Joint Capabilities Integration and Development System process in May 2005. However, because they had not
completed the process, the Army was not able to immediately distribute armor kits to support the increase in the
number of troops in January 2007. Further, because they had not completed the process, Army Force Management
Support Agency staff did not add armor kit requirements to the basis-of-issue plan and table of organization and
equipment for the Family of Medium Tactical Vehicles. Therefore, the Army needs to expedite the completion and
approval of the capability documents for the Family of Medium Tactical Vehicles, add armor requirements to the
basis-of-issue plan, and table of organization and equipment for Family of Medium Tactical Vehicles, and complete
an analysis for future distribution of armor kits to enable the Army to fill future warfighter requirements in a more
timely fashion.

Summary of Challenges Impacting Operations Iraqi Freedom and Enduring Freedom Reported by Major
Oversight Organizations Beginning FY 2003 through FY 2007: DoD IG reviewed 302 Operations Enduring and
Iraqi Freedom related reports and identified that over the course of conducting Operations Enduring and Iraqi Freedom,
                             DoD experienced, at times, significant and recurring challenges in the following functional
                             areas: Contract Management, Contract Oversight, Resource Limitations; Logistics, Asset
                             Accountability, Visibility, and Equipping the Force; Financial Management, Accuracy of
                             Cost Reporting, and Accountability. Further, there were challenges that were common in
                             more than one of the functional areas. Specifically, shortfalls in DoD training as well as in
                             policy and procedures were challenges in more than one functional area.

                               DoD took action to resolve Operations Enduring and Iraqi Freedom contract management,
                               logistics, and financial management, and other challenges reported by the oversight
                               organizations. From FY 2003 through FY 2007, the Defense oversight community
                               and Government Accountability Office issued 983 recommendations to improve DoD
                               operations in Operations Enduring and Iraqi Freedom and most of the recommendations,
                               as of September 30, 2007, have been resolved. The DoD IG also identified various
initiatives DoD has underway to address the challenges that it faces for Operations Enduring Freedom and Iraqi
Freedom such as increased oversight and accountability over deployed contractors, establishing an Executive Director
to provide program management support over contractor logistical support, and deployed financial support teams in
theater to assist the theater Commanders.

Training Requirements for U.S. Ground Forces Deploying in Support of Operation Iraqi Freedom: This is the
second in a series of reports addressing training requirements for ground forces supporting Operation Iraqi Freedom.
The DoD IG identified that U.S. Central Command requires that all personnel deploying in support of Operation
Iraqi Freedom be trained in 14 areas, including the defeat of improvised explosive devices, land navigation, and rules
of engagement. The services incorporated the 14 theater-specific training areas into their pre-deployment and annual
training requirements. In addition, the services effectively used a variety of means, such as lessons learned and input
from units, to update pre-deployment training exercises. As a result, the services provided realistic, theater inspired
training for units deploying in support of Operation Iraqi Freedom.




18
                                                                                             Semiannual Report to Congress
Ongoing Audits
....................................................................................................................................................................................

DoD IG audit oversight is focused in several fundamental areas—accountability, funds management, contract surveil-
lance, as well as train and equip personnel. The 59 ongoing GWOT-related projects address critical readiness issues
that directly impact the warfighter, such as the procurement of mine resistant ambush protected vehicles, combat
search and rescue helicopters, management of recovery and reset programs, and issuance and administration of con-
tractor common access cards. The DoD IG is also focused on deferred maintenance of major assets used in Iraq and
Afghanistan as well as contract-related matters supporting the DoD efforts in Iraq and Afghanistan.

The ongoing projects include audits initiated at the request of Congress or management, such as concerns with ar-
mor capabilities provided to the DoD and the Marine Corps implementation of the urgent universal need statement
process for the Mine Resistant Ambush Protected vehicles. In addition, the DoD IG works with the military service
audit agencies to leverage audit efforts and to ensure that projects are coordinated to avoid duplication and minimize
impact to command operations.

Other ongoing projects include reviewing armoring capabilities within DoD; assessing how threats to assets in South-
west Asia were addressed in the acquisition processes; reviewing requirements, training, and certifications for acquisi-
tion oversight workforce in Southwest Asia; health care related matters such as health care provided to contractors in
Southwest Asia and the acquisition of medical equipment used to sustain medical operations in Southwest Asia. In
addition, DoD IG is reviewing various contracting issues such as the justifications in of award fees to contractors, con-
trols over contractor common access cards, and sexual harassment prevention training to contractors. Also, the DoD
IG is updating its summary report on challenges impacting DoD operations in OIF/OEF.


 Audit Title                                     Audit Description
 Army Acquisition Actions                        The DoD IG is determining whether the Army effectively managed efforts to develop,
 in Response to the Threat                       test, and acquire armor solutions for light tactical wheeled vehicles. These solutions
 to Light Tactical Wheeled                       are needed in response to the threat to High Mobility Multi-Purpose Wheeled Vehicle
 Vehicles                                        variants and use in developing the next-generation vehicle for the Global War on
                                                 Terror. In addition, we will determine whether DoD exercised adequate operational
                                                 test and live fire test oversight of the Army’s High Mobility Multi-Purpose Wheeled
                                                 Vehicle program.
 Using System Threat                             The DoD IG is determining whether the Army and Marine Corps program offices
 Assessments in the                              have obtained updated system threat assessments for acquisitions of selected tactical
 Acquisition of Tactical                         wheeled vehicles in support of the Global War on Terror. Specifically, we will
 Wheeled Vehicles                                determine whether the Army and Marine Corps updated program documentation
                                                 for selected tactical wheeled vehicles, including system capability documents, test
                                                 plans, and contract statements of work, in response to the threats identified in current
                                                 system threat assessments.
 Defense Contract                                The DoD IG is determining Defense Contract Management Agency requirements
 Management Agency                               to support Southwest Asia contracting operations and the number of available
 Acquisition Workforce for                       Defense Contract Management Agency civilian, military, foreign national, and
 Southwest Asia                                  support contractors supporting such operations. We will also evaluate whether the
                                                 Defense Contract Management Agency Acquisition workforce for Southwest Asia is
                                                 adequately trained and certified.
                                                                                                                                                                                19
Department of Defense Inspector General
Audit Title                     Audit Description
Ground Standoff Mine            The DoD IG is determining whether the Ground Standoff Mine Detection System
Detection System Contract       contract requirements were developed, awarded, and managed in accordance with
                                federal and Defense regulations.
Medical/Surgical Prime          The DoD IG is determining whether terms and conditions for the Medical/Surgical
Vendor Contracts                Prime Vendor contracts were adequately developed and the administration of the
Supporting Coalition Forces     contracts and delivery orders was effective.
in Iraq and Afghanistan
Department of the Army          The DoD IG is determining the extent and
Deferred Maintenance on         causes of deferred maintenance on the Army
the Bradley Fighting Vehicle    Bradley Fighting Vehicle used in the Global
as a Result of the Global War   War on Terror. We will also evaluate compliance
on Terror                       with applicable laws and regulations as they relate
                                to the audit objective.
Management and                  The objective of the audit is to evaluate the management and accountability of
Accountability of Property      property purchased through the regional Contracting Centers in Bagram Air Field,
Purchased at Regional           Afghanistan. Specifically, we will determine whether accountable property is properly
Contracting Centers in          recorded in the Theater Property Book Office at Bagram Air Field, Afghanistan.
Afghanistan
Update – Summary Report      The overall objective is to prepare a summary of contracts, funds management, and
on Challenges Impacting      other accountability issues identified in audit reports and testimonies that discuss
Operations Iraqi Freedom     mission critical support to Operations Iraqi Freedom and Enduring Freedom from
and Enduring Freedom         FY 2003 through FY 2008. Our first summary report, D-2008-086, focused on
Reported by Major            reports and testimonies issued from FY 2003 through FY 2007. We will update the
Oversight Organizations      information from the prior summary report, Report No. D-2008-086, to include the
Beginning FY 2003 through    status of recommendations made in all FY 2003 through FY 2007 reports regarding
FY 2008                      Operations Iraqi Freedom and Enduring Freedom. In addition, we will include
                             finding and recommendation information for FY 2008 audit reports and determine
                             the trends indicated by that information.
Information Assurance        The DoD IG is assessing the integrity, confidentiality, and availability of the Outside
Controls Over the Outside    the Continental United States Navy Enterprise Network as it relates to the Global
the Continental United       War on Terror. Specifically, we will determine whether the controls over Outside
States Navy Enterprise       the Continental United States Navy Enterprise Network have been implemented
Network as related to the    and are operating effectively as prescribed by DoD Instruction 8500.2, “Information
Global War on Terror         Assurance Implementation,” February 6, 2003.
Central Issue Facilities     The DoD IG is determining whether central issue facilities are providing the required
                             clothing and equipment to deploying personnel, and whether those personnel are
                             returning the clothing and equipment when their deployments are complete.
Transition Planning for the The DoD IG is determining whether the Army properly planned for the transition
Logistics Civil Augmentation from the Logistics Civil Augmentation Program III contract to the Logistics Civil
Program IV Contract          Augmentation Program IV contract.




20
                                                                                          Semiannual Report to Congress
 Audit Title                      Audit Description
 DoD Testing Requirements    The DoD IG is performing this audit in response to a Congressional request. We are
 for Body Armor              evaluating ballistic testing requirements for body armor components. Specifically, we
                             will review whether test criteria for contract number W91CRB-04-D-0040 were in
                             accordance with applicable standards. In addition, we will review First Article Test
                             criteria for other contracts reviewed as part of DoD IG Audit Report No. D-2008-
                             067 “DoD Procurement Policy for Body Armor,” March 31, 2008. This audit will
                             be performed in coordination with DoD OIG Audit Project No. D2008-D000CD-
                             0256.000, “Research on DoD Body Armor Contracts.”
 Research on DoD Body        The DoD IG is performing this project as a result of a congressional request. We
 Armor Contracts             are examining the contracts and contracting process for body armor and related test
                             facilities. Specific objectives will include evaluating the background and qualifications
                             of the contractors, the criteria for awarding the contracts, the quality assurance
                             process, and any relationships that may exist between the contractors and government
                             officials.
 Potable and Non-Potable     The DoD IG is performing this audit in response to a congressional request. The
 Water in Iraq Update        objective is to determine whether the current processes for providing safe potable
                             and non-potable water to U.S. forces in Iraq are adequate. We are also reviewing the
                             implementation of recommendations made during our previous audit on potable and
                             non-potable water (Report No. D-2008-060).
 Department of the Air Force The DoD IG is determining whether the Department of the Air Force military payroll
 Military Pay in Support of  disbursed in support of the Global War on Terror is paid in accordance with established
 the Global War on Terror    laws and regulations. Specifically, we will review DoD military pay disbursements to
                             determine whether U.S. Air Force military personnel on Active Duty status are paid
                             accurately and timely.
 Contracts Supporting        The DoD IG is determining whether contracts supporting the DoD counter
 the DoD Counter             narcoterrorism program were properly managed and administered. Specifically, we
 Narcoterrorism Program      will determine whether the contracts complied with federal and DoD policy.
 Army’s Use of Award Fees on The DoD IG is determining whether Army award fees paid to contractors in support
 Contracts That Support the of the Global War on Terror are justified. Specifically, we will review the procedures
 Global War on Terror        for awarding the fees and proper allocation of award fees on the contracts.
 Rapid Acquisition and       The DoD IG is evaluating the overall management of the Navy’s processes for rapidly
 Fielding of Materiel        acquiring and fielding materiel solutions to meet urgent needs in support of the
 Solutions Within the Navy   Global War on Terror and to ensure safe operation of naval forces. Specifically, we will
                             evaluate the effectiveness of Navy procedures for identifying and validating urgent
                             capability needs, contracting for and acquiring materiel solutions to meet those
                             needs, and complying with DoD requirements and acquisition policies once materiel
                             solutions are fielded.
 Logistics Support for       The DoD IG is determining whether contracts providing logistics support to the U.S.
 the United States Special   Special Operations Forces were properly managed and administered. Specifically, we
 Operations Command          will determine whether logistics contracts are consistent with federal, DoD, and
                             Special Operations acquisition contracting policy.



                                                                                                                    21
Department of Defense Inspector General
Audit Title                     Audit Description
Equipment Repair and            The DoD IG is determining whether equipment repair and maintenance contracts for
Maintenance Contracts           aircraft and aircraft components supporting coalition forces in Iraq and Afghanistan
for Aircraft and Aircraft       are effective.
Components Supporting
Coalition Forces in Iraq and
Afghanistan
Health Care Provided by         The DoD IG is determining whether contract terms for health care provided by
Military Treatment Facilities   military treatment facilities to contractors in Southwest Asia are adequately addressed
to Contractors in Southwest     and whether controls for billing and collecting payment from contractors for health
Asia                            care provided by military treatment facilities in Southwest Asia are adequate.
Selection of Modes for                                     The DoD IG is determining whether contracts for the
Transporting Materiel in                                    transportation of materiel in support of operations in Iraq
Support of Operations in                                    and Afghanistan were effective.
Iraq and Afghanistan

Contracting for Purchased       The DoD IG is determining whether contracting for
and Leased Nontactical          nontactical vehicles in support of Operation Iraqi Freedom
Vehicles in Support of          and Operation Enduring Freedom was effective.
Operation Iraqi Freedom
and Operation Enduring
Freedom
The U.S. Air Force Deferred     The DoD IG is determining the extent and causes of deferred maintenance on the
Maintenance on the C-130        Air Force C-130 Aircraft used in the Global War on Terror. We will also evaluate
Aircraft as a Result of the     compliance with applicable laws and regulations as they relate to the audit objective.
Global War on Terror
The Army Procurements for  The DoD IG is determining whether the U.S. Army TACOM Life Cycle Management
the High Mobility Multi-   Command is paying fair and reasonable prices for the High Mobility Multi-Purpose
Purpose Wheeled Vehicles   Wheeled Vehicles and associated up-armor procured from AM General, LLC.
DoD and DoD Contractor     The DoD IG is performing this audit as a result of a congressional inquiry. The
Efforts to Prevent Sexual  DoD IG is reviewing whether contracts that support Operations Enduring Freedom
Assault/Harassment         and Iraqi Freedom Areas of Operation contain clauses that adequately address DoD
Involving Contractor       policies regarding sexual assault/harassment of and by contractor personnel. We will
Employees Within           also determine whether either DoD or DoD contractors, or both, provided sexual
Operations Enduring        assault/harassment awareness, prevention, and reporting training to DoD and
Freedom and Iraqi Freedom  contractor employees prior to their deployment to Operations Enduring Freedom and
Areas of Operation         Iraqi Freedom Areas of Operation. This project is being performed in coordination
                           with the DoD IG project “Evaluation of DoD Sexual Assault Response in Operations
                           Enduring and Iraqi Freedom Areas of Operation.”
Controls Over Unliquidated The DoD IG is determining whether the Department of the Air Force has established
Obligations on Department adequate controls over its unliquidated obligations on contracts supporting the Global
of the Air Force Contracts War on Terror. Specifically, we will determine whether unliquidated obligations are
Supporting the Global War being properly accounted for and deobligated in a timely manner.
on Terror

22
                                                                                           Semiannual Report to Congress
 Audit Title                      Audit Description
 Department of the Army           The DoD IG is determining the extent and causes of
 Deferred Maintenance on          deferred maintenance on the Army Abrams tanks that
 the Abrams Tank Fleet as a       were used in the Global War on Terror. This effort also
 Result of the Global War on       includes evaluating compliance with applicable laws
 Terror                           and regulations as they relate to the audit objective.

 Contracts for Spare Parts     As a result of our initial research, the DoD IG reannounced the Audit of Defense
 for Vehicle-mounted Small     Logistics Agency Contracts for Combat Vehicle Parts in Support of the Global War on
 Arms in Support of the        Terror, May 20, 2008, to specify a more detailed focus area. The new audit, “Contracts
 Global War on Terror          for Spare Parts for Vehicle-mounted Small Arms in Support of the Global War on
                               Terror,” announced August 14, 2008, is determining whether DoD organizations
                               used appropriate and effective contracting procedures to provide customers with
                               the vehicle-mounted small arms spare parts needed to support the Global War on
                               Terror.
 Controls Over the             The DoD IG is determining whether the Department of the Navy is disbursing military
 Department of the Navy        payroll in support of the Global War on Terror in accordance with established laws
 Military Payroll Disbursed in and regulations. Specifically, the DoD IG will determine whether the Department
 Support of the Global War     of the Navy maintains adequate support for payments related to deployments to an
 on Terror                     active combat zone.
 Assignment and Training       The DoD IG is determining whether personnel assigned as Contracting Officer’s
 of Contracting Officer’s      Representatives to the Joint Contracting Command-Iraq/Afghanistan have proper
 Representatives at Joint      training and expertise to perform their duties.
 Contracting Command-
 Iraq/Afghanistan
 Air Force Contract            The DoD IG is evaluating controls over the Air Force Contract Augmentation
 Augmentation Program in       Program. We will determine what contracts have been awarded, whether contracts
 Southwest Asia                were properly awarded, whether contracted services were provided in accordance
                               with the statement of work and whether contract payments were appropriate.
 Organic Ship Utilization in The DoD IG is evaluating the effectiveness of policies and procedures used to ensure
 Support of the Global War     that activated Government-owned and Government-chartered vessels are used to the
 on Terror                     maximum extent prior to procuring commercial transportation to Southwest Asia.
 Acquisition of Ballistic      The audit is the result of an audit suggestion filed with the Office of the Deputy
 Glass for the High-Mobility Inspector General for Audit. The DoD IG is determining whether the award and
 Multipurpose Wheeled          administration of the High-Mobility Multipurpose Wheeled Vehicle ballistic glass
 Vehicle                       contracts comply with the Federal Acquisition Regulation.
 Class III Fuel Procurement    The DoD IG is determining whether fuel used for ground
 and Distribution in           operations in Southwest Asia to support Operations Iraqi
 Southwest Asia                Freedom and Enduring Freedom is procured and
                               distributed efficiently and effectively. We will determine
                               whether fuel is procured at fair and reasonable prices,
                               whether fuel is distributed economically and efficiently to
                               operational commands, and whether fuel supply points
                               maintain accurate inventories.

                                                                                                                   23
Department of Defense Inspector General
Audit Title                   Audit Description
Survey of Kellogg Brown       The DoD IG is surveying the full extent of Kellogg Brown and Root Services logistics
and Root Services Logistics   efforts and associated DoD costs in support of Contingency Operations.
Support for Contingency
Operations
Marine Corps                 The audit was requested by the Assistant Commandant of the Marine Corps in
Implementation of the        response to allegations of mismanagement regarding the identification and fulfillment
Urgent Universal Need        of a requirement for Mine Resistant Ambush Protected vehicles. The DoD IG is
Statement Process for Mine   reviewing whether the Marine Corps division making process responded appropriately
Resistant Ambush Protected   and timely to Urgent Universal Need Statements submitted by field commanders for
Vehicles                     Mine Resistant Ambush Protected vehicles.
War Reserve Materiel         The DoD IG is determining whether Air Force contracting officials managed and
Contract                     administered the DynCorp International War Reserve Materiel contract in accordance
                             with federal and DoD contracting policies.
Internal Controls over Army, The DoD IG is reviewing whether internal controls for Army, General Fund, Cash
General Fund, Cash and       and Other Monetary Assets held in Southwest Asia are effectively designed and are
Other Monetary Assets Held operating to adequately safeguard, account, document, and report cash and other
in Southwest Asia            monetary assets. The DoD IG originally planned to include Southwest Asia aspects of
                             the announced objectives in Project D2007-D000FP-0122.000, “Internal Controls
                             over Army, General Fund, Cash and Other Monetary Assets Held Outside of the
                             United States,” however the Southwest Asia portion of that project was deferred due
                             to the IG Munitions Assessment in the Area of Responsibility.
Air Force Combat Search      The DoD IG is determining whether changes to Combat Search and Rescue Helicopter
and Rescue Helicopter        Key Performance Parameters were made in accordance with applicable DoD and Air
                             Force acquisition guidelines. Specifically, the DoD IG will determine whether Key
                             Performance Parameters changes were properly designated and appropriately vetted
                             through the Joint Requirements Oversight Council. In addition, we will determine
                             whether Key Performance Parameters changes will affect Air Force special operations
                             capabilities in the Global War on Terror.
Price Reasonableness for     The audit is part of the overall oversight of contracting in support of the Global
Contracts at U.S. Special    War on Terror. The audit objective is to determine whether pricing of contracts at
Operations Command           U.S. Special Operations Command complied with Federal Acquisition Regulation
                             requirements for determining price reasonableness.
Controls Over the            The overall objective of this audit is to determine whether controls over Common
Contractor Common            Access Cards provided to contractors are in place and work as intended. Specifically,
Access Card Life Cycle in    we will determine whether DoD officials verify the continued need for contractors
Southwest Asia               to possess Common Access Cards, revoke or recover Common Access Cards from
                             contractors in accordance with DoD policies and procedures, and ensure the proper
                             use of the Common Access Card by contractors.
Controls Over the Reporting The objective is to evaluate the effectiveness of controls over the reporting of
of Transportation Costs in   transportation costs related to Global War on Terror. For FY 2007, DoD reported
Support of the Global War    cumulative obligations of about $8.7 billion for transportation services in support of
on Terror                    Global War on Terror, which included the Army’s reported obligations of about $5.2
                             billion.

24
                                                                                        Semiannual Report to Congress
 Audit Title                          Audit Description
 Defense Emergency                    As part of its overall Global War on Terror effort, the DoD IG is reviewing whether
 Response Fund for the                the Defense Emergency Response Fund is used as intended, and whether the use of
 Global War on Terror                 the funds complies with the Office of Management and Budget guidance. The DoD
                                      IG will also determine whether DoD has the ability to track the use of the Defense
                                      Emergency Response Fund.
 Afghanistan Security Forces          The DoD IG is conducting the third phase of a multiphase audit in response to
 Fund - Phase III                     Public Law 109-234, which directed the Inspector General to provide oversight of
                                      Afghanistan Security Forces. We plan to issue a series of reports within this project.
                                      The objective is to determine whether organizations in Southwest Asia that the U.S.
                                      Central Command assigned with the responsibility for managing the Afghanistan
                                      Security Forces Fund properly accounted for the goods and services purchased for
                                      the Afghanistan Security Forces using the Afghanistan Security Forces Funds and
                                      whether the goods and services were properly delivered to the Afghanistan Security
                                      Forces.
 Medical Equipment Used               The DoD IG is evaluating the internal controls over medical equipment used to
 to Support Operations in             support operations in Southwest Asia. Specifically, we will determine whether
 Southwest Asia                       controls are in place for acquiring mission-essential medical equipment and whether
                                      the recording and reporting of medical equipment are accurate and complete. The
                                      audit will focus on the inventory of initially deployed medical equipment and the
                                      mission essentiality and acquisition of medical equipment needed to sustain current
                                      medical operations. We will determine if medical equipment purchases were justified
                                      and whether medical equipment has been properly reported and recorded in asset
                                      accountability data bases. This project is being performed in support of Operation
                                      Enduring Freedom (Afghanistan) and Operation Iraqi Freedom.




DoD IG auditors performing property accountability for
medical assets in Southwest Asia.

                                                                                                                          25
Department of Defense Inspector General
Audit Title                    Audit Description
Expeditionary Fire Support    The objective is to determine whether contract competition and program administration
System and Internally         for the United States Marine Corps Expeditionary Fire Support System and Internally
Transportable Vehicle         Transportable Vehicle are in accordance with the Federal Acquisition Regulation and
Programs                      supporting DoD guidance.
Procurement and use           The DoD IG is determining the effectiveness of the process for procuring and leasing
of Nontactical Vehicles       nontactical vehicles at Bagram Air Field, Afghanistan. We will also review the cost of
at Bagram Air Field,          operating and maintaining nontactical vehicles and determine whether the amount
Afghanistan                   of use complies with DoD guidance. The audit will support Operation Enduring
                              Freedom (Afghanistan) and will be limited to nontactical vehicles procured and
                              leased by the Defense Contract Management Agency through the Logistics Civil
                              Augmentation Program III contract and the Joint Contracting Command-Iraq/
                              Afghanistan.
Small Arms Ammunition         The DoD IG is examining whether the Military Departments properly managed
Fund Management in            small arms ammunition funds in support of the Global War on Terror. Specifically, we
Support of the Global War     will determine whether financial management officials fully supported and properly
on Terror                     incurred obligations and expenditures. We will also determine whether funds for
                              small arms ammunition were accurately recorded in financial systems for reporting to
                              the Office of the Secretary of Defense.
Internal Controls and Data The DoD IG is evaluating whether the internal controls over transactions processed
Reliability in the Deployable through the Deployable Disbursing System are adequate to ensure the reliability of the
Disbursing System             data processed. This audit will include financial information processed by disbursing
                              stations supporting the Global War on Terror and will also follow up on our “Internal
                              Controls Over Payments Made in Iraq, Kuwait, and Eygpt.”
Controls Over the             The DoD IG is reviewing whether controls over Common Access Cards provided to
Contractor Common Access contractors are in place and work as intended. Specifically, we will evaluate whether
Card Life Cycle               DoD officials issue Common Access Cards to contractors, verify the continued need
                              for contractors to possess Common Access Cards, and revoke or recover Common
                              Access Cards from contractors in accordance with DoD policies and procedures.
End-Use Monitoring Of         The DoD IG is reviewing the Golden Sentry Program, which monitors how foreign
Defense Articles And          governments use U.S. defense articles and services, to determine whether the program
Services Transferred To       records and controls transfers of sensitive arms effectively.
Foreign Customers
Procurement and Delivery      The DoD IG is reviewing whether the Mine Resistant Ambush Protected vehicle
of Joint Service Armor        program office is effectively procuring armored vehicles in accordance with the
Protected Vehicles            Federal Acquisition Regulation and DoD requirements. Specifically, we will review
                              Mine Resistant Ambush Protected program administration to determine whether the
                              program office is taking appropriate actions to accelerate vehicle delivery to users.
                              In addition, we will review the Services’ requirements for Mine Resistant Ambush
                              Protected and High Mobility Multipurpose Wheeled Vehicles.




26
                                                                                         Semiannual Report to Congress
 Audit Title                      Audit Description
 Funds Appropriated for      The DoD IG is evaluating whether funds appropriated for the security, reconstruction,
 Afghanistan and Iraq        and assistance of Afghanistan and Iraq and processed through the Foreign Military
 Processed Through the       Sales Trust Fund are being properly managed. We will also review whether the
 Foreign Military Trust Fund transfer of appropriated funds from the Army’s accounts into the Foreign Military
                             Sales Trust Fund was properly authorized, accounted for, and used for the intended
                             purpose. We will also evaluate whether Foreign Military Financing funds granted to
                             Afghanistan and Iraq are properly accounted for and used for their intended purpose.
                             In addition, we will evaluate whether the appropriated funds are properly reported in
                             DoD financial reports.
 Operations and Maintenance The DoD IG is reviewing whether DoD
 Funds Used for Global       Components followed requirements for using
 War on Terror Military      operations and maintenance funds for GWOT
 Construction Contracts      military construction. Specifically, we will
                             evaluate whether DoD followed proper
                             procedures for administering, executing, and
                             reporting the use of operations and maintenance
                             funds on Global War on Terror military
                             construction contracts.
 Marine Corps’ Management The DoD IG is evaluating the effectiveness of the Marine Corps’ Recovery and Reset
 of the Recovery and Reset   Programs for selected equipment. Specifically, we will review how the Marine Corps
 Programs                    met its equipment requirements through the Reset and Recovery Programs, whether
                             it effectively repaired or replaced selected equipment, and whether the Marine Corps
                             used funds for their intended purpose.
 Distribution of Funds and   In the first two phases of a three-phase review of the nearly $4.7 billion appropriated to
 the Validity of Obligations the Afghanistan Security Forces Fund in Public Laws 109-13, 109-234, and 109-289,
 for the Management of the   the DoD IG is reviewing the distribution of funds from the Office of Management
 Afghanistan Security Forces and Budget through the Under Secretary of Defense (Comptroller)/Chief Financial
 Fund - Phase I and II       Officer and the Assistant Secretary of the Army (Financial Management and
                             Comptroller) to the Defense Security Cooperation Agency. In Phase II, the DoD IG
                             is evaluating whether obligations recorded for the Afghanistan Security Forces Fund
                             were made in accordance with legislative intent and applicable appropriations law.
 Hiring Practices of the     The DoD IG is conducting this congressionally requested audit to evaluate the hiring
 Coalition Provisional       practices that DoD used to staff personnel to the provisional authorities supporting
 Authority in Iraq           the Iraqi government from April 2003 to June 2004. Specifically, we will review
                             the process DoD used to assign personnel to the Office of Reconstruction and
                             Humanitarian Assistance and the Coalition Provisional Authority in Iraq.
 DoD Use of Global War       The DoD IG is evaluating the adequacy of DoD financial controls over use of
 on Terror Supplemental      Global War on Terror supplemental funding provided for procurement and research,
 Funding Provided for        development, test, and evaluation. The DoD IG is also determining whether the funds
 Procurement and Research, were placed on contracts and used for purposes stipulated in the congressionally-
 Development, Test, and      approved Global War on Terror supplemental funding. A series of reports are planned
 Evaluation                  for this effort.



                                                                                                                     27
Department of Defense Inspector General
                                                                Investigations

The Defense Criminal Investigative Service, the criminal investigative arm of the DoD IG, has been engaged in
investigating waste, fraud, abuse and corruption pertaining to the Iraq and Afghanistan since the start of the war.
DCIS has five special agents assigned to Iraq and two special agents are assigned to Kuwait. An additional special agent
has been temporarily deployed to Iraq to support a special cell investigating issues relating to weapons accountability.
Two additional special agents are deployed to Afghanistan.

International Contract Corruption Task Force and the Joint
Operations Center
....................................................................................................................................................................................

Pursuant to the Inspector General Act of 1978, DCIS has broad
criminal investigative jurisdiction regarding DoD programs and
operations; however, effectively countering fraud in Iraq requires the
cooperative efforts of other DoD investigative agencies and federal
law enforcement partners. DCIS plays a significant and pivotal
role in both the National Procurement Fraud Task Force and the
International Contract Corruption Task Force. The ICCTF, an
off-spring of the NPFTF, was formed to specifically target fraud
and corruption involving Southwest Asia. The primary goal of the
ICCTF is to combine the resources of multiple investigative agencies
and to partner with Department of Justice Southwest Intake Office to
effectively and efficiently investigate and prosecute cases of contract
fraud and public corruption related to U.S. government spending in                                                                DCIS special agents in Baghdad, Iraq.
Iraq, Kuwait, and Afghanistan.

The participating agencies in the ICCTF are the DCIS; the U.S. Army Criminal Investigation Command’s Major
Procurement Fraud Unit; the Office of Inspector General, U.S. Department of State; the Office of Inspector General,
U.S. Agency for International Development; the Federal Bureau of Investigation; and the Special Inspector General
for Iraq Reconstruction. The ICCTF created a Joint Operations Center in furtherance of achieving maximum
interagency cooperation. The JOC, located in Washington, D.C., serves as the nerve center for the collection and
sharing of intelligence regarding corruption and fraud relating to funding for the Global War on Terror. The JOC
coordinates intelligence-gathering, de-conflicts case work and deployments, disseminates intelligence, provides analytic
and logistical support, and identifies resources for the ICCTF agencies to enhance criminal prosecutions and crime-
prevention. Case information and criminal intelligence are shared without reservation, and accomplishments are
reported jointly. The agency heads meet regularly to collectively provide policy, direction, and oversight.

In September 2008, the ICCTF hosted an International Contract Corruption Conference in Arlington, Virginia. The
conference was attended by 60 federal investigators from the ICCTF partner agencies from all over the country. The
conference promoted the exchange of information on investigating and prosecuting fraud and corruption involving
Iraq, Kuwait, and Afghanistan.


28
                                                                                                                                          Semiannual Report to Congress
Protecting America’s Warfighters
....................................................................................................................................................................................

DCIS protects America’s warfighters by vigorously investigating alleged procurement fraud, corruption, and other
breaches of public trust that impact critical DoD programs. Our investigations focus on matters such as bribery,
                                                theft, procurement fraud, illegal receipt of gratuities, bid-rigging,
                                                defective and substituted products, and conflicts of interest. DCIS’
                                                presence in the region has identified corrupt business practices, loss
                                                of U.S. funds through contract fraud, and theft of critical military
                                                equipment destined for Iraqi security forces.

                                                    In addition to investigating allegations of fraud, waste, and abuse,
                                                    DCIS launched a proactive project which will analyze over $10
                                                    billion in payment vouchers related to U.S. Army purchases in Iraq
                                                    and Afghanistan. The vouchers are currently stored at the Defense
                                                    Finance & Accounting Service, Rome, NY. The project is being
                                                    coordinated with DFAS, the DoD IG’s components, the Defense
                                                    Contract Audit Agency, the U.S. Army Audit Agency, and the FBI.
   DCIS special agents at Camp Victory Iraq.
                                                    The project will attempt to identify fraudulent activity related to
                                                    the war effort in Iraq and Afghanistan through utilization of data
mining techniques and quantitative analysis. While the initiative is in its infancy, several questionable transactions
have been identified and referred for further investigation. In addition to these analytical efforts to develop cases, the
investigative team assigned to the project is also supporting ongoing investigations involving fraud and corruption in
Iraq.

To pursue investigative leads concerning weapon accountability in Iraq, DCIS is participating in a multi-agency
Weapons Investigative Cell. Other participants include Army CID and the Bureau of Alcohol, Tobacco, Firearms
and Explosives. The Weapons Investigative Cell is working with the International
Zone Police Department and Government of Iraq officials to conduct weapons and
munitions accountability investigations. In addition, the Weapons Investigative
Cell is coordinating its activities with other affected U.S. and foreign agencies, and is
attempting to determine if there is any evidence of weapons leaving Iraqi warehouses
and being diverted or sold to unauthorized sources.

Investigations conducted in Southwest Asia are cooperative efforts. As of the end of
this reporting period, a total of 85 DCIS special agents (CONUS and OCONUS)
are conducting 134 investigations involving U.S. government spending in Iraq,
Kuwait, and Afghanistan. A majority of these investigations are being investigated
in conjunction with one or more law enforcement partner agencies.

DCIS’ primary partners in countering DoD-related fraud in Southwest Asia are the
Major Procurement Fraud Unit, Army CID; and the Federal Bureau of Investigation.
Of these 134 investigations, 119 investigations are being conducted by special
                                                                                                                                                 DCIS special agents in Iraq.
agents in Germany and the United States. Fifteen investigations are currently being


                                                                                                                                                                                29
Department of Defense Inspector General
conducted by agents deployed throughout Southwest Asia. DCIS attempts to transfer investigations developed in
Southwest Asia to an appropriate CONUS venue as soon as practical so as to ensure we maximize the use of our in-
theater investigative resources and to begin and facilitate prosecution efforts. Since March 2007, DCIS has transferred
16 cases from Southwest Asia to CONUS.

As a result of closed and ongoing investigations in Southwest Asia, 36 federal criminal indictments and 36 federal
criminal informations have been issued, and five hearings have been conducted under Article 32 of the Uniform Code
of Military Justice. Four Articles 15 Actions have been conducted under the Uniform Code of Military Justice. In
total, 36 persons were convicted of felony crimes, resulting in a total of approximately 53 years of confinement and 48
years of probation; ten individuals and four companies were debarred from contracting with the U.S. Government;
31 companies and persons were suspended from contracting; and 4 contractors signed settlement agreements with
the U.S. Government. A total of $13.7 million was paid to the U.S. in restitution; $966,925 was levied in fines and
penalties; $1.9 million was forfeited; and $6.3 million was seized.


                                                                                    DCIS special
                                                                                    agents survey
                                                                                    seized weapons in
                                                                                    Iraq.




     DCIS Special
     Agent with
     Afghani guard.



DFAS-Rome, NY Project
....................................................................................................................................................................................

To identify instances of Fraud, Waste and Abuse of Department of Defense funds, DCIS has spearheaded a proactive
project to analyze billions of dollars in payment vouchers related to U.S. Army and Marine Corps purchases in Iraq.
The vouchers are currently stored at the Defense Finance & Accounting Service, Rome, NY and DFAS Indianapolis,
Indiana. The project is being coordinated with DFAS, DoD IG Audit, the Defense Contract Audit Agency, the U.S.
Army Audit Agency, and the FBI.

During this reporting period, DCIS committed $300,000 to DFAS to implement the scanning of more than 3,500
boxes of stored vouchers into an electronic database. It is anticipated that scanning will begin in the near future and
will be completed during the next fiscal year. Once scanning is complete, data mining techniques will be employed
to analyze the documents to identify fraudulent activity related to the war efforts in Iraq and Afghanistan. Until the
vouchers are scanned into the DFAS database, a manual review of DFAS vouchers will continue. Thus far, DCIS
and its partners have identified several questionable transactions which have been referred for further investigation.
The DCIS special agent at DFAS-Rome is currently supporting several ongoing investigations involving fraud and
corruption in Iraq.

30
                                                                                                                                          Semiannual Report to Congress
                                                     Policy and Oversight

Policy and Oversight has supported efforts to develop and promote the establishment of effective oversight and security
organizations in Afghanistan and Iraq. Some of those projects have been conducted jointly with the Department of
State and the Department of Justice and have provided critical assessments and detailed recommendations aimed at
helping the fledgling democracies in those countries to counter crime, corruption, human rights abuses, and other
threats to include terrorism. A brief overview of each project follows:

Completed Projects
....................................................................................................................................................................................

Review of Army Criminal Investigation Command Investigation into the Alleged Wrongful Shooting of an
Afghan on November 7, 2002: This review was initiated based on a complaint made to the DoD Hotline as well as
a request from Senator Elizabeth Dole. Our initial review found that the Army CID investigation was not timely or
thorough, which prompted CID to reopen their investigation. Our review of the second CID investigation found
that substantial evidence existed indicating the shooting was wrongful. We recommended the Secretary of the Army
forward our report to the responsible Army commander for potential action against the alleged perpetrators.

Review of Matters Related to the August 28, 2005, Shooting of Reuters Journalists: Outside counsel representing
Reuters complained that the Army command investigation into the shooting of two Reuters’ employees (the driver was
killed) was insufficient, and that a private investigative agency they hired determined the soldiers’ actions were unlawful.
We concluded the soldiers conformed to the rules for use of deadly force; however, the command investigating officer
did not comply with applicable standards; the Reuters Baghdad bureau safety practices reduced the soldiers’ ability
to distinguish Reuters employees during a battle; and Reuters Baghdad safety procedures were inconsistent with U.S.
forces expectations.

Observations and Critique of the DoD Task Force on Mental Health: Our report summarized our observations
of the DoD Task Force on Mental Health; the task force’s final report, “An Achievable Vision,” June 2007; and
the Secretary of the Defense’s “Report to Congress”: The Department of Defense Plan to Achieve the Vision of
the DoD Task Force on Mental Health,” September 2007. The Secretary established the task force in May 2006 in
response to the requirements of Section 723 of the FY 2006 National Defense Authorization Act. Concurrently, on
May 17, 2006, Senator Joseph Lieberman requested that we conduct an investigation of the military’s current mental
health practices. As such, we arranged, and Senator Lieberman agreed, to have a DoD IG observer on the task force.

We reported that the DoD Task Force on Mental Health fully satisfied the intent and requirements of Section 723 and
addressed Senator Lieberman’s concerns. We noted, however, that there were three topics raised by the task force that
did not receive significant mention in the report: suicide, inpatient treatment, and physical evaluation boards/medical
evaluation boards. Although these issues deserve continued attention, we concluded that the task force’s report and
the report to Congress represent a comprehensive examination of DoD’s mental health care programs for members of
the Armed Forces and their families.

Information Report on the Assessment of DoD Support to the Iraqi Security Forces Inspectors General: This
assessment was a DoD IG-initiated evaluation of DoD support to assist the Iraqi Ministry of Defence, Ministry of
Interior, and Joint Headquarters Inspectors General in establishing a self-sustaining Inspector General function under

                                                                                                                                                                                31
Department of Defense Inspector General
Iraqi law. We focused on the operations, plans, and projected needs of these Iraqi Security Forces IG organizations
within the context of the U.S. Government’s transition and capacity-building goals, as well as Iraqi anti-corruption
strategies and objectives. The final report identifies five considerations to improve DoD support going forward and to
facilitate similar principled governance activities in other emerging nations.

DoD/VA Care Transition Process for Service Members Injured in
OIF/OEF: The Under Secretary of Defense for Personnel and Readiness
requested this evaluation. Given the need for integrated solutions,
DoD IG partnered with the Department of Veterans Affairs. The
interagency team examined laws, policies, processes, and procedures
used to provide access to health care and other benefits to severely ill
and injured military personnel returning from Operations Enduring
Freedom and Iraqi Freedom. The team coordinated their observations
and findings with the “Wounded, Ill, and Injured Senior Oversight
Council” to compare, cross-map, and deconflict the team’s results
against the 400-plus recommendations prepared by other “Wounded
Warrior” studies and review groups. The final report included three
unique recommendations to improve the long-term care of wounded                                                        DoD IG evaluators arrive at Ramstein Germany
                                                                                                                           to visit Landstuhl Regional Medial Center.
veterans and to facilitate the transition processes between the DoD
and VA.

Ongoing Projects
....................................................................................................................................................................................

                                                                           Review of Contracting Actions Relating to the Electrocution
                                                                           Death of a U.S. Army Soldier: On January 2, 2008, a U.S. Army
                                                                           staff sergeant was electrocuted while showering in his Iraqi-built
                                                                           quarters in the Radwaniyah Palace Complex, Baghdad, Iraq.
                                                                           Congressional interest led to a request from the Deputy Under
                                                                           Secretary of Defense for Acquisition and Technology for the DoD
                                                                           IG to conduct a review of the relevant management, contracting,
                                                                           and maintenance actions prior and subsequent to the incident.
                                                                           Following a July 30, 2008, hearing by the House Committee
                                                                           on Oversight and Government Reform, the team expanded the
                                                                           scope of the review to include a review of the command actions,
                                                                           investigation case files, and safety mishap investigations of eight
                                                                           additional electrocution deaths in Iraq. The DoD IG published
                                                                           an interim response on July 29, 2008, that listed and categorized
                                                                           known electrocutions of U.S. Forces in Iraq, corrected inaccuracies
DoD IG team inspecting facilities at the
Radwaniyah Palace Complex in Baghdad, Iraq.                        in a January 2008 Army memorandum that led to misunderstanding
                                                                   regarding prior knowledge of life-threatening electrical problems, and
                                                                   outlined command actions in response to the incident at that time.




32
                                                                                                                                          Semiannual Report to Congress
Evaluation of DoD Sexual Assault Response in Operations Enduring Freedom and Iraqi Freedom Areas of
Operation: In response to concerns of over 100 members of Congress, this project evaluates policies and practices
for reporting and referring for investigation sexual assault complaints by contractor employees in combat areas. Based
on new congressional interest, we expanded the scope to DoD’s oversight of contractors regarding sexual assault/
harassment deployment training and contractor accountability for employee misconduct in combat areas.

Contract Audit Follow-Up Review Related to Iraq Reconstruction Activities: The objective of this review is to
determine if contracting officers’ actions on audits of contractors involved in Iraq Reconstruction activities were timely
and effective in accordance with DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports.” We issued
our draft report on September 30, 2008, taking exception to various Defense Contract Management Agency actions
on two audits of reported cost accounting standard non-compliances and one audit of reported accounting system
deficiencies. In FY 2009, we plan to issue a separate report on the equitable adjustment claim and all other actions
that DCMA took in response to incurred cost audits of contractors involved in Iraq reconstruction activities.




Section 1206 team meets with Indonesian Navy leadership.                          Section 1206 team meets with the Commander
                                                                                                        of the Sri Lanka Navy.

Interagency DoD/Department of State IG Assessment of Section 1206 of the National Defense Authorization
Act, “Global Train and Equip Program”: The two federal departments announced this interagency “Section
1206” project on March 14, 2008. The Director of the Joint Staff and the Principal Deputy Under Secretary of
Defense for Policy jointly requested this assessment to review program management and to identify opportunities
for process improvements. Section 1206 gives DoD the authority to provide training, equipment, and supplies to
foreign militaries to bolster their capacity to combat terrorism or to participate with the U.S. military in combined
operations. Legislated in the FY 2006 National Defense Authorization Act, Congress authorized funding for the last
three years. Section 1206 supports the National Security Presidential Directive 44, “Management of Interagency
Efforts Concerning Reconstruction and Stabilization,” and DoD Directive 3000.05, “Support for Stability, Security,
Transition and Reconstruction Operations,” November 28, 2005. The interagency team completed their field visits
to eight countries and the associated combatant command headquarters.




                                                                                                                           33
Department of Defense Inspector General
                                                                   Intelligence

The DoD IG’s Office of the Deputy Inspector General for Intelligence has ongoing and planned reports of high-profile
issues related to the GWOT. A brief overview of each report follows:

Ongoing Reports
....................................................................................................................................................................................

Review of Intelligence Resources at the Joint Intelligence Task Force Combating Terrorism and Special
Operations Command: The objective is to examine intelligence missions and corresponding resources at both the
Joint Intelligence Task Force Combating Terrorism and Special Operations Command to determine the sufficiency of
those resources to accomplish their intelligence missions.

Audit of the Management of Signals Intelligence Counterterrorism Analysts: The objective is to evaluate the
management of signals intelligence counterterrorism analysts. Specifically, the audit will review the hiring/recruitment
process, training programs, and work assignments of counterterrorism analysts. The review will include an assessment
of the impact additional resources have had on the effectiveness of the National Security Agency counterterrorism
mission since September 2001.

Evaluation of DoD Language Training in Support of Operation Iraqi Freedom and Operation Enduring Freedom:
The objective is to determine the efficiency and effectiveness of DoD language training in support of OIF and OEF.
We will review the Defense Language Transformation Roadmap and applicable DoD Instructions and Directives to
determine if recruitment, training, assignment and retention of Air Force linguists are effective at satisfying OIF and
OEF language requirements.

Investigation of Possible Use of Mind Altering Substances by DoD Personnel during Interrogations of Detainees
and/or Prisoners Captured during the War on Terror: This investigation responds to a request from members of the
United States Senate. The objective of this investigation is to determine if DoD personnel conducted, facilitated, or
otherwise supported interrogations of detainees and/or prisoners using the threat or administration of mind altering
drugs.




34
                                                                                                                                          Semiannual Report to Congress
Services
Oversight
 A look at the Services audit and investigative efforts in
 the Global War on Terror




                                                 	
                                                 U.S. Army
                                                 Army Audit Agency
                                                 Army Criminal Investigation Command

                                                 U.S. Navy and Marine Corps
                                                 Naval Audit Service
                                                 Naval Criminal Investigative Service

                                                 U.S. Air Force
                                                 Air Force Audit Agency
                                                 Air Force Office of Special Investigations
                                                                               Army


                                                         Army Audit Agency

Army Audit Agency issued over 100 reports focusing on Operation Enduring Freedom/Operation Iraqi Freedom
since FY 2003. Reports have focused on logistics and contracting issues—including 31 reports on the multi-billion
dollar Logistics Civil Augmentation Program contract—and other areas such as maintenance, military pay, and funds
management. Ongoing efforts include audits of LOGCAP, contracting operations, retrograde operations, shipping
containers, Reset, Army Reserve and National Guard premobilization training, and the Commanders Emergency
                                                 Response Program.

                                                                              Much of the audit work is performed in Southwest Asia (principally
                                                                              Iraq, Afghanistan, and Kuwait). USAAA maintains a significant
                                                                              presence in the U.S. Central Command area of responsibility
                                                                              assisting Army commanders. At the end of September 2008,
                                                                              it had 28 deployed auditors in Iraq, Kuwait, and Afghanistan.
                                                                              Overall, since 2002, the USAAA has deployed over 130 auditors.
                                                                              In addition, many of its stateside reports are directly focused on
                                                                              GWOT issues.

                                              USAAA’s audit work in theater stems from requests from the
Army Audit Agency deployed auditors.Secretary of the Army; the Commander, Multi-National Forces-Iraq; the
                                    U.S. Army Criminal Investigation Command; the Commanding General,
Third U.S. Army and U.S. Army Forces Central Command; the Commander, Joint Contracting Command-Iraq/
Afghanistan; and the Commanding General, U.S. Army Corps of Engineers, Gulf Region Division.

Completed Audits
....................................................................................................................................................................................

Accountability of Contractors on the Battlefield: This was the second of two audits that reviewed contractor on
the battlefield issues. This audit focused on the Army’s roles, responsibilities, and various processes for accounting for
contractors on the battlefield as well as the functionality of the Synchronized Predeployment and Operational Tracker
system adopted as the official DoD system to account for contractors downrange. USAAA found that the contractor
accountability mission lacks adequate Army enforcement, policy, coordination, and mission alignment. Also, the
Synchronized Predeployment and Operational Tracker system currently does not provide functional management and
accountability over deployed Army contractors, though it will provide this capability once it is fully fielded and system
improvements are made. Also, there was not one system or integration of systems that provided complete contractor
accountability and none of the three systems reviewed adequately accounted for the contractor population in theater.
USAAA made 26 recommendations to clarify Army roles, responsibilities, and guidance; and to improve the processes
and systems for accounting for contractors on the battlefield.


36
                                                                                                                                          Semiannual Report to Congress
Accounting for Seized Assets and Development Fund for Iraq: USAAA performed this audit at the request of the
Assistant Secretary of the Army (Financial Management and Comptroller) to determine if residual balances maintained
by Department of Army in three deposit fund accounts were reasonable and available for transfer to the government
of Iraq. The fund accounts were: Collection for Seized Assets, Disbursement of Seized Assets, and Disbursement of
Development Fund for Iraq.

USAAA reported that residual balances maintained by the Department of Army for the three deposit fund accounts
were reasonable. However, the residual balances in the Disbursement of Seized Assets and Development Fund for
Iraq Accounts were not ready for transfer because Third Army and Department of Army did not maintain adequate
visibility over the unliquidated obligations. Without information
on the unliquidated obligations status, Department of Army
did not know the true status of the accounts and could not
make plans to return the funds. By taking action to develop an
Aged Unliquidated Obligations status report for unliquidated
obligations, Third Army could provide Department of the Army
information it needed to develop a plan for returning the residual
balances to the government of Iraq.

USAAA also found that the Assistant Secretary of the Army
(Financial Management and Comptroller) maintained funds in
each of the three accounts that were not distributed for use to
either Third Army or the U.S. Army Corps of Engineers. This
undistributed balance, collectively valued at about $36.9 million, could            AAA auditor meets with General Petraeus.
be transferred to the government of Iraq pending confirmation from
Third Army and Corps of Engineers fund managers that no foreseeable
needs exist.

Management of Shipping Containers in Southwest Asia: At the request of the Office of the Deputy Chief of
Staff, G-4, USAAA is auditing the Army’s visibility over shipping containers related to the Southwest Asia theater of
operations. In the second half of FY 2008, USAAA published reports on operations in Iraq and the continental United
States. These reports are discussed below. Audits on operations in Kuwait and Afghanistan are ongoing.

During its audit of selected activities in Iraq, USAAA determined that visibility issues existed with the data in the
Integrated Booking System Container Management Module, the automated system used to manage and track shipping
containers in the Southwest Asia area of operations. Specifically, key personnel and activities sometimes were not
taking the actions needed to ensure the visibility data was accurate and complete. Actions needed included conducting
physical inventories, recording containers properly in the automated system, reporting missing or lost containers,
and tracking containers. Without these actions, there was a measurable loss of visibility data that affected command’s
ability to make sound container management decisions. For example, in the Iraq area of operations, the Army had
lost visibility over 23,437 containers valued at approximately $61.8 million. Overall, these problems occurred due to
shortfalls in command emphasis, training, and force structure and capabilities. Improvements in these key areas were
critical to overcoming the challenges associated with managing containers during contingency operations.




                                                                                                                         37
Department of Defense Inspector General
During its audit of selected Army depots and installations in the Continental United States, USAAA determined
visibility issues existed with the data in the Army’s designated container management system—Army Container Asset
Management System Responsible Army personnel sometimes did not account for containers in Army Container
Asset Management System or input maintenance, usage, and status codes in Army Container Asset Management
System. Also, there were instances of duplication in Army Container Asset Management System, which gave the false
impression of a higher number of containers available for distribution. The problems occurred because Army activities
did not have sufficient resources (funding and personnel) to take needed actions to attain a reasonable degree of
visibility over shipping containers within their purview. At the activities visited, there were shortfalls with container
management processing procedures, training, inventories, and maintenance inspections and repairs. For the Army to
attain control over the visibility of shipping containers, the Army must take action by securing funding and putting
into practice a container management program. In the absence of the base funding needed to establish visibility and
control over containers, visibility over the critical transportation assets will continue to be in question.

                                                   Operational Loss Requirements: The Army began experiencing
                                                   increased equipment losses during 2002 because of contingency
                                                   operations in Afghanistan and Iraq. Those losses are replaced
                                                   through a process of identifying operational losses, reporting them
                                                   through the chain of command to the Department of Army, and
                                                   programming for their replacement. At the request of the Office
                                                   of the Deputy Chief of Staff, G-4, USAAA audited the Army’s
                                                   process for identifying operational losses and programming for
                                                   their replacement in FYs 2007 and 2008.

                                                       USAAA reported that the process was lengthy and inefficient,
                                                       units did not comply with guidance, and guidance was unclear or
                                                       incomplete. For four of the six weapon systems reviewed, the Army
  AAA auditors inspect MRAP Vehicles in Southwest Asia took an average of 180 days to identify an operational loss as a
                                                       requirement for replacement. Reporting delays were inherent in the
process, and the Army lacked real-time visibility over equipment losses. In addition, programmed replacements did
not match operational losses because the Army needed to submit requirements without complete data on actual losses.
The process, coupled with the 2-4 year procurement lead-time for end-items, delayed replacements. These delays could
lead to a diminished fleet and could negatively affect unit readiness.

The Office of the Deputy Chief of Staff, G-4 recognized it needed improved visibility over equipment losses. In March
2006, the office began a Lean Six Sigma initiative to automate the loss reporting process. The initiative identified
improvements to the process, but experienced delays implementing many improvement tasks. Consequently, the
process still needs improvement to support readiness in this time of increased operational tempo.

Rapid Fielding Initiative: USAAA audited the Army’s process for validating Rapid Fielding Initiative requirements,
institutionalizing Rapid Fielding Initiative after the Global War on Terror, and resourcing Rapid Fielding Initiative
acquisitions. It found that the Rapid Fielding Initiative requirements validation process was adequate due to the
U.S. Army Infantry Center involving communities of interest across the Army and other Services to validate the
requirements through the Joint Capabilities Integration and Development System. Also, the Army was enacting the
steps and making the cultural changes necessary to integrate Rapid Fielding Initiative into larger processes. However,


38
                                                                                            Semiannual Report to Congress
the Army did not have an effective process to resource Rapid Fielding Initiative acquisitions. The Army funded Rapid
Fielding Initiative equipment primarily with supplemental funds even though it intended for Rapid Fielding Initiative
capabilities to be completely subsumed within the “Soldier as a System” requirements documents as an enduring
modernization program. Additionally, the Army was not properly reimbursed for Rapid Fielding Initiative equipment
it supplied to the Air Force and the Navy. If inter-service support agreements were developed with the other Services
for future Rapid Fielding Initiative fieldings, the Army could realize potential monetary benefits of about $57 million
over 6 years.

Reset Metrics: Resetting equipment is critical to reversing the effects of combat stress associated with increased use
of equipment and damage in the theater of operations. At the request of the Secretary of the Army, USAAA initiated
a series of four audits to evaluate the adequacy of metrics the Army used to measure the effectiveness of the FY 2007
reset program. In the second half of FY 2008, USAAA reported on three of the audits: Field Level Reset, Lessons
Learned, and Sustainment Maintenance, USAAA reported on the fourth audit (Procurement) during the first half of
FY 2008.

Reset Metrics—Field Level Reset: The field level reset metric was being reported as designed, but it did not measure all
the funds the Army applied to field level reset. The metric measured reset success by the number of brigades in progress
or completed with field level reset. However, this accounted for only a fraction of the funds the Army obligated for this
purpose. Of the $3.7 billion Congress allocated for field level reset, USAAA focused on about $3.1 billion attributable
to ground equipment. The Army reprogrammed some of this funding during the FY, leaving approximately $2.5
billion for field level reset. Of this amount, the metric failed to measure more than $1 billion because the funds were
used to complete work that was not attributable to specific brigades. Also, the Army’ report to Congress did not clarify
that a brigade that had completed field level reset sometimes was not ready to deploy because it may have been missing
equipment that would be filled from the national equipment pool, new procurement, or other sources.

The Army’s procedures for reporting to Congress the status of brigades undergoing field level reset also needed
improvement. U.S. Army Materiel Command, the activity responsible for preparing this information and forwarding
it to the Department of Army to include in the congressional report, did not have formalized business rules establishing
when a brigade would be reported complete with reset. In addition, its subordinate activity, U.S. Army Sustainment
Command, relied on contractor teams to report field level reset status because it could not rely on the information
in standard Army systems. However, Sustainment Command did not report these deficiencies to system proponents,
                                              and thus it was unlikely data in those systems would be improved.
                                               This was especially important because the new Automated Reset
                                               Management Tool, which is intended to be the Army’s focal point for
                                               reset information, relies heavily on data from those systems.

                                                    Although the Army effectively obligated reset funds in a timely manner,
                                                    it did not monitor execution data at a brigade level. This occurred
                                                    because the Army allocated field level reset funding by installation
                                                    instead of brigade, and it had no method for monitoring funding
                                                    attributable to a specific unit. Often, the amount of funding provided
                                                    to an installation did not correlate to the number of units reset at that
                                                   installation. Further, the Army did not have a good historical basis to
AAA auditors examine maintenance area in Iraq. determine how much it should cost to reset a brigade. This information is
                                               crucial in evaluating the efficiency of the Army’s field level reset program.

                                                                                                                          39
Department of Defense Inspector General
Reset Metrics—Lessons Learned: This is the final report in the series of four reports and highlights the overarching
themes USAAA noted while conducting the audits. While the Army’s report to Congress generally demonstrated the
positive effects of the FY 2007 Title IX supplemental funding, the report did not always align resources used with
outcomes achieved with those resources. For example, sustainment level reset workload reported as complete in FY
2007 was oftentimes funded with prior year funds and FY 2007 funded work was carried forward into FY 2008. If
workflow was consistent by type and quantity the outcomes would be offset—but neither the type nor quantity was
consistent. In addition, the field level reset metric did not capture at least $1.1 billion that was not attributable to a
specific brigade. As a result, the report did not provide an accurate perspective of outcomes the Army achieved with the
influx of the $17.1 billion in supplemental funds. Additionally, the Army chose to submit its report monthly, rather
than quarterly as Congress required. This placed an additional burden on personnel in the field and increased the risk
of inaccurate reporting. Further, Congress stated that the report should include information on expenditures, but the
Army reported only obligations.

The Army took many positive actions, both in response to USAAA’s
audit efforts and as a result of its own lessons learned, and it incorporated
those changes in its reporting format and reset fragmentary orders.
Additionally, the Army established a reset pilot program to improve the
reset process and to identify potential enhancements to support the Army
Force Generation model.

Reset Metrics—Sustainment Maintenance: This audit focused on the
processes used to track and report the Operation and Maintenance, Army                         AAA auditors at Camp Arifjan.
funding for sustainment maintenance metrics related to the Army’s FY
2007 reset supplemental funding. USAAA reported that the Army had
an adequate process in place to track and report its FY 2007 supplemental reset funding obligated at the sustainment
level of repair. In its April 2007 congressional submission, the Army accurately tracked and reported obligation data in
its funding metric for about $3.4 billion in FY 2007 Operation and Maintenance, Army sustainment level reset and
recapitalization funds. However, the Army’s process to track and report system quantities did not accurately depict
reset status; it inaccurately tracked and reported completion of reset in its metric for sustainment (depot) equipment
repairs for three of four selected ground systems.

In addition, the obligation metric did not correlate with reported sustainment equipment repairs because the Department
of Army combined Operation and Maintenance, Army sustainment reset funding with other reset categories, such
as field level. As a result, users of the report could not effectively compare funding obligations with quantities of
completed systems at the sustainment level. U.S. Army Materiel Command and subordinate activities used newly
established accounting controls, such as a dedicated subactivity group and functional cost accounting codes, which
enabled better tracking of reset funding obligations. But the Army had difficulty accurately tracking and reporting the
systems completed because it lacked sufficient visibility over contractor reset work.

The Department of Army also did not establish standard business rules that defined system completions or a monthly
reconciliation process to validate quantities reported by subordinate activities. As a result, Army activities used various
standards for defining completed systems and did not properly update reported quantities. Consequently, the format
and rules for reporting sustainment level reset needed improvement to deliver reliable data to Army leaders and to
Congress.


40
                                                                                               Semiannual Report to Congress
Temporary Change of Station Orders and Housing for Mobilized Soldiers: This was the first of two audits
reviewing various aspects of soldiers mobilized in support of missions outside of theater or soldiers in temporary
change of station status. USAAA found the Army did not have sufficient policy and procedures to ensure valid travel
entitlements and adequate authorizations for mobilized soldiers under TCS status. Additionally, there was not a
structured process to approve the vouchers for these soldiers. As a result, 10 percent of the travel packets analyzed
included claims that were potentially fraudulent, 77 percent included claims that were wasteful or abusive, and only
13 percent included claims that were reasonable. These findings were significant in that the Army has spent in
excess of an estimated $1.5 billion in TCS costs since 2004. The Army also did not have sufficient or cost-effective
lodging solutions for mobilized soldiers in the NCR. USAAA made 9 recommendations to improve the processes
for approving TCS orders and vouchers and housing TCS Soldiers. These recommendations, in conjunction with
implementation of the Army’s TCS Action Plan, could save the Army at least $21 million annually by housing soldiers
in the NCR in available on-post, and government-contracted off-post housing instead of hotels. The second audit on
TCS issues is ongoing.


                U.S. Army Criminal Investigation Command

The U.S. Army Criminal Investigation Command provides continuous worldwide criminal investigative support to
all U.S. Army elements, conducts protective services for senior members of the Department of Defense and foreign
nations, provides actionable criminal intelligence, provides forensic laboratory support to all DoD, conducts logistic
security operations in support of Army Operations and the GWOT, and maintains Army criminal records.
Army CID has more than 170 soldier and civilian special agents and support personnel assigned throughout Iraq and
Afghanistan providing investigative support to Combatant Commanders. It remains the primary investigative agency
within the U.S. Central Command’s theater of operations, responsible for conducting all felony crime investigations.
The traditional criminal investigative and intelligence missions have expanded to include war crimes and crimes
against coalition and host nation personnel, along with developing countermeasures to combat subversive activities on
the battlefield. For instance, Army CID special agents participated in the sensitive site exploitation and recovery of
the remains for two soldiers missing in action in Iraq since May 2007.

Army CID continues to serve as the executive agency for the Criminal Investigation Task Force, a joint mission with
the Navy Criminal Investigative Service and the Air Force Office of Special Investigations, responsible for investigating
alleged war crimes and acts of terrorism committed against U.S. interests by non-U.S. citizen detainees. CITF supports
the Central Criminal Court in Iraq through their investigations and prosecutions, and have referred cases against more
than 1,480 detainees to the CCC of Iraq. The court has held trials for over 540 of those detainees, with convictions
of more than 410, a conviction rate of nearly 75 percent.

CITF, working with other U.S. Government agencies, is developing an innovative project that uses law enforcement
investigations and techniques to “follow the money” to identify people and organizations involved in financing terrorist
networks. To date, 75 individuals and entities involved in financing terrorism in Iraq and other parts of the Middle
East have been identified. CITF personnel are also assisting other countries in pursuing arrest warrants for people
suspected of acting as terrorism financiers and facilitators.

CITF participated in the historic trial of Osama bin Laden’s former driver, Salim Ahmed Hamdan, the first contested
prosecution of a detainee at Guantanamo Bay. On August 6, 2008, the jury for the first war crimes trial held by the
U.S. since World War II found Hamdan guilty of providing material support for terrorism and sentenced him to five
and a half years in U.S. custody.
                                                                                                                      41
Department of Defense Inspector General
An investigation of particular note in support of GWOT was one in which a former contract employee in Iraq pled
guilty in the U.S. District Court, Eastern District of Virginia, for possession of child pornography. The CENTCOM
Commander approved adjudicating the matter in a military court-martial, the first since Vietnam, and it was successfully
completed under the Military Extraterritorial Jurisdiction Act. The employee was convicted and sentenced to five
months confinement.

Army CID’s Major Procurement Fraud Unit continues to combat fraud and corruption associated with funding major
army system acquisition programs. MPFU’s focus is to investigate allegations of fraud affecting contracting operations
in contingency environments throughout the world. Working with member agencies of the International Contract
Corruption Task Force under the Department of Justice ICC Initiative (that includes the DCIS, DoS, FBI, Special
Inspector General for Iraq Reconstruction, U.S. Agency for International Development), the MPFU is operating from
forward investigative offices in Afghanistan, Kuwait and Iraq. The investigative activities are primarily concentrated
on contingency fund contractual fraud involving GWOT and in support to military operations under OEF and OIF.
Since April 2008, the MPFU has initiated 105 Reports of Investigation, with nearly $60 million in total recoveries
and an additional $237 million identified as cost avoidance. In response to the findings of the Gansler Commission,
MPFU sought and received approval for hiring 36 additional civilian special agents to support restructuring the
Army’s contracting activities.




                                                    Special agent marks grid coordinates.



     Special agents checking debris for evidence.


                                                                                            Special agent conducting an investigation.




The Protective Services Battalion of Army CID conducts world-wide executive level personal protection for designated
senior Department of Defense, Joint Chiefs of Staff and Department of the Army High Risk Personnel 365 days a
year, and their foreign counterparts during official visits to the United States; protecting them from assassination,
kidnapping, injury or embarrassment. In support of the GWOT, PSB has conducted, on average, 500 travel missions
per year (3,500 missions) to low, moderate and high risk countries around the world, and over 200 protective
operations to Afghanistan and Iraq in support of the Secretary and Deputy Secretary of Defense, the Chairman and
Vice Chairman of the Joint Staff, and the Secretary, Chief and Vice Chief of Staff of the Army. The PSB deploys special
agents to Afghanistan and Iraq to lead Protective Services Details for senior U.S. combat commanders, to include the



42
                                                                                                        Semiannual Report to Congress
commanders of Combined Joint Task Force - 101, the Combined Security Transition Command – Afghanistan, and
the Multi-National Corps – Iraq. The PSB also conducted numerous Personal Security Vulnerability Assessments
incorporating terrorist and criminal threat data into a comprehensive risk analysis program for high risk personnel on
travel missions. PSB continues to provide Mobile Training Teams for external Army Protective Service Details that
deploy in support of OEF/OIF.

As a result of DoD agencies recognizing the major contributions of using forensics to support their missions, the U.S.
Army Criminal Investigation Laboratory continues to increase its staff and develop its operations in support of the
Defense Forensic Enterprise System. The Reach Back Operations Center was established and has begun its mission
to support the Joint Expeditionary Forensic Facilities in Iraq that provides forensic lab support to DoD warfighters
and intelligence operations. An Army CID Reserve Battalion was deployed to Iraq to provide technical and forensic
oversight of the JEFFs, and to serve as the liaison between law enforcement personnel and the forensic examiners. In
addition, the traditional forensic disciplines are researching and expanding their capabilities to further support the
warfighter via battlefield forensics. An example of this effort is the testing of a computer-based system that screens
numerous handwritten documents to associate writers of the respective documents. The focus of this capability
involves testing documents in Arabic handwriting because no reliable source currently exists within DoD for the
forensic examination of Arabic handwriting. To date, over 50 terrorists/insurgents have been identified through
forensic sciences and captured or targeted for capture by U.S. Forces.

The Law Enforcement Program is a Joint IED Defeat Organization funded initiative that transitioned to the Army CID
in April 2008 for consideration by the U.S. Army as a program of record. The LEP mission is to provide experienced
former law enforcement personnel with criminal enterprise analytical and investigative skills for embedding into
Corps, Division, Brigade, Regimental and Battalion Headquarters, to assist commanders with enhanced expertise
and methodology to understand, identify, target, penetrate, interdict, and suppress criminal networks and their
employment of IEDs.


                             U.S. Navy and Marine Corps


                                          Naval Audit Service

NAVAUDSVC supports the Department of Navy GWOT goals by auditing selected policies, procedures, and activities
to assure they achieve the stated objectives and maximize efficiencies. In support of the Department of Navy GWOT
goals and risk assessments, NAVAUDSVC’s efforts during this reporting period include ongoing and completed
audits in the areas of acquisition and disbursing internal controls. Additionally, there are controls over contingency
contracting, anti-terrorism/force protection, intelligence and security, maintenance, medical health, safety, personnel
management, and small arms and ammunition. The NAVAUDSVC oversight includes Navy-wide programs as well as
functions performed specifically in Southwest Asia, including Bahrain, Dubai, and Djibouti.

The NAVAUDSVC is also working with the SWA JPG and its members and guests to ensure the full spectrum of DoD
oversight is engaged in support of DoD’s SWA efforts.


                                                                                                                    43
Department of Defense Inspector General
Completed Audits
....................................................................................................................................................................................

Department of the Navy Small Arms In-Transit Accountability: The audit objective was to verify that the Navy’s
small arms post shipment controls and practices ensure that: small arms shipments and receipts are properly reported;
and in-transit shipping problems are detected, reported, and resolved in a timely manner. NAVAUDSVC found that
87 shipments containing a total of 344 weapons were recorded as delinquent, requiring follow-up action by the Navy
Small Arms Registry. The follow-up action taken by the Registry was untimely and incomplete. Timely follow-up action
is a key control necessary to help prevent, and ensure timely detection of loss or theft. In addition, NAVAUDSVC
found that Navy activities often did not report shipments of weapons to the Navy Registry as required. Without
proper notification that a shipment is en route, the Registry effectively loses accountability over those weapons while
in transit, increasing their vulnerability to loss and theft. Management concurred with all recommendations, and all
planned and completed corrective actions met the intent of the recommendations.

Regional Antiterrorism Recommendations Follow-up: This follow-up effort was conducted in concert with the
fieldwork performed for the Navy Antiterrorism Program Execution audit to be published in FY 2009. The purpose
of this follow-up report was to summarize recommendations resulting from the NAVAUDSVC’s prior continental
United States regional Antiterrorism audit reports, and the effectiveness of actions taken by Navy commands to
answer recommendations made in those earlier reports. These reports analyzed how effectively selected installations
within a given Navy region had addressed the three elements of an effective risk assessment (vulnerability, threat, and
criticality assessments), as well as how assessment results translated into force protection requirements. The actions
taken by Navy management to address recommendations in these high-risk areas have helped to mitigate risks and
improve management of Antiterrorism programs, but there are still opportunities for improvement. About half of
the installations still had not completed criticality and risk assessments in 2007. All areas for improvement detailed
in this follow-up report are addressed by recommendations made in the (forthcoming) Navy Antiterrorism Program
Execution audit report.

Validation of Defense Health Program Global War on Terror Obligations for the Bureau of Medicine and
Surgery: The audit objective was to verify that Global War on Terror obligation data for the Bureau of Medicine and
Surgery Defense Health Program is properly classified, accurately reported in the Global War on Terrorism report, and
supported by sufficient documentation. NAVAUDSVC randomly sampled 90 Global War on Terror transactions and
10 non-Global War on Terror Operation Noble Eagle transactions valued at approximately $1 million. We verified
97 percent of sampled Global War on Terror obligation transactions for the quarter ending March 31, 2008, were
properly captured, classified, recorded and reported in the accounting system as Global War on Terror obligations.
However, three Global War on Terror obligations did not pass the validation test. We verified that none of the sampled
non- Global War on Terror obligation transactions for the quarter ending March 31, 2008, were properly captured,
classified, recorded, and reported in the accounting system as non-Global War on Terror obligations for the Operation
Noble Eagle program. These transactions did not pass the validation test because they were incorrectly reported as
non- Global War on Terror Operation Noble Eagle in the Global War on Terror report. These items do not belong
to the Operation Noble Eagle program and should not have been included in the report. A recommendation to
implement controls and procedures to identify and isolate Operation Noble Eagle costs from other non-Global War
on Terror, and to ensure that Operation Noble Eagle is the only non-Global War on Terror category included in the
Global War on Terrorism report was made to the Resource Management/ Comptroller Department (M8) of the U.S.
Navy Bureau of Medicine and Surgery. The Bureau agreed with our recommendation. Management concurred with
and took corrective action to close the recommendation.
44
                                                                                                                                          Semiannual Report to Congress
Ongoing Audits
....................................................................................................................................................................................

Department of the Navy Acquisition Checks and Balances at Naval Support Activity, Bahrain and Dubai: The
objective is to verify that DoN checks and balances for Bahrain and Dubai acquisitions are in place to detect, deter,
and prevent fraud, waste, and abuse in compliance with federal, DoD and DoN acquisition requirements.
	
Department of the Navy Disbursing Checks and Balances at Naval Support Activity, Bahrain and Dubai: The
NAVAUDSVC is verifying that DoN checks and balances for Bahrain and Dubai disbursements are in place to detect,
deter, and prevent fraud, waste, and abuse in compliance with federal, DoD, and DoN acquisition requirements.

Department of the Navy Acquisition Checks and Balances – Djibouti: The NAVAUDSVC is verifying that DoN
checks and balances for acquisitions are in place to detect, deter, and prevent fraud, waste, and abuse in compliance
with federal, DoD, and DoN acquisition requirements.

Department of the Navy Disbursing Checks and Balances – Djibouti: The NAVAUDSVC is verifying that DoN
checks and balances for disbursements are in place to detect, deter, and prevent fraud, waste, and abuse in compliance
with federal, DoD, and DoN acquisition requirements.

Department of the Navy Acquisition Checks and Balances – WESTPAC: The NAVAUDSVC is verifying that
DoN checks and balances for Yokosuka and Okinawa Japan; Singapore; and Pearl Harbor, Hawaii acquisitions are in
place to detect, deter, and prevent fraud, waste, and abuse in compliance with federal, DoD, and DoN acquisition
requirements.

Department of the Navy Acquisition and Disbursing Checks and Balances at Naval Facilities Engineering
Command, Bahrain: The NAVAUDSVC is verifying that the DoN checks and balances for Bahrain acquisitions and
associated disbursements are in place to detect, deter, and prevent fraud, waste, and abuse in compliance with federal,
DoD, and DoN acquisition and disbursing requirements.

Marine Corps Small Arms: The NAVAUDSVC is verifying that the Marine Corps’ small arms allowances and
inventories are adequately maintained and maintenance production is sufficient to support and sustain requirements.

Department of the Navy’s Inventory Controls over Communications Security Equipment on Ships: The NAVAUDSVC
is verifying that internal controls over inventories of serialized Communication Security Equipment on naval ships are
effectively controlled and managed.

SMC Critical Infrastructure Protection Program: The NAVAUDSVC is verifying that a strategy has been
formulated to mitigate the impact of the loss of DoD centralized Critical Infrastructure Protection funding, and assess
the effectiveness of current planning and management efforts to support the Marine Corps Critical Infrastructure
Protection Program.

Navy Antiterrorism Program Execution: The NAVAUDSVC is verifying that Navy installation vulnerabilities
and achievement of Antiterrorism Strategic Plan goals and objectives are being recorded, tracked, and reported; and
management of Antiterrorism execution is in accordance with applicable DoD and DoN policies and guidance.


                                                                                                                                                                                45
Department of Defense Inspector General
Protection of Navy Personnel and Installations from Chemical, Biological, Radiological, Nuclear, or High-Yield
Explosive Attack: The NAVAUDSVC is verifying that the Joint Project Management Guardian provided the required
Installation Protection Program Lite equipment and associated training to Navy Installations and the Installations
are prepared to respond to Chemical, Biological, Radiological, Nuclear incidents using the Installation Protection
Program Lite equipment.

Consideration of Safety and Occupational Health Issues in Acquisition – Joint Strike Fighter: The NAVAUDSVC
is verifying: the existence and assess the validity of a noise waiver for the Joint Strike Fighter aircraft; and that safety
and occupational health issues are addressed during the acquisition process of the Joint Strike Fighter through efforts
to mitigate their identified maintainer noise hazard.

Consideration of Safety and Occupational Health Issues in Acquisition – F/A-18 and EA-18G: The NAVAUDSVC
is verifying that safety and occupational health issues are addressed during the acquisition process of the F/A-18 and
EA-18G through efforts to mitigate their identified noise hazards.

Consideration of Safety and Occupational Health Issues in Acquisition - Expeditionary Fighting Vehicle: The
NAVAUDSVC is verifying that safety and occupational health issues are addressed during the acquisition process of
the Expeditionary Fighting Vehicle through efforts to mitigate their identified noise and vibration hazards.

Consideration of Safety and Occupational Health Issues in Acquisition – CVN 21: The NAVAUDSVC is verifying
that safety and occupational health issues are addressed during the acquisition process of the CVN 21 through efforts
to mitigate their identified noise and vibration hazards.

Consideration of Safety and Occupational Health Issues in Acquisition – Summary: The NAVAUDSVC is
summarizing findings and determine systemic weaknesses regarding the consideration of safety and occupational
health issues during the acquisition process of selected DoN major weapon systems and platforms.

Management and Implementation of the Marine Corps Hearing Conservation Program: The NAVAUDSVC is
verifying that the management and implementation of the Marine Corps’ hearing conservation program is effective in
protecting the hearing of the Corps’ personnel.

Anti-Submarine Warfare Enterprise and Control Framework: The NAVAUDSVC is verifying the effectiveness
of the Anti-Submarine Warfare enterprise control framework in identifying, implementing, and measuring critical
capabilities and priorities.

Notice of Ammunition Reclassification Program Utilization: The NAVAUDSVC is verifying the efficiency and
effectiveness of the Notice of Ammunition Reclassification process.

Deployed Theater Accountability System: The NAVAUDSVC is verifying the effectiveness of the DTAS as a Marine
Corps tool for tracking in-theater service members.

Transition Assistance Management Program: The NAVAUDSVC is verifying that appropriate non-end of active
service and end of active service members are receiving pre-separation counseling 90 or more days prior to their
separating from the Marine Corps.



46
                                                                                              Semiannual Report to Congress
Reserve Headquarters System Accuracy: The NAVAUDSVC is verifying that: Reserve Headquarters System data
is accurate, reliable, and supports current operations; and that Reserve Headquarters System is properly prepared to
migrate to the Defense Integrated Military Human Resource System.

Reporting of Safety Mishaps: The NAVAUDSVC is verifying that the Navy’s current safety mishap reporting processes
are efficient and effective.

Utilization of Navy Medical Assets: The NAVAUDSVC is verifying that DoN medical assets are being used
effectively.

Americans with Disabilities Act and Personally Identifiable Information Guidance at Department of the Navy
Fisher Houses: The NAVAUDSVC is verifying that DoN Fisher Houses are in compliance with the Americans with
Disabilities Act and DoN guidance on handling and disposal of Personally Identifiable Information.

Department of the Navy Fisher House Operations: The NAVAUDSVC is verifying that appropriate management
controls and practices are used to ensure successful DoN business operations.


                   Naval Criminal Investigative Service

The Naval Criminal Investigative Service supports efforts aimed at detecting, deterring and disrupting terrorism against
DoD and DoN personnel and assets worldwide. NCIS employs a wide array of offensive and defensive capabilities to
the mission of combating terrorism. Offensively (counterterrorism), it conducts investigations and operations aimed at
interdicting terrorist activities. Defensively (antiterrorism),
NCIS supports key DoN leaders with protective services and
performs vulnerability assessments of military installations
and related facilities to include ports, airfields, and exercise
areas to which naval expeditionary forces deploy.

NCIS special agents, analytical and support personnel,
are deployed around the globe to support combating
terrorism. Special agents and analysts supported the Multi-
National Forces Strategic Counterintelligence Directorate
– Iraq to fulfill operational and strategic counterintelligence
requirements and support to the combatant commanders.
Special agents detailed to the Multi-National Forces-West
advised the Commanding General on criminal investigations,
                                                                              NCIS participates in Joint Terrorism Task Forces.
terrorism, and CI within the Iraqi Theatre of Operations.
They also provided CI and criminal investigative support to
the Marine Expeditionary Forces, Iraq.

Additionally, special agents deployed to Balad, Iraq as the Task Force CI Coordinating Authority; to the USMC Joint
Prosecution and Exploitation Center to conduct criminal investigations and crime scene exploitation/evidence analysis
on insurgency suspects for prosecution by the Central Criminal Court of Iraq; and for CI to the Naval Expeditionary


                                                                                                                             47
Department of Defense Inspector General
Combatant Command. Special agents deployed to the Multi-National Security Transition Command-Iraq as part
of the Intelligence Transition Teams working directly with Coalition Armed Forces and Iraqi Security forces. The
ITTs serve as advisors to respective sections within the Iraqi Government to assist in establishing a new defense and
criminal intelligence structure. In addition, special agents deployed to support the Multi-National Forces Strategic
Counterintelligence Directorate-Afghanistan to fulfill operational and strategic CI requirements and provide support
to theater commanders.

NCIS devoted numerous resources on CI, force protection and protective service operations to Navy and Marine forces
in Kuwait, the Horn of Africa and onboard Naval combatants including the USS Enterprise (CVN-65), USS Harry
S. Truman (CVN-75), USS Nassau (LHA-4), USS Kearsarge
(LHD-3), USS Tarawa (LHA-1), USS Kitty Hawk (CV-63),
USS Blue Ridge (LCC-19), USS Chester Nimitz (CVN-68),
USS Abraham Lincoln (CVN-72), and USS Peleliu (LHA-5).

In support of U.S. Navy port visits, NCIS provided all-source
analysis of terrorist, foreign intelligence service, criminal and
medical threats at port locations visited by U.S. Navy and
Marine Corps assets. Special agents and physical security
specialists provided force protection support to all U.S. Navy
ships including Navy and Marine Corps expeditionary forces in
foreign ports designated as having high, significant, or critical
levels of threat from terrorism, foreign intelligence, or criminal
activity. During this reporting period, NCIS supported 379
U.S. Navy ship visits to ports throughout the world. This                     NCIS special agents boarding a chopper in Iraq.
support included leveraging liaison relationships with key host nation
law enforcement and security officials, and exploiting established source
networks and providing actionable intelligence to deployed commanders.

NCIS provided personal security to high risk personnel including the Chairman, Joint Chiefs of Staff, the Commander,
Combined Joint Task Force, Horn of Africa and foreign dignitaries. Other noteworthy accomplishments include
NCIS participation on the Criminal Investigations Task Force, Cyberspace Operations and Forensics.

The NCIS Cyber Department implemented operations to obtain and forensically review seized cell phones, computer
hard drives and removable electronic media in the U.S. Central Command area of operations. The results of these
forensic efforts were used to enhance U.S. Marine Corps intelligence collection efforts to specifically identify and
target insurgents and insurgency networks. They also obtained and analyzed electronic data from forward-deployed
NCIS technical resources to identify pre-operational surveillance by individuals with terrorist motivations.

NCIS also provided forensic crime scene expertise to death investigations conducted in support of deployed Navy
and Marine Commands to Iraq, Afghanistan and Horn of Africa. Forensic consultants provided real-time forensic
support to deployed special agents conducting more than 20 death investigations in theater, encompassing all causes
and manners of death. These consultants were also called on to provide support to 14 autopsies in connection with
non-combatant deaths in Iraq, Afghanistan, Bahrain, and Africa.



48
                                                                                           Semiannual Report to Congress
                                                                 U.S. Air Force


                                                  Air Force Audit Agency

During the 6-month period ending September 30, 2008, the Air Force Audit Agency completed two audits directly
related to the Global War on Terror. The Air Force Audit Agency has eight ongoing and five planned Global War on
Terror-related audits conducted in the United States Air Forces Central Overseas
Area of Responsibility. In addition, the Air Force Audit Agency completed six
audits and has six ongoing audits related to the Global War on Terror, not
conducted in the United States Air Forces Central Area of Responsibility. For
Official Use Only audit reports are discussed in the Classified Annex to the
Semiannual Report to Congress and the Semiannual Compendium of DoD
Intelligence-Related Inspector General and Audit Agency Reports.

Rotation Status: The Air Force Audit Agency utilizes about eight percent of
available auditors per year on Global War on Terror-related audits. Twice a year,
the Air Force Audit Agency deploys temporary teams into the United States Air                                                   AFAA Rotation 5 team in Southwest Asia.
Forces Central Area of Responsibility to perform mobile 7- to 8-week audits.

Completed GWOT Audits in the AOR
....................................................................................................................................................................................

United States Air Forces Central Deployed Locations Aerial Port Operation: The mission of United States Air
Forces Central United States Air Forces Central aerial ports is to provide air transportation within the United States
Central Command Area of Responsibility. United States Central Command designated United States Air Forces
Central as the executive agent for all services’ aerial port operations within the United States Central Command
Area of Responsibility. During 2007, United States Central Command aerial ports executed over 14,400 missions
transporting 970,000 tons of cargo and 3,000,000 passengers. This audit disclosed United States Air Forces Central
personnel did not efficiently use airlift capacity. A review of November 2007 outbound Air Force aircraft missions
revealed United States Air Forces Central personnel did not use 47 percent of total available cargo pallet positions.
Additionally, of the 1,297 missions reviewed, 21 percent were empty while 44 percent utilized less than 50 percent of
available pallet space. Further, although aerial port personnel effectively processed cargo reimbursements, personnel at
two of five locations reviewed did not effectively manage contractor passenger travel reimbursements. Reimbursement
for prior contractor travel as well as establishing effective controls over future travel at Balad and Bagram Air Bases
would result in an additional $26.1 million in contractor reimbursements over the 6-year Future Years Defense Plan.
Lastly, aerial port personnel did not effectively manage cargo and passenger movement. Specifically, personnel did
not timely process cargo, properly manage deleted cargo, restrict Global Air Transportation System database access,
accomplish or maintain support for cargo inventories, nor did they effectively manage passenger movement.




                                                                                                                                                                                49
Department of Defense Inspector General
Cancelled Iraq Reconstruction Program Task Orders: The Air Force Center for Engineering and the Environment
manages Iraq Reconstruction Program contracts and task orders for the Multi-National Security Transition Command
- Iraq. To accomplish reconstruction projects, Air Force Center for Engineering and the Environment establishes
Indefinite Delivery, Indefinite Quantity contracts for environmental and construction projects and issues task orders
for these contracts to complete specific construction projects. From FY 2003 through January 31, 2008, Air Force
Center for Engineering and the Environment cancelled 25 reconstruction projects task orders, valued at over $308
million. This review concluded Air Force Center for Engineering and the Environment officials did not always
effectively manage cancelled reconstruction projects task orders. Specifically, Air Force Center for Engineering and the
Environment officials did not base fixed fee payments on the percentage of contractor work completed as required.
Disallowing unearned fixed fee requests and obtaining reimbursement for unearned fixed fees paid will provide the
Air Force over $1.78 million of additional funds that can be used for other funding priorities. Additionally, Air Force
Center for Engineering and the Environment contracting officials did not properly approve subcontracts totaling
$24.8 million for the Ellis Corp. task order.

Ongoing Audits in the United States Air Forces Central AOR
....................................................................................................................................................................................

United States Air Forces Central Civil Engineering Materials: This audit will determine whether United States Air
Forces Central personnel justified civil engineering material purchases; purchased civil engineering materials in a cost-
effective manner; and maintained accountability of civil engineering materials.

Iraq Reconstruction Closeout: This audit will determine whether civil engineer personnel effectively closed out
Air Force Center for Engineering and the Environment-managed Iraq reconstruction project funding. Specifically,
auditors will determine whether civil engineer personnel identified and requested timely return of available/excess
Operation Iraqi Freedom funds.

United States Air Forces Central Management of Controlled Drugs: The audit, requested by the United States
Air Forces Central Commander will determine whether medical personnel effectively managed controlled drugs.
Specifically, auditors will determine whether personnel properly receive, issue, store, and protect controlled drugs.

Area of Responsibility Construction: This audit requested by the United States Air Forces Central Commander
will determine if construction in the United States Air Forces Central Area of Responsibility efficiently meets mission
requirements. Specifically, auditors will determine if construction projects adequately provided in-theater benefits and
met desired mission capabilities; if personnel utilized existing, temporary, or movable facilities when possible; and if
personnel properly programmed, authorized, and documented operations and maintenance-funded construction.

United States Air Forces Central Information Technology Equipment: This audit will determine whether United
States Air Forces Central personnel maintained appropriate information technology equipment levels to meet mission
requirements; properly controlled and accounted for information technology equipment; and properly disposed of
excess information technology equipment.

United States Air Forces Central Deployed Locations Munitions Management: This audit will determine whether
United States Air Forces Central personnel accurately account for and properly handle, store, and control munitions;
or effectively manage shelf-life components for munitions; or accurately determine munitions requirements.

50
                                                                                                                                          Semiannual Report to Congress
United States Air Forces Central Deployed Locations War Reserve Materiel Management: This audit requested by
the United States Air Forces Central Commander will determine whether personnel effectively account for, control,
and service war readiness materiel; and accurately compute war readiness materiel requirements.

Individual Body Armor: This audit will determine whether Air Force personnel maintain effective accountability and
control over individual body armor and determine whether individual body armor requirements are accurate.

Completed Audits not in United States Air Forces Central AOR
....................................................................................................................................................................................

MQ-1 Predator Asset Maintenance and Accountability: The MQ-1 Predator Unmanned Aerial System is a medium-
altitude, long-endurance, remotely piloted aircraft. The MQ-1’s primary mission is interdiction and conducting
armed reconnaissance against critical, perishable targets. The MQ-1 Predator system consists of aircraft, support
and communication equipment, and flight control stations. As of April 2007, the Air Force had 62 Predators and
about 2,700 related support equipment items, valued at more than $600 million. The audit concluded Air Force
personnel did not update unit type code manpower and logistic data or right-size the Predator unit type code to meet
operational needs and transportation requirements. Additionally, although maintenance personnel accurately recorded
maintenance actions in the Core Automated Maintenance System/Integrated Maintenance Data System at all three
locations reviewed, Predator maintenance personnel did not always accomplish required maintenance in a timely
manner. Maintainers completed mission critical time-change and inspection actions as much as 10 percent past required
time limits. Lastly, installation personnel did not properly maintain Predator program equipment accountability. An
inventory of 2,700 equipment items valued at more than $12.1 million disclosed Predator personnel did not accurately
record or could not locate 847 equipment items (31 percent) totaling over $5.5 million.

Protective Gas Masks: The chemical warfare defense ensemble is used to counter the complex and varied threats
from chemical and biological weapons. The most important piece of the ensemble, the protective gas mask, requires
the highest level of training to instill confidence in its users. As of July 27, 2007, the Air Force had approximately
443,000 masks in-use at Air Force installations with an additional 79,000 masks in the logistics center warehouse.
On September 30, 2007, the gas mask inventory was valued at $75 million. The audit determined the Air Force
did not effectively manage the gas mask program. Specifically, logistics personnel overstated gas mask procurement
requirements by more than 90,000 masks. Effectively identifying gas mask buy requirements will allow the Air Force
to cancel unnecessary requisitions and will provide the Air Force more than $13 million for other funding priorities.
Additionally, Air Force personnel did not effectively maintain mission ready gas masks. At 27 units reviewed, 2,543
(69 percent) of 3,697 masks had defects, including 881 (24 percent) unserviceable masks. Lastly, logistics personnel
did not maintain accurate gas mask accountability. An inventory of gas masks identified more than 8,000 inventory
errors at 16 locations. Properly accounting for gas masks prevents losses and identifies shortages or overages that would
have a negative impact on readiness capabilities or cause unnecessary expenditures for masks.

The Air Force also conducted audits in the areas of Weapons of Mass Destruction, medical responses from the Air
National Guard and also Continuity of Operations, the reports are classified as For Offical Use Only.




                                                                                                                                                                                51
Department of Defense Inspector General
Ongoing Audits not in the Untied States Air Forces Central AOR
....................................................................................................................................................................................

Selected Aspects of Deployment Management: The Director of Logistics Readiness requested this audit. During
the audit planning phase, auditors will determine whether the subject is appropriate for audit in the near future and,
if so, to formulate audit objectives. The auditors will discuss and examine deployment processing policy, guidance,
and standardization for both military and civilian deployments; as well as Installation Deployment Officer roles,
responsibilities, training, and tools.

Chemical, Biological, Radiological, and Nuclear Installation Protection Program: This ongoing audit will
assess whether the Air Force effectively and efficiently manages the Chemical, Biological, Radiological, and Nuclear
Installation Protection Program. Specifically, the audit will determine whether Air Force personnel properly identify
initial requirements, procurements, sustainment, training, and manning roles and responsibilities; and correctly
implement the program to meet Air Force needs.

Medical War Reserve Material Asset Management: This audit, in the research phase, was requested by the Air
Force Surgeon General to determine whether Air Force officials effectively manage medical war reserve material.
Specifically, auditors will evaluate whether officials accurately establish requirements, properly maintain war reserve
material equipment and supplies, or correctly report war reserve material status.

Post-Deployment Assessments: This ongoing audit will determine whether officials complete required mental and
physical health screening for all returning Airmen. Specifically, auditors will assess if medical persons complete all post-
deployment health assessments and identify Air Force members at risk.

Air Expeditionary Force Unit Type Code Reporting Tool: This ongoing audit will assess whether Air Expeditionary
Force reporting accurately reflects Air Force readiness and commanders ensure the Air Expeditionary Force Reporting
Tool data are complete, accurate, and effectively used to improve readiness. Specifically, auditors will determine
whether Air Force officials accurately and timely report unit readiness status in ART, effectively manage the shortfall
and reclaim process, or effectively use ART data to support resource reallocation, request additional funding or request
manpower.

Vulnerability Assessment: This ongoing audit will evaluate the effectiveness of the Air Force vulnerability assessment
program. Specifically, auditors will assess whether vulnerability assessments were properly performed, reliable information
was identified and tracked, funding requirements were identified, and executed properly, and vulnerabilities were
mitigated.

                             Air Force Office of Special Investigations


AFOSI is a combat-ready military organization that provides the Air Force a wartime capability to conduct, in hostile
and uncertain environments, counter-threat operations to find, fix, track, and neutralize enemy threats. It is the Air
Force’s focal point for working with the U.S. and foreign nation law enforcement and security services to provide
timely and accurate threat information in all environments. AFOSI conducts Outside the Wire/Counterintelligence
Force Protection Source Operations and provides real time actionable information in the form of target packages


52
                                                                                                                                          Semiannual Report to Congress
to Direct Action Units. Its GWOT mission includes tactical collections, analysis, production and dissemination of
actionable threat information affecting USAF airfields, personnel, and resources. AFOSI is the USAF’s eyes and ears
providing intelligence to DoD and Coalition Forces.

AFOSI conducted military source operations to cultivate local sources that provided information that mitigated threats
from enemy forces. Below are the results of those efforts:

•	 Threats Identified - Total: 3,191 (individuals linked to insurgent groups, terrorist groups, or intelligence services,
   who represent a threat to USAF installations/resources)

•	 Target Packages – Total: 96 for exploitation (targeting information provided to Direct Action authorities such as
   (U.S. Army, Coalition Forces, and Host Nation Police, Army, Special Operations Forces, etc)

•	 Captured/Neutralized – Total: 216 (individuals identified in Target Packages who were captured/neutralized by
   direct action units, of whom 63 were identified as leaders, with 47 of those classified as High Value)

•	 Weapons Caches – Approximately four tons of weapons and explosives were recovered (to include rifles, improvised
   explosive device components, anti-aircraft guns, rocket propelled grenades, rockets, mortars, and suicide vests).

•	 Other Threats – Total: 58 (threats detected but not linked to a specific counter-threat operation)

Using source information and working with coalition forces and Direct Action units, AFOSI operations in Iraq and
Afghanistan led to the capture/killing of 13 Al Qaeda and 70 Taliban personnel. Developed source information was
also used in capturing/killing an additional 107 insurgents and fighters of various other affiliations. The backgrounds
of those captured or killed included job titles such as commander, planner, recruiter, death squad leaders, kidnappers,
snipers, explosively formed projectile/IED makers/emplacers/suppliers and financiers, indirect-fire shooters and/or
spotters, and assassination cell leaders.

At Kandahar Air Field, Afghanistan, AFOSI special agents aided the NATO community in reducing rocket attacks
by 30 percent, with no attacks for 47 days; an accomplishment unmatched in any comparable time period of 2008.
Additionally, AFOSI source reporting led to exploiting 5 narcotics sites and the destroying 248 tons of drugs,
depriving the Taliban of $721 million. This monumental achievement is recognized as the largest drug bust in U.S.
law enforcement history. Below are photos of the narcotics seized/destroyed by AFOSI at Kandahar.




                                                                                                                      53
Department of Defense Inspector General
AFOSI agents continue to develop and successfully exploit their source network. At Kirkuk Air Base, Iraq, the
source network identified numerous imminent threats that were neutralized before any attacks occurred. On one
occasion a source provided the location of an improvised explosive device emplaced to kill Coalition Forces; the IED
was identified and disarmed, saving numerous lives. In another incident, an AFOSI source provided information
about a planned suicide vest attack against CF, resulting in the Iraqi Police arresting nine Al-Qaeda in Iraq, effectively
thwarting the attack. Another source provided an imminent threat warning of a pending AQIZ rocket attack against
Kirkuk Air Base, resulting in leadership alerting base personnel to seek shelter. Subsequently, CF and Iraqi Police
located and disarmed five improvised rocket launchers set to launch within the hour.

AFOSI counter-threat operations in and around Baghdad International Airport, Iraq produced 53 insurgent captures,
thereby assisting to pacify the battle space around Victory Base Complex. These captures are direct results of AFOSI
counter-threat operations against Sunni and Shi’a
extremist activities against Coalition Forces. This total
resulted from numerous high threat outside-the-wire
operations which identified and thwarted multiple
indirect fire cells, IED cell leaders and emplacers, and
weapons traffickers in the surrounding area.

Also in the vicinity of Baghdad International Airport,
Iraq, U.S. Army battle space owners look to AFOSI
counter-threat operations as their first choice to assist in
identifying multiple insurgents before and after a major
cell capture. Multiple AFOSI sources were used to gather
information to positively identify 31 insurgents with
multiple offenses against Coalition and Iraqi forces, and
AFOSI reporting identified an additional 20 insurgents
targeted for their associated activities in the area.
                                                                                                 AFOSI special agents in Iraq.
At Sather Air Base, Baghdad, Iraq, AFOSI operationalized counter intelligence source
collections to aide in the joint AFOSI/Multi National Corps-Iraq/Multi National
Division-Baghdad capture of a corrupt host nation police commander associated with Shi’a extremist groups and
attacks on CF. AFOSI direct source information was used to positively identify and trigger the direct action unit to
initiate capturing the subject as he attempted to flee the country.

AFOSI source information helped identify the cell leader of a Shi’a insurgent group who conducted multiple IED
attacks and ordered a rocket attack on Sather Air Base, Iraq. This source provided life patterns and locations for this
terrorist leader, and the AFOSI collections team identified when to leverage technology to guide the direct action unit
to the location to affect the capture. The capture was assessed as a significant set back to facilitating weapons and
insurgent movement in that area.

AFOSI counter-threat operations activities around Sather Air Base, Baghdad, Iraq, identified the specific location of
a MNC-W High Value Individual which was used to trigger the capture of this cell leader. He was responsible for
multiple IED attacks on a major supply route in western Baghdad. Additionally, AFOSI was responsible for providing



54
                                                                                             Semiannual Report to Congress
the only Counterintelligence information on a battalion level HVI responsible for major attacks in central Baghdad.
AFOSI source operations were key to the target package and ultimately used as a trigger to capture this cell leader.

AFOSI is the predominant provider of targeting intelligence for the battle space owner at Joint Base Balad, Iraq, and
the BSO’s HVI list is built almost solely on AFOSI source reporting. Around JBB, AFOSI special agents provided
information on HVIs so rapidly that a capture was made every 96 hours.

AFOSI counter-threat operations have driven Indirect Fire Attacks against JBB to their lowest point. Attacks in August
2008 were 7 versus 37 during the same month the prior year, due to targeted operations against IDF leadership. AFOSI
uncovered the modus operandi of IDF shooters attempting to gain distance, direction, and coordinates of reference
locations to hit JBB with mortars and rockets. Observation posts were notified and the threat was neutralized.

AFOSI special agents at JBB handled a highly sensitive source that provided pattern of life details on a subject believed to
have been involved in the murder of three AFOSI special agents. Consistent meets and levies led to joint coordination
with a direct action unit and the subject was captured and is now awaiting prosecution in Iraqi court.

AFOSI operating at Bagram Air Field, Afghanistan, capitalized on a robust human source network as agents levied
sources for information on suspected Taliban force movements. Agents quickly identified the location and intended
target of a group of approximately 30 - 50 Taliban forces, and coordinated this time sensitive information with
Coalition Force air and ground assets enabling engagement of the enemy before the Taliban could form an attack
on their intended target. The engagement resulted in 14 Taliban killed in action and the disbursement of Taliban
forces.

Agents at Bagram Air Field, Afghanistan, recruited, vetted, and trained a strong network of confidential informants
throughout several provinces to provide detailed information on an IED network operating in Eastern Afghanistan.
Agents’ efforts to identify the key players within the network and aggressive liaison with direct action units led to the
seizure of IED making material and recovery of a suicide vest. That recovery led to the fully uncovering the network
and identified the major IED facilitators, traffickers, financiers, and commanders driving the operations. AFOSI
reporting also preempted several IED attacks targeting Coalition Forces by identifying exact device locations placed
along routes Coalition Forces frequently traveled. This early warning system was then utilized by ground troops in the
area and the IEDs were neutralized and exploited for further information. As a result, AFOSI source reporting helped
to find, fix, and track key leaders within the network leading to the capture/kill of 13 HVIs operating as insurgent
commanders within a 6 month period. AFOSI’s continued efforts and cooperation with key units severely disrupted
a Taliban/Hezb-e Islami Gulbuddin stronghold in Eastern Afghanistan and forced a major insurgent withdrawal from
the area, ensuring the freedom of movement and safety of Coalition Forces in that province.

AFOSI special agents at Bagram Air Field, Afghanistan, reenergized counter-threat operations within the Bagram
Security Zone leading to the identification of known weapons traffickers and key insurgent commanders operating
close to the airfield. These efforts identified key leadership nodes for the weapons trafficking and “death squads”
focused on intimidating local villages in the area by using targeted kidnappings and killings. These efforts highlighted
a disturbing trend in insurgents’ efforts to manipulate the security environment around the airfield and have led to an
increased security effort by battlespace elements to monitor these developments.




                                                                                                                         55
Department of Defense Inspector General
 At Ali Air Base, Iraq, AFOSI special agents and TSE members identified a child with third degree burns over 40 percent
of his body during a routine combat mission. The unit subsequently planned, led and executed an urgent medical
mission which ultimately saved the child’s life, winning hearts and minds within the local village. During another
outside-the-wire mission, they coordinated emergency
surgery for a local Sheik suffering from infection and
accompanied the Sheik on his MEDEVAC flight
to Balad Air Base, Iraq. Furthermore, AFOSI/TSE
ultimately assisted in distributing 1200 school supply
packages (see below picture); 3,500 pounds of building
material; and clothing to local villages. The unit also
helped improve the quality of life for over 25 families
and earned the trust of village Sheiks, thus allowing
special agents to cultivate new intelligence sources
which resulted in a more pacified battlespace.

 At Ali Air Base, Iraq, special agents developed actionable
intelligence for senior military leaders resulting in the
capture and detainment of five HVIs, including the
unit’s number one target responsible for indirect fire
attacks and IED attacks on coalition forces. Additionally, the agents obtained actionable          AFOSI special agents in Iraq.
intelligence on an impending indirect fire attack on coalition forces, allowing airborne
assets to engage the insurgents, saving coalition lives. As a result, IDF attacks against Ali
Air Base decreased over 70 percent this year.

At Ali Air Base, Iraq, AFOSI, working jointly with the U.S. Army, pushed counterinsurgency operations farther east
outside the Joint Operating Area than in recent years. This expanded Civil Affairs capability and pushed AFOSI
influence into previously unvisited villages in the JOA. AFOSI facilitated a $7,000 Civil Affairs project to repair a
dilapidated school in a neighboring village strategic to base security.

AFOSI at Ali Air Base, Iraq, provided critical intelligence for over 30 joint Predator missions to support ground
combat operations that resulted in the capture of nine individuals. AFOSI efforts also identified three improvised
explosive devices for ground forces to avoid during operations. In total, Joint AFOSI/Predator missions resulted in
the identification of 276 unexploded pieces of ordnance.

In Southern Iraq, AFOSI counter-threat-operations via source information led to the tip-off and discovery of a five-
array Explosive Formed Penetrator and the capture of two terrorists involved in IED attacks against coalition forces.
The British Explosive Ordnance Disposal identified the five-array EFP as the largest EFP discovered to date in MND-
SE. Also, while conducting Counterintelligence Force Protection Source Operations in Kuwait, AFOSI identified
an HVI traveling to and from Southwest Asian countries establishing a pattern of life for other agencies to target for
action.




56
                                                                                                Semiannual Report to Congress
Chapter 2:
DoD IG
Oversight
Statistical Highlights
         The following statistical data highlights Department of Defense Inspector General activities and
               accomplishments during the April 1, 2008 to September 30, 2008 reporting period.

Investigations1
Total returned to the U.S. Government................................................................................................$397.6 million
	
	       Seizures and Recoveries................................................................................................................$1.4 million
	       Civil Judgments........................................................................................................................$206.9 million
	       Criminal Judgments.................................................................................................................$180.6 million
	       Administrative Judgments............................................................................................................$8.6 Million
		
Investigative Cases
	       Indictments...............................................................................................................................................214		
	       Convictions...............................................................................................................................................155		
	       Suspensions.................................................................................................................................................24		
	       Debarments.................................................................................................................................................78


Audit
Audit Reports Issued................................................................................................................................................64
Monetary Benefits

	          Recommendations Made on Funds Put to Better Use...............................................................$742.7 million
	          Achieved Monetary Benefits (Funds Put to Better Use)............................................................$907.5 Million

Policy and Oversight
Existing and Proposed Regulations Reviewed.........................................................................................................193
Evaluation Reports Issued........................................................................................................................................23
Inspector General Subpoenas Issued.......................................................................................................................187
Voluntary Disclosure Program Recoveries.....................................................................................................$210,000


Hotline Activities
Contacts.............................................................................................................................................................6,876
	      Cases Opened.........................................................................................................................................1,064	
	      Cases Closed...........................................................................................................................................1,088
Dollar Recoveries......................................................................................................................................$1.5 million
1	         Includes investigations conducted jointly with other federal and Defense Criminal Investigative Organizations.

58
                                                                                                                                 Semiannual Report to Congress
Oversight Highlights
Opening of Korea and Germany Offices

In July 2008, the Deputy Inspector General for Auditing continued its field office expansion program by opening
new audit field offices in Seoul, Korea and Stuttgart, Germany. These offices join offices already operating in Iraq
and Afghanistan. The office in Korea provides audit oversight of U.S. Forces Korea and the Defense agencies that
operate on the Korean peninsula. The Stuttgart office, to be joined by another office in Kaiserslautern opening in
October 2008, provides audit oversight of the U.S. European Command, the U.S. African Command, and Defense
agencies. We also expect to open additional audit field offices in Honolulu, Hawaii, and Tampa, Florida. When
completed, the field office expansion program will enable the Joint and Overseas Operations Directorate to provide
more comprehensiveaudit support to all of the OCONUS unified commands.

Inadequate Cost Controls

On May 23, 2008, the DoD IG issued a report on “Hurricane Relief Effort Costs on the Navy Construction Capabilities
Contract.” The DoD IG determined that Kellogg, Brown, and Root issued sole-source or limited competition
subcontracts. As a result, roofers were paid excessive hourly rates, paid $4.1 million for meals and services that should
have cost $1.7 million, and paid a markup on material and equipment of $7.2 million that increased proportionally
to increases in material costs expended in performance, an illegal cost-plus-percentage-of-cost system of contracting.
The photos below shows typical tasks that KBR and its subcontractors performed.




Illegally Exporting Potential Military Components                                                 “Dual Use” Component


The Defense Criminal Investigative Service was among several agencies involved in a case
leading to the indictment of eight foreign nationals and eight corporations charged with
illegally exporting potential military and explosives components to Iran. The superseding
Indictment alleges that the defendants purchased, and then illegally exported to ultimate
buyers in Iran, numerous “dual use” commodities. “Dual-use” commodities are goods
and technologies that have commercial application, but could also be used to further the
military or nuclear potential of other nations and could be detrimental to the foreign
policy or national security of the United States.


                                                                                                                         59
Department of Defense Inspector General
 Audit Oversight
        A look at the audits conducted by the
        Department of Defense Inspector General


                               Audit significant activites are listed under the following categories:
The Office of the Deputy Inspector General for Auditing
                               •	 Acquisition Process and Contract Management
conducts audits on all facets of DoD Operations. The
                               •	 Financial Management
work results in recommendations reducing costs,
                               •	 Health Care
eliminating fraud, waste, and abuse of authority, improving
                               •	 Information
performance, strengthening internal  controls, andSecurity
                                                    achievingand Privacy
                               •	  Other
compliance with laws, regulations, and policies. Audit
topics are determined by law, requests from the Secretary
of Defense and other DoD leadership, Hotline allegations,
congressional requests, and internal analyses of risk in DoD
programs.
	
The value and return on investment are measured through
both monetary and other benefits, including improving
business operations, complying with statute or regulations,
improving national security, identifying potential monetary
benefits, and improving effectiveness of the services
members, and life and safety issues.

For the second six months of FY 2008, ODIG-AUD issued
64 reports addressing the Department’s operations and efforts
associated with the Global War on Terror, acquisition and
contracting for goods and services, financial management,
health care, and information security and privacy. The
ODIG-AUD also identified $742.7 million in funds that
could be put to better use.




60
                                                                                     Semiannual Report to Congress
AUDITING




DoD IG significant accomplishments in Audit are listed under the following categories:

•	   Acquisition Processes and Contract Management
•	   Financial Management
•	   Health Care
•	   Information Security and Privacy
•	   Other



                                                                                         61
Department of Defense Inspector General
                                                                                                 employees, the Department increases
                                                                                                 risk within contract management
                                                                                                 which had already been reported by
FEATURED ARTICLE



                                                                                                 the Government Accountability Office
                                                                                                 as a high risk area. This is especially
                                                                                                 true when contractors are performing
                                                                                                 tasks closely associated with source
                                                                                                 selection and surveillance. Major
                                                                                                 prime contractors have, in many cases,
                                                                                                 assumed responsibilities for selection
                                                                                                 and oversight of subcontracting with
                                                                                                 little or no government involvement.
                                                                                                 The increased use of contractors when
                                                                                                 combined with the urgencies created
                                                                                                 by contracting for contingency
                                                                                                 operations in Iraq, Afghanistan, and
                                                                                                 contingency situations after natural
                                                                                                 disasters such as Hurricane Katrina
                                                                                                 creates an environment ripe for fraud,
                                                                                                 waste and abuse.

                   Acquisition Processes and                                                     Our audit coverage during the past 6
                                                                                                 months has reported problems related
                   Contract Management                                                           to contracting during contingencies
                                                                                                 and contractor influence on an
                   The DoD acquisition and contracting that DoD is relying on contractors        economic price adjustment factor
                   community, in an attempt, to        to perform tasks that closely support     as well as continuing issues with
                                                       inherently governmental functions
                   manage the large increases in defense                                         adherence to guidance for major
                   spending with a smaller and less    such as contracting support,              weapons programs and directing
                   capable workforce have increasingly intelligence     analysis,     security   contracts to preferred sources. Audit
                                                       services, program management,
                   turned to contractors to fill roles held                                      coverage also identified problems
                   by government employees. Spending   engineering, and technical support        with interagency purchases, but
                   for goods and services in FY 2007   for program offices. The GAO              improvements in this area are
                   exceeded $315 billion. This level ofsurveyed officials from 52 of DoD’s       beginning to be implemented.
                   spending is more than double the    major weapons programs. From
                   level of spending from FY 2001.     that survey they reported that over       Contracting During
                   The difference in the DoD budget    45 percent of program office staff
                   from FY 2001 and FY 2008 is just    was composed of individuals from
                                                                                                 Contingencies
                                                                                                 On the DoD IG audit of Hurricane
                   as significant. The DoD budget for  outside DoD. In addition, in August
                                                                                                 Relief Effort Costs on the Navy
                   FY 2008 including supplemental      2008, the Congressional Budget
                                                                                                 Construction Capabilities Contract,
                   and bridge funding is almost $700   Office reported that there were
                                                                                                 the audit team identified that
                   billion. The budget for FY 2001 was over 190,000 contractor personnel
                                                                                                 NAVFAC Southeast contracting
                   only $335 billion.                  supporting the war effort in the Iraq
                                                                                                 officials did not effectively implement
                                                       Theater (about the same numbers as
                                                                                                 cost control procedures for three
                   Increased                           war fighters in Iraq) and at least two
                                                                                                 CONCAP contract task orders
                   Contractor Reliance and a half times higher than the ratios                   issued to Kellogg, Brown and Root
                   The Government Accountability from other U.S. major conflicts. In             for recovery efforts associated with
                   Office reported in recent testimony allowing contractors to assume duties     Hurricanes Ivan and Katrina. As
                                                       previously performed by government

                   62
                                                                                                           Semiannual Report to Congress
a result, the Navy had no means to          In addition, because of the smaller          Contractor
measure contractor cost performance         contracting oversight workforce in           Influence on an
on task orders totaling more than           the Department, there is a struggle to
                                                                                         Economic Price
$229 million and was basically just         handle the responsibilities which come
monitoring the contractor’s spend           from increased DoD war funding.              Adjustment Factor
rate.                                       The Department is challenged to use
                                            every resource to its fullest advantage.     In another audit, a DoD IG audit team
In addition, NAVFAC Southeast               An example of this inefficiency of           found that one contractor’s actions
contracting officials also provided         resources became evident in one of           were able to significantly impact an
insufficient oversight of KBR’s             our audits on contracting. Auditors          index that determined the amount
subcontracting efforts for the three        found that TACOM Life Cycle                  of money that the contractor would
task orders. The contracting officials      Management Command and Defense               be entitled to under a clause in their
decided not to review KBR’s analysis        Contract Management Agency                   contracts. The Boeing Company’s
of subcontractor prices. KBR had            contracting officials constrained the        pension fund contributions were
an approved purchasing system and           Defense Contract Audit Agency’s              able to abnormally influence an
they thought that any problems with         ability to perform effective and             economic price adjustment factor
KBR’s subcontract pricing would             meaningful audits in support of              that would have resulted in higher
be uncovered by DCAA during its             contracts awarded to BAE Systems             payments to the contractor. These
cost incurred audits prior to the task      Land and Armaments, Ground                   pension contributions were greater
orders being closed out.                    Systems Division.           Specifically,    than actual pension expenses for
                                            contracting officials did not include        Cost Accounting Standards purposes,
Unfortunately, KBR waited until             the Defense Contract Audit Agency            creating a prepayment credit that
after the storms before soliciting firms    in the Alpha contracting process to          Boeing would expense in future years
for proposals to perform the tasks the      ensure that the DCAA could perform           through forward pricing rates. The
Navy requested. At that point, market       an effective review of material costs.       following chart depicts the company’s
forces were out of balance and there        As a result, TACOM Life Cycle                impact on a Bureau of Labor Standards
was also intense political, public, and     Management Command contracting               index that was used to determine an
operational pressure to restore lost        officials may have overpriced firm-          economic price adjustment for the
capabilities. Additionally, KBR also        fixed-price contracts awarded to             contract.
had to stabilize the buildings damaged      BAE Systems Land and Armaments,
to prevent their further deterioration.     Ground Systems Division.
At this time, demand for the labor
and material needed to perform the
repairs was at its peak.
                                                               Boeing retirement
As a result, KBR awarded sole-source                           contributions explain
                                                               more than 99 percent of
or limited competition subcontracts                            the change in the Total
that paid roofers excessive hourly rates,                      Compensation Aircraft
purchased $4.1 million of meals and                            Manufacturing Index.
services that “should have” cost $1.7
million, and paid a markup on material
and equipment of $7.2 million that
increased proportionally to increases
in material costs expended in
performance, a cost-plus-percentage-
of-cost system of contracting. The
audit team calculated that KBR paid
$540 monthly per employee for cell
phones.

                                                                                                                            63
Department of Defense Inspector General
As a result, the different accounting for   These contracts primarily were used to    some cases, tailored specifications
pension costs created a situation that      provide support for the Thunderbirds      so narrowly that competition was
would have amounted to a duplicate          Air Show. The Thunderbirds, part          limited.
recovery associated with pension            of the Air Combat Command, are
funding when Boeing charged the             a U.S. Air Force Demonstration            Major Acquisition
prepayment credits to future DoD            Squadron located at Nellis Air Force      Programs
contracts, because DoD already              Base, Nevada. The Thunderbirds’
accounted for these costs as part of        mission includes supporting Air Force     Lack of adequate controls over
the EPA for these multiyear contracts.      retention and recruiting programs, as     acquisition programs and compliance
In response to a working draft of           well as demonstrating to the public       with the DoD Acquisition guidance
this report, the Director, Defense          the professional competence of the Air    continues to challenge the Department
Procurement and Acquisition Policy          Force members. The Thunderbirds           as many programs exceed cost and
led a negotiating team that arrived         are depicted in the following picture.    schedule estimates.
at a settlement with Boeing that was
consistent with the audit results. The
negotiating team identified a higher
EPA liability of $792.9 million and
reached a settlement with Boeing for
$272.3 million (DoD would owe
Boeing $272.3 million instead of
$792.9 million) resulting in a cost
avoidance of $520.6 million for DoD
and the taxpayers.

Sole Source or
Directed Source
Acquisitions

Our audit coverage also continued
to identify problems with unjustified
sole source or directed source
acquisitions. An audit team identified
that Air Combat Command and
99th Contracting Squadron officials
                                            Similarly, on       another      audit,   As a recent example, Army acquisition
violated the Federal Acquisition
                                            contracting officials at the National     managers did not fully use memoranda
Regulation for seven of eight
                                            Defense University did not perform        of agreement to define the current
contracts reviewed including two
                                            adequate market research and included     working relationships needed to
contracts awarded on a sole-source
                                            contract specifications that were         develop Army Airborne Surveillance,
basis without seeking competition.
                                            too narrowly written on a contract        Target Acquisition, and Minefield
For six of these contracts, price
                                            awarded to Mr. Douglas Feith, former      Detection System as part of the FCS
reasonableness was not documented
                                            Under Secretary of Defense for Policy.    system-of systems.        ASTAMIDS
at the time of award.
                                            On other contracts, contracting           is    a    multi-mission/multi-mode
                                            officials advertised solicitations for    airborne payload sensor package
                                            insufficient periods of time and in       that provides day/night minefield

64
                                                                                                Semiannual Report to Congress
and obstacle detection for Assured        Interagency                           Although we identified some problems
Mobility, as well as, Reconnaissance,     Purchases                             with    inadequate       competition,
Surveillance, Target Acquisition and                                            unsupported price reasonableness
Laser Designator capabilities in a        The Department has, in many cases, determinations, and potential bona
single common payload weighing            taken positive actions in response to fide needs rule violations, these
approximately 80 pounds. The Army         our audit work and improvements problems were primarily limited to
Director, Accelerated Capabilities        and savings for taxpayers have been furniture purchases.
Developments had not begun to             achieved. The collegial work with the
develop the capability production         Director, Defense Procurement and The Interior Department’s Acquisition
document needed to support                Acquisition Policy was one example. Services Directorate has corrected
the ASTAMIDS low-rate initial             Another recent example involves prior problems associated with
production decision program review        our continuing audit coverage of advanced billings and expired funds.
planned for March 2009.          The      interagency purchases.                The Directorate no longer bills DoD
capability production document                                                  in advance and no longer uses expired
is needed to support effective and        A follow-up review on DoD purchases funds for current purchases.
efficient planning, funding, and          made through the Department of the
execution of the program. The system      Interior showed that improvements
and its attachment to an aircraft are     were occurring.
shown in the following picture.




                                                                                                                  65
Department of Defense Inspector General
Financial Management
....................................................................................................................................................................................

                                                                            The Department of Defense faces many challenges in the area of
                                                                            financial management. This is essentially caused by the size and
                                                                            complexity of DoD financial statements. The Department finds it
                                                                            difficult to provide reliable, timely, and useful financial and managerial
                                                                            data to support operating, budgeting, and policy decisions because
                                                                            of these challenges. While much has been done over the last few
                                                                            years to address these challenges, the Department must continue
                                                                            to be vigilant in its efforts to provide accurate, usable financial
                                                                            information to its managers for decision-making purposes.

                                                    The DoD IG is working closely with the Department to address
                                                   long-standing financial management challenges. The DoD IG
also supports the goal of achieving a favorable audit opinion for the DoD Agency-Wide financial statements and
major DoD components. The Under Secretary of Defense (Comptroller)/Chief Financial Officer issued the DoD
Financial Improvement and Audit Readiness Plan as part of an initiative to improve financial management within
the Department. The DoD IG supports the objective of the plan, which is to provide ongoing, cross-functional
collaboration with DoD components to yield standardized accounting and financial management processes, business
rules, and data that will provide a more effective environment to better support the war-fighting mission. The DoD
IG also supports the Department’s ongoing efforts to target achievable, incremental change and to initiate the change
necessary for continual, sustainable improvement in financial management.

Financial Statement Audits

In March 2008, the DoD IG issued a qualified opinion on the USACE Principal Financial Statements for the years
ending September 30, 2007 and 2006, respectively. The qualification was due to a departure from generally accepted
accounting principles and scope limitations related to supporting documentation for Property, Plant and Equipment
sample items that caused uncertainty with the PP&E beginning balance. USACE is working to resolve those issues at
the time of this report. The option year for the USACE financial statement audit contract for FY08 was exercised in
April 2008 and audit work began in May 2008.

Financial Systems Audits

Financial system audits provide invaluable information about the validity of financial statement information. The
DoD IG issued reports on three DoD financial systems. In performing the audits, IG auditors tested the design
and operating effectiveness of general and application controls in operation. One example was the audit of the
US Army Corps of Engineers Financial Management System. IG auditors, working with a team of auditors from
PricewaterhouseCoopers, identified internal control weaknesses in general and application controls for both the
USACE network and its automated financial management system. IG auditors recommended improvements that
would strengthen general controls over its entity-wide security program planning and management, access, application
software development and changes, system software, and service continuity. These control deficiencies created
potential system vulnerabilities that threatened the confidentiality, integrity, and availability of the USACE network
and financial management system. IG auditors also recommended improvements in the application controls that
would strengthen controls over segregation of duties, audit trails, validity checks, and error reporting.
66
                                                                                                                                          Semiannual Report to Congress
Financial-Related Audits

In addition to the financial statement and financial systems reports, the IG auditors conducted numerous financial-
related audits. These audits focused on providing insight and valuable recommendations to managers as they focused
on audit readiness. Areas that were covered during the reporting period included improper payments, cash and other
monetary assets, an obligation of funds for contingent liabilities on ship maintenance and repair contracts. The
following concerns were reported:

• The Defense Logistics Agency did not provide information on improper payments associated with its operations in its
FY 2006 Financial Statements, nor did they respond to a survey DoD used to collect information on improper payment
amounts, or perform risk assessments related to the susceptibility of Defense Logistics Agency programs to significant
improper payments. Documentation showed that DLA could have identified and reported about $93.3 million
in improper payments associated with its programs in its FY 2006 Financial Statements. DLA needs to establish a
process to identify and report improper payments related to contractor and vendor payments in each Defense Logistics
Agency program. Additionally, DLA needs to identify and report the value of improper transportation payments,
improper payments on fast pay contracts, and improper payments identified during its contract closeout process.
Unless it improves its identification and reporting process, DLA cannot show that it is making progress in reducing the
amount of improper payments and correcting payment problems in programs that are at significant risk for improper
payments. DLA also could not identify the value of debts collected from contractors.

• The DoD IG completed two audits of Cash and Other Monetary Assets held outside of the Continental U.S.
during FY 2008. We performed tests to determine whether internal controls are effectively designed and operating to
adequately safeguard, account for, and report Cash and Other Monetary Assets. One of the audits was over cash held
by the Navy and reported on the Navy General Fund financial statements and the other audit was for cash held by the
Air Force and reported on the Air Force General Fund financial statements. For the Navy we determined that overall
internal controls were inadequate. For example, some internal controls were not consistently applied over disbursing
appointments, operational and physical security, and Limited Depository Accounts. Additionally, we found areas
where the Navy could save over $93,000 by soliciting financial institutions for the most beneficial exchange rate. In
addition, we found that disbursing operations may save funds by discontinuing services that were already performed
by available banking facilities. For the Air Force, we found that although internal controls were designed properly
they were not operating as intended. Specifically, one Air Force location held approximately $8 million of excess
cash on hand without justification. We recommended that Air Force comptrollers review and approve all semiannual
cash authority requests for accuracy, supporting documentation, and relevance to current mission requirements.
Additionally, the disbursing officer at DFAS Denver should disapprove cash authority requests that do not include
documentation to justify each amount requested.

• The Navy inappropriately obligated funds for contingent liabilities on ship maintenance and repair contracts.
As a result of the inappropriate obligations, at least $103 million of U.S. Fleet Forces Command Operation and
Maintenance funds were not available for other ship maintenance and repair needs. The Navy should issue guidance
prohibiting the obligation of funds for contingent liabilities on ship maintenance and repair, develop and implement a
plan to monitor the obligation of funds at the Regional Maintenance Centers to ensure that the practice of obligating
funds for contingent liabilities is discontinued and that amounts for these items are deobligated on current contracts;
discontinue the business practice of obligating funds for contingent liabilities; and deobligate funds on current contracts
for the contingent liabilities.


                                                                                                                        67
Department of Defense Inspector General
Health Care
....................................................................................................................................................................................

                                                                  A major challenge to the Department is sufficient oversight of the growing
                                                                  cost of health care for its beneficiaries. During a recent hearing with the
                                                                  Senate Appropriations Subcommittee on Defense, the Secretary of Defense
                                                                  stated the cost of health care is a concern that must be controlled. The
                                                                  DoD budget for health care costs was approximately $42 billion in 2008,
                                                                  a 35 percent increase since FY 2005 ($31 billion). Congress provided an
                                                                  additional $1.4 billion via the Supplemental Appropriations Act of 2008.
                                                                  One of the Department’s challenges is to effectively transition to the next
                                                                  generation of TRICARE contracts.

The ability to support and develop the people in the Military Health System continues to be a challenge. Maintaining
medical readiness of the medical staff and units includes ensuring that medical staff can perform at all echelons of
operation and that the units have the right mix of skills, equipment sets, logistics support, and evacuation support
capabilities.

Strengthening medical care from accession through active service to rehabilitation and transition to VA care is a major
challenge for the Department. The number of wounded warriors associated with Southwest Asia and other such
conflicts significantly impact the health care resources within the Department and can result in such issues as the
conditions that were raised at Walter Reed Army Medical Center. Another related challenge to medical readiness are
the issues inherent in providing efficient processes for post-deployment health care and benefits to severely injured and
ill Service members. Transitioning wounded, ill, or injured Service members to post-deployment care will continue
to grow as a challenge while the Global War on Terror, Operation Iraqi Freedom, and Operation Enduring Freedom
continue. Increased numbers of returning service members with mental health complaints, along with a shortage of
uniformed and civilian mental health workers, will require examination of automated screening tools and improved
diagnostics to provide earlier detection and intervention.

Providing information to the right people so they can make more informed decisions continues to be a challenge in the
health care community. Along with the benefits of expanding automation efforts comes the increased risk to security
and privacy of information. Information assurance relating to sensitive medical information is a challenge for the
public and private sectors of the health care community.

Implementing recommendations resulting from the 2005 Base Realignment and Closure process will continue to
be a challenge. In addition to improving the readiness and cost efficiency associated with realigning base structure,
a primary objective of the process was to examine and implement opportunities for greater joint activity among the
Military Departments. Recapitalization of the physical infrastructure is a challenge. Military treatment facilities are
aging and in need of replacement.

The Department’s expanded role in providing humanitarian assistance and disaster relief to support US strategic
objectives and promote human dignity through better health will provide financial and organizational challenges. One
of the first challenges will be developing plans and budgets to support the expanded role.

The DoD IG audit of payments under the supplemental health care program identified duplicate payments by multiple

68
                                                                                                                                          Semiannual Report to Congress
organizations for overseas health care. We also found a few military treatment facilities that used an interim payment
process that violated the Miscellaneous Receipts Act and increased the risk of duplicate payments. As a result, potential
exists for abuse of overseas referred health care claims.

The DoD IG audit of TRICARE controls over claims by billing agencies is also near completion. The TRICARE
Management Activity needs to improve controls over claims prepared by billing agencies in the United States. Doing
so will reduce the likelihood of improper payments.

Information Security and Privacy
...................................................................................................................................................................................

The Department continues to be severely challenged by the need to
provide a robust information security and privacy program for its
data, systems, operations, and initiatives. This is particularly so for
that portion of its data, systems, operations, and initiatives in the
hands of the Defense Industrial Base and other non-DoD mission
partners. The twin imperatives of security and information sharing
collide daily and little progress has been made toward resolution
of conflicting requirements. Between August 1, 2007, and July
31, 2008, the DoD audit community and GAO issued 21 reports
addressing a wide range of information assurance weaknesses that
persist throughout DoD systems and networks. If the information
assurance weaknesses continue, they will impede the ability of DoD to mitigate risks in a shared information
technology environment. Those risks include harm resulting from loss, misuse, unauthorized access, and modification
of information or information systems. A loss of information in DoD information systems is itself unacceptable and
could undermine mission effectiveness.

Many of the weaknesses reported occurred because management of security programs was inadequate and security
policies and procedures were not in place. Without effective management oversight, DoD cannot be assured that
systems are accurately reported and maintained, information systems portray accurate and reliable data, and personnel
are properly trained in security policies and procedures. Effective management oversight may reduce the risk of
persistent IA weaknesses, thereby increasing assurance that DoD information systems maintain an appropriate level of
confidentiality, integrity, authentication, nonrepudiation, and availability.

Physical and Logical Access

DoD implementation of the 2004 Presidential Directive on physical and logical access to federal installations and
information continues to be to severely inadequate. The Department has yet to issue comprehensive guidance to DoD
components on procedures and milestones to meet the requirements of HSPD-12, with the result that DoD did not
meet Government-wide milestones for completing background checks; personnel at stations that issue the Common
Access Card cannot electronically verify whether card applicants have initiated or completed required security clearances;
DoD displays the full Social Security number on the Geneva Conventions credential, increasing the risk of identity
theft; DoD components are purchasing equipment that is not compliant with HSPD-12; DoD is using barcode
technology on the Defense Biometric Identification System credential that is not equivalent to mandatory HSPD-

                                                                                                                                                                                69
Department of Defense Inspector General
12 security features, and DoD’s current PIV credential (the CAC card) does not meet interoperability requirements
and needs to be updated. Lack of progress in meeting these challenges severely hampers the ability of the DoD to
protect operational information for the warfighter and privacy data for all employees, as well as perform basic fiduciary
responsibilities and oversight for DoD information technology expenditures. In addition, it places the security of
DoD installations world-wide at continued and increasing risk.

Inventory Accountability

Lack of inventory controls over computer property continues to be a problem. Defense Security Service could not
account for 501 laptops, 55 Common Access Cards, and an undetermined number of safes, a recent audit concluded.
The laptops were of particular concern because they were used for personal security investigations and potentially
contained personally identifiable information. After significant efforts, DSS was able to demonstrate that the 501
originally unaccounted for laptops and safes had not left the control of the Government. DSS was also able to
account for the remaining CACs. However, due to lack of controls over inventory of laptops, the risk still existed that
remaining laptops still needed to be accounted for.

Other
...................................................................................................................................................................................

The DoD IG issued a report that discusses the reforms contained in Public Law 109-290 “Military Personnel Financial
Services Protection Act,” September 29, 2006, and the impact of revised DoD Instruction 1344.07 “Personal Commercial
Solicitation on DoD Installations,” March 30, 2006. The report states that the Public Law and the DoD Instruction
have been partially effective in reducing commercial solicitations of inappropriate life insurance products to military
personnel by sales agents on the DoD installations visited. The Military Services are providing personal financial
readiness training. However, commercial solicitations and sales of inappropriate life insurance products are occurring
off base. As a result, junior enlisted Service members are still purchasing high-cost life insurance products that are
considered inappropriate and may threaten their financial stability. In addition, the Navy must take additional steps
in protecting junior enlisted naval personnel at Naval Station Great Lakes from the sale of inappropriate life insurance
products and dishonest and predatory sales practices. Problems identified in 2005 and 2006 with inappropriate sales
of life insurance products continue. As a result, junior enlisted personnel were transported off post to a financial
planning agency and persuaded to sign up for supplemental life insurance products that are considered inappropriate.
In addition, unauthorized access by financial planning agency employees to MyPay, a DoD information system,
subjects the information contained on the system to undue risk of alteration and compromise. Junior enlisted sailors
could be hurt financially by having allotments taken from their pay for inappropriate life insurance products.




70
                                                                                                                                          Semiannual Report to Congress
                                                  Audit Advisory Committees
FEATURED ARTICLE




                                                                            A Tool in the War Against Fraud, Waste, and Abuse




                   The Office of the Assistant Inspector General for Audit Policy and Oversight within the Department of Defense Office
                   of the Inspector General recently issued a report on “Best Practices for Audit and Financial Advisory Committees
                   Within the Department of Defense.” Whereas we do not “oversee” audit committees, we do recognize the value they
                   bring towards the goal of creating accountability and transparency within the DoD. The Assistant Inspector General
                   for Audit Policy and Oversight suggested that we ascertain best practices for audit committees to assist the Department
                   in audit preparedness for a financial statement audit or in facilitating a financial statement audit. In accomplishing this
                   effort, we were not necessarily interested in recommending that every DoD organization that develops and submits
                   financial statements or that is working towards audit preparedness start an audit committee. However, what we did
                   want to create was useful information that highlight the benefits of audit committees; facilitate an understanding of
                   their value and make it easier for DoD organizations considering establishing audit committees (whether required or
                   not) to understand what they were doing and how to do it.

                   Hitting the Highlights

                   The purpose of this article is to hit the highlights of our review of Audit and Financial Advisory Committees within
                   the Department of Defense and to bring more visibility to a tool that can foster transparency and accountability for
                   Federal Government organizations and entities. We recognize that there is no one-size fits all solution to achieving
                   quality financial statements and audits. As stated in the “Foreword” to the Best Practices Review Report, “Financial
                   audit advisory committees benefit an organization either by assisting with audit preparedness or by providing increased
                   confidence in the credibility of the organization’s financial statements…. If effectively designed, the committee can
                   be a strategic partner in conducting quality audits, preparing auditable financial statements, and improving business
                   operations.”

                   What is an “Audit Advisory Committee” anyway?

                   Audit advisory committees in DoD generally serve one of two functions: financial statement audit preparedness or
                   financial statement audit oversight. Committees for audit preparedness provide oversight and make recommendations
                   to help the organization improve business operations through improvements to financial reporting processes
                   and procedures. The scope of each committee’s work depends on the status of financial management within the
                   organization. When the entity is prepared to undergo a financial statement audit, the committee’s focus shifts from
                   audit preparedness to oversight of the financial statement audit, and the committee assumes additional oversight and
                   advisory responsibilities. A financial audit advisory committee can provide independent oversight of an organization’s
                   annual financial statement audit, risk management plan, internal control framework, and compliance with external
                   requirements. Acting in an advisory role, the committee promotes independence, enhances accountability, and
                   facilitates communication between management and the external auditor that conducted the financial statement
                   audit. The scope of each committee’s work varied depending on the status of financial management within the
                   organization.




                                                                                                                                           71
                   Department of Defense Inspector General
What are the benefits of Audit Advisory Committees?

Financial audit advisory committees benefit an organization either by helping with audit preparedness before financial
statements are ready for audit or by providing increased confidence in the credibility of the organization’s financial
statements that are ready for audit. Other significant benefits that an independent and objective financial audit advisory
committee provides include enhanced communication on financial management problems among senior managers, a
vehicle for resolving differences. Most importantly, an audit and financial advisory committee provides accountability
and transparency for financial reporting throughout the organization and to the public. The committee ensures that
the organization achieves the goals and objectives of the financial audit, provides expertise on accounting and financial
reporting issues, and ensures early identification and resolution of audit-related problems. The committee acts as
an independent third party to review, discuss, and validate the results of the independent public accountant’s work.
Financial audit advisory committees assist with audit preparedness by helping ensure that the organization maintains
its focus on audit readiness, suggesting ways to improve the organization’s business and financial reporting processes,
and emphasizing the importance of fiscal responsibility throughout the organization.

The Role of the Audit Advisory Committee

The role of the audit advisory committee needs to be clarified before you get out of the starting gate. The Audit
Advisory Committee does not take the place of management. DoD committees for audit preparedness help the
organization prepare for audit while simultaneously making recommendations to improve internal controls and
business processes. Committees that are acting as advisors during the annual financial statement audit may have
responsibilities such as providing oversight and advice, acting as a liaison between management and the external audit
conducting the financial statement audit, monitoring management’s internal control program, and educating DoD
personnel on the importance of the audit and the work of the committee. The financial audit advisory committee
can make recommendations to ensure that the organization has implemented appropriate internal controls to address
organizational risks, and that those internal controls are operating effectively. The audit advisory committee can
consider developing a newsletter as a way to educate the organization about the work of the committee.

Working Together and Increasing Accountability

The central function of the committee is to increase the accountability of the organization. To achieve this goal, the
committee should work to ensure trust and faith between it and the organization, rather than an “us against them”
relationship. The committee should collectively work to develop recommendations to improve the organization’s
financial reporting and business processes. To contribute to the mission and goals of the committee, members should
understand the essential business of the agency, interpret Federal laws, understand Federal financial accounting and
reporting requirements, and know Federal requirements for systems certifications. Most importantly, members should
ask the agency’s top managers how they intend to ensure agency compliance with relevant laws and regulations.

Committees should work with management and share suggestions to improve financial management throughout
the organization. Management contributes to the success of the committee by providing ongoing communication
regarding the status of the audit and should brief members on changes in financial reporting and business operations
that might affect the committee’s work. Each member should try to communicate the work of the committee to show
what they are accomplishing and emphasize the importance of the financial statement audit.


72
                                                                                             Semiannual Report to Congress
                Best Practices for Audit Committees

Audit Committees                          BENEFITS OF AUDIT                        AUDIT COMMITTEES
work best when the                        COMMITTEES                               SHOULD
organization and
the committee have…                       •	   Independent                         •	 Have a charter
                                          •	   Objective                           •	 Annually reassess their charter
•	   Commitment to the Same Goals         •	   Enhanced Communication              •	 Annually assess their
•	   A Partnership Relationship           •	   Audit Problem Resolution               performance
•	   Senior Management                         Vehicle                             •	 Include financial expertise
•	   Participation                        •	   Confidence and Credibility          •	 Have right composition of
•	   Interest                                  Builder                                expertise
•	   Support                              •	   Provider of Public Accountability   •	 Keep current on changes in
•	   Communication throughout all              and Transparency                       financial reporting requirements
     audit phases                         •	   Audit Issue Visibility              •	 Serve as an intermediary
                                          •	   Real Time Problem Solving
                                          •	   Prevents Management                 COMMITTEE
WHAT MAKES AN AUDIT                            Complacency                         CHAIRPERSON SHOULD
COMMITTEE SUCCESSFUL                      •	   Provides Audit Finding
                                               Credibility                         •	 Have a sound financial
THE RIGHT MIX. An effective               •	   Independent Third-Party                background
chairperson and members, whether               Evaluation of External Audit        •	 Be strong, independent, and able
internal or external, with the                 Results                                to lead
necessary functional area expertise,                                               •	 Be able to foster open
skills, and experience including          AN AUDIT COMMITTEE                          communication
financial expertise.                      CAN PROVIDE                              •	 Possess exceptional critical
                                                                                      thinking skills
FOCUSED ATTENTION.                        •	   Oversight                           •	 Be tactful and diplomatic
Fosters public trust by providing         •	   Advice
focused attention on organizational       •	   Liaison                             A GOOD COMMITTEE
accountability issues with a third        •	   Monitoring of management            MEMBER
party perspective that offers checks           responsiveness
and balances between the                  •	   Organization assistance with        •	 Understands the business
organization, auditors, and                    improved strategy                   •	 Understands Federal financial
stakeholders.                             •	   Focus on audit readiness               reporting requirements
                                          •	   Suggestions for improved            •	 Uses expertise to problem solve
VALUE-ADDED SERVICES.                          processes                           •	 Focuses on mission and goals
Provides services that assist             •	   Emphasis on fiscal responsibility   •	 Has personal credibility
the organization in mission                                                        •	 Has good leadership skills
accomplishment through effective                                                   •	 Exercises sound independent
follow-up on actions to improve                                                       judgment in a relevant field or
financial reporting and business                                                      discipline
operations.

                                                                                                                    73
Department of Defense Inspector General
Investigative Oversight
        A look at the investigations conducted by the
        Department of Defense Inspector General




The Defense Criminal Investigative Service is the criminal
investigative arm of the Inspector General of the Department
of Defense. DCIS protects America’s warfighters by
investigating terrorism, shielding our defense technology
against those who seek to steal it or use it against the
United States or its allies; investigating companies that use
substituted or substandard parts in weapons systems and
equipment utilized by the military; preventing cyber crimes
and computer intrusion; and investigating cases of fraud,
bribery, and corruption.

DCIS devotes investigative resources to terrorism,
procurement fraud, computer crimes, illegal technology
transfers and public corruption. DCIS special agents
have full law enforcement authority; make arrests, carry
concealed weapons, execute search warrants, serve subpoenas
and testify in legal proceedings.




74
                                                                Semiannual Report to Congress
DoD IG significant accomplishments in Investigations are listed under the following categories:

•	   Corruption and Fraud
•	   Cybercrime and Computer Intrusion
•	   Illegal Transfer of Technology, Systems, and Equipment
•	   Defective, Substituted, and Substandard Products
•	   Other
                                                                                                      ordered to pay restitution of $2.97
                                                                                                      million for their involvement in a
                                                                                                      scheme to defraud the U.S. Govern-
FEATURED ARTICLE



                                                                                                      ment through bribery and kickbacks
                                                                                                      paid in connection with construction
                                                                                                      contracts with the US Army Medical
                                                                                                      Command, Fort Sam Houston, San
                                                                                                      Antonio, Texas.

                                                                                                      The individuals created shell compa-
                                                                                                      nies to collusively bid on contracts,
                                                                                                      and also paid kickbacks and bribed
                                                                                                      officials.

                                                                                                      Money Laundering

                                                                                                      Thomas Theodore Kontiogiannis was
                                                                                                      sentenced to serve 97 months incar-
                                                                                                      ceration, 3 years supervised release,
                                                                                                      and ordered to pay $1,050,100 in
                                                                                                      fines and special assessments on May
                   Corruption and Fraud                                                               16, 2008.

                   DCIS has primary jurisdiction over       DCIS protects America’s warfighters       Kontiogiannis admitted to using his
                   matters involving most contract and      by vigorously investigating alleged       nephew’s company to launder money
                   procurement actions awarded by De-       and suspected procurement fraud,          and pay off a $525,000 mortgage on
                   fense Agencies, OSD components,          corruption, and other breaches of         former U.S. Representative Randall
                   and field activities.                    public trust that impact critical DoD     “Duke” Cunningham’s Rancho Santa
                                                            programs.                                 Fe, California mansion in furtherance
                   Additionally, DCIS has jurisdiction                                                of a bribe. Representative Cunning-
                   over, “any allegations [involving DoD] DCIS investigations focus on matters        ham previously plead guilty and is
                   that the IG DoD considers appropri- such as bribery, theft, procurement            serving a sentence for receiving bribes
                   ate for investigation by DCIS.”          fraud, illegal receipt of gratuities,     in connection with DoD contracts.
                                                            bid-rigging, defective and substituted
                   This broad authority affords DCIS products, and conflicts of interest.             Fraudulent Claims
                   the ability to easily partner with other
                   federal, military, and state agencies in DCIS is very proactive in their efforts   Health Vision Corporation and its
                   an effort to protect the integrity of to combat fraud and public corrup-           former President/CEO were convict-
                   the entire DoD procurement and ac- tion. Methods to combat financial               ed in U.S. District court for defraud-
                   quisition process -- from countering threats are included in the following         ing TRICARE between October 1,
                   fraud impacting initial research and examples.                                     1998 and August 2004 by entering
                   development, to investigating fraud                                                into a kickback scheme with medical
                   during contract execution, to ensur- Bribery and                                   providers in the Philippines.
                   ing appropriate disposal of products Kickbacks
                   no longer needed by DoD compo-                                                     Health Visions inflated bills and
                   nents.                                   Six individuals plead guilty in federal   submitted fictitious and fraudulent
                                                            district court and received sentences     claims to TRICARE for payment.
                                                            ranging from 60 to 84 months and


                   76
                                                                                                                Semiannual Report to Congress
Securities Fraud

Clover Merchant Group, a New Jer-
sey based company, attempted to so-
licit investors by stating they held 48
percent interest in a California-based
defense contractor that supplied 70
percent of the components for the
U.S. Tomahawk missile. Four princi-
pals were convicted in federal district
court for conspiracy to commit secu-
rities fraud when they secured $21
million from investors for what was,
in fact, a “Ponzi” scheme to defraud.
These principals were confined for 52
months and given 96 months proba-
tion.




                                          Conspiracy to Fix                        False Claims Act
                                          Prices
                                                                                   The Department of Justice, Civil
                                         A civil investigation, based on a qui     Division filed suit against a Defense
                                         tam complaint, found that a DoD           contractor who allegedly submitted
 U.S. Tomahawk missile.                  contractor conspired to fix prices on     false claims to the United States Air
                                         carbon fiber, a graphite substance used   Force during the negotiation and per-
False Claims                             in aircraft, ammunition and satellites    formance of the Alternate Fighter En-
                                         procured by the United States. On         gine contract, resulting in overcharg-
A health care company pled guilty May 16, 2008, the company agreed                 es. On August 1, 2008, United States
in U.S. District Court to submitting to pay the United States $25 million          District Court rendered a judgment
false claims to Medicare and TRI- in US and non-US restitution to set-             in the amount of $7,090,000, against
CARE. The plea resulted in the com- tle the lawsuit brought forth by the           the Defense contractor for violating
pany agreeing to pay $3.1 million in realtors in the qui tam suit.                 the False Claims Act.
criminal restitution and $117 million
in civil claims. The company devel- Price Inflation                                Conclusion
oped, implemented and engaged in
a fraudulent scheme to bill Current A DoD contractor significantly in-             DCIS remains committed to ensuring
Procedural Terminology home ser- flated pricing on a United States Air             compliance in the DoD procurement
vice codes even though services did Force contract to provide 84 voltage           process and ensuring government of-
not take place in the patient’s private oscillators. The company and its prin-     ficials demonstrate their responsibili-
residences. The services were actually cipal agreed to pay the United States       ties as stewards of the U.S. taxpayer’s
performed in an adult living facility $9,527,540 in restitution, fines, and        dollars while enhancing the security
or assisted living facility. Billing for assessments to settle all actions.        of the nation with safe and reliable
services as though they occurred at                                                equipment and processes for the U.S.
private residences resulted in a high                                              military.
reimbursement to the company.

                                                                                                                       77
Department of Defense Inspector General
Cyber Crime and Computer Intrusion
....................................................................................................................................................................................

DCIS computer crime agents are trained and certified to seize and search digital media in support of criminal and
administrative investigations. In support of over 26 investigations throughout FY 2008, DCIS’ 43 computer crime
personnel created forensic images of approximately 25 terabytes of data and analyzed over 12 terabytes of material
supporting a wide range of DCIS case types. In addition to providing expert digital forensic services, DCIS computer
crime agents also investigate computer intrusions, cyber data theft, and national security matters impacting the security
of the DoD’s Global Information Grid. DCIS agents work closely with the JTF-GNO, Service Computer Emergency
Response Teams, and information assurance staffs of the combatant commands and Defense agencies.

In FY 2008, DCIS agents were involved in 50 investigations involving computer intrusions or data theft incidents and
issued 16 reports on matters that were potential threats to the DoD GIG. Eighteen long term projects were ongoing to
further protect the GIG and proactively identify incidents of computer fraud. DCIS worked closely with other federal
law enforcement organizations to collaboratively share and exploit data related to the trafficking in child pornography.
Fifty-three child pornography investigations were ongoing during this period.

Cyber Crime Case

DCIS was alerted that several DoD employees’ payroll accounts (under the web-based myPay system) were being
accessed without their knowledge. As a result of this intrusion, their pay was being diverted to unauthorized accounts.
Following an extensive investigation, it was discovered that this scheme was complex and carried out as follows: A
male foreign national and an accomplice would first gain access to DoD employees’ personal and financial accounts
by accessing the computers used by these employees during their hotel stays. After the employees would leave the
computers, the foreign national would install spyware on them and, once installed, employee login information was
exposed and exploited.

Armed with the account access information, he next expanded the scope of this fraud to include account data and
financial information of additional victims from the US and around the world. On August 31, 2007, he traveled to
the US and was arrested in Miami immediately upon arrival. On November 15, 2007, he was indicted on charges
of Access Device Fraud, Identity Theft, and Aggravated Identity Theft. He pled guilty on January 8, 2008 and was
sentenced on April 11, 2008. His sentence includes 108 months of incarceration, 36 months of supervised release,
restitution of $353,203, and a $1,600 special assessment fee.

As a result of this investigation, major changes were made in the way web-based pay information is accessed DoD-
wide. For example, DFAS changed its procedures for accessing service members’ accounts by installing a virtual
keyboard on its website. As a result, passwords are undetectable by keystroke and, therefore, nearly impossible to copy
using spyware or other similar methods. Other security enhancements are being considered in order to further protect
DoD myPay account holders.

The DoD has long been instrumental in promoting cyber security both within and outside the Department. DoD
supported the creation of the Computer Emergency Response Team Coordination Center in 1988 after the outbreak
of the first Internet worm (The Morris Worm). The CERT Program is part of the Software Engineering Institute, a
federally funded research and development center at Carnegie Mellon University in Pittsburgh, Pennsylvania. Following

78
                                                                                                                                          Semiannual Report to Congress
the Morris worm incident, which brought 10 percent of Internet systems to a halt in November 1988, DARPA charged
the SEI with setting up a center to coordinate communication among experts during security emergencies and to help
prevent future incidents. This center was named the CERT Coordination Center.

The individual military services began to form computer response capabilities beginning with the activation of Air
Force Information Warfare Center in 1993. The other military services followed shortly thereafter: the Army CERT,
the Navy Computer Incident Response Team, and the Marine CERT. The DoD CERT became operational in 1997
under the control of DISA. Even though DISA was tasked to protect DoD networks, it had no directive authority
over the service components and virtually no authority to enforce recommended defensive measures. To fill this gap,
the Joint Task Force – Computer Network Defense was formed in 1998 to provide intelligence, law enforcement
and other support functions to the DoD CERT. In 2002, JTF-CND became Joint Task Force – Computer Network
Operations under the command of U.S. Space Command. Although this gave the JTF-CNO more authority, it still
did not exercise direct control over the individual service components. Finally, in 2005, the JTF-CNO (renamed
the JTF Global Network Operations) combined with DISA’s Global Network Operations Security Center and DoD
CERT, and was placed under the direct command authority of USSTRATCOM where it was assigned the mission to
“Operate and Defend the Global Information Grid.”

USSTRATCOM has overall responsibility for network defense and operations of the GIG. The service components
have day to day operational and defense responsibilities for their respective portions of the GIG. Previously, identified
as CERTS, the service components are now identified as Network Operations and Security Centers. USSTRATCOM
currently exercises Operational Control over the Service NOSCs through the JTF-GNO. In response to network
events or activities, as determined by USSTRATCOM or JTF-GNO, Service Chiefs or Secretaries shall instantaneously
attach Service NOSCs to JTF-GNO who will exercise Tactical Control upon contact with the Service NOSC. In this
context, TACON includes the authority for JTF-GNO to direct defensive actions across the GIG.

Since the Department’s reliance on computer networks continues to grow, the availability and integrity of these
networks is paramount for the Department to operate efficiently and with lethal accuracy. GIG protection, however,
is not enough. The DoD relies on the defense industrial base to develop and produce those machines with which the
Department goes to war, provide healthcare for its service members and dependents, and perform important support
functions in combat zones. The growing importance of protecting DIB information systems and networks cannot be
understated. As the Department takes action to close the policy gap surrounding DIB incident reporting, the DCIOs
have already begun to feel the stretch of thin cyber crime resources now required to address a broader range of incident
response. Should the Department fully embrace the need to better secure the DIB, an increase in cyber incident
responders is long overdue.

Illegal Transfer of Technology, Systems, and Equipment
....................................................................................................................................................................................

The DCIS Technology Protection Program protects the Warfighter by thwarting the illegal theft or transfer of U.S.
technologies and munitions to terrorist organizations, proscribed nations, and criminal enterprises. This is accomplished
through highly focused and complex investigations involving the illegal export of critical technology such as missile
components, military night vision technology, fighter jet parts, and helicopter technical data. In the latter half of 2008,
Technology Transfer investigations rose from 12% of the DCIS investigative caseload, to 14%.



                                                                                                                                                                                79
Department of Defense Inspector General
DCIS continues to take an active role in combating the growing national security threat posed by the illegal exports
of restricted U.S. military and dual-use technology to foreign nations and terrorist organizations. To this end, the U.S.
Attorney’s offices around the country have formed Counter-Proliferation Task Forces designed to enhance interagency
cooperation. Building upon this cooperative spirit, new task forces have opened up around the country and now total
15 and growing.

To augment these efforts, DCIS has teamed up with DoJ and spearheaded the formation of the Technology Protection
Enforcement Working Group. The TPEG, initially established in November 2007, is comprised of Technology
Protection decision makers from various agencies to include the Air Force Office of Special Investigations, Army
Military Intelligence, Department of Commerce, Office of Export Enforcement, FBI, and ICE. Meeting monthly,
this forum has developed into an invaluable network for sharing critical information among the participating agencies
investigating technology transfer violations.

Given the success of this group, the TPEG has reached out to other agencies with similar interests and invited them to
take part. Most recently, the Central Intelligence Agency has participated in this forum. Invitations to these and other
stakeholders ensure that all relevant enforcement agencies have a seat at the table. DCIS plays a crucial role in this
increasingly cooperative national effort to combat the illegal export of restricted U.S. technology, ultimately protecting
the Warfighter.

The following are examples of cases involving the illegal transfer of technology, systems, and equipment:

Arms Export Control Act

The Vice-President of a DoD contractor was indicted by a Federal Grand Jury in Los Angeles, CA on May 27, 2008,
on four counts of violating the Arms Export Control Act for attempting to export of U.S. Munitions List Items to
the Middle East. This individual, was responsible for international at said DoD Contractor, and illegally exported
components of the General Electric J-85 Jet Engine, which powers the Northrop-Grumman F-5 Freedom Fighter
Aircraft. These items were destined for Dubai, United Arab Emirates and were intercepted by ICE prior to export. An
additional export attempt included the Ametek Gyroscope, utilized on the UH-60 Black Hawk and SH-60 Seahawk
Light Airborne Multipurpose System military helicopters, also seized by ICE. While the company in question has
entered into a plea agreement, the above individual is considered a fugitive and a warrant has been issued for his
arrest.

Material Support to a Foreign Terrorist Organization

A citizen of the Republic of Indonesia, along with five other individuals, was arrested on September 18, 2006, in
the United States Territory of Guam for conspiring to provide material support (weapons) to the Liberation Tigers
of Tamil Eelam, or LTTE (Tamil Tigers). This citizen was instrumental in assisting with the attempted delivery of
these United States Munitions List items to the Tamil Tigers, including small arms, machine guns, ammunition, semi
automatic military rifles, and surface to air missiles.

On July 10, 2008, he was convicted on one count of Conspiracy to Provide Material Support to a Foreign Terrorist
Organization and one count of Money Laundering. He was sentenced to thirty months confinement for each count, to
be served concurrently, three years of supervised release, and a special assessment fee of $200. He will face deportation
to Indonesia after completion of his sentence.
80
                                                                                             Semiannual Report to Congress
Exporting of Defense Articles

A professor (now retired) at the University of Tennessee, Knoxville, was convicted of conspiracy to violate the Arms
Export Control Act. He conspired to unlawfully export 15 different “defense articles” to a citizen of the People’s
Republic of China. These exports consisted of technical data from a USAF research and development contract to
develop an advanced surveillance drone.

DCIS initiated this joint investigation with the Federal Bureau of Investigation, USAF Office of Special Investigations,
Bureau of Immigration and Customs Enforcement (ICE), and Department of Commerce Export Enforcement, based
upon information received on February 26, 2008 from ICE indicating that he released export-controlled technology
to students of Iran and the People’s Republic of China.

This individual was convicted on September 3, 2008, of conspiracy to violate the Arms Export Control Act. He
conspired with a Knoxville, Tennessee, technology company, to unlawfully export 15 different “defense articles” to
a citizen of the PRC. These exports consisted of technical data from a USAF research and development contract to
develop an advanced surveillance drone.

This investigation is especially significant as it is among the first in which a subject was prosecuted for distributing
information (also termed “deemed exports”), rather than equipment, to foreigners studying at a university with a
military research contract.

Defective, Substituted, and Substandard Products
....................................................................................................................................................................................

The following are examples of DCIS efforts to expose defective, substituted and substandard products:

Armament & Technical Products (a division of General Dynamics) agreed to pay the U.S. Government $4.1 million
as a result of a qui tam settlement. Based on information from former employees, an investigation found that General
Dynamics fraudulently certified test results for heat-treating on High Data Rate masts that are used on U.S. Navy
submarines. The masts are used to house electronic equipment and the periscope for USN submarines.

                                                                                                On July 30, 2008, Pratt and Whitney (a division of
                                                                                                United Technologies Corporation, East Hartford, CT)
                                                                                                and its subcontractor, PCC Airfoils LLC, agreed to pay
                                                                                                the U.S. Government $47.5 million to resolve False
                                                                                                Claims allegations that Pratt and Whitney and PCC
                                                                                                knowingly sold defective turbine blade replacement
                                                                                                for jet engines used in military aircraft. The agreement
                                                                                                also stipulates Pratt & Whitney provide up to $4.8
                                                                                                million in services to inspect turbine blades. A joint
                                                                                                investigation with AFOSI determined that between
                                                                                                1994 and 2003, Pratt and Whitney and PCC knowingly
                                                                                                sold defective turbine blade replacements for F-15 and
                                                                                                F-16 fighter aircraft used by the U.S. Air Force. This
F-16 fighter aircraft.

                                                                                                                                                                                81
Department of Defense Inspector General
defect caused the crash of an F-16 fighter aircraft in Arizona on June 10, 2003. The pilot ejected safely, but the aircraft
(valued at approximately $20 million) was destroyed

A joint investigation between DCIS, Army CID and AFOSI disclosed that a DoD contractor’s owner and president,
former production manager, project manager, and production supervisor conspired to commit major frauds against
the United States on two DoD contracts for Nuclear, Biological, Chemical filters that were defective. The largest use
of the filters, which is a “critical application” item, is on the M1 Abrams main battle tank, but it is also used on Navy,
Marine, and Air Force systems. These filters are used on collective air purification systems to protect U.S. service
personnel against NBC threats. Three former employees were sentenced to a combined total of eight years probation,
16 months confinement, and ordered to pay $547,700 in fines, penalty assessments, and restitution. Further, on
September 11, 2008, the corporation was found guilty of conspiracy to defraud the U.S., was placed on probation for
5 years and ordered to pay restitution to the U.S. in the amount of $7,9 million, and a special assessment of $400.

A joint investigation between DCIS Army CID, NCIS and AFOSI disclosed that the husband and wife owners of
a company, who were previously debarred by DoD, and their daughter, were convicted of false statements and mail
fraud. A DoD Hotline referral disclosed that a DoD contractor provided non-conforming products on multiple DoD
contracts. Between March 16, 1999, and July 8, 2003, the contractor was awarded 323 DoD contracts (aggregated
value unknown) for facet fluid filters utilized on the C-5 aircraft, fluid filters utilized in a fuel feed strainer assembly,
and air filters. The husband was sentenced to 39 months incarceration, three years probation and ordered to pay
restitution and a special assessment of $828,333. The wife was sentenced to twelve months confinement, three years
probation, and ordered to pay restitution and a special assessment of the same amount. The daughter was sentenced to
eight months confinement, 36 months probation, and ordered to pay restitution and a special assessment of $601,971.
All three were debarred along with eight other companies they generated.

Other
....................................................................................................................................................................................

Asset Forfeiture

Since admission into the Department of Justice Asset Forfeiture Fund, in May 2007, the Defense Criminal Investigative
Service has obtained $21.2 million dollars in court ordered forfeiture and an additional $8.6 million, in seizures that
are pending forfeiture of vehicles, gold, real property, and monetary funds. Within the reporting period, a monetary
judgment of forfeiture in the amount of $910,910 as proceeds of Mail Fraud, 18 U.S.C. § 1341, was ordered against
Health Visions Corporation. The intent of the DCIS Asset Forfeiture program is to deter criminal activity, punish
offenders, dismantle criminal organizations, and enhance cooperation among foreign, federal, state, and local law
enforcement agencies through equitable sharing of assets and recoveries through the asset forfeiture program.

Hurricanes Katrina/Rita

As of September 18, 2008, the DCIS, has received 37 criminal allegations related to Hurricanes Katrina and Rita. In
support of this effort, DCIS agents have initiated 16 investigations concerning bribery, kickbacks, false claims, and
possible product substitution. During the reporting period two individuals were indicted on charges of Conspiracy,
Title 18 USC 271; and Bribery, 18 USC 201; regarding a New Orleans levee reconstruction project. To date a total
of four convictions have been adjudicated, not including the two new indictments.

82
                                                                                                                                          Semiannual Report to Congress
                                                   Policy and Oversight

The Office of the Deputy Inspector General for Policy and Oversight performs the duties of the DoD IG established
the Inspector General Act and DoD directive to provide policy, guidance, and oversight to audit, evaluation, inspection
and investigative activities within the DoD. In addition, the ODIG-P&O provides technical support to OIG DoD
organizations; monitors actions taken by DoD in response to DoD IG and GAO reports, provides analysis and
comments on draft DoD policy issuances, and evaluates DoD programs and functions. To support GWOT and
SWA efforts, the ODIG-P&O continues to evaluate both DoD’s warfighting mission and its stabilization, security,
transition, and reconstruction mission. The ODIG-P&O also continues to respond to congressional and management
requests to review audits, inspections, evaluations, investigations, and inquiries conducted by the DoD or others in
support of the DoD mission.

During the reporting period, ODIG-P&O issued 23 oversight evaluation reports; provided technical assistance on
125 audit and investigative projects; took final corrective action on 99 DoD IG reports and 488 recommendations
with $907.5 million in documented savings; issued 187 subpoenas; recovered $210,000 via the voluntary disclosure
program; and coordinated on 193 existing and proposed DoD policy issuances. The following are highlights of
ongoing and completed ODIG-P&O evaluations.

Completed Projects

Assessment of Contracting with Blind Vendors and Employers of Persons Who are Blind or have Other Severe
Disabilities: Section 856 of the FY 2007 National Defense Authorization Act directed the DoD and Department of
Education Inspectors General to review management procedures under the Randolph-Sheppard Act (sections 107-
107f, title 20, United States Code) and the Javits-Wagner-O’Day Act (sections 46-48c, title 41, USC). Together, these
acts legislated priorities and preferences for blind vendors and employers of blind and severely disabled persons to
provide food services for military cafeterias and dining facilities. The final report provided four recommendations to
improve program policies and to streamline contracting procedures.

Evaluation of the DoD Safety Program: Safety Perception Surveys: Accidents cost the military departments the lives
of 700 service members per year and an estimated $21 billion in direct and indirect costs. In an effort to identify
opportunities to prevent accidents and improve the DoD safety program, the DoD IG partnered with the National
Safety Council and the Defense Management Data Center and administered safety perception surveys for each of the
following population groups: DoD senior leaders, active duty personnel, civilian employees, and Guard and Reserve
members. The surveys were designed to measure the safety culture throughout DoD and establish an empirical safety
climate baseline for measuring program improvements. The DoD IG team conducted separate seminars for each
of the services’ safety centers and explained the survey results and implications. As directed by the Defense Safety
Oversight Council, the senior leader survey will be administered every four years, and the other surveys every two
years. Survey reports are available at http://www.dodig.mil/Inspections/IE/Reports.htm.

Ongoing Projects

Assessment of New Orleans Temporary Outflow Canal Pumps: As part of an enhanced hurricane protection
system for New Orleans, the Army Corps of Engineers installed gates at three outflow canals and a pumping system
to empty the canals when gates were closed during storm surges. In September 2007, the U.S. Special Counsel
requested DoD to investigate whistleblower allegations that the pumping system was poorly designed, inadequately

                                                                                                                    83
Department of Defense Inspector General
tested, and vulnerable to catastrophic failure. As a result we investigated, and in May 2008, reported that numerous
design and operational problems were corrected and expressed confidence that the pumping system would operate
adequately. In an August 4, 2008, letter to the President, the Special Counsel disagreed with our findings contending
that the pumps remained vulnerable to failure, and recommended that an independent assessment be performed by a
professional engineering company. In response to the Special Counsel’s concerns, in September 2008 we contracted
with a professional engineering company to obtain an independent assessment of the pumping system. We plan to
issue another report assessing the performance of the pump systems’ during Hurricanes Gustav and Ike and a summary
of the contracted professional engineering assessment.

Examination of Allegations Involving DoD Office of Public Affairs Outreach Program: Prompted by a April 20,
2008, New York Times article, “Message Machine: Behind TV Analysts, Pentagon’s Hidden Hand,” members of
Congress asked the DoD IG to investigate DoD’s use of retired military analysts/commentators to generate positive
news coverage. As described in our announcement letter on May 23, 2008, the IG team is examining the allegations
that DoD Public Affairs outreach program gave retired military personnel special treatment and provided them with
information that favored the administration’s position on Global War on Terror policies and strategies; and also if such
access for some analysts/commentators who were employed by Defense contractors may have given them a competitive
advantage. An integrated team of evaluators, investigators, auditors, legal and communications advisors are reviewing
all aspects of this case and plan to release a series of reports.

2008 Evaluation of the Federal Voting Assistance Program: In accordance with the provisions of section 1566, title
10, U.S. Code, the DoD IG will review the Services’ Inspectors General VAP reports for 2008 and summarize the
results of that analysis for the annual report to Congress. Also, the DoD IG team will conduct site visits to selected
COCOM headquarters and DoD agencies to evaluate compliance with FVAP requirements.

Accident Reporting Related to Military and Civilian Injuries: The Assistant Deputy Under Secretary of Defense
for Environment, Safety, and Occupational Health requested this project. The objective of the project is to evaluate
the DoD’s reporting process involving civilian and military injuries caused by reportable accidents. The ESOH
community is concerned that there may be a significant number of injury mishaps documented in medical records,
without reporting the underlying mishap and systemic causes to the respective safety centers. To help program
managers and decision makers improve data collection and analyses, the project team is evaluating compliance with
reporting requirements, identifying root causes for under-reporting, and determining impediments to data transfer
between medical and safety systems.

Evaluation of the Service Treatment Record Management Process: The Principal Deputy Under Secretary of
Defense for Personnel and Readiness requested this evaluation. The purpose of the project is to assist management
in identifying options to insure service treatment records are complete when Service members separate or retire, so
as to streamline their transition to the VA’s system of benefits. The team is reviewing STR policies and procedures,
interviewing DoD and VA stakeholders, and conducting site visits at various personnel centers and medical facilities.

Followup Review on Audit Work Deficiencies and Abusive Work Environment Identified by the Government
Accountability Office: On August 4, 2008, Audit Policy and Oversight announced the subject review to evaluate
whether Defense Contract Audit Agency completed and planned actions fully address findings identified in Government
Accountability Office Report No. GAO-08-857. The GAO determined that 13 out of 13 cases it reviewed did not
meet professional standards and that, in some of the cases, auditor independence had been impaired. In response to
a DoD hotline referral, APO had previously reviewed 8 of the 13 cases and also determined that they did not meet
professional auditing standards. The DCAA has rescinded 6 reports and is taking other corrective actions in all 13
cases. In addition to reviewing the adequacy of DCAA corrective actions, we are assessing whether an abusive work
environment exists at 2 DCAA field offices as reported by the GAO. We will consider any deficiencies identified
during the follow-up in our FY 2009 agency-wide peer review of DCAA.

84
                                                                                            Semiannual Report to Congress
Chapter 3:
Services
Oversight
                                                              During the second half of FY 2008, USAAA published
                     U.S. Army                                188 audit reports, made over 460 recommendations,
                                                              and identified over $1.8 million of potential monetary
                                                              benefits.

                                                              Agent Accountability at Chemical Agent Disposal
                                                              Facilities, U.S. Army Chemical Materials Agency:
                                                              The U.S. Army Chemical Materials Agency’s mission is
                                                              to dispose of the nation’s chemical weapons stockpile,
                                                              while ensuring the safety of workers, the public, and
                                                              the environment. Agent accountability is an important
                                                              factor to the success of the Chemical Demilitarization
                                                              Program, which is a $29 billion effort that receives a high
                                                              level of congressional and international interest. USAAA
                                                              conducted the audit to determine whether the agency
                                                              accurately accounted for destroyed chemical agents.
Army Audit Agency                                             USAAA reported that the Army’s procedures were generally
                                                              adequate to ensure chemical agents were accounted for
To accomplish its mission, U.S. Army Audit Agency             when destroyed. Responsible personnel adequately
relies on a work force of highly trained professional         completed required documentation when requesting,
auditors, many with advanced degrees and professional         transferring, and destroying chemical agents. However,
certifications. USAAA’s staff consists of approximately       the amounts recorded as destroyed in the Chemical
600 employees and is organized into 17 functional audit       Accountability Management Information Network,
teams that provide audit support to all aspects of Army       which is DoD’s system for formal accountability of toxic
operations. Its goal is to be a highly sought after and       chemical munitions and bulk agents, were not always
integral part of the Army by providing timely and valued      accurate, and internal processes for records management
services that improve the Army by doing the right audits      were not fully effective. As a result, the agency did not
at the right time and achieving desired results.              have complete assurance that amounts recorded in the
                                                              system were accurate which increases its chances for
To ensure its audits are relevant to the needs of the Army,   heightened levels of program scrutiny by State, Federal,
USAAA prepared its 2008 Strategic Audit Plan to align         and international organizations that have a vested interest
its audit resources with the Army’s four imperatives and      in the elimination of chemical weapons.
three enabling initiatives:
                                                              Army Travel Charge Card Program—Centrally Billed
• Sustain the Army’s soldiers, families, and civilians.       Accounts: USAAA performed this audit at the request
• Prepare soldiers, units, and equipment to succeed in        of the Deputy Assistant Secretary of the Army (Financial
complex 21st-century security environments.                   Operations) to determine if the Army had appropriate
• Reset forces and rebuild readiness for future               policy and procedures established to manage the Army
deployments and contingencies.                                Travel Charge Card—Centrally Billed Accounts. The
• Transform and meet the needs of combatant                   audit focused on Army activities’ efforts to reconcile
commanders.                                                   delinquent, write-off, and credit balance accounts because
• Secure financial resources and legislative authorities to   of the FY 2008 contract changeover to SmartPay 2.
meet requirements for the Army’s compelling needs.            USAAA also assessed the timeline for DA and Defense
• Implement business transformation.                          Finance and Accounting Service to process CBA invoices.
• Enhance strategic communications.                           DoD Financial Management Regulation, AR 715-xx


86
                                                                                            Semiannual Report to Congress
(Government Purchase Card Program), and Assistant             Bayonne Local Redevelopment Authority: The Offices
Secretary of the Army (Financial Management and               of the Assistant Secretary of the Army (Installations and
Comptroller) memorandums provide the overarching              Environment) and Assistant Chief of Staff for Installation
policy and procedures for DA to implement and manage          Management asked USAAA to audit the Bayonne Local
the travel card program’s CBAs. However, current              Redevelopment Authority. The Army was seeking
DoD and DA policy doesn’t specifically address CBA            reasonable assurance that BLRA was redeveloping the
delinquency management procedures. Also, activities did       former Military Ocean Terminal at Bayonne property
not use the Defense Travel System CBA reconciliations         as required. In the report on BLRA’s 2004, 2005,
module. Instead activities used manual processes to           and 2006 no-cost economic development conveyance
reconcile and approve CBAs. USAAA determined that             financial statements, USAAA found that BLRA did not
the majority of activities were taking appropriate action     fully comply because it exchanged proceeds from sales of
to properly manage CBAs. However, a limited number            property with the City of Bayonne and did not properly
of activities continued to incur delinquent and write-        report information in its financial statements. Therefore,
off accounts due to improper reconciliation procedures,       the Army had little assurance that BLRA would achieve
staffing issues, and ineffective controls. Additionally, it   the goals of economic prosperity and job growth
took DFAS an average of about 8 days to make payments         through its redevelopment efforts. USAAA made five
after the 1,505 CBA invoices USAAA tested were certified.     recommendations to address these conditions and one
As a result of this delay, DA could not take full advantage   recommendation for the Army to make a decision on its
of cash discounts or rebates established in the SmartPay 1    future relationship with BLRA. In the report on BLRA’s
contract. If this delay is the standard for all transactions  revised 2001-2007 supplemental schedules, USAAA
processed by DFAS, DA has no assurance that it is taking      determined that the BLRA addressed the financial
full advantage of cash discounts or rebates for other         reporting conditions USAAA identified and correctly
purchase and travel credit card transactions.                 reported the financial information. In an ongoing audit,
                                                              USAAA is reviewing actions BLRA took to address the
Base Realignment and Closure 2005 Construction condition on exchanges to facilitate the Army’s decision
Requirements: At the request of Assistant Secretary of the on its future relationship with BLRA.
Army (Installations and Environment) and Assistant Chief
of Staff for Installation Management, USAAA is devoting Construction Site Preparation: Parcel 1, U.S. Army
significant resources to audit military construction Corps of Engineers, Far East District, Seoul, Korea:
requirements for implementation of Base Realignment This audit was one of six audits USAAA will conduct in
and Closure 2005 recommendations. During the second response to the Commanders, United Nations Command,
half of FY 2008, USAAA published 25 BRAC-related Combined Forces Command, U.S. Forces Korea and Eighth
audit reports The objective of the BRAC audits was to Army request for the Agency’s assistance in ensuring the
determine whether construction requirements were valid Army effectively plans and executes actions to transform
and supported. In order to compute requirements and and relocate the Army on the Korean Peninsula. On
costs for BRAC facilities, USAAA identified and was very this effort, USAAA audited construction site preparation
instrumental in resolving a variety of issues related to activities for Parcel 1, a small part of the more than 2,300
BRAC construction requirements. These issues involved acres of land acquired to build the necessary facilities
existing facilities, demolition, support costs, antiterrorism and infrastructure to support the relocation of military
costs, population data, and incremental funding for BRAC and civilian personnel and their families from Yongsan
contracts. USAAA issued recommendations to update to Garrison Humphreys in accordance with the over $9
cost estimates, standard designs, automated systems, and billion Yongsan Relocation Plan. The audit focused on
military construction guidance. USAAA’s audit work controls over the project managed by the U.S. Army Corps
will help ensure that the Army uses correct funding and of Engineers, Far East District. USAAA reported that the
builds appropriate military facilities and infrastructure to FED effectively managed the project—overall, making
implement the BRAC 2005 recommendations.                      appropriate use of a multiple-discipline project team,

                                                                                                                     87
Department of Defense Inspector General
developing a comprehensive project management plan,           upgrading the Department to bring it into compliance
conducting comprehensive geological and environmental         with improved and updated DoD policies.              The
surveys, and keeping contract modifications to a              installation could reduce contract costs by ensuring the
reasonable amount and within the scope of the original        contractor reported amounts it received from mutual aid
contract. The audit also identified the need for              agreements with local governments as reimbursement
improvements in the government’s quality assurance and        for emergency services, and by improving its contract
the contractor’s quality control programs to ensure the       monitoring actions. Although contractor costs were
contractor is providing the appropriate level of work that    comparable to the range of costs at other installations,
will result in a site where the Army can confidently build    they were at the upper end of the range because they had
infrastructure. USAAA found two potentially improper          unique operational requirements, such as remote locations
payments and recommended taking recoupment actions.           and extreme conditions.
It also recommended a change in procedures that would
more appropriately consider technical acceptability of        FY 2008 Manning Requirements for Contract Security
contractors during the contract award process this will       Guards in Europe: Force protection requirements increased
result in future contract awards focusing on best value,      significantly after the terrorist attacks of September 11,
not just lowest bid. The recommendations will improve         2001 and the onset of the GWOT. The escalation is
project management of the work on the remaining 2,100         more apparent at installations in Europe where the force
acres.                                                        protection levels are normally higher than in CONUS.
                                                              As part of GWOT, Congress granted temporary authority
Delayed Fielding of the Stryker Brigade Combat Team,          for the Army to use contract security guards at military
U.S. Army, Pacific: In response to legal rulings affecting    installations. The Army’s contract guard costs in Europe
the fielding of a Stryker Brigade Combat Team in Hawaii,      total about $200 million annually. USAAA audited the
the Army had to decide whether to suspend or cancel           manning requirements for guard service contracts at six
several ongoing projects and contracts. USAAA reported        U.S. Army garrisons in Germany and their subordinate
that responsible activities adequately expedited the          communities to determine whether U.S. Army, Europe
preparation of cost/benefit analyses and made appropriate     and Seventh Army implemented and maintained manning
decisions to suspend projects and contracts versus            levels that USAAA recommended in a prior report. USAAA
terminating and restarting at a later date. Responsible       reported that USAREUR implemented and maintained
activities could more thoroughly mitigate potential future    the manning levels previously recommended and achieved
risks by following up the expedited cost/benefit analyses     the FY 2007 estimated savings of $39.7 million, and were
with more precise analyses by appropriate functional          on track to achieve the estimated savings of about $36.7
experts. The Army prepared a supplemental site-               million for FY 2008. USAREUR could further reduce
specific environmental impact statement that adequately       its manning requirements in FY 2008 by about $12.4
considered alternatives to home stationing the SBCT in        million. USAAA also reported that recommendations to
Hawaii—the supplemental statement fully satisfied court       reduce manning requirements had no detrimental effect
orders. In addition, the Army adequately managed the          on safety and security. The recommendations established
implementation of environmental mitigation actions            procedures to help evaluate manning requirements at
imposed by the court for projects for which the Army was      locations impacted by global rebasing and restructuring,
allowed to proceed.                                           and to process garrison requests to adjust contract guard
                                                              manning levels.
Fire Protection and Emergency Services, Fort Irwin:
The National Training Center at Fort Irwin is the only        Korea Build-to-Lease Housing Consulting Contract
Army installation with contracted fire and emergency          Administration: This audit was requested by the Assistant
services. USAAA determined that increases in contract         Secretary of the Army (Installations and Environment).
costs for fire and emergency services were justified due to   USAAA reviewed the processes and procedures U.S.


88
                                                                                            Semiannual Report to Congress
Army Corps of Engineers Baltimore District used to            and Stewart. Theses reports are discussed below. Audits
award and administer a task order contract for specialized    at Forts Bragg, Drum, and Huachuca are ongoing.
financial and consulting services in support of the
Garrison Humphreys Build-to-Lease initiative in Korea.        • Management of Relocatable Facilities—Fort Riley:
USAAA reported that the consulting contract for the           Although comprehensive DA policies and procedures
Korea Build-to-Lease Housing Program was not in full          existed for the management and oversight of relocatable
compliance with applicable laws and regulations and did       buildings, Fort Riley believed the guidance needed to be
not make sure the Army would receive services at a fair and   improved due to the complicated and time consuming
reasonable price. The contract was not in full compliance     approval process. Generally the command documented
with the Federal Acquisition Regulation and Defense           its requirements for relocatable buildings, obtained
Supplements and policies because contracting personnel        proper approvals for acquiring relocatable buildings, and
did not obtain a formal legal review of the contract before   used correct funding sources to obtain the buildings and
initially awarding or modifying the contract to add the       prepare the sites. Further, the command had implemented
performance and breakage fee structure. As a result,          a plan to replace relocatable buildings with real property
the Army risked paying substantially more than the fair       and redistribute or turn in the buildings once they were
value of the products and services it will receive under      no longer needed. The installation’s replacement plan
the contract. Moreover, because proprietary rights were       could be improved by including estimated disposal cost.
relinquished for all products including financial models,
business methods, and lease documents, the Army may
have difficulty proceeding with the project without either
retaining the consultant or incurring significant schedule
delays. Upon receiving the report, contracting personnel
terminated the $7.5 million contract for the convenience
of the government.

Logistics Support Contract, Fort Carson: This audit
focused on controls over financial stewardship and
operational services provided by the contractor. USAAA
evaluated contract requirements, contractor invoices,
and contract services. USAAA concluded that controls
were in place to track core contract requirements, but
the installation did not validate cost estimates to make
sure a fair and reasonable price was paid for new contract                             AAA relocatable building at Fort Riley.
requirements. Also, contractor expenses totaling about   • Management of Relocatable Facilities—Fort Stewart:
$4.9 million were questioned because invoices were not   Command did not fully implement the Army’s guidance
reviewed. Finally, inspection of contract services neededbecause it did not always adequately document and
improvement to ensure contractor award fees were         justify requirements, inventory the buildings, or have an
based on the level and quality of service required by theadequate exit strategy. USAAA made recommendations to
contract.                                                correct these conditions. It also followed up on previous
                                                         audit recommendations to purchase rather than lease 33
Management of Relocatable Facilities: The Assistant relocatable buildings. Twenty six buildings were either
Secretary of the Army (Financial Management and purchased or returned to the vendor for a cost savings
Comptroller) asked USAAA to review management of of $4.1 million, and USAAA recommended that the
relocatable buildings across the Army. During the second seven remaining leases either be converted to purchases
half of FY 2008, USAAA published reports for Forts Riley or the buildings be returned to the vendor. Command


                                                                                                                            89
Department of Defense Inspector General
agreed and returned the relocatable buildings, realizing an the audit and initiated actions to correct issues identified
additional $423,000 in savings.                             during the audit.

At Forts Drum and Huachuca, USAAA found that both                 No-Cost Economic Development Conveyance
installations generally followed established DA guidance.         Management and Compliance: Phase I: The Offices
However, their inventories of relocatable facilities required     of the Assistant Secretary of the Army (Installations and
adjustments. USAAA made recommendations to correct                Environment) and Assistant Chief of Staff for Installation
these conditions. Further, the installations each identified      Management agreed that USAAA should perform this audit.
military construction projects to replace the relocatable         The Army wanted to know the status of redevelopment
facilities and had plans to return or dispose of the facilities   at each former Army installation it conveyed to local
once no longer needed.                                            redevelopment authorities at no cost after prior Base
                                                                  Realignment and Closure rounds. Of the 15 LRAs that
At Fort Bragg, USAAA found that Fort Bragg followed               received property at no cost, 11 complied with applicable
established DA guidance to obtain approval for 158                laws and agreements with the Army. Four LRAs did not
relocatable buildings; however, tenant activities didn’t          comply because they did not properly report expenditures
follow the guidance to acquire at least 37 relocatable            in 1 of 12 allowable categories of reinvestment. As a
facilities. Additionally, discrepancies existed between the       result, it might be difficult for stakeholders to understand
number of relocatable buildings recorded in databases             the redevelopment activities of these LRAs or progress
and on-hand inventories. And, although the garrison did           each has made towards economic prosperity and job
have an attrition plan, it had limited use because it didn’t      growth on the no-cost properties. USAAA made two
include all buildings, didn’t have estimated disposal costs,      recommendations to address conditions identified during
and wasn’t coordinated with DA. We also determined                the audit. Phase II of this audit is still ongoing. USAAA
that one tenant could save about $782,000 if it would             is determining sources and uses of proceeds earned by the
purchase two relocatable buildings instead of continuing          LRAs and the Army’s effectiveness in managing the LRAs’
to lease them. We made recommendations in this report             redevelopment efforts.
to correct these deficiencies.
                                                                  Science and Technology: USAAA audited Science
Monitoring of Security Guard Contracts—Office of                  and Technology programs at four U.S. Army Research,
Provost Marshal General and U.S. Army Installation                Development, and Engineering Centers. The purpose of
Management Command: This audit was a follow-on                    the audit was to identify ways the Army could improve
effort to an original request by the House Subcommittee           the flow of technology to the Acquisition community and
on Readiness to evaluate contract security guard oversight        eventually to the warfighter. USAAA reported that the
and acquisition strategy. The report addressed two high-          Army S&T community has made a concerted effort to
profile areas—force protection and contract oversight—            institute the policies and best practices for transitioning
and provided recommendations to the Management                    technology. Army Technology Objective-Demonstration
Command that will increase the security of Army                   programs were preparing Technology Transition
installations and do so in a more effective manner.               Agreements since the Army issued its TTA guidance in
USAAA visited five installations and evaluated six regional       April 2006. However, strengthening Army S&T guidance
contracts with a base year cost of about $183 million.            should lead to more effective TTAs and further improve
Overall, USAAA reported that, initially, the Army did             the success rate with transitioning technology. The report
not have adequate oversight of contract security guards,          also identified several opportunities for strengthening
and thus, had limited assurance that it received services         oversight of the S&T process. USAAA estimated that,
in accordance with contract requirements. However,                if the Army improves it efficiency by 10 percent, it could
officials from the Management Command and the Office              put to better use about $59 million a year in Advanced
of the Provost Marshal General were very proactive during         Technology Development funding.


90
                                                                                                 Semiannual Report to Congress
                                                          components for use in engine assemblies for military
Army Criminal Investigation                               rotary and fixed wing aircraft. The suspected components
Command                                                   were shipped for use in the main propulsion system for
                                                          the Army’s Black Hawk and Apache helicopters. The
An Army CID child pornography investigation of a former contractor entered into a $11.5 million civil settlement
DoD contract employee in Iraq disclosed he downloaded with the government.
6 videos and more than 20 sexually explicit images of
children from the Internet. The contractor admitted he A joint false claim investigation by Army CID and
stored the videos and images on his personal computer DCIS disclosed that a DoD contractor falsified training
and transferred the media onto an external hard drive records in connection with the execution of a contract to
and compact discs. A forensic computer examination provide security forces to various U.S. Army installations.
was conducted and more than 3000 digital images and The investigation determined that the contractor over
multiple videos depicting sexually explicit images of reported manpower for personnel assigned to an Army
children were discovered. The U.S. Attorney Eastern post at an estimated loss of $668,000. The contractor
District of Virginia accepted this case for prosecution subsequently made a $18 million civil settlement with the
under the Military Extraterritorial Jurisdiction Act. The government.
contractor accepted a plea agreement with sentencing
scheduled for later this year.

Operating as part of a joint task force established in
October 2007 with Army Internal Review, Army CID
investigated U.S. Army Reserve soldiers committing fraud
while in a temporary change of station or temporary duty
status. To date, the task force has investigated and titled
275 subjects for committing fraud of over $14 million,
with total fines and recoveries due to the U.S. Army of
$1.7 million.

An Army CID aggravated assault investigation disclosed
that a DoD contractor employee stabbed another DoD
contractor employee four times. The subject admitted to
                                                                           USACIDC special agent conducts an investigation.
stabbing the victim and the MNSC-I Forensic Laboratory
matched DNA on the knife handle to the subject.          A joint larceny investigation by Army CID, DCIS, ATF
The subject was tried by courts-martial under Article    and the IRS disclosed a U.S. civilian stole 1213 cases of
2(a)(10) of the Uniform code of Military Justice which   meals ready to eat and sold them on the internet site EBay,
                                                         for $48,000. Information was developed on additional
has provisions to prefer charges against civilians serving
with or accompanying armed forces in the field during a  thefts of government property and two controlled
declared war or contingency operation. The subject was   purchases of night vision goggles and MRE’s were made
convicted by courts-martial and sentenced to five months from an Army non-commissioned officer. Subsequent
confinement for aggravated assault.                      searches resulted in the recovery of $270,000 of stolen
                                                         Army equipment. A total of eight subjects were identified
A joint false claim investigation by Army CID, DCIS for the theft and/or sale of government property. The case
and NCIS disclosed that a DoD contractor committed a is pending prosecution from the U.S. Attorney’s Office.
false claim when the company manufactured and shipped
defective and or non-conforming flight safety jet engine

                                                                                                                        91
Department of Defense Inspector General
An Army CID computer hacking and larceny investigation        officials, the NAVAUDSVC develops a risk-based annual
identified 10 active duty soldiers involved in creating and   audit plan that addresses critical areas that officials feel
selling fraudulent Cyber Zone cards which were used           merit additional oversight. In the past 6 months, our
to purchase computer minutes at AAFES Internet and            audits have addressed such important, and at times
Recreational Computer Centers. The subjects used a            high-profile, DoN issues as controls over classified and
personal computer to hack into the AAFES Cyber Zone           personal information, the transportation of Navy small
computer system to create and add service minutes to          arms, controls over communications security equipment,
the fraudulent cards, then sell the cards to other witting    the Marine Corps relocation from Okinawa to Guam,
soldiers. The fraudulent Cyber Zone cards had an              contractor performance in the building of the Littoral
estimated value of $103,800. Disciplinary action under        Combat Ship, and the validity of multi-million dollar
the Uniform Code of Military Justice is pending.              military construction projects. NAVAUDSVC assisted
                                                              reports for the Naval Criminal Investigative Service have
The Army CID’s Computer Crime Investigative Unit              identified over $540,000 in potential fraud and will be
partnered with the Army Chief Information Officer             used as evidence in court cases. At the request of the
to conduct vulnerability assessments of the Army’s            Secretary of the Navy, NAVAUDSVC is working on a
LandWarNet to identify vulnerabilities and prevent            series of audits on overseas acquisition in Djibouti, Dubai,
unauthorized access, damage and disruption to network         Bahrain, and WESTPAC.
operations. This program resulted in $43 million cost
avoidance and no computer network compromises have Human Capital
occured at assessed installations since the program began.
                                                           Navy High-Risk Training Mishap Reporting and
                                                           Oversight at Selected Activities: The audit objective
  U.S. Navy and Marine Corps was to verify that High-Risk Training mishap reporting
                                                           data was reliable and internal controls were in place,
                                                           functioning effectively, and the HRT safety authorities’
                                                           oversight inspection process was efficient and effective.
                                                           NAVAUDSVC determined that general mishap data was
                                                           not accurate because mishaps reported by the Commander,
                                                           Naval Education and Training Command activities did
                                                           not match those reported in the Web Enabled Safety
                                                           System. Specifically, the reviewed activities informed
                                                           NAVAUDSVC that in FYs 2005 and 2006, they input
                                                           427 general mishaps into WESS, but NAVAUDSVC
                                                           found WESS only reported 274; of these 274, only 197
                                                           mishaps matched those reported by the activities. Also,
                                                           WESS HRT data was difficult to identify since there was
                                                           no HRT data field in WESS. The Navy uses WESS data
                                                           to identify safety trends. Therefore, it is important that
Naval Audit Service
                                                           data is accurate to allow proper decisions to be made to
                                                           prevent loss of life and/or equipment, and loss of man
The mission of the NAVAUDSVC is to provide hours of Navy personnel due to mishaps. NAVAUDSVC
independent and objective audit services to assist made recommendations to improve the reporting and
Naval leadership in assessing risk to improve efficiency, recording of mishap data in WESS. NAVAUDSVC
accountability, and program effectiveness. Working also found that NETC and Navy Safety Center could
collaboratively with senior Department of the Navy improve their HRT oversight by better coordinating HRT


92
                                                                                             Semiannual Report to Congress
inspections and surveys of training activities, and sharing   sufficiently implemented and overseen by any of the
survey and inspection results. NAVAUDSVC made                 responsible parties on the LCS-2 “Independence” detailed
recommendations that should improve the coordination          design and construction contract. NAVAUDSVC identified
of inspections and surveys, as well as, the communication     the following risks associated with the implementation
of results.                                                   and use of EVM on the LCS program: Austal’s EVM
                                                              System as related to the LCS program, did not comply
Information Security and Privacy                              with 20 of the 32 DoD-established EVMS guidelines;
                                                              Supervisor of Shipbuilding Bath did not provide adequate
Management of Personally Identifiable Information             surveillance over Austal’s EVM implementation; GD/
at the Marine Corps Recruiting Command: Marine                BIW, as the prime contractor, did not effectively oversee
Corps Recruiting Command has begun implementing               Austal’s EVM implementation; and Program Executive
several Personally Identifiable Information management        Officer Ships and the Program Management Office did
changes. Although NAVAUDSVC did not discover                  not have adequate visibility over the LCS contractor’s cost,
any breaches of PII, the weaknesses identified made           schedule, and technical performance. These conditions
PII vulnerable to breach, and opportunities existed to        occurred because: Defense Contract Management
increase management controls to bring the Privacy Act         Agency, as the Executive Agent for EVM, and the
Program into compliance with DoN guidance. Specific           Naval Sea Systems Command did not provide sufficient
weaknesses noted with PII: records were not properly          oversight to ensure EVM was properly implemented for
secured; records were stored on unprotected computer          the LCS-2 “Independence” contract; Defense Contract
hard drives and personal thumb drives; storage had weak       Audit Agency had not performed required audits of
physical controls; and disposal methods did not render        Austal’s EVMS; SUPSHIP Bath and the contractors did
records sufficiently unrecognizable. In addition, the         not implement a fully effective surveillance program; and
Privacy Act statement was not in some forms used to           LCS PMO and the contractors placed limited emphasis
collect PII, and a Privacy Act system of records notice had   on the implementation of EVM for the LCS program. As
not been published in the Federal Register for the Marine     a result of this audit, the Assistant Secretary of the Navy
Corps Recruiting Information Support System. These            (Research, Development and Acquisition) and LCS PMO
conditions occurred because Privacy Act program policies      501 have taken actions to improve the implementation
and procedures had not been fully implemented. Risk           and oversight of EVM, and to control and monitor
of unauthorized disclosure increases when management          program costs on the remaining effort for LCS detailed
controls over PII are not properly executed.                  design and construction contracts.

Acquisition Processes and Contract Management Administration of Contracts with Labor Hours at
	                                                             Selected Naval Air Systems Command Activities:
Earned Value Management for the Littoral Combat               Time-and-materials and labor-hours contracts provide
Ship “Independence” Contract N00024-03-C-2310:                for acquiring supplies or services on the basis of direct
Earned Value Management is one of the primary methods         labor hours at specified fixed hourly rates, which include
contractors and Government program managers use               wages, overhead, general and administrative expenses, and
to measure a contractor’s cost, schedule, and technical       profit; and an actual cost for materials. These contracts
progress on contracts for significant acquisition programs.   provide no positive profit incentive to the contractor
This audit report addresses NAVAUDSVC’s audit of the          for cost control or labor efficiency. NAVAUDSVC
implementation of EVM on the LCS-2 “Independence”             found that the Naval Air Systems Command did not
General Dynamics/Bath Iron Works Contract Number              implement sufficient management controls and could not
N00024-03-C-2310, CLIN 8, Austal USA Subcontract              demonstrate that adequate surveillance procedures had
Number 7305-0018-A28, for detailed design and                 been implemented for 10 of 13 time-and-materials and
construction. NAVAUDSVC found that EVM was not                labor-hours contracts audited. This was in order to protect


                                                                                                                       93
Department of Defense Inspector General
the interests and resources of DoN. Contracts audited          JGPO started to develop a Management Control plan;
(valued at $57,252,188) did not have Quality Assurance         however, the audit indicated that the draft plan did
Surveillance Plans and sufficient documentary evidence         not fully encompass and comply with the Government
that surveillance had occurred. These conditions occurred      Accountability Office’s five standards for internal control.
because contracting officials were either not aware of the     These standards are intended to reasonably assure that
surveillance requirements or believed a surveillance plan      program operations are efficiently and effectively carried
was not necessary because the contractor personnel were        out. The absence of a fully effective management control
working alongside the Contracting Officer Representatives      program at JGPO impacts attaining desired goals and
and/or Technical Points of Contacts. As a result, the Naval    objectives relating to the comprehensive relocation
Air Systems Command could not always demonstrate that          effort. By implementing a more effective management
the Command received the quality and services it paid for      control program, JGPO should be reasonably assured
in accordance with contract specifications.                    that operations are effectively and efficiently carried out,
                                                               potential risks are mitigated, financial data is reliable, and
Health Care                                                    management is in compliance with applicable laws and
                                                               regulations.
Controls Over Pharmaceutical Inventory and
Dispensing: The audit objective was to verify that             Selected Base Closure and Realignment Department
internal controls over pharmaceutical inventory and            of the Navy Military Construction Projects Proposed
dispensing processes were effective. NAVAUDSVC found           for FY 2010: Of the five projects audited, three projects
that while Navy Medical Treatment Facilities audited had       were valid and properly scoped and two projects included
sufficient internal controls over writing and dispensing of    unneeded, invalid, understated, or overstated construction
prescriptions, they did not have controls in place to ensure   requirements. One project included invalid or overstated
that on-hand balances of non-controlled and controlled         construction requirements worth $400,000. The project
substances were at or below required stock levels, or to       was overscoped because the planner incorrectly converted
properly safeguard non-controlled or controlled substances     square feet to square meters. One project did not include
to prevent potential diversion. Additionally, Navy MTF         all the valid construction requirements or understated the
pharmacies did not have sufficient internal controls to        construction requirements by $2.2 million. The project
ensure FDA-recalled drugs were not stocked on pharmacy         was under scoped because the planner did not use the Basic
shelves or dispensed. Also, Navy MTF pharmacies                Facility Requirement (the approved size of the facility) to
audited did not have sufficient internal controls to report    determine the electronic storage room requirement, and
outpatient medication dispensing errors to responsible         because the planner omitted telecommunications space
officials for action. Lastly, MTFs did not fill maintenance    requirements.
drug prescriptions in the most cost-effective manner.
                                                        Operational Risk Management Implementation
Implementation of sufficient internal controls over these
functions would ensure compliance with applicable laws  At Selected Navy Shore Installations: The audit
                                                        objective was to verify that selected shore activities apply
and regulations and that risks related to drug diversion,
                                                        operational risk management principles in planning,
malpractice claims against the Navy, and ineffective use of
the mail order program are minimized.                   operations, and training to safeguard Navy personnel
                                                        and resources. During the audit, NAVAUDSVC visited
Infrastructure and Environment                          six Navy installations covering three Navy regions,
                                                        including two Naval Air Stations, two Naval Shipyards,
Status of Internal Controls at the Joint Guam Program and two Naval Bases. During the audit at the six Navy
Office: The audit objective was to verify that the JGPO installations, NAVAUDSVC did not identify any
established an effective management control program material or systemic management control weaknesses
for the Marine Corps Okinawa to Guam relocation. regarding the implementation of ORM within the

94
                                                                                               Semiannual Report to Congress
selected shore operations (such as Air operations, Fuel        results of NAVAUDSVC NCIS assist work have been and
and Aviation Safety operations, and Fleet Readiness            will be used in court cases. NAVAUDSVC also provided
Center operations) reviewed. NAVAUDSVC verified                assistance to AIO (two reports) by reviewing whether
that Navy management: implemented the five steps of            selected DoN contractors complied with the provisions of
ORM – hazard identification, hazard assessment, control        Administrative Agreements (made to ensure the company
identification, control implementation, and supervision –      commits to its responsibility for integrity and accuracy
into planning and operations, and required ORM within          in contracting with the federal government), between the
the orientation and training of all personnel – military       contractors and DoN.
and civilian – commensurate with rank, experience,
and leadership position. NAVAUDSVC did not audit               Naval Criminal Investigative
existing Navy training curricula (e.g., officer and enlisted
                                                               Service
development courses) or planned changes to the curricula
for inclusion of ORM.
                                                               An NCIS false claims investigation revealed that a
Department of the Navy Proposed FY 2010 Government             company owned by a former government employee
of Japan-Funded Military Construction Projects                 submitted false invoices to several federal government
Related to the U.S. Marine Corps’ Okinawa/Guam                 agencies, including the DoD, from July 2000 through
Base Relocation: The audit objective was to verify the         April 2006 for products that were never delivered. The
scope requirements for selected Marine Corps’ proposed         suspect submitted $913,000 in false claims through cost
FY 2010 Government of Japan-funded MILCON                      reimbursement contracts and grants administered by the
projects related to the Okinawa/Guam Base relocation.          U.S. Navy. The U.S. Attorney’s Office prosecuted this
The projects audited were determined to represent stated       case and the suspect received 41 months imprisonment
needs to support the U.S. Marine Corps’ relocation from        and was ordered to pay restitution in the amount of $1.23
Okinawa, Japan to Guam. However, each of the projects          million The suspect also entered into a $1.46 million civil
included some inaccurate or unsupported construction           settlement with the government and both the subject and
requirements. The overscoped requirements totaled              subject’s company were proposed for debarment.
$1.181 million and the under scoped requirements totaled
approximately $1.5 million. Due to ongoing negotiations
between the GOJ and the U.S. Government, these projects
are continually undergoing changes. Subsequent to the
audit, two of the projects were cancelled and combined in
a different, unaudited project; one project was removed
from FY 2010 and placed in FY 2011.

Other

Naval Criminal Investigative Service/Acquisition
Integrity Office Assist Reports: The NAVAUDSVC
published 34 assist reports during the period April 1
through September 30, 2008. As part of NAVAUDSVC
work for NCIS (32 assist reports), NAVAUDSVC
calculated potentially fraudulent housing allowance
payments of approximately $540,000 that were paid to                              NCIS special agent conducting an investigation.
Navy personnel, and also identified potentially fraudulent
travel claims of over $6,000 made by one individual. The


                                                                                                                              95
Department of Defense Inspector General
A joint product substitution investigation by NCIS and          death was a gunshot wound to the head. During screening
DCIS revealed several DoD related contracts were awarded        interviews, substantial incriminating information was
to a supplier that was debarred and ineligible to perform       developed against the second lieutenant’s husband and a
on federal contracts for a period of ten years. During the      Marine co-worker. The second lieutenant’s husband was
excluded period, the supplier formed another company            charged with first-degree murder, first-degree arson, and
using a fictitious name in order to obtain several contracts,   conspiracy to commit first-degree arson, and the other
including three U.S. Navy contracts for hoses in 2003           Marine was charged with felony accessory after the fact to
and 2004. These contracts mandated testing certifications       first-degree murder, first-degree arson and conspiracy to
because the hoses were specifically procured to be used in      commit first-degree arson.
the fuel and oil delivery systems of the MK-48 heavyweight
torpedoes carried by all Navy submarines. Testing showed        A joint homicide investigation by NCIS and the Onslow
the hoses did not comply with government specifications         County Sheriff’s was initiated following the disappearance
and the supplier’s testing certifications were fraudulent.      of an 8-month pregnant Marine lance corporal stationed
The U.S. Attorney’s Office prosecuted this case and the         at Camp Lejeune, NC. The pregnancy was allegedly the
supplier and an accomplice were convicted and sentenced         result of rape perpetrated by a Marine corporal. Subsequent
to 39 months imprisonment and 6 months, respectively            to the lance corporal’s disappearance, the corporal wrote a
and ordered to pay $828,000 in restitution.                     letter to his spouse claiming he got into a verbal altercation
                                                                with the lance corporal and she committed suicide. He
                                                                panicked and buried her remains in the back yard of
                                                                his residence. The bodies of the the lance corporal and
                                                                her fetus were recovered at the corporal’s residence. An
                                                                autopsy determined the cause of death was blunt force
                                                                trauma to the head. The corporal fled to Mexico where he
                                                                was apprehended and is waiting extradition from Mexico
                                                                City, Mexico, back to Jacksonville, NC.

                                                            A joint death investigation by the cold case units of NCIS
                                                            and the San Diego Police Department disclosed the 1994
                                                            murder of a U.S. Navy second class petty officer at an
                                                            off-base location. The victim’s remains were found in the
                                                            Chollas Landfill in San Diego, approximately two months
NCIS special agents conducting an investigation.            after the victim was reported missing. Autopsy findings
                                                            describe fractures of the parietal skull and facial bones,
A joint arson and homicide investigation by NCIS, and ligatures at the wrist and ankles. Through a series of
USACIDC, Fayetteville Police Department, the Bureau re-interviews, two suspects were identified and charged
of Alcohol, Tobacco, Firearms and Explosives, and the in connection with this case by the San Diego District
North Carolina State Bureau of Investigation was initiated Attorney’s Office.
following the suspected arson of the Fayetteville, NC,
apartment of a Marine corporal and his missing wife, a who A NCIS cold case investigation resolved the1975 stabbing
was an Army second lieutenant. Due to multiple origins death of a Marine Corps private first class in her barracks
of fire and other evidence in the apartment, investigators room at Camp Pendleton. The investigation identified a
believed the second lieutenant was the victim of foul play. former Marine Corps private as a suspect. He later pled
Her remains were subsequently found in a brush-covered guilty to voluntary manslaughter.
field several miles from Camp Lejeune, NC, where her
husband was stationed. An autopsy determined the cause of


96
                                                                                                Semiannual Report to Congress
An NCIS investigation into a murder for hire plot was        Joint Warfighting and Readiness
initiated when a cooperating witness in Twenty Nine Palms,
CA, reported a sergeant assigned to the Marine Corps         Controls Over Contractor Identification: As part of
Reserve Center in Madison, WI, solicited the cooperating     ongoing efforts to enhance national security, the President
witness to kill his wife. The cooperating witness said the   signed Homeland Security Presidential Directive 12,
sergeant was in divorce proceedings with his wife and had    Policy for a Common Identification Standard for Federal
recently been removed from his home after being served       Employees and Contractors, 27 August 2004. HSPD-
with a civilian protection order. The sergeant blamed his    12 mandated the issuance of secure and reliable forms
wife for police intervention in prior domestic incidents.    of identification to federal government contractors.
A meeting under the surveillance of NCIS was arranged,       DoD’s development of the common access card supports
where the sergeant met with and provided funds to the        this mandate. Further, HSPD-12 required DoD (and
cooperating witness for the purchase of a gun to be used     the Services) to conduct security investigations for any
in the murder. NCIS special agents arrested the sergeant,    contractors who are given access to DoD installations and
who was later found guilty of attempted premeditated         facilities for periods longer than 6 months, or who require
murder, solicitation to commit murder, and wrongful          access to government computer information systems. As
use of facilities of interstate commerce in a murder for     of January 2007, over 90,000 contractors held Air Force-
hire scheme. He received 5 years confinement and a           issued common access cards. The audit determined
dishonorable discharge.                                      Air Force installation officials did not conduct required
                                                             security investigations for over 12,000 contractors and
                                                             effectively control the issuance and turn-in of common
                U.S. Air Force
                                                             access cards provided to contractors.

                                                       Civilian Incentives: The Air Force authorizes civilian pay
                                                       incentives in accordance with United States Code Title
                                                       5, Government Organization and Employees, to alleviate
                                                       personnel recruiting and retention problems due to
                                                       differences in federal and non-federal pay for comparable
                                                       occupations. The incentives include special pay and other
                                                       non-monetary incentives, such as flexible work schedules,
                                                       telework, and credit for annual leave to recruit, separate,
                                                       relocate, and retain civilian employees as necessary to shape
                                                       the civilian workforce. In calendar year 2006, the Air Force
                                                       paid over $15 million in civilian incentives to more than
                                                       4,000 employees. The audit disclosed civilian personnel
                                                       officials effectively used separation incentives but could
                                                       use non-monetary incentives more effectively to attract
Air Force Audit Agency                                 qualified candidates for hard-to-fill civilian occupations.
                                                       Additionally, civilian personnel officials did not properly
Following are examples of audit coverage performed justify and document 373 (60 percent) of 620 individual
by the Air Force Audit Agency related to the following and 2,154 (75 percent) of 2,858 group incentives (totaling
DoD Management Challenge areas. Synopses for over $6.3 million for the period reviewed). Eliminating
reports identified “FOR OFFICIAL USE ONLY” were unjustified group retention incentives will provide more
included in our submission to the Classified Annex to than $10.1 million for other unfunded requirements over
the Semiannual Report to Congress and the Semiannual the 6-year Future Years Defense Plan.
Compendium of DoD Intelligence-Related Inspector
General and Audit Agency Reports.

                                                                                                                     97
Department of Defense Inspector General
Bills of Material for Reparable Parts: The Bill of Material   Further, personnel did not accurately record kit unit cost
is a descriptive and quantitative listing of material and     information for 37 of 67 rescinded TCTOs reviewed. As a
component parts required to support overhaul or repair        result, Air Force financial statements understated the total
of a reparable item. Air logistics center personnel use       inventory for 2,872 kits by approximately $5.8 million.
BOMs to identify material required to accomplish
scheduled repair and control material usage. Air Force        Hurricane Disaster Planning: The primary mission
supply and Defense Logistics Agency personnel also rely       of the Air Force Emergency Management program
on BOMs to project expendable parts requirements.             is to save lives; minimize the loss or degradation of
Further, air logistics center personnel use reparable item    resources; and continue, sustain, and restore operational
BOM replacement factors to determine the material costs       capability. Planning for hurricanes is part of the
for inclusion in customer sales prices. For FY 2007, the      emergency management program. The Air Force has
Depot Maintenance Activity Group budgeted $3 billion          15 major installations located in these southeast coastal
for material and supplies. This audit determined although     areas that must be on alert and ready to respond every
Air Force logistics personnel complied with regulatory        year between June 1 and November 30, the Atlantic
guidance regarding the use and recording of Government        hurricane season. This audit concluded Air Force officials
Purchase Card purchases, they did not maintain accurate       did not establish adequate controls to address sheltering
replacement factors for 224 (51 percent) of 437 repair        needs of hurricane ride-out team members (emergency
parts reviewed. As a result, maintenance personnel            essential personnel) and technical training students. Also,
overstated end item sales prices by nearly $163 million       officials did not effectively use management tools such as
for FYs 2008 through 2013.                                    hurricane disaster checklists, lessons learned, personnel
                                                              accountability tracking, and disaster models for hurricane
Time Compliance Technical Orders: Air Force                   disaster planning. Additionally, the Air National Guard
personnel use Time Compliance Technical Orders to             Readiness Center did not provide adequate numbers of
implement modifications on end items such as aircraft         trained Air National Guard personnel to perform security
and support equipment. Modifications are performed            duties during natural disasters. Lastly, Air Force officials
using specific kits that contain the components necessary     did not deconflict communication frequency assignments
to complete the installation on an aircraft or other end      for operations within disaster areas, or adequately plan
item. After completion of all required modifications,         for computer local area network access for deployed
personnel rescind the TCTO, establish a rescission date,      personnel.
and process any excess kits for disassembly and disposal.
As of December 2006, Air Force records identified 1,645       Selected Air-to-Ground Missile Engines: The Air-to-
rescinded TCTOs comprised of 96,120 kits valued at            Ground Missiles are subsonic cruise missiles launched
approximately $205 million stored in Defense Logistics        from Air Force aircraft. The Air Launched Cruise Missile
Agency warehouses. This audit disclosed Air Force             (AGM-86) and the Advanced Cruise Missile (AGM-
personnel did not properly dispose of 11,498 kits for 106     129) are powered by F107-WR-101 and F112-WR-
of 109 rescinded TCTOs. Disassembly of unneeded kits          100 turbofan jet engines, respectively. In 1996, the Air
would result in 2,772 usable kit components available to      Force and Navy developed the AGM-158, Joint Air to
offset existing buy or repair requirements by about $2.8      Surface Standoff Missile. A newer version, the Joint Air
million and reduce annual storage costs by $318,000           to Surface Standoff Missile - Extended Range, is currently
over the 6-year Future Years Defense Plan. Additionally,      under development. The extended range missile uses the
personnel retained modification kits for rescinded TCTOs      F107-WR-105 engine, an upgraded version of the F112-
that exceeded the aerial drone program requirements.          WR-100 engine. The F107-WR-105 engine shares many
Consequently, 10,678 stored kits exceeded planned             of the same components as the F112-WR-100 engine.
aerial drone production and 975 kit components could          The Air Force currently has over 1,900 F107-WR-101
reduce buy and repair requirements by $1.4 million.           and F112-WR-100 engines valued at over $490 million.


98
                                                                                             Semiannual Report to Congress
In FY 2007, the Air Force began restructuring the missile      accurately prepare, certify, or timely submit quarterly
inventory to reduce the number of AGM-86 missiles              execution reports at six of eight locations, and adequately
and retire all AGM-129 missiles. The audit determined          control or account for ICF gift inventories at five of seven
although Air Force personnel established effective plans       locations.
to identify F107 engines with maximum remaining
serviceable life for use during AGM-86 fleet reduction,        Man-Day Program: Air Reserve Component personnel
personnel did not identify existing F112 engines for use       with unique skills or resources are placed on man-days to
in the extended range missile program. Reutilizing these       provide temporary support to the active force. Individuals
engines and associated parts for the extended range missile    on man-days are paid from the military appropriation
program could potentially save the Air Force over $26.1        account rather than the reserve appropriation account
million.                                                       for full time duty, thereby increasing overall active duty
                                                               personnel costs. Further, members on man-days for over
Air Combat Command Pilot Training Flying Hours:                180 days not supporting contingency operations must
After completing Undergraduate Pilot Training at               make a permanent change of station, while members
Randolph AFB, pilots take one of two graduate pilot            supporting contingency operations have the option to
training tracks - fighter aircraft such as the F-16 Fighting   either permanent change of station or receive temporary
Falcon or “heavy” aircraft such as the C-17 Globemaster.       duty entitlements such as travel, lodging and meals paid
In FY 2007, Air Combat Command officials used over             by the requesting unit operations and maintenance
73,643 flying hours (valued at over $570 million) for          funds. During FY 2007, the Air Force paid Air Reserve
graduate pilot training. This audit concluded Air Combat       Component personnel on man-days more than $731
Command flying training unit officials did not properly        million from the MPA. This audit determined Air Force
justify flying hour computations to meet graduate pilot        personnel properly approved and used man-days for active
training requirements. Specifically, during FYs 2007           force mission requirements; however, personnel did not
and 2008, flying hour programmers had no evidence to           return 1,050 unused man-days valued at over $130,000.
support key assumptions and variables used to determine        Returning unused man-days will make over $16 million
over $55 million in graduate student flying hours. Using       in MPA funding available for other requirements over
reasonable, consistent, historically supported variables       the 6-year Future Years Defense Plan. Finally, Air Force
to compute graduate student flying hours will provide          personnel appropriately used available temporary duty
more than $71 million in savings over the 6-year Future        and PCS entitlements for members on extended man-day
Years Defense Plan for other flying training or war-effort     tours.
requirements.
                                                               Flying Hour Impact on Aircraft Spare Parts
Intelligence Contingency Funds – FY 2007: The annual           Requirements Computations: The Secondary Item
DoD Appropriations Act authorizes the Secretary of the         Requirements System computes spare part requirements
Air Force to expend Air Force operations and maintenance       needed to maintain end item (aircraft, equipment)
appropriation for emergency and extraordinary expenses.        readiness. The system applies past flying events (sorties)
The Secretary authorizes the Air Force Chief of Staff          to part failures to compute an average failure rate for each
to allocate part of this appropriation as intelligence         part. D200A then applies the individual part failure rates
contingency funds. The Air Force uses the funds for            to future planned flying hours to compute spare parts
authorized requirements contributing to the Air Force          buy and repair requirements. As of March 31, 2007, the
intelligence mission. The Air Force allocated $159,000         Air Force FY 2007 spare parts budget was approximately
in FY 2007 obligation authority for use as ICFs, and           $1.9 billion for buys and $3.8 billion for repairs. This
obligated $45,295. This audit disclosed ICF managers           audit concluded operations personnel did not accurately
did not properly authorize or adequately document and          record flying hour data used in computing reparable
support all ICF expenditures at five of eight locations,       item spare parts requirements. Specifically, personnel


                                                                                                                        99
Department of Defense Inspector General
recorded inaccurate or unsupported flying hours for         requires contracting officers competitively award task
3,502 (9 percent) of 36,885 sampled sorties. As a result,   orders exceeding $100,000 unless the order meets one
personnel understated the FY 2007 D200A spare parts         of four specific statutory exceptions. During FY 2006,
budget by $863,000 and overstated the spare parts budget    the Air Force issued 4,300 task orders on multiple award
by $858,000. Additionally, personnel did not properly       contracts for goods and services totaling $3.4 billion.
support $13.7 million of the budget.                        More than 2,400 of these task orders, valued at $3.3
                                                            billion, had obligated amounts exceeding $100,000. This
Information Security and Privacy                            audit concluded Air Force contracting personnel did
                                                            not consistently use fair opportunity procedures for task
Mission Assurance Category I Systems Certifications         orders exceeding $100,000. During FY 2006, the Air
and Accreditation: In compliance with DoD guidance,         Force potentially paid as much as $440 million more for
the Air Force assigns all information systems a mission     services procured than it would have had the orders been
assurance category that designates the importance of        competed consistent with fair opportunity criteria. In
information the systems handle relative to DoD goals        addition, the Air Force may have foregone other benefits
and objectives, particularly warfighter combat missions.    of competition to include more innovative solutions and
MAC I systems handle information considered vital           improved levels of service. Further, contracting personnel
to the operational readiness or mission effectiveness       did not accurately report fair opportunity data in the
of deployed and contingency forces in terms of both         DD 350 report, Individual Contracting Action Report.
content and timeliness. As of May 2, 2007, 61 systems       Finally, contracting personnel did not appropriately use
in the Air Force Enterprise Information Technology Data     the justification and approval process in granting waivers
Repository were categorized as MAC I. As of November        to competition.
2007, system owners archived (deactivated) 10 systems in
the data repository. This audit disclosed system program   Battle Control Systems Acquisition: The Air Force
managers and information assurance personnel did not       initiated the Battle Control System-Fixed program
correctly categorize 36 (71 percent) of 51 systems in      in November 2002 to replace the legacy command
the data repository as MAC I. Conversely, personnel        and control systems for airspace surveillance inside
incorrectly categorized two MAC I systems as MAC II        and outside the perimeter of the continental United
and III. Additionally, personnel did not properly certify  States. The Electronic Systems Center manages the
and accredit all MAC I systems. Finally, personnel did     BCS-F acquisition program using a three-phased spiral
not accurately report MAC I system certification and       development approach. Program office-estimated BCS-F
accreditation status in the data repository.               program costs through FY 2007 were $149 million with
                                                           Air Combat Command-estimated total program costs of
Acquisition Processes and Contract Management $332 million through FY 2011 to include Spirals 1, 2,
                                                           and 3. The audit disclosed Air Force officials accepted
Competition in Multiple Award Service Contracts: the BCS-F even though it did not meet initial operational
The Federal Acquisition Regulation requires that agencies capability criteria. After exceeding the original BCS-
use multiple award contracts to obtain the same or F schedule by 22 months and original program costs
similar recurring services. A multiple award contract by about $57 million, the Air Force accepted the spiral
exists when an agency awards two or more contracts to 1 and 2 system to only perform the pre-9/11 outside
different contractors using one solicitation. The Federal the perimeter of the continental United States airspace
Acquisition Regulation specifies contracting officers surveillance mission. In addition, the Air Force stands
must provide each multiple award contractor a fair to incur additional costs to correct system deficiencies
opportunity to be considered for each task order. Further, that should have been corrected prior to accepting the
the Defense Federal Acquisition Regulation Supplement Spiral 1 and 2 version of the BCS-F. Furthermore, BCS-
                                                           F program managers did not effectively control program


100
                                                                                          Semiannual Report to Congress
cost growth. From December 2003 through October                 to meet surge requirements throughout the world. In 1997,
2006, the BCS-F program experienced at least $9.3               the Air Force awarded four Indefinite Delivery/Indefinite
million in unjustified cost growth. Finally, the program        Quantity CFT contracts, with a cumulative value of $4.2
manager did not maintain appropriation integrity for            billion over 10 years (five 2-year performance periods). As
BCS-F program costs. As a result, the program office            of October 2006, the Air Force obligated over $7 billion
potentially violated the Anti-Deficiency Act by obligating      against the four contracts, and the revised cumulative
and expending procurement funds for major automated             value was $7.65 billion. This review determined Air
information system development efforts.                         Force personnel approved and awarded task orders that
                                                                did not meet CFT Program criteria, awarding CFT task
Planning and Execution of Service Contract                      orders for work valued at more than $195 million that
Reductions: Air Force Program Budget Decision 720, Air          may have been more efficiently procured using other
Force Transformation Flight Plan, December 28, 2005,            methods. Also, CFT Program Office personnel relied
reduced contract service support funding $6.2 billion over      on inaccurate and incomplete financial data in a locally
the future year’s defense plan and redirected these funds       developed CFT Access database to track and oversee
to transformation initiatives such as recapitalizing the        contract funding actions. As a result, program personnel
aging aircraft inventory. To execute these reductions, HQ       were not aware that CFT task order obligations exceeded
Air Force used targeted budget reductions and directed          approved contract ceilings on the four CFT contracts by
Major Commands and subordinate activities to absorb             amounts ranging from $19.4 million to $454.3 million
the reductions by procuring less contract service support.      for four of five performance periods.
In conjunction with the Program Budget Decision 720
contract service support reductions, the Secretary of the Effective Use of Award Fees on Service Contracts: The
Air Force issued a memorandum directing MAJCOMs           Air Force uses award fees as a contracting tool to motivate
to establish a contract service support baseline against  contractors to exceed minimum contract performance
which future budget reductions would be taken. The        standards. Contractors can earn award fees up to the
memorandum also directed MAJCOMs to better manage,        maximum value in the award fee pool based on their
track, and account for the estimated $32.2 billion (over  performance in areas the Air Force considers critical to
the future years defense plan) of contract service support.
                                                          program success. In FY 2006, the Air Force had 114 service
This audit concluded Air Force activities did not effectively
                                                          contracts (excluding 76 research, development, test, and
reduce contract service support as directed for FY 2007   evaluation contracts) containing award fee provisions. This
and did not adequately plan for out-year reductions.      audit reviewed 34 contracts with available award fee pools
MAJCOMs could not identify the subordinate activities     totaling $87.6 million for evaluation periods completed in
that were allocated $42.7 million of $440 million FY 2007 2006. The audit disclosed Air Force contracting officers
budget reductions reviewed. Additionally, subordinate     did not adequately justify using award fee provisions for
activities receiving targeted budget reductions could not 88 percent of the service contracts reviewed. In addition,
always identify the contract service support they reduced Air Force personnel did not adequately monitor contractor
or eliminated. Lastly, MAJCOMs and subordinate            performance and support award fee determinations for
activities could not always produce plans showing the     26 percent of the service contracts reviewed, distributing
contract services support they planned to reduce for out- more than over $3.3 million in estimated award fees for
year (FYs 2008 to 2011) targeted reductions.              contractor performance that did not meet established
                                                          performance criteria or was not fully supported. Finally,
Contract Field Team Program Management: A Contract contracting and financial management personnel did not
Field Team is a group of contractor maintenance personnel properly manage award fee funds for 53 percent of the
that use government-furnished tools, equipment, service contracts reviewed.
workspace, and supplies to accomplish maintenance
workload. The Air Force established the CFT Program to
augment depot and organic maintenance capabilities and

                                                                                                                       101
Department of Defense Inspector General
Financial Management                                         Base Realignment and Closure Funds Execution: On
                                                             November 9, 2005, DoD became legally obligated to
Air Force Working Capital Fund Tri-Annual Review             implementing recommendations to close and realign
Process: Under Secretary of Defense, Comptroller,            installations in the 2005 Base Realignment and Closure
policy and DoD regulations require financial managers        Commission’s report by FY 2011. Accordingly, Air
review Air Force unliquidated obligations three times        Force Major Commands initiated actions and distributed
each FY. The Defense Finance and Accounting Service          more than $409 million to close or realign the 156 Air
established the tri-annual review process to implement       Force locations impacted. An audit disclosed six of eight
this requirement. The FY 2006 third period (July through     MAJCOMs did not report to Air Staff the expenditure
September) tri-annual review included 4,457 accounting       of almost $22.5 million of non-BRAC appropriations for
lines totaling $5.6 billion in Air Force Working Capital     BRAC-related requirements and four MAJCOMs did not
Fund unliquidated obligations. The audit concluded tri-      reduce their future funding requests by more than $5.1
annual reviews were not timely, accurate, and complete.      million ($2.6 million in FY2007 and $2.5 million in FY
The auditors estimated 1,811 working capital fund            2008 and beyond) for requirements funded in FY 2006
unliquidated obligations amounting to $2.6 billion were      and FY 2007. As a result, Congress may not have had
not sufficiently and accurately supported. Additionally,     visibility over almost $22.5 million in non-BRAC funds
Air Force financial managers needlessly retained invalid     used for BRAC-related requirements during FY 2006 and
and unsupported obligations estimated at $96.6 million.      FY 2007. Additionally, the funds were no longer available
Lastly, senior DFAS and Air Force financial managers         to operate and maintain active, reserve, and guard bases.
incorrectly attested to the accuracy and completeness of     Further, MAJCOM BRAC funding requirements were
Air Force obligations because of incomplete reviews and      inflated by more than $5 million, reducing BRAC funds
insufficient supporting documentation.                       available for other valid requirements.

Air Force Working Capital Fund Organic Depot                 Air Force Postal Operations: The Air Force and other
Maintenance Activity Group Accounts Payable: The Air         military services operate postal facilities at overseas
Force Materiel Command has management responsibility         installations.      Each Service conducts operations
for the Depot Maintenance Activity Group. DMAG               in accordance with US Postal Service policies and
repairs, overhauls, and modifies weapons systems and         procedures, uses USPS publications and forms, and
spare parts at the three air logistics centers to support    acquires USPS post office equipment and supplies for
wartime and peacetime requirements. Air Force Materiel       operations. The Secretary of the Army as the Executive
Command depots accomplish organic DMAG repair and            Agent for the Military Postal Service overseas, relies on
overhaul while contractor facilities accomplish contract     the Military Postal Service Agency to validate USPS
DMAG work. Accounts payable are amounts owed to              bills, provides technical assistance, and monitors overseas
other entities for receipt of goods and services, progress   postal operations. Within the Air Force, the Office of
in contract performance, and rents. DMAG Accounts            Warfighting Integration and Chief Information Officer is
Payable totaled $296 million in the Working Capital          responsible for postal operations. In FY 2007, DoD spent
Fund FY 2006 financial statements. The audit concluded       over $500 million for postal operations of which the Air
organic DMAG accounts payable were not valid or              Force share was approximately $82.4 million. This audit,
properly supported. In addition, Defense Finance and         requested by the Deputy Administrative Assistant to the
Accounting Service Denver and AFMC accounting                Secretary, disclosed opportunities existed for Air Force and
and systems personnel could not provide a complete,          DoD postal officials to improve postal operation efficiency
auditable universe of accounts payable. Lastly, because of   and effectiveness and save the Air Force $34.6 million and
inadequate support, Air Force managers should deobligate     the DoD $100 million during the future years defense
$3.2 million unneeded accounts payable and apply the         plan. Specifically, Air Force postmasters sent Intra-theater
funds for use on other Air Force requirements.               delivery service mail using priority rates rather than using

102
                                                                                            Semiannual Report to Congress
space available rates. For 31 of 32 overseas zip codes          did not properly estimate $25.4 million in requirements
reviewed, postmasters used higher-cost priority rates to        ($11.3 million in overstatements and $14.1 million in
ship intra-theater mail. Additionally, USPS personnel           understatements), delete invalid requirements in BRAC
located at stateside mail gateways sent bulk business mail      management tool totaling about $3.1 million, and provide
as priority rather than using space-available rates. USPS       sufficient supporting documentation for $81.3 million in
sent 13,644 (77 percent) of 17,757 kilograms of bulk            valid requirements. By eliminating the $14.4 million of
business mail using higher priority rates to four selected      overstated and no longer valid requirements, the Air Force
United States Air Forces in Europe locations over a 2-          could use these funds for other valid BRAC requirements
week period in September 2007. DoD and Air Force                and achieve a potential monetary benefit.
bulk business mail policy also allowed USPS personnel to
send undeliverable bulk business mail overseas. Thirty-Cooperative Agreement Closeout-McClellan AFB,
five percent of bulk business mail received during a 2-CA: McClellan AFB was selected for closure under
week period in September 2007 at eight overseas locations
                                                       the 1995 Base Realignment and Closure Act. From
was not deliverable and required discarding. In addition,
                                                       September 1997 to September 2004, the Air Force
DoD and Air Force Intra-theater Delivery Service policyReal Property Agency entered into several cooperative
revisions were necessary to reduce perceptions of wasteagreements with the Sacramento County Local Reuse
and abuse. Over the same 2-week period in September    Authority to operate and maintain the base’s military
2007, 17 percent of intra-theater mail received at 8   facilities to meet the scheduled July 13, 2001 closure
overseas locations appeared inappropriate. DoD and Air date and expedite the property ownership transfer. The
Force policy for Air Mobility Command mail movement    Air Force paid the local reuse authority more than $64.8
should be revised as well to allow for more accurate postal
                                                       million in advances or reimbursements. This review
billings. USPS postal information system interfaces did not
                                                       determined Air Force officials effectively managed the
accurately reflect Air Force mail billings resulting in over-
                                                       McClellan AFB Cooperative Agreements, providing a fair
billings exceeding $2.2 million for non-International Air
                                                       and reasonable closeout with the exception of residual
Transport contract container shipments. The USPS intra-funds and interest earned transactions. Specifically, Air
systems interface did not provide assurance that all USPS
                                                       Force Real Property Agency officials did not accurately
Global Enterprise Mail System transactions originating calculate local reuse authority residual funds or effectively
at retrograde dispatch locations were properly processed.
                                                       use these funds to offset reimbursement amounts paid
Moreover, Germany-Air Mail Terminal postal employees   and collect all earned interest on funds advanced to local
billed retrograde mail service based on estimated rather
                                                       reuse authority. Collecting the remaining residual funds
than actual weights. Automation would ensure Army      totaling $1.74 million and obtaining $377,603 in interest
and Air Force organizations pay accurate amounts for   reimbursement from local reuse authority will provide the
their respective retrograde mail service. Finally, financial
                                                       Air Force additional funds for other priorities. Further,
managers did not deobligate unliquidated miscellaneous the local reuse authority substantially complied with
obligation reimbursement document balances when no     required financial internal controls, with the exception of
longer required.                                       separation of duties controls. The same individual signed
                                                       both the services received verification and authorized
Base Realignment Closure 2005 Implementation payments for 4 (50 percent) of 8 payment transactions
Actions: Base Realignment and Closure 2005 initiated reviewed in the Health, Safety and Environmental
a series of base closures and realignments beginning Cooperative Agreement.
in 2005 to reduce excess infrastructure. Air Force and
Major Command BRAC Program Management Office Financial Aspects of Using Government Purchase Cards
personnel developed requirements to implement 64 for Contract Payments: The Air Force Government
BRAC 2005 recommendations totaling more than $3.7 Purchase program streamlines the acquisition of goods
billion. The review determined Air Force organizations and services falling under the micro-purchase threshold


                                                                                                                      103
Department of Defense Inspector General
of $3,000. The Federal Acquisition Regulation authorizes     Health Care
use of the purchase card as a method of payment on
contractual agreements. In FY 2006, Air Force personnel      Air Force Drinking Water: Air Force water systems are
paid over 1,000 contracts valued at approximately $50        critical assets for protecting and maintaining potable
million using the Government purchase card. This audit       water supplies vital for drinking, firefighting, sanitation,
determined Air Force cardholders used purchase cards         and other requirements needed to sustain installation
to pay contracts not properly recorded in the official       operations. Air Force operates 160 drinking water systems
accounting system. As a result, financial managers did       on 90 installations affecting more than 1 million personnel.
not accurately report contract obligations totaling over     The Safe Drinking Water Act required initial Water
$50 million. Additionally, Air Force contracting officials   Vulnerability Assessments to verify public water system
did not establish sufficient internal controls when using    safety. To comply with this Act, the Air Force requires
purchase cards as a method of contract payment.              triennial vulnerability assessments and annual updates. Air
                                                             Force personnel pump drinking water from installation
Air Force General Fund General Equipment: General            wells or purchase water from municipal suppliers for
equipment is nonmilitary support equipment and vehicles      distribution to host wing and tenant customers. Host
used in the normal course of operations. Air Force supply    wings charge installation tenants for drinking water;
and financial personnel use the Air Force Equipment          the charges are based on water reimbursement rates and
Management System to manage, record, and report              consumption. The audit concluded Air Force personnel
supply and financial data related to general equipment.      did not protect drinking water from contamination
Also, AFEMS computes depreciation for capital assets         vulnerabilities or service disruption. Although personnel
with an acquisition cost of $100,000 or more. For FY         executed monitoring and testing requirements, 13 of 14
2006, the acquisition cost of general equipment reported     installations reviewed did not always take appropriate action
in AFEMS was over $30 billion while the General Fund         to correct vulnerability assessment findings, conduct and
financial statements reported a net book value of $6.5       document annual vulnerability assessment updates, plan
billion. The audit reported installation-level supply        triennial higher headquarters vulnerability assessments, or
personnel and equipment custodians did not correctly         report accurate Safe Drinking Water Act data. As a result,
value general equipment, accurately report equipment         229 (75 percent) of 306 water vulnerabilities identified at
acquisition dates, revise estimated equipment costs, or      14 locations reviewed remained uncorrected, significantly
correctly record quantities in AFEMS; maintain source        increasing installation susceptibility to drinking water
documents supporting equipment acquisition costs and         contamination. Further, Civil Engineering personnel did
dates; and maintain proper identification plates containing  not accurately calculate tenant water reimbursements.
sufficient or accurate information to identify general       Specifically, 13 of 14 installations reviewed incorrectly
equipment recorded in AFEMS. Additionally, General           calculated water rates or consumption during Calendar
Fund general equipment depreciation expenses were not        Year 2006. As a result, installations overcharged
accurate when Air Force personnel enhanced capital assets.   reimbursable customers $185,000 and undercharged
Item managers and installation-level supply personnel        customers $200,000 for drinking water during Calendar
did not timely input AFEMS data to allow depreciation        Year 2006.
computation. Finally, although equipment custodians
physically located 98 of 100 selected equipment items Air Force Office of Special
recorded in AFEMS, custodians at two installations could
                                                            Investigations
not account for two items. As a result, the Air Force
could potentially lose equipment, valued at $15 million,
                                                            AFOSI, founded on August 1, 1948, is headquartered
required for Air Force operations.
                                                            at Andrews Air Force Base in Maryland and provides



104
                                                                                            Semiannual Report to Congress
professional investigative service to commanders of all     to the Air Force. This unit is used to test the flight
Air Force activities. AFOSI identifies, investigates, and   worthiness of Intercontinental Ballistic Missiles. The
neutralizes criminal, terrorist, and espionage threats to   contractor submitted a payment request and certified
Air Force and Department of Defense personnel and           that all payments to subcontractors and suppliers under
resources.                                                  the contract were paid or will be paid when due in the
                                                            ordinary course of business. The performance-based
An AFOSI sexual assault investigation disclosed that an     payment was for slip tables, a component needed for the
Air Force colonel, assigned to a Training Wing, sexually    deliverable. The Air Force paid for the slip tables but
assaulted two civilian, female subordinates on multiple     the contractor never provided specifications, delivery
occasions in the workplace. These assaults continued        dates or payment to the subcontractor for the slip tables
despite pleas from the women for him to stop. The           and the subcontractor cancelled the order after repeated
colonel was convicted by courts-martial on three counts     requests for the required information. The contractor
of indecent assault and conduct unbecoming an officer.      subsequently signed a settlement agreement to pay
He was sentenced to nine years confinement, dismissal       $501,000 in restitution and penalties and the Air Force
from the Air Force, $14,000 fine.                           agreed to terminate the contract for convenience.

An AFOSI sexual assault investigation disclosed an           AFOSI cyber crime special agents conduct cyber
airman had downloaded images of child pornography            investigations and operations, and routinely discover new
onto his cell-phone. Further investigation revealed the      computer system exploits and the adversary’s (foreign or
airman sexually assaulted 13 adult males after they were     domestic) training, tactics and procedures. Whenever new
incapacitated or unconscious from alcohol or drugs.          exploits and TTPs are discovered the new information
The airman photographed, stored and cataloged digital        is disseminated to the Air Force Computer Emergency
photographs and movie clips of these assaults. The airman    Response Team and Air Force Network Operations Center.
pled guilty during a courts-martial to assaulting the 13     Additionally, this information is passed to the Joint Task
victims and was sentenced to 40 years confinement, a         Force-Global Network Operations for dissemination to
dishonorable discharge.                                      the military service Department of Defense Computer
                                                             Emergency Response Teams. The information gleaned
A joint AFOSI and DCIS false claim investigation by cyber crime special agents, coupled with the sharing
disclosed that a DoD contractor overcharged the Air of information between the military service Computer
Force, Army and Navy to deliver shipments from one Emergency Response Teams enhances the protection of
military installation to another by falsifying delivery DoD information over the Global Information Grid.
documents. The contractor charged the military services
for delivering cargo by air when they actually delivered
via ground shipment at a significant savings that was not
passed on to the government. It was also determined that
the contractor directed employees to alter proof of delivery
documents to reflect that late shipments actually arrived
on time. The president of the company was convicted
of making a material false statement and made a $16.1
million settlement with the government.

An AFOSI false statement investigation of an Air Force
contractor disclosed the contract required the contractor
to deliver a Single-Axis Electro Dynamic Shaker unit



                                                                                                                   105
Department of Defense Inspector General
     Defense Oversight
        Community
Providing Oversight for the Department...




        and making a difference!
Chapter 4:
DoD IG
Outreach
The DoD IG makes an effort to reach out to those that we serve, the Department, the Congress, the warfighter and of
course the American people. DoD IG does this in many ways, through congressional testimony, the Defense Hotline,
our Web site, as well as oversight groups such as the PCIE and DCIE. Each of these outlets allows the DoD IG to
communicate with our most important partners, and provides opportunities for interaction with those who need our
services. The DoD IG is committed to oversight and transparency in our duties and operations; the following sections
describe efforts to meet that goal.



                             Congressional Testimony

Section 4(a) of the Inspector General Act requires the Inspector General “to review existing and proposed legislation and
regulations relating to the programs and operations of [the Department of Defense]” and to make recommendations
“concerning the impact of such legislation or regulations on the economy and efficiency in the administration of
programs and operations administered or financed by [the Department] or the prevention and detection of fraud and
abuse in such programs and operations.” The DoD IG is given the opportunity to provide information to Congress
by participating in congressional hearings and briefings. During this reporting period, the DoD IG has testified two
times before Congress regarding non-GWOT related subjects, specifically:

The Hon. Gordon S. Heddell, Acting Inspector General Department of Defense,
testified on September 10, 2008, before the Senate Homeland Security and
Governmental Affairs Committee on “Expediency versus integrity: Do assembly
line audits at the Defense Contract Audit Agency waste taxpayer dollars?”

Mr. Heddell addressed the DoD IG efforts regarding the oversight of audit work
performed at the Defense Contract Audit Agency. Specifically, he described the
handling of an initial hotline complaint, the DoD IG investigation of the allegations,
and the results of a DoD IG peer review of the Defense Contract Audit Agency
quality control system.

                                                  Mr. Gordon S. Heddell, also, testified on July 16, 2008, before
                                                  the Domestic Policy Subcommittee of the House Oversight and
                                                  Government Reform Committee on “DoD’s experience with Circular
                                                  A-76 competitions and the specific context of the A-76 competition
                                                  which privatized Military Retired and Annuitant Pay functions.”

                                                  Mr. Heddell detailed our experience with Office of Management and
                                                  Budget Circular No. A-76 competitions and more specifically, our
                                                  work relating to the competition that privatized Military and Retired
                                                  and Annuitant Pay functions.




108
                                                                                            Semiannual Report to Congress
                                                            Defense Hotline

The Defense Hotline continues its primary mission of providing a reliable means for DoD civilian and contractor
employees, military service members, and the public to report fraud, waste, mismanagement, abuse of authority,
threats to homeland security and leaks of classified information to the Department of Defense. The Defense Hotline
offers both confidentiality and protection against reprisal.

The Defense Hotline receives allegations from around the world via e-mail, Internet, U.S. mail, fax, and telephone.


                                                 April 1, 2008 - September 30, 2008
                                                          Contacts                                   6876
                                                          Cases Opened                               1064
                                                          Cases Closed                               1088
                                                          Dollar Recoveries                          $1.5 million



Distribution of Hotline Contacts by Source
....................................................................................................................................................................................

                     DISTRIBUTION OF HOTLINE CONTACTS BY SOURCE

              600

              500

              400

              300

              200

              100

                     0
                                      Co                  Ph                 GA                 In t                Le                 Em
                                        ng                  on                    O                 ern                tte                  ail
                                           res                e                                        e                  r
                                                                                                                                   Le
                                                                                           In
                                                                       G




                                                                                                                Em
                                                    Ph




                                                                                                           t
                                Co




                                               s
                                                                          AO



                                                                                              t




                                                                                                                                      tte
                                                                                              er
                                                       o
                                    ng




                                                                                                                    ail
                                                        ne




                                                                                                ne




                                                                                                                                         r
                                       re




                                                                                                   t
                                          s
                                          s




                                                                                                                                                                              109
Department of Defense Inspector General
Distribution of Hotline Referrals
...................................................................................................................................................................................


                                                       1%         2%
                                      12%

                                                                                           35%
                             2%

                                                                                                                            DODIG
                                                                                                                            UNIFORM SVCS
                                                                                                                            OSD
                                                                                                                            DEFENSE ACTIVITIES
                                                                                                                            NONDOD
                                                                                                                            TRICARE


                                  48%




Distribution of Hotline Cases by Category
...................................................................................................................................................................................


•	    Contract Administration (107)
•	    Finance and Accounting (104)
•	    Government Property (62)
•	    Homeland Security (1)
•	    Internal Misconduct (176)
•	    Medical (18)
•	    Military Support Services (3)
•	    Non-Appropriated Funds (2)
•	    Other (11)
•	    Personnel Actions (26)
•	    Programs/Projects (79)
•	    Procurement (32)
•	    Reprisal (144)
•	    Security (25)
                                                                                                     17973-Hotline.indd 1                              10/20/06 5:37:57 PM




110
                                                                                                                                         Semiannual Report to Congress
                                                            DoD IG Web site

The DoD IG web team continues to provide the public, Congress and the military with timely information about
the agency’s mission, accomplishments and ongoing efforts to prevent fraud, waste and abuse. One of the major
accomplishments during this reporting period was the development of the Audit Policy and Oversight Directorate’s
web site on “Fraud Indicators in Procurement and other Defense Activities.” The web site is intended to assist the
inspector general and law enforcement communities in the detection of fraud by providing examples and scenarios of
common fraud indicators in contracting and other areas susceptible to fraud. It also provides tips in the scenarios for
using data mining techniques and data analysis.

In keeping with its goal of “transparent accountability,” the DoD IG web site also features an extensive Freedom of
Information Act section, where requests can be made on-line, and a pressroom section containing links to all report
sections as well as a special section titled “Frequently Requested Documents” where members of Congress, their staffs,
reporters and the general public can access high-interest documents as soon as they are posted.

Statistics
....................................................................................................................................................................................

•	 During this six-month reporting
   period, 279,581 visitors logged onto
   DoD IG public web site (1,528
   visitors per day). Visitors who visited
   once were 227,589 (81.4 percent)
   and visitors who visited more than
   once were 51,992 (18.6 percent).

•	 In addition to the United States,
   visits were made by viewers from
   187 other countries.

•	 The most frequently visited pages
   were Careers, Defense Criminal
   Investigative Service, Audit Reports,
   and Defense Hotline.

•	 The Fraud, Waste & Abuse
   Complaints On-Line Complaint
   Form was visited 10,370 times

•	 The Freedom of Information Act
   Request On-Line form was visited
   621 times.
                                                                                                                                                                              111
Department of Defense Inspector General
                                   PCIE and ECIE Activities



                                       The President’s Council on Integrity and Efficiency and the Executive Council
                                       on Integrity and Efficiency were established by Executive Order 12805 to address
                                       integrity, economy, and effectiveness issues that transcend individual government
                                       agencies, and increase the professionalism and effectiveness of IG personnel
                                       throughout the government. Presidentially appointed IG’s are members of the
                                       PCIE and the DoD IG is an active participant in the PCIE, serving as a member
                                       of the PCIE Audit Committee, PCIE/ECIE IG Act Implementation Committee,
                                       and PCIE Executive Council; as chair of the PCIE Information Technology
                                       Committee; and as Editor-in-Chief of the PCIE/ECIE Journal of Public Inquiry.
                                       Furthermore, the Deputy IG for Auditing is currently serving as the chair of the
                                       Federal Audit Executive Council, a subgroup of the PCIE, and the Assistant
                                       IG for Defense Business Operations serves as the PCIE Ex-Officio to the Chief
                                       Financial Officers Council.

                                       PCIE Information Technology Committee
                                       ...........................................................................................................................

                                     The PCIE IT Committee was established in 2007 to address the many concerns
                                     shared by the IG community regarding information technology. Its mission is to
                                     facilitate effective information technology audits, evaluations, and investigations
                                     by Inspectors General, and to provide a vehicle for the expression of the IG
                                     community’s perspective on Government-wide IT operations. The DoD IG was
                                    appointed to be the first chair of this new committee that meets quarterly, with
two meetings taking place during this reporting period, in May, and September of 2008. Key presentations and agenda
items at these meetings included the role of the Inspector
General community in implementation of the Comprehensive
National Cyber Security Initiative; standard consent banners
and agreements; the need for information technology forensics
laboratories; public key infrastructure; and updates from the
two sub-committees of the PCIE IT Committee -- Audit and
Inspections, and Investigations. During the reporting period
the PCIE IT Committee produced one white paper titled “Key
Escrow Management and File Encryption Challenges for the
Federal Inspector General Community” and one report titled,
“Inspector General Community Computer Forensics Laboratory
Survey Results.” The PCIE IT Committee also hosted a moot
court training session conducted by the Department of Justice
on the presentation of digital evidence. The web site for the
committee is at www.dodig.mil/pcie-it.                                                        DoD IG auditors are part of the
                                                                                                                             Inspector General community.

112
                                                                                                                        Semiannual Report to Congress
                                                              DCIE Activities

The Defense Council on Integrity and Efficiency is patterned after the President’s Council on Integrity and Efficiency.
The DCIE is chaired by the DoD IG and meets on a quarterly basis to discuss issues of common interest, share
information and best practices, and build closer working relationships among members of the oversight community
within the Department. The 3rd quarter meeting was held in conjunction with the Joint Chiefs of Staff Combatant
Command IG Conference, providing the COCOM IGs an opportunity to meet and discuss issues with the senior
leadership of the DoD oversight community. Key presentations and topics of discussion during the two meetings
held during this period included an overview of the HASC Subcommittee on Oversight and Investigations, munitions
accountability and other Southwest Asia initiatives, Section 842 Audit Plan regarding wartime contracts and contracting
processes, joint basing, and joint IG training and doctrine.

DCIE Inspections and Evaluations Roundtable
....................................................................................................................................................................................

The Defense Council on Integrity and Efficiency Inspections and Evaluations Roundtable provides a forum for
communication, coordination, and collaboration among DoD IGs Inspections and Evaluations organizations --
Services, Joint Staff, COCOMs, National Guard Bureau, and Defense Agencies. The roundtable meets quarterly
and is chaired by the Assistant IG for Inspections and Evaluations. Agenda items during this semiannual period
included:

•	    Medical Hold Housing
•	    New Special Plans and Operations Office
•	    Coordination with Special IG for Iraqi Reconstruction
•	    Section 1206 Train & Equip Project
•	    Public Affairs Outreach Program
•	    Electrocution Accidents in Iraq
•	    Federal Voting Assistance Program


                                           Speeches and Conferences

National Procurement Fraud Conference
....................................................................................................................................................................................

On September 9, 2008 members of the DoD IG leadership made presentations to the National Procurement Fraud
Conference held in Richmond, VA. Ms. Mary L. Ugone, Deputy Inspector General for Auditing, and Mr. Charles
Beardall, Deputy Inspector General for Investigations, provided a joint presentation focused on predicting fraudulent
activities and highlighting successful fraud prosecutions and the lessons learned as to internal controls.




                                                                                                                                                                              113
Department of Defense Inspector General
American Society of Military Comptroller’s Professional
Development Conference
....................................................................................................................................................................................

On May 29, 2008 Ms. Mary L. Ugone, Deputy Inspector General for Auditing, and Ms. Sharon E. Woods, Director
of the Defense Criminal Investigative Service, provided a joint presentation to the American Society of Military
Comptroller’s professional development conference. Ms. Ugone’s presentation focused on fraud and internal controls
and provided an overview of potential predictive analytical methods to prevent and disclose fraud. Ms. Woods’
presentation highlighted several recent high-profile DCIS fraud cases and demonstrated the breakdown of internal
controls in each case. The ASMC promotes education, training, and professional development in all aspects of
military comptrollership.

Combatant Command Joint Inspector General Course
....................................................................................................................................................................................

In April and August, 2008, Ms. Mary L. Ugone, Deputy Inspector General for Auditing, delivered a presentation to
classes at the Combatant Command Joint Inspector General Course on the DoD IG and the Global War on Terror.
The presentation highlighted the DoD IG GWOT goals, our expeditionary workforce, and oversight efforts.



                                                             DoD IG Awards

Presidential Rank Award
...................................................................................................................................................................................

Deputy Inspector General for Auditing, Mary L. Ugone, was the
recipient of a Presidential Rank Award for 2007. Acting Inspector
General Gordon Heddell presented the award to Ms. Ugone
during a ceremony on August 7, 2008. The award citation, signed
by President George Bush, states: “The President of the United
States of America has conferred on Ms. Mary Lu Ugone the rank
of Meritorious Executive in the Senior Executive Service for
sustained superior accomplishment in management of programs
of the United States Government and for noteworthy achievement
of quality and efficiency in the public service.” She also received an
identical citation signed by Secretary of Defense Robert Gates. In
presenting the award Mr. Heddell stated, “These few recipients of
this prestigious award are the strongest of government leaders and
skilled professionals who achieve results throughout their career and consistently demonstrate a relentless commitment
to excellence in public service.”


114
                                                                                                                                          Semiannual Report to Congress
Chapter 5:
DoD IG
Components
                                                Special Announcement

New Office of Professional Responsibility

During this reporting period, the OIG Office of Professional Responsibility was established. OPR became operational
on Sunday October 5, 2008. OPR reports directly to the Inspector General, and is responsible for conducting system
reviews and analysis of each OIG component to determine managerial, operational, and administrative efficiency
and effectiveness. OPR will accomplish this goal by conducting periodic inspections of headquarters, regional, and
field offices. The inspection process will involve a systematic review and analysis designed to assess individual OIG
components. OPR will also be responsible for conducting independent and objective professional investigations into
allegations of employee misconduct.


                                                                        Auditing

The Office of the Deputy Inspector General for Auditing conducts audits on all facets of DoD operations. The
work results in recommendations for reducing costs, eliminating fraud, waste, and abuse of authority, improving
performance, strengthening internal controls, and achieving compliance with laws, regulations, and policies. Audit
topics are determined by law, requests from the Secretary of Defense and other DoD leadership, Hotline allegations,
congressional requests, and internal analyses of risk in DoD programs.

DoD Audit Community
....................................................................................................................................................................................

The Defense Contract Audit Agency provided financial advice to contracting officers in 16,545 audit assignments
during the period. The contract audits resulted in more than $9.4 billion in questioned costs and funds that could
be put to better use. Appendix D contains the details of the assignments performed. The Annex of Significant
Audit Findings contains the information required by the National Defense Authorization Act for FY 2008, Section
845, “Disclosure of Significant Audit Findings,” for 117 Defense Contract Audit Agency audit reports that have
unsupported, questioned, or disallowed costs in an amount in excess of $10 million.

Contracting officers disallowed $253.3 million (42.9 percent) of the $590.5 million questioned as a result of significant
post-award contract audits during the period. The contracting officer disallowance rate of 42.9 percent represents a
decrease from the disallowance rate of 56.0 percent for the prior reporting period. Additional details of the amounts
disallowed are found in Appendix E.

Audit Significant Open Recommendations
....................................................................................................................................................................................

Managers accepted or proposed acceptable alternatives for 99 percent of the 592 DoD IG audit recommendations
rendered in the last 6 months of FY 2008. Many recommendations require complex and time consuming actions, but
managers are expected to make reasonable efforts to comply with agreed upon implementation schedules. Although
116
                                                                                                                                          Semiannual Report to Congress
most of the 1141 open actions on DoD IG audit reports being monitored in the follow-up system are on track for
timely implementation, there were 202 reports more than 12 months old for which management has not completed
actions to implement the recommended improvements.

Significant open recommendations that have yet to be implemented follow:

•	 Recommendations from multiple reports to make numerous revisions to the DoD Financial Management
   Regulations; clarify accounting policy and guidance; and improve accounting processes and internal controls over
   financial reporting and related financial systems have resulted in initiatives that are underway to correct financial
   systems deficiencies and enable the Department to provide accurate, timely, and reliable financial statements. In
   reviewing the FY 2007 trial balance data for the Army General Fund, the Defense Financial Auditing Service
   identified significant unresolved abnormal balances in both the proprietary and budgetary accounts used in
   compiling the Army General Fund financial statements. The auditors concluded that the issue of abnormal
   balances in accounting records, which they reported in 2004, continues to be an issue. The correction of this
   condition is dependent upon implementation of the Defense Departmental Reporting System – Budgetary, part
   of the Business Enterprise Information Services, which is expected to be fully deployed by the end of 2008.

•	 Recommendations from multiple reports in the high-risk area of personnel security. Some of the most significant
   of these include: development of a prioritization process for investigations; establishment of minimum training
   and experience requirements and a certification program for personnel granting security clearances; issuance of
   policy on the access by all contractors, including foreign nationals, to unclassified but sensitive DoD IT systems;
   establishment of policy on access reciprocity and a single, integrated database for Special Access Programs;
   implementation of steps to match the size of the investigative and adjudicative workforces to the clearance
   workload; development of DoD-wide backlog definitions and measures; and improvement of the projections of
   clearance requirements for industrial personnel. Progress on the unprecedented transformation of the personnel
   security program is slow. Implementation of multiple report recommendations is pending the issuance of revised
   DoD Regulation 5200.2-R.

•	 Recommendations made in 2004 to define network centric warfare and its associated concepts and formalize
   roles, responsibilities, and processes for the overall development, coordination, and oversight of DoD network
   centric warfare efforts. DoD guidance has been updated to reflect relevant definitions that have been developed.
   Coordination of applicable DoD Directives and a DoD Instruction is ongoing.

•	 Recommendations made in 2004 to clarify guidance on the differences between force protection and antiterrorism
   in DoD policies and procedures. DoD revised its applicable guidance in October 2006. The Army and Marine
   Corps are now in process of updating their corresponding guidance.

•	 Recommendations from several reports to address issues regarding information systems security including
   completion of the information security certification and accreditation process for various DoD systems, and
   development of an adequate plan of action with milestones to resolve critical security weaknesses. These actions need
   to be completed to address requirements of the Federal Information Security Management Act and related OMB
   guidance. Although some actions have been initiated, they are not adequate to correct the identified deficiencies,
   nor have they been adequately incorporated in the revision to the applicable instruction. Discussions are ongoing
   to establish a standard “information system” definition across DoD for information technology reporting and
   other related issues.

                                                                                                                    117
Department of Defense Inspector General
•	 Recommendations from several reports to clarify and improve DoD policy guidance and procedures covering the
   roles and responsibilities of contracting personnel; requirements for obtaining cost or pricing data, conducting price
   analysis, determining price reasonableness, fulfilling competition requirements, use of multiple-award contracts,
   monitoring contractor performance, and maintaining past performance data on contractors. Corrective actions
   are underway to improver DoD contracting procedures related to source selection, interagency acquisitions,
   contract surveillance and reporting, and sole-source procurements of spare parts.

•	 Recommendations from several reports to address issues regarding improvement in oversight responsibilities
   and management controls relating to the purchase card program. These include: ensuring all cardholders and
   approving officials receive the required initial and refresher purchase card training; effectively managing the span
   of control over purchase card accounts; conducting oversight reviews of approving official accounts to verify
   compliance with DoD purchase card guidance; ensuring proper retention of documents for all accounts; and
   adequately enforcing existing controls throughout the purchase card process. The Services are now in process of
   updating their guidance to conform to corresponding DoD policy.


                                         Investigations

The Office of the Deputy Inspector General for Investigations comprises the criminal and the administrative investigative
components of the DoD IG. The Defense Criminal Investigative Service is the criminal investigative component of
the DoD IG. The non-criminal investigative units include the Directorate for Investigations of Senior Officials, the
Directorate for Military Reprisal Investigations, and the Directorate for Civilian Reprisal Investigations.


               Defense Criminal Investigative Service
DCIS is tasked with the mission to protect America’s warfighters by conducting investigations in support of crucial
national defense priorities. DCIS conducts investigations of suspected major criminal violations focusing mainly
on terrorism, product substitution/defective parts, cyber crimes/computer intrusion, illegal technology transfer, and
other crimes involving public integrity including bribery, corruption, and major theft. DCIS also promotes training
and awareness in all elements of the DoD regarding the impact of fraud on resources and programs by providing fraud
awareness presentations.

                    Investigations of Senior Officials

The Directorate for Investigations of Senior Officials conducts investigations into allegations against senior military
and civilian officials and performs oversight of senior official investigations conducted by the Military Departments.

Figures 1 and 2 show results of activity on senior official cases during FY 2008. On September 30, 2008, there were
224 ongoing investigations into senior official misconduct throughout the Department, representing a slight increase
from March 31, 2008, when we reported 207 open investigations. Over the past year, the Department closed 294
senior official cases, of which 40 (14 percent) contained substantiated allegations.


118
                                                                                             Semiannual Report to Congress
            Figure 1: Nature of Substantiated Allegations Against
                         Senior Officials During FY 08

                                  Other
                                Misconduct                                        Failure to Act
                                   23%                                                 6%




                                                                                                              Abuse of
                                                                                                              Authority
                                                                                                                26%

Misuse/Waste
  of Govt                                                                       Sexual
                                                   Improper
 Resources                                                                   Improprieties
                                                   Personnel
    28%                                                                          7%
                                                    Action
                                                     10%
			                        295 Cases Closed 	                                     40 Substantiated
                           Figure 2: DoD Total Senior Official Cases
                                        FY 2003 - FY 2008
                                                                                       This chart shows the total number of
   600                                                                                 senior official investigations conducted
                                        489
                                                                                       in DoD over the past six fiscal years.
   500         466                472                  466 468
                     427                                                    416
                                                                                                                 395
   400                                                                327                    350
                                                                                                   331
                                                                                                                       294
   300

   200
                                                                 86
   100                     57                 52
                                                                                  73
                                                                                                         50                  40


       0
                 FY03              FY04                 FY05           FY06                   FY07                FY08

                                        Opened             Closed           Substantiated
                                                                                                                                  119
Department of Defense Inspector General
                                 Military Reprisal Investigations

The DoD IG Directorate for Military Reprisal Investigations conducts investigations and performs oversight of
investigations conducted by the Military Department and Defense Agency IGs. Those investigations pertain to:

•	 Allegations that unfavorable actions were taken against members of the Armed Forces, non-appropriated fund
   employees, and Defense contractor employees in reprisal for making protected communications.

•	 Allegations that members of the Armed Forces were referred for mental health evaluations without being afforded
   the procedural rights prescribed in the DoD Directive and Instruction.

Whistleblower Reprisal Activity
....................................................................................................................................................................................

During the reporting period, MRI and the Military Department IGs received 291 complaints of whistleblower
reprisal. We closed 304 reprisal cases during this period. Of the 304 cases, 244 were closed after preliminary analysis
determined further investigation was not warranted and 60 were closed after investigation. Of the 60 cases investigated,
12 contained one or more substantiated allegations of whistleblower reprisal (20 percent).

This period also represents the first full reporting period under the memorandum of agreement between MRI and the
Department of the Army for processing new complaints of whistleblower reprisal. Under the MOA, MRI analyzed 41
new complaints of reprisal filed within the Army and accepted 13 of those cases for preliminary inquiry. The process
improves responsiveness to the service members and ensures each complaint accepted meets the criteria of the 10
U.S.C. 1034 for further analysis.

MRI and the military departments currently have 376 open cases involving allegations of whistleblower reprisal.

Examples of Substantiated Whistleblower Reprisal Cases
....................................................................................................................................................................................

•	 An Air Force technical sergeant received a downgraded performance report and was denied an end-of-tour award
   in reprisal for disclosing to his Group commander an improper relationship between two members within the
   wing. The responsible officials, a lieutenant colonel and a chief master sergeant, were issued letters of counseling.

•	 A Navy chief petty officer was relieved of her duties as the operations chief and assigned watch duties not
   commensurate with her rank in reprisal for reporting to the EO Advisor that her supervisor, a Navy civilian, made
   sexually offensive comments to her. The Navy also substantiated as reprisal that the supervisor provided false
   information to the commander and executive officer that resulted in two adverse fitness reports for the chief petty
   officer. The supervisor, who was the official responsible for the acts of reprisal, resigned his position before action
   was taken against him.




120
                                                                                                                                          Semiannual Report to Congress
Referrals for Mental Health Evaluations
....................................................................................................................................................................................

We closed 24 cases involving allegations of improper referrals for mental health evaluation during the reporting period.
In 10 (42 percent) of those cases, we substantiated that command officials and/or mental health care providers failed to
follow the procedural requirements for referring service members for mental health evaluations under DoD Directive
6490.1, “Mental Health Evaluations of Members of the Armed Forces.” The investigations did not substantiate that
any of the mental health referrals were taken in reprisal for Service members’ protected communications.


                                Civilian Reprisal Investigations
The mission of the Civilian Reprisal Investigations Directorate is to conduct and oversee allegations of whistleblower
reprisal made by DoD civilian employees. CRI also provides support to DoD component Inspectors General regarding
civilian reprisal cases, ensures DoD IG compliance with the Office of Special Counsel’s Section 2302(c) whistleblower
certification program, and conducts outreach to stakeholders of the DoD whistleblower protection program. During
the second half of FY 2008, CRI advised on twelve intakes which did not go to full investigation, closed three
investigations, and was actively working thirteen cases.

Examples of Substantiated Whistleblower Reprisal Cases
....................................................................................................................................................................................

A civilian engineer assigned to an office engaged in developing biometrics technology alleged constructive termination
in reprisal for disclosures of fraud, waste, abuse, and gross mismanagement associated with the fielding of various
biometric products and systems. A DoD IG investigation substantiated reprisal. Corrective action is pending.

An infrastructure development and operations employee of an office engaged in counterintelligence alleged six acts
of reprisal in response to disclosures regarding irregular management of contracts. A DoD IG investigation partially
substantiated the allegations, finding abuse of authority. Corrective action is pending.


                                                  Policy and Oversight

The Office of Deputy Inspector General for Policy and Oversight provides oversight and policy for Audit, Investigative,
and Hotline activities within the DoD; conducts inspections and evaluations of DoD programs; provides technical
advice and support, including quantitative methods and systems and computer engineering, to IG projects; conducts
data mining; monitors corrective actions taken in response to IG and GAO reports; serves as the DoD central liaison
with the GAO on reports and reviews regarding DoD programs and activities; and manages the coordination of draft
DoD policies received for comment at the DoD IG.




                                                                                                                                                                              121
Department of Defense Inspector General
Audit Policy and Oversight
..........................................................................................................................................................

The Office of the Assistant Inspector General for Audit Policy provides policy direction and oversight for audits
performed by over 6,500 DoD auditors in 24 DoD audit organizations, ensures appropriate use of non-federal auditors
and their compliance with auditing standards, and determines whether contracting officials complied with statutory
and regulatory requirements when resolving contract audit reports. During the reporting period APO completed 6
reviews including 3 hotline reviews, a review of actions on incurred cost audits by the Supervisor of Shipbuilding, and
quality control reviews of the Army Audit Agency’s and Air Force Audit Agency’s Special Access Program audits.

The APO staff also participated on seven DoD and Government-wide working groups that address significant issues
impacting audit and accountability professionals within DoD; federal, state, and local government; and the private
sector. APO provided comments on the draft President’s Council on Integrity and Efficiency/Executive Council on
Integrity and Efficiency External Peer Review Guide. Additionally, APO issued DoD Instruction 7640.02, “Policy
for Follow-up on Contract Audit Reports,” which updates DoD policy and responsibilities, reporting requirements,
and follow-up procedures on contract audits by the Defense Contract Audit Agency. The APO coordinated on 19
revisions to procurement regulations, commenting on 5 to ensure the revisions did not adversely impact DoD. Also,
APO provided comments on a United States Army Corps of Engineers statement of work for contracted audit services
to ensure that the contracted audit work will comply with required audit standards. The APO provided training on
government auditing standards, external peer reviews, audit committees, and single Audits at various conferences
including conference sponsored by the Association of Government Accountants and the American Institute of
Certified Public Accountants.

Data Mining Directorate
...................................................................................................................................................................................

The DoD IG Data Mining Directorate continues its primary mission of expanding and enhancing the use of Data
Mining with computer assisted auditing techniques as analysis tools to combat fraud, waste and abuse in Department
of Defense oversight programs. During this reporting period, the DoD IG Data Mining Directorate supported
ongoing investigations and provided continuing support to various audits.

Inspections and Evaluations
...................................................................................................................................................................................

The Office of the Assistant Inspector General for Inspections and Evaluations conducts objective and independent
customer-focused management and program inspections addressing areas of interest to Congress and the DoD, and
provides timely findings and recommendations leading to positive change in programs.

Investigative Policy and Oversight
...................................................................................................................................................................................

The Office of the Assistant Inspector General for Investigative Policy and Oversight provides policy direction for, and
evaluates the performance of, the DoD criminal investigative organizations (that is, the Defense Criminal Investigative

122
                                                                                                                                          Semiannual Report to Congress
Service, the Army Criminal Investigation Command, the Naval Criminal Investigative Service and the Air Force Office
of Special Investigations) and other DoD criminal and non-criminal investigative organizations.

The Policy and Programs Directorate is responsible for producing Department-wide policy concerning investigations
and law enforcement, and commenting on all DoD policy affecting the investigative and law enforcement communities;
conducting limited oversight evaluations of DoD investigative organizations or individual investigations; and
administering the DoD Fraud Voluntary Disclosure Program and the DoD IG Subpoena Program.

The Policy and Programs Directorate is actively developing policy on DNA submission requirements in accordance
with the DNA Fingerprint Act, and updating policy concerning fingerprint collection requirements; and oral, wire
and electronic intercept approval procedures for law enforcement. They also provided justification to continue the
issuance of DoD IG subpoenas for non-fraud related offenses, and are conducting a study to determine how Defense
organizations utilize criminal investigators.

The VDP provides a formal mechanism by which DoD contractors can report civil or criminal fraud matters discovered
within their own operations, taking advantage of incentives provided in the False Claims Act and federal sentencing
guidelines for disclosure and full cooperation with government authorities. During this reporting period, DoD
contractors made six new disclosures. In addition, one case was settled resulting in a $210,000 recovery. A new
law passed in June 2008, “Close the Contractor Fraud Loophole Act,” requires the Federal Acquisition Regulation
to be amended to include provisions that require timely notification by federal contractors of violations of criminal
law or overpayments in connection with the award or performance of any contracts or subcontracts in an amount
greater than $5 million and of more than 120 days duration. As a result, the VDP will expand to include policy and
procedures to meet the requirements of this Act.

The DoD IG Subpoena Program reviews, validates and processes administrative subpoenas in support of DCIO
investigations. During this FY, 354 subpoenas were issued, an 18 percent increase over the previous year, with an
average processing time of 13.6 days, exceeding the established metric of 15 days. As part of its outreach program,
there were 13 subpoena training classes conducted for the DCIOs.

The Oversight Directorate is responsible for Department-wide oversight affecting the investigative and law enforcement
communities; conducting oversight evaluations of DoD investigative organizations or individual investigations to
include command directed investigations of combat deaths and serious injuries upon request. The Oversight Directorate
examined the effectiveness and thoroughness of death investigations of service members and non combatants in Iraq.
Other work supported an investigation of a contractor employee’s rape complaint, and a congressional request for
a system review of the department’s response to sexual assaults involving contractors in a warzone, both support to
the complainant and actions concerning the accused, Additionally, broader systemic work included examination of
commander directed investigations of deaths as possible law of war violations and electrocution deaths of military
members and contractors in Iraq due to faulty electrical wiring and equipment.

Report Followup and GAO Liaison Directorate
...................................................................................................................................................................................

The Report Followup and GAO Liaison Directorate monitors the progress of agreed-upon corrective actions being
taken by DoD managers in response to DoD IG and GAO report recommendations. The Directorate obtains and


                                                                                                                                                                              123
Department of Defense Inspector General
evaluates documentation of progress and completion of corrective actions, and maintains a complete record of actions
taken. During this 6-month period, final corrective action was completed on 99 reports and 488 recommendations,
with $907.5 million in savings documented on DoD IG recommended actions. Also, the Directorate oversees the
mediation process to facilitate resolution of disputes relating to DoD IG recommendations to achieve agreement on
those recommendations. During this 6-month period, we facilitated the successful resolution of 4 reports with 6
disputed recommendations referred for mediation, and assisted in obtaining responsive management comments to
recommendations in 6 reports.

The Directorate serves as the DoD central liaison with GAO on matters concerning GAO reviews and reports regarding
DoD programs and activities. This involves designating the OSD primary action office, coordinating GAO reviews to
facilitate appropriate DoD actions; including monitoring and facilitating the preparation of DoD responses to GAO
reports to ensure the responses are appropriately coordinated before release. The Directorate distributes information
regarding planned GAO activities to DoD auditing and other oversight organizations to facilitate the identification of
unnecessary overlap or duplication. During this 6-month period, the Directorate coordinated 112 GAO reviews and
processed 202 GAO draft and final reports.

Quantitative Methods Directorate
...................................................................................................................................................................................

The Quantitative Methods Directorate ensures that quantitative methods, analyses, and results used in DoD IG
products are defensible. The Directorate accomplishes this by providing expert statistical/quantitative support and
advice to DoD IG projects, and by assessing the quantitative aspects of DoD IG products prior to their release.
Quantitatively defensible products employ a methodology that is technically sound and appropriate for the objectives
of the project, employ analyses that are performed correctly and are consistent with the methodology, and appropriately
present the quantitative results.

Technical Assessment Directorate
...................................................................................................................................................................................

The Technical Assessment Directorate provides technical advice to the DoD and conducts assessments to improve the
economy, efficiency, and effectiveness of Defense programs, operations, and oversight. The Directorate focuses on
acquisition, program management, engineering, and information technology issues. During the reporting period, the
Directorate provided technical expertise and assessments that have expanded the audit coverage of systems engineering
and information assurance. As a result, Defense programs for systems engineering and information security are
improved in audited systems.

                                                                 Intelligence

The Office of the Deputy Inspector General for Intelligence audits, evaluates, monitors, and reviews the programs,
policies, procedures, and functions of the Intelligence Community, including personnel security, Special Access
Programs, and Nuclear Surety issues within the DoD. The ODIG-INTEL oversees the intelligence-related activities
within the DoD Components, primarily at the DoD, Service, and Combatant Command levels, ensuring that

124
                                                                                                                                          Semiannual Report to Congress
intelligence and intelligence-related resources are properly, effectively, and efficiently managed. The ODIG-INTEL
also conducts oversight of Service and Defense agency reviews of security and counterintelligence within all DoD test
and laboratory facilities. The Office of Deputy Inspector General for Intelligence is a center of excellence dedicated
to enhancing the capabilities of the DoD intelligence activities through an informed and authoritative oversight
program.

The DoD IG, the IGs of the Department of the Air Force, Defense Intelligence Agency, National Geospatial-
Intelligence Agency, National Reconnaissance Office, and National Security Agency/ Central Security Service; the
Army Audit Agency; the Naval Audit Service; the Air Force Audit Agency; the Naval Criminal Investigative Service,
and the Defense Contract Audit Agency completed 136 intelligence-related and other classified and sensitive reports.
The reports are categorized into the areas shown in Figure 3. A listing and highlights of the 136 reports can be found
in the Classified Annex to this report and a summary of the each report is included in the Classified Annex.

The Intelligence Community Inspectors and Auditors General continued to coordinate and share information to
improve the effectiveness and efficiency of oversight of DoD intelligence activities. Within DoD, the Joint Intelligence
Oversight Coordination Group comprises senior representatives from the Office of the Secretary of Defense, the
inspectors general of the Defense intelligence agencies, and military department audit, evaluation, and inspection
organizations. The objectives of the Group are to improve the effectiveness and efficiency of DoD oversight of
intelligence activities by identifying areas needing more emphasis and deconflicting oversight programs. The group
held its quarterly meeting on June 19, 2008. See the Classified Annex to this report for information on the meeting.


                              Figure 3: Intelligence Related Reports

   DoD Management                DoD IG         Defense Agencies Military Departments                  Total
    Challenge Area
   Joint Warfighting
                                      1                  32                      4                       37
     and Readiness
    Human Capital                     0                  18                      2                       20
      Information
                                      1                  6                       2                       9
  Security and Privacy
      Acquisition
     Processes and
                                      0                  6                       6                       12
        Contract
     Management
       Financial
                                      2                  15                      2                       19
     Management
      Health Care                     0                  0                       1                       1
      Significantly
  Improve Intelligence                0                  2                       0                       2
      Capabilities
         Other                        0                 35                        1                     36
         Total                        4                 114                      18                     136

                                                                                                                    125
Department of Defense Inspector General
                          Special Plans and Operations
The DoD IG supports DoD and the U.S. Congress by addressing challenging security issues in an increasing complex,
global defense environment. To rapidly provide assessments for senior leaders of key issues related to the Global War
on Terror, especially in Southwest Asia, the DoD IG established the Office of Special Plans and Operations, in April
2008. SPO reinforces DoD IG capability to carry out statutory responsibility to advise the Secretary of Defense and
key committees of the Congress. Its work complements the efforts of the other DoD IG components. SPO’s mis-
sion enables informed decision making by senior leaders of the Combatant Commands, Department of Defense, U.S.
Congress, and other government organizations by providing timely assessment reports and actionable recommenda-
tions on strategic challenges and issues, with a special emphasis on the Global War on Terror and Southwest Asia. The
concept is based on providing:

•	    Flexible and rapid response to strategic challenges.
•	    Close engagement with senior leadership and Congress.
•	    Accelerated field response - commanders take corrective action before report is completed.
•	    Core team of SPO civilian and military professionals augmented with subject matter experts.
•	    Multi-disciplinary, intra-DoD, interagency approach.

SPO employs an experienced, skilled group of evaluators and auditors from a variety of backgrounds that are formed
into task organized teams for each mission. SPO teams can be augmented by subject matter experts from inside and
outside the DoD IG, as required by the nature of its projects.

                Office of Communications and Congressional Liaison

The Office of Communications and Congressional Liaison supports the DoD IG by serving as the point of contact
for communications to and from Congress, and by serving as the DoD IG public affairs office. OCCL also includes
the Defense Hotline, the Freedom of Information Act Requester Service Center/Privacy Act Office, the DoD IG web
team, and digital media support. From April 1, 2008, though September 30, 2008, OCCL opened 143 congressional
cases. New inquiries involved issues such as accidental electrocutions in Iraq, the accountability of senior officials
concerning the Thunderbird video, concerns regarding body armor, and the use of retired generals in propagandizing
media information regarding the war. The FOIA/PA Office received 386 requests for information and completed
responses to 377 requests during the fiscal year. The DoD IG also responded to more than 190 media inquiries dur-
ing this period.

In addition, the OCCL provides staff support and serves as the liaison for the DoD IG to the President’s Council on
Integrity and Efficiency and the Defense Council on Integrity and Efficiency. Acting Inspector General Heddell is the
chairman of the PCIE Information Technology Committee. OCCL also supports the DoD IG participation in the
PCIE by publishing the Journal of Public Inquiry. OCCL organizes and supports meetings of the DCIE, which are
chaired by the DoD IG, and held quarterly. DCIE meetings are used as a forum to discuss issues related to oversight
within DoD. OCCL also acts as the lead agent for strategic planning for the DoD IG, managing the development and
periodic review and update of the DoD IG Strategic Plan to ensure that it addresses the current and emerging strategic
landscape impacting the Department and the DoD IG.

126
                                                                                          Semiannual Report to Congress
Appendices




	
Appendix A - Reports issued by Central DoD Internal Audit Organizations
Appendix B - DoD IG Audit Reports Issued Containing Quantifiable Potential Monetary Benefits
Appendix C - Followup Activities
Appendix D - Contract Audit Reports Issued
Appendix E - Status of Action on Significant Post-Award Contract Audits
Appendix F - Status of DoD IG Reports More Than 12 Months Old with Final Action Pending
Appendix G - Acronyms
                                                Appendix A

      REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS



Copies of reports may be obtained from the appropriate issuing office by calling:

	       DoD IG							                                                    Army Audit Agency
	       (703) 604-8937						                                             (703) 693-5679
	       http://www.dodig.mil						                                       http://www.hqda.army.mil/aaaweb

	       Naval Audit Service						                                        Air Force Audit Agency
	       (202) 433-5525						                                             (703) 696-7904
	       http://www.hq.navy.mil/NavalAudit				                            http://www.afaa.hq.af.mil

							

      Summary of Number of Reports by Management Challenge Area
                    April 1, 2008 - September 30, 2008


                                                                     DoD IG            Military Depts.           Total
Joint Warfighting and Readiness                                         10                   118                  128
Information Security and Privacy                                         4                    12                   16
Acquisition Processes/Contract Management                               15                    49                   64
Financial Management                                                    30                    62                   92
Health Care                                                              2                    15                   17
Other                                                                    3                    13                   16
 Total                                                                  64                   269                  333
For information on intelligence-related reports, including those issued by other Defense agencies, refer to the classified
annex to this report.

* Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
5(a)(6) (See Appendix B)




128
                                                                                             Semiannual Report to Congress
                                          U.S. Forces Korea (8/21/08) (FOR     and Seventh Army (FOR OFFICIAL
 Joint Warfighting                        OFFICIAL USE ONLY)                   USE ONLY) (04/21/2008)
   and Readiness
                                          D-2008-131 Security of Radio         A-2008-0117-ALI Base Realignment
                                          Frequency Identification             and Closure 2005 Construction
             DoD IG                       Information (9/19/08) (FOR           Requirements, Armed Forces Reserve
                                          OFFICIAL USE ONLY)                   Center, Grand Prairie Reserve
                                                                               Complex, Texas (04/23/2008)
                                            Army Audit Agency
D-2008-078 Training Requirements                                               A-2008-0118-ZBI Army Foreign
for U.S. Ground Forces Deploying                                               Language Program Requirements,
in Support of Operation Iraqi             A-2008-0086-FFF Training             Office of the Deputy Chief of Staff,
Freedom (4/9/08)                          Ammunition Management,               G-2 (04/29/2008)
                                          Deputy Chief of Staff, G-3/5/7
D-2008-086 Challenges Impacting           (FOR OFFICIAL USE ONLY)              A-2008-0120-ALM Reset Metrics—
Operations Iraqi Freedom and              (08/05/2008)                         Field Level Reset (04/30/2008)
Enduring Freedom Reported by
Major Oversight Organizations             A-2008-0093-FFS Housing for          A-2008-0121-FFH Readiness
Beginning FY 2003 through FY              Mobilized Soldiers, Fort Lewis,      Reporting for Active Component
2007 (7/18/08)                            Washington (04/02/2008)              Medical Units (04/30/2008)

D-2008-098 Internal Controls Over         A-2008-0098-ALL Management of        A-2008-0122-ALI Base Realignment
Payments Made in Iraq Kuwait and          Shipping Containers in Southwest     and Closure 2005 Construction
Egypt (5/22/08)                           Asia—Iraq (04/03/2008)               Requirements, First Brigade Combat
                                                                               Team Complex, Fort Bliss, Texas
D-2008-114 Accountability for             A-2008-0110-ALO Bayonne Local        (05/05/2008)
Defense Security Service Assets With      Redevelopment Authority’s 2004,
Personally Identifiable Information       2005, and 2006 No-Cost Economic      A-2008-0123-ALI Base Realignment
(7/24/08)                                 Development Conveyance Financial     and Closure 2005 Construction
                                          Statements, Former Military Ocean    Requirements, Second Brigade
D-2008-115 Status of Training             Terminal—Bayonne, New Jersey         Combat Team (Heavy), Fort Bliss,
Vehicles for U.S. Ground Forces           (04/16/2008)                         Texas (05/06/2008)
Deploying in Support of Operation
Iraqi Freedom (8/6/08)                    A-2008-0111-ALE Attestation          A-2008-0124-ALI Base Realignment
                                          Examination of Suggestion            and Closure 2005 Construction
D-2008-118 Host Nation Support            Number EUHD07015M, FRAG 7            Requirements, Armed Forces Reserve
of U.S. Forces in Korea (8/25/08)         (04/18/2008)                         Center, Greenlief Training Site,
                                                                               Hastings, Nebraska (07/09/2008)
D-2008-120 Coordination of                A-2008-0112-ALI Base Realignment
Overseas Force Structure Changes in       and Closure 2005 Construction        A-2008-0125-ALI Base Realignment
the U.S. European Command (U)             Requirements, Armed Forces Reserve   and Closure 2005 Construction
(8/13/08) (CLASSIFIED)                    Center, Middletown, Connecticut      Requirements, Vehicle Maintenance
                                          (04/29/2008)                         Complex, Fort Bragg, North
D-2008-124 Management of                                                       Carolina (07/31/2008)
the Noncombatant Evacuation               A-2008-0113-ALE Management of
Operations Tracking System by             Theater Excess, U.S. Army, Europe
                                                                                                                 129
Department of Defense Inspector General
A-2008-0126-ALI Base Realignment      A-2008-0134-ALI Attestation          A-2008-0147-FFF Followup Audit
and Closure 2005 Construction         Examination of Selected Base         of Family Support for Reserve
Requirements, 4th Brigade Combat      Realignment and Closure 2005         Component Soldiers in Extended
Team, Fort Bragg, North Carolina      Operation and Maintenance            Deployments (06/05/2008)
(06/09/2008)                          Requirements, U.S. Army
                                      Materiel Command FY’s 08 - 11        A-2008-0152-ALO Management of
A-2008-0127-ALO Base                  (09/18/2008)                         Relocatable Facilities—Notification
Realignment and Closure 2005                                               of Potential Antideficiency Act
Construction Requirements, Armed      A-2008-0135-ALI Attestation          Violation (06/03/2008)
Forces Reserve Center, Stewart Army   Examination of Selected Base
Subpost, Newburgh, New York           Realignment and Closure 2005         A-2008-0153-FFP Construction
(05/06/2008)                          Operation and Maintenance            Site Preparation—Parcel 1, U.S.
                                      Requirements, U.S. Army Training     Army Corps of Engineers, Far East
A-2008-0128-ALO Base                  and Doctrine Command FY’s 08 -       District, Seoul, Korea (06/05/2008)
Realignment and Closure 2005          11 (09/18/2008)
Construction Requirements, Armed                                           A-2008-0158-FFS Mobility
Forces Reserve Center, Fort Totten,   A-2008-0136-ALI Attestation          Transportation Requirements
New York (05/12/2008)                 Examination at Army Commands         (06/12/2008)
                                      of Selected Base Realignment
A-2008-0129-ALO Base                  and Closure 2005 Operation and       A-2008-0160-ALM Reset Metrics—
Realignment and Closure 2005          Maintenance Requirements for FY’s    Lessons Learned (06/17/2008)
Construction Requirements, Airfield   08 - 11 (09/18/2008)
Pavement Repair, Fort Riley, Kansas                                        A-2008-0161-FFP Medical
(05/13/2008)                          A-2008-0139-ALE Disposal of          Readiness in Active Components,
                                      Property at Defense Reutilization    18th Medical Command, Eighth
A-2008-0130-ALO Base                  and Marketing Service Sites in       U.S. Army, Korea (06/19/2008)
Realignment and Closure 2005          Germany (05/07/2008)
Construction Requirements,                                                 A-2008-0164-ALO Fire and
Consolidated Health/Dental Clinic,    A-2008-0141-ALO Preliminary          Emergency Services, National
Fort Riley, Kansas (05/27/2008)       Review of Revised Bayonne Local      Training Center and Fort Irwin,
                                      Redevelopment Authority’s 2001-      California (06/16/2008)
A-2008-0131-ALO Base                  2007 Supplemental Schedules, Audit
Realignment and Closure 2005          of No-Cost Economic Development      A-2008-0167-ALR U.S. Vehicle
Construction Requirements,            Conveyance Management and            Registration Business Rules, U.S.
Armed Forces Reserve Center,          Compliance (05/08/2008)              Army Material Command Logistics
McAlester Army Ammunition Plant,                                           Support Activity (06/25/2008)
Oklahoma (FOR OFFICIAL USE            A-2008-0142-ALM Operational
ONLY) (05/13/2008)                    Loss Requirements (05/12/2008)       A-2008-0169-ALE Use of German
                                                                           Railways (06/23/2008)
A-2008-0133-ALI Attestation           A-2008-0145-ALL Management of
Examination of Selected Base          Shipping Containers in Southwest     A-2008-0171-ALI Base Realignment
Realignment and Closure 2005          Asia, Continental United States      and Closure 2005 Construction
Operation and Maintenance             (06/25/2008)                         Requirements, Combat Aviation
Requirements, U.S. Army Forces                                             Brigade Complex, Fort Bliss, Texas
Command for FY’s 08 - 11                                                   (FOR OFFICIAL USE ONLY)
FORSCOM (09/18/2008)                                                       (06/23/2008)
130
                                                                                    Semiannual Report to Congress
A-2008-0172-ALM Time Sensitive            Benning, Georgia (07/28/2008)         A-2008-0224-ALI Base Realignment
Issue—Automatic Reset Induction                                                 and Closure 2005 Construction
Overstatement of Field Reset              A-2008-0196-ALO Audit of No-          Requirements, U.S. Forces
Requirements (06/24/2008)                 Cost Economic Development             Command and U.S. Army Reserve
                                          Conveyance Management and             Command Headquarters Building,
A-2008-0174-FFF Military Training         Compliance—Phase I (07/29/2008)       Fort Bragg, North Carolina
Service Support—Dining Facilities                                               (FOR OFFICIAL USE ONLY)
Accountability, Fort Eustis, Virginia     A-2008-0199-ALM Followup Audit        (08/21/2008)
(09/23/2008)                              of Interactive Electronic Technical
                                          Manuals (08/11/2008)                  A-2008-0225-FFF Followup Audit
A-2008-0179-FFI Operational                                                     of Reserve Component Duty
Purchases of Information                  A-2008-0205-ALI Base Realignment      Military Occupational Specialty
Technology, Equipment, Systems,           and Closure 2005 Construction         Qualification and Officer Basic
and Services, Iraq and Kuwait             Requirements, Armed Forces            Course Training Requirements
(09/25/2008)                              Reserve Center, Missoula, Montana     (08/22/2008)
                                          (FOR OFFICIAL USE ONLY)
A-2008-0181-ALI Base Realignment          (08/04/2008)                          A-2008-0226-FFF Followup Audit
and Closure 2005 Construction                                                   of Station Missioning (08/22/2008)
Requirements, Restationing Air            A-2008-0208-ALR U.S. Army
Defense Artillery School, Fort Sill,      Vehicle Registration, Sierra Army     A-2008-0227-FFD Installation
Oklahoma (FOR OFFICIAL USE                Depot (09/26/2008)                    Preparedness for a Chemical,
ONLY) (07/02/2008)                                                              Biological, Radiological, or
                                   A-2008-0210-ALI Base Realignment             Nuclear Event, Deputy Chief of
A-2008-0183-ALI Base Realignment and Closure 2005 Construction                  Staff, G-3/5/7 and U.S. Army
and Closure 2005 Construction      Requirements, Armed Forces                   Installation Management Command
Requirements, Armed Forces Reserve Reserve Center, East Houston, Texas          (FOR OFFICIAL USE ONLY)
Center, Scranton, Pennsylvania     (08/06/2008)                                 (09/08/2008)
(FOR OFFICIAL USE ONLY)
(07/07/2008)                       A-2008-0214-ALI Base Realignment             A-2008-0228-ALR Property
                                   and Closure 2005 Construction                Accountability in the Army National
A-2008-0184-ALI Base Realignment Requirements, Armed Forces Reserve             Guard, Missouri Army National
and Closure 2005 Construction      Center, Fort Hamilton, New York              Guard (09/25/2008)
Requirements, U.S. Army Materiel   (FOR OFFICIAL USE ONLY)
Command Headquarters, Redstone     (08/21/2008)                                 A-2008-0229-ALE Management
Arsenal, Alabama (FOR OFFICIAL                                                  of Nontactical Vehicles in Europe
USE ONLY) (07/23/2008)             A-2008-0216-ALR Manufacturing                (08/25/2008)
                                   Execution System, U.S. Army
A-2008-0190-ALM Reset              Materiel Command (09/25/2008)                A-2008-0232-FFP Roles and
Metrics—Sustainment Maintenance                                                 Responsibilities for Managing Army
(07/22/2008)                       A-2008-0221-FFP Delayed                      Transformation, U.S. Forces Korea
                                   Fielding of the Stryker Brigade              (FOR OFFICIAL USE ONLY)
A-2008-0194-ALI Base Realignment Combat Team, U.S. Army, Pacific                (09/16/2008)
and Closure 2005 Construction      (FOR OFFICIAL USE ONLY)
Requirements, Headquarters, 1st    (09/04/2008)                                 A-2008-0233-FFF Military
Armor Training Brigade, Fort                                                    Training Service Support—Dining


                                                                                                                    131
Department of Defense Inspector General
Facilities Accountability, Office of     A-2008-0250-FFF Army National           A-2008-0273-FFH Reconciliation
the Deputy Chief of Staff, G-3/5/7       Guard Recruit Sustainment Program       of Government Property, Fort Sam
(09/26/2008)                             (09/10/2008)                            Houston, Texas (FOR OFFICIAL
                                                                                 USE ONLY) (09/26/2008)
A-2008-0234-FFF Use of Role              A-2008-0253-FFH Medical Unit
Players for Training at Combat           Readiness Reporting Summary             A-2008-0276-FFI Army Portfolio
Training Centers (09/02/2008)            Report (09/16/2008)                     Management Solution—Army
                                                                                 Information Technology Registry,
A-2008-0235-ALO Management               A-2008-0255-FFS Accountability          Office of the Chief Information
of Relocatable Facilities, Fort Riley,   of Contractors on the Battlefield       Officer/G-6 (09/26/2008)
Kansas (09/02/2008)                      (09/30/2008)
                                                                                 A-2008-0278-FFP Followup Audit
A-2008-0236-ALO Management of            A-2008-0256-ALM Overseeing              of Operation and Maintenance of
Relocatable Facilities, Fort Stewart     Contract Requirements for Field-        the Okinawa Pipeline, U.S. Army,
and Hunter Army Airfield, Georgia        Level Reset, U.S. Army Sustainment      Japan (09/30/2008)
(09/02/2008)                             Command (09/17/2008)
                                                                                 A-2008-0279-ALR Logistics
A-2008-0238-FFF Followup Audit           A-2008-0261-FFF Quality of              Management Systems—Depots,
of Advanced Individual Training          Recruits (09/19/2008)                   Summary Report (09/29/2008)
Courses, U.S. Army Intelligence
Center, Fort Huachuca, Arizona           A-2008-0264-ALR Inventory               A-2008-0280-FFF
(09/10/2008)                             Accountability, Tobyhanna Army          Noncommissioned Officer
                                         Depot (09/23/2008)                      Education System (09/30/2008)
A-2008-0239-ALE Construction
for Army Family Housing in Europe        A-2008-0265-ALR Inventory               A-2008-0282-FFP Resources for
(FOR OFFICIAL USE ONLY)                  Stockage Levels, Tobyhanna Army         Managing Army Transformation,
(09/18/2008)                             Depot (09/23/2008)                      U.S. Forces Korea (FOR OFFICIAL
                                                                                 USE ONLY) (09/30/2008)
A-2008-0245-ALR Property                 A-2008-0268-ALO Management of
Accountability in the Army National      Relocatable Facilities, Fort Drum,      A-2008-0286-ALL Management of
Guard, Michigan Army National            New York (09/29/2008)                   Shipping Containers in Southwest
Guard (09/24/2008)                                                               Asia—Kuwait (09/30/2008)
                                         A-2008-0269-ALO Management
A-2008-0246-ALM Depot-Level              of Relocatable Facilities, Fort         A-2008-0287-ALL Followup Audit
Maintenance Workload Reporting—          Huachuca, Arizona (09/29/2008)          of Asset Visibility and Container
FY 07, Office of the Deputy Chief                                                Management—Operation Iraqi
of Staff, G-4 (09/16/2008)               A-2008-0270-ALA System Training         Freedom, U. S. Central Command
                                         Plan Process, U.S. Army Training        (09/30/2008)
A-2008-0248-FFD Force Protection         Support Center, Fort Eustis, Virginia
Funds, Office of the Provost             (09/29/2008)                            A-2008-0291-FFF Followup Audit
Marshall General and U.S. Army                                                   of Courseware Development for
Installation Management Command          A-2008-0271-FFP Followup                Distance Learning, U.S. Army
(09/17/2008)                             Audit of Force Protection, Hawaii       Training and Doctrine Command
                                         (FOR OFFICIAL USE ONLY)                 (FOR OFFICIAL USE ONLY)
                                         (09/26/2008)                            (09/30/2008)

132
                                                                                          Semiannual Report to Congress
A-2008-0292-ALO Management                F-2008-0004-FC4000 Flying            F-2008-0004-FD4000 Air Force
of Relocatable Facilities, Fort Bragg,    Hour Impact on Aircraft Spare        Personnel Reductions (5/12/2008)
North Carolina (09/30/2008)               Parts Requirements Computations
                                          (8/25/2008)                          F-2008-0005-FD4000 Air Combat
A-2008-0294-ALR Property                                                       Command Pilot Training Flying
Accountability in the Army National       F-2008-0005-FC4000 Retail            Hours (7/2/2008)
Guard, Oregon Army National               Economic Order Quantity Additive
Guard (09/30/2008)                        (9/11/2008)                          F-2008-0007-FD4000 Man-Day
                                                                               Program (8/11/2008)
                                          F-2008-0005-FD1000 Protective
 Naval Audit Service                      Gas Mask Program (4/28/2008)         F-2008-0008-FD4000 Hard to Fill
                                                                               Career Fields (8/13/2008)
N2008-0039 Ordnance Disk-to-              F-2008-0007-FD1000 Hurricane
Disk Transfer Process (6/18/08)           Disaster Planning (6/4/2008)         F-2008-0009-FD4000 Civilian
                                                                               Force Development (9/15/2008)
N2008-0043 Regional Antiterrorism         F-2008-0005-FD2000 Controls          D-2008-104 DoD Implementation
                                          Over Contractor Identification       of Homeland Security
Recommendations Followup
                                          (4/2/2008)                           PresidentialDirective-12 (6/23/08)
(8/14/08)
                                          F-2008-0005-FD3000 MQ-1
N2008-0047 Department of
                                          Predator Asset Maintenance and
the Navy Small Arms In-Transit
Accountability (8/27/08)
                                          Accountability (4/1/2008)                Information
                                                                                Security & Privacy
                                          F-2008-0006-FD3000 Weapons
         Air Force                        of Mass Destruction Emergency
       Audit Agency                       Response Program (FOR OFFICIAL
                                          USE ONLY) (6/13/2008)                            DoD IG
F-2008-0008-FC2000 Bills of
                                          F-2008-0007-FD3000 National          D-2008-125 Summary of
Material for Reparable Parts
                                          Intelligence Program Manpower        Information Assurance Weaknesses
(5/30/2008)
                                          Authorizations (6/25/2008)           Found in Audit Reports Issued From
                                                                               August 1, 2007 Through July 31,
F-2008-0009-FC2000 Time
                                          F-2008-0008-FD3000 United            2008 (9/2/08)
Compliance Technical Orders
                                          States Air Forces Central Deployed
(5/30/2008)
                                          Locations Aerial Port Operations     D-2008-138 Defense Information
                                          (7/18/2008)                          Systems Agency Controls Over the
F-2008-0010-FC2000 Selected
                                                                               Center for Computing Services
Air-to-Ground Missile Engines
                                          F-2008-0009-FD3000 Intelligence      Placed in Operation and Tests of
(6/13/2008)
                                          Contingency Funds - FY 2007          Operating Effectiveness for the
                                          (7/23/2008)                          Period April 1, 2007 through March
F-2008-0011-FC2000 Distribution
                                                                               31, 2008 (9/30/08)
of Depot Maintenance Workload
                                          F-2008-0010-FD3000 Continuity
Compliance Plan (6/16/2008)
                                          of Operations Program (FOR           D-2008-139 Defense Civilian
                                          OFFICIAL USE ONLY)                   Pay System Controls Placed in
F-2008-0003-FC4000 Alternative
                                          (8/20/2008)                          Operation and Tests of Operating
Fueled Vehicles (7/2/2008)
                                                                               Effectiveness for the Period October
                                          F-2008-0003-FD4000 Civilian          1, 2007 through March 31, 2008
                                          Incentives (4/29/2008)               (9/30/08)
                                                                                                                133
Department of Defense Inspector General
                                                                               D-2008-089 Planning Armor
  Army Audit Agency                       Naval Audit Service                  Requirements for the Family of
                                                                               Medium Tactical Vehicles (5/9/08)
                                         N2008-0042 Management of              (FOR OFFICIAL USE ONLY)
A-2008-0105-FFI Standardizing
Information Technology Equipment         Personally Identifiable Information
                                         at the Marine Corps Recruiting        D-2008-094 Air Force Air Combat
(04/03/2008)
                                         Command (7/23/08)                     Command Contracts (5/20/08)
                                         F-2008-0004-FB4000 Information        (FOR OFFICIAL USE ONLY)
A-2008-0137-ZBI Army Research
and Technology Protection Program,       Systems Inventory (FOR OFFICIAL
                                         USE ONLY) (6/4/2008)                  D-2008-097 Hurricane Relief Effort
Program Executive Office, Aviation
                                                                               costs on the Navy Construction
(05/07/2008)
                                                                               Capabilities Contract (5/23/08)
                                                 Air Force
A-2008-0157-ZBI Army Research                  Audit Agency                    D-2008-099 Effect of Payments Into
and Technology Protection Program,
                                                                               Boeing Pension Funds on Economic
U.S. Army Aviation and Missile
                                         F-2008-0005-FB4000 Major              Price Adjustment Clauses in DoD
Research, Development and
                                         Command Communications                Contracts (5/28/08)
Engineering Center (06/27/2008)
                                         Coordination Centers (7/25/2008)
                                                                               D-2008-100 Contract Procedures
A-2008-0186-FFI Installation
                                         F-2008-0006-FB4000 Mission            for Educational Support Services
Campus Area Network
                                         Assurance Category I Systems          Acquired by the National Defense
Connectivity—Wireless Networks
                                         Certification and Accreditation       University (6/13/08)
and Devices (07/08/2008)
                                         (8/22/2008)
                                                                               D-2008-107 Contracts Issued by
A-2008-0243-FFI Information
                                         F-2008-0007-FB4000 Federal            TACOM Life Cycle Management
Technology in the Systems
                                         Information Security Management       Command to BAE Systems Land
Development Process, Offices
                                         Act Security Control Testing          and Armaments Ground Systems
of the Assistant Secretary of the
                                         (FOR OFFICIAL USE ONLY)               Division (7/3/08)
Army (Acquisition, Logistics
and Technology) and the                  (9/15/2008)
                                                                               D-2008-111 Review of DoD
Chief Information Officer/G-6
                                                                               Guidelines on Considering Civilians
(09/16/2008)
                                                                               for New and Contracted Functions
                                            Acquisition                        (7/23/08)
A-2008-0254-FFI Enterprise
                                          Processes/ Con-
Software Agreements: Microsoft
                                         tract Management                      D-2008-119 Construction
License Management (09/18/2008)
                                                                               Contracting Procedures
                                                                               Implemented by the Joint
A-2008-0272-FFI Army Video                          DoD IG                     Contracting Command-Iraq/
Teleconferencing Facilities, Office of
                                                                               Afghanistan (9/29/08)
the Chief Information Officer/G-6
(09/25/2008)                             D-2008-088 DoD IG Interim
                                         Report to Congress on Section         D-2008-122 Follow-up on
                                         325 of the National Defense           DoD Purchases Made Through
                                         Authorization Act for FY 2008         the Department of the Interior
                                         (4/22/08)                             (8/18/08)




134
                                                                                        Semiannual Report to Congress
D-2008-127 Acquisition of the             Army, Europe and Seventh Army         A-2008-0163-ALM Followup Audit
Spider XM-7 Network Command               (FOR OFFICIAL USE ONLY)               of Impact of Warranties on Weapon
Munition (8/29/08)                        (04/28/2008)                          System Maintenance Costs, Program
                                                                                Executive Office, Aviation, Redstone
D-2008-128 Reimbursable Fees at           A-2008-0132-ALA Followup              Arsenal, Alabama (06/17/2008)
the Major Range and Test Facility         Audit of Joint Network Node,
Bases (9/10/08)                           Fort Monmouth, New Jersey             A-2008-0168-ALC Korea Build-to-
                                          (05/21/2008)                          Lease Housing Consulting Contract
D-2008-129 Acquisition of the                                                   Administration (06/20/2008)
Army Airborne Surveillance,               A-2008-0138-FFP Acquisition
Target Acquisition, and Minefield         Management, U.S. Army                 A-2008-0173-ALA Followup of the
Detection System (9/10/08)                Commands in Korea (05/15/2008)        Army’s Capabilities Determination
                                                                                Process (06/27/2008)
D-2008-134 Acquisition of the             A-2008-0140-ALA Science and
B-1 Fully Integrated Data Link            Technology (05/08/2008)               A-2008-0178-FFI Operational
(9/22/08)                                                                       Purchases of Information
                                          A-2008-0144-FFD Monitoring            Technology Equipment, Systems,
D-2008-135 Requiring Radio                Security Guard Contracts, Office of   and Services, U.S. Army Forces
Frequency Identification in               the Provost Marshall General and      Command (07/01/2008)
Contracts for Supplies (9/29/08)          U.S. Army Installation Management
                                          Command (FOR OFFICIAL USE             A-2008-0191-FFP Monitoring
                                          ONLY) (05/15/2008)                    Contract Security Guards, U.S.
  Army Audit Agency                                                             Army, Garrison, Alaska and U.S.
                                          A-2008-0151-ALO Logistics             Army Garrison, Fort Greely
A-2008-0092-ALL Agreed-Upon               Support Contract, Fort Carson,        (07/29/2008)
Procedures Attestation to Determine       Colorado (06/13/2008)
How Much the U.S. Army May                                                      A-2008-0192-FFD Demolition
Have Been Overcharged for Services        A-2008-0156-FFI Followup              Contracts, U.S. Army Corps of
Obtained Under Two Blanket                Audit of Information Technology       Engineers (07/24/2008)
Purchase Agreements (04/02/2008)          Procurement Recommendations
                                          (06/10/2008)                          A-2008-0197-ALM Followup
A-2008-0101-ALM Followup Audit                                                  Audit of Impact of Warranties on
of the Impact of Warranties on            A-2008-0159-ALC Contract              Weapon Systems Maintenance
Weapon System Maintenance Costs,          Modification Process and              Costs, Program Executive Office,
Program Executive Office, Combat          Government Purchase Card              Intelligence, Electronic Warfare,
Support and Combat Service                Procedures, Walla Walla District,     and Sensors, Fort Monmouth, New
Support (04/02/2008)                      U.S. Army Corps of Engineers          Jersey (07/31/2008)
                                          (06/10/2008)
A-2008-0102-ALO Followup                                                        A-2008-0200-ALC Government
Audit of Contract Management of           A-2008-0162-ALM Followup Audit        Purchase Cards—Seattle District,
Equipment Transition Sites, U.S.          of Impact of Warranties on Weapon     U.S. Army Corps of Engineers
Army Reserve Command, Fort                System Maintenance Costs, Program     (08/06/2008)
McPherson, Georgia (04/01/2008)           Executive Office, Missiles and
                                          Space, Redstone Arsenal, Alabama      A-2008-0201-ALC Army Travel
A-2008-0119-ALE FY 08 Manning             (06/18/2008)                          Charge Card Program—Centrally
Requirements for Contract                                                       Billed Accounts (08/18/2008)
Security Guards in Europe, U.S.
                                                                                                                   135
Department of Defense Inspector General
A-2008-0213-ALA Rapid Fielding          A-2008-0259-ALA Followup
Initiative, Program Executive Office,   Audit of the Common Gunnery                     Air Force
Soldier, Fort Belvoir, Virginia         Architecture (09/18/2008)                     Audit Agency
(09/05/2008)                                                                    F-2008-0004-FC1000 Competition
                                        A-2008-0262-ALE Requirements            in Multiple Award Service Contracts
A-2008-0219-ALC Corrective              Validation Processes, Camp              (4/3/2008)
Actions for Administration of           Bondsteel, Kosovo (09/19/2008)
Service Contracts, Office of the                                                F-2008-0005-FC1000 Contract
Assistant Secretary of the Army         A-2008-0285-FFI Summary of the          Field Team Program Management
(Acquisition, Logistics and             Army’s Information Technology           (6/4/2008)
Technology) (09/03/2008)                Procurement Process (09/30/2008)
                                                                                F-2008-0006-FC1000 Air Force
A-2008-0220-FFI Thin Client             A-2008-0295-FFM Vendor Payment          Contract Augmentation Program
Computing (08/28/2008)                  Methods, Fort Campbell, Kentucky        (6/9/2008)
                                        (09/30/2008)
A-2008-0237-ALM Followup                                                        F-2008-0007-FC1000 Government
Audit of Impact of Warranties on         Naval Audit Service                    Purchase Card Use of Convenience
Weapon Systems Maintenance                                                      Checks (7/25/2008)
Costs, Program Executive                N2008-0033 Contract
Office, Command, Control                Administration at Selected Activities   F-2008-0008-FC1000 Effective Use
and Communications Tactical,            (CLASSIFIED) (5/9/08)                   of Award Fees on Service Contracts
Fort Monmouth, New Jersey                                                       (9/11/2008)
(09/08/2008)                            N2008-0035 FraudNet Hotline
                                        Allegation of Improper Contracting      F-2008-0003-FC3000 Battle
A-2008-0242-ALA Followup                Practices within Naval Facilities       Control Systems Acquisition
Audit of Primary (Non-                  Engineering Command (5/27/08)           (4/3/2008)
rechargeable) Communications-
Electronics Batteries, U.S. Army        N2008-0038 Earned Value                 F-2008-0004-FC3000 Weapon
Communications-Electronics Life         Management for the Littoral             System Modular Open Systems
Cycle Command (09/09/2008)              Combat Ship “Independence”              Approach (6/4/2008)
                                        Contract N00024-03-C-2310
A-2008-0244-FFE Followup                (6/12/08)                               F-2008-0005-FC3000 Planning
Audit of Overhead, and General                                                  and Execution of Service Contract
and Administrative Costs on             N2008-0041 Auditor General              Reductions (6/9/2008)
Environmental Subcontracts, U.S.        Advisory – Deobligation of Excess
Army Corps of Engineers, Baltimore      Funds Prior to Contract Closeout        F-2008-0006-FC3000 Earned Value
District (09/08/2008)                   (7/11/08)                               Management Systems (7/11/2008)

A-2008-0247-ALA Followup Audit          N2008-0048 Administration               F-2008-0007-FC3000 CV-22
of Environmental and Explosive          of Contracts with Labor Hours           Acquisition and System Support
Safety Requirements for Weapon          at Selected Naval Air Systems           Management (8/11/2008)
Systems, Offices of the Assistant       Command Activities (9/5/08)
Secretary of the Army (Acquisition,                                             F-2008-0008-FC3000 F-22 Product
Logistics and Technology) and                                                   Engineering Support (8/11/2008)
Assistant Secretary of the Army
(Installations and Environment)
(09/16/2008)
136
                                                                                         Semiannual Report to Congress
F-2008-0013-FD1000 Cancelled              Working Capital Fund (4/25/08)       Command Military Equipment
Iraq Reconstruction Program Task                                               Baseline Valuation Effort (6/13/08)
Orders (9/11/2008)                        D-2008-085 Independent Auditor’s
                                          Report on the FY 2007 Performance    D-2008-105 Defense Emergency
                                          Summary Report for DoD National      Response Fund (6/20/08)
        Financial                         Drug Control Program Activities
       Management                         (5/2/08)                             D-2008-106 U.S. European
                                                                               Command Headquarters
                                          D-2008-087 Opinion on the FY         Government Purchase Card
                                          2007 Financial Statements for the    Controls (6/24/08)
             DoD IG                       Defense Threat Reduction Agency
                                          (4/30/08)                            D-2008-108 Agreed-Upon
                                                                               Procedures Related to the 10th
D-2008-074 Internal Controls Over         D-2008-090 Controls Over             Edition of the Army Chief Financial
the Air Force Military Equipment          Reconciling Army Working Capital     Officers Strategic Plan (7/18/08)
Baseline Valuation Effort (4/1/08)        Fund Inventory Records (5/13/08)
                                                                               D-2008-109 Controls and
D-2008-077 United States Army             D-2008-091 General Controls of the   Compliance of the Joint Personnel
Corps of Engineers Financial              Capital Asset Management System      Adjudication System (7/21/08)
Management System (4/8/08)                Military Equipment (5/13/08)
                                                                               D-2008-110 The Cost Oversight
D-2008-079 Management of                  D-2008-092 Controls Over the         and Impact of Congressional
Incremental Funds on the Air Force        Department of the Navy Working       Earmarks Less Than $15 Million
Research Development Test and             Capital Fund Inventory Stored        (7/11/08)
Evaluation Contracts (4/8/08)             at Non-Defense Logistics Agency
                                          Organizations (5/13/08)              D-2008-112 Independent Auditor’s
D-2008-081 Controls Over the                                                   Report on Management’s Assertion
Reconciliation of Defense Logistics       D-2008-093 Processing of Deceased    of Audit Readiness for Line
Agency Non-Energy Inventory               Retired Military Members’            3.A., Appropriation Reported in
Balances (4/25/08)                        Suspended Accounts (5/14/08)         the General Fund Statement of
                                                                               Budgetary Resources (7/28/08)
D-2008-082 Summary Report                 D-2008-096 Identification and
on Potential Antideficiency Act           Reporting of Improper Payments       D-2008-113 Independent Auditor’s
Violations Resulting From DoD             by the Defense Logistics Agency      Report of Management’s Assertion
Purchases Made Through Non-DoD            (5/20/08)                            of Audit Readiness for Line 4.,
Agencies (FY 2004 Through FY                                                   Nonexpenditure Transfers Reported
2007) (4/25/08)                           D-2008-101 General Controls Over     in the Air Force General Fund
                                          the Standard Accounting Budgeting    Combined Statement of Budgetary
D-2008-083 Obligation of Funds            and Reporting System (6/6/08)        Resources (7/28/08)
for Ship Maintenance and Repair
at the U.S. Fleet Forces Command          D-2008-102 Status of Prior           D-2008-117 Accuracy of
Regional Maintenance Centers              Recommendations Related to           Mechanization of Contract
(4/25/08)                                 the Defense Intelligence Agency      Administration Services Accounts
                                          Financial Statements (6/17/08)       Payable Information (8/14/08)
D-2008-084 Journal Vouchers
Processed by the Defense Finance          D-2008-103 Internal Controls
and Accounting Service for the Navy       Over the U.S. Special Operations
                                                                                                                  137
Department of Defense Inspector General
D-2008-121 Internal Controls for      A-2008-0155-FFE Financial               Excellence Program Idea Number
Air Force General Fund Cash and       Oversight and Controls of               NEMR06046C (07/28/2008)
Other Monetary Assets (8/18/08)       Environmental Funds (06/10/2008)
                                                                              A-2008-0202-FFM The Army
D-2008-123 Internal Controls Over     A-2008-0165-FFH FY 07                   Manager’s Internal Control Program
Navy General Fund Cash and Other      Supplemental Funding for                for FY 07, U.S. Army Intelligence
Monetary Assets Held Outside          the Global War on Terrorism,            Command, 704th Military
of the Continental United States      U.S. Army Medical Command               Intelligence Brigade (08/19/2008)
(8/26/08)                             (06/18/2008)
                                                                              A-2008-0203-FFM The Army
D-2008-126 Internal Controls          A-2008-0166-FFF Military Training       Manager’s Internal Control Program
Over the Army Military Equipment      Service Support—Dining Facilities       for FY 07, U.S. Army Intelligence
Baseline Valuation Effort (8/29/08)   Accountability, Fort Sam Houston,       Command, 902d Military
                                      Texas (06/23/2008)                      Intelligence Group (08/18/2008)
D-2008-130 Approval Process
Tracking and Financial Management     A-2008-0170-FFF Military Training       A-2008-0204-FFM General Fund
of DoD Disaster Relief Efforts        Service Support—Dining Facilities       Enterprise Business System—
(9/17/08)                             Accountability, Fort Bliss, Texas       Federal Financial Management
                                      (07/02/2008)                            Improvement Act Compliance,
D-2008-132 Ocean Freight                                                      Examination of Release 1.2 Business
Transportation Payments Using         A-2008-0176-FFH                         Process Designs (08/14/2008)
PowerTrack (9/26/08) (FOR             Nonappropriated Fund Fixed Asset
OFFICIAL USE ONLY)                    Valuations, U.S. Army Garrison          A-2008-0206-FFM The Army
                                      Presidio of Monterey, California        Manager’s Internal Control Program
                                      (06/27/2008)                            for FY 07, U.S. Army Space
 Army Audit Agency
                                                                              and Missile Defense Command
                                      A-2008-0177-FFH                         (08/26/2008)
A-2008-0106-FFS Followup Audit        Nonappropriated Fund Fixed Asset
of Controls Over Unit Morale,         Valuations, U.S. Army Garrison          A-2008-0207-FFM The Army
Welfare, and Recreation Funds,        Yuma, Arizona (07/01/2008)              Manager’s Internal Control
396th Combat Support Hospital,                                                Program for FY 07, U.S. Army
Vancouver Barracks, Vancouver,        A-2008-0182-FFS Temporary               Intelligence and Security Command
Washington (04/22/2008)               Change of Station Orders and            (08/27/2008)
                                      Housing for Mobilized Soldiers
A-2008-0108-FFM Miscellaneous         (07/15/2008)                            A-2008-0209-FFH Supplemental
Credits for Reserve Component Pay                                             Finding for the Global War on
(04/29/2008)                          A-2008-0188-FFM Unused Airline          Terrorism Summary Report,
                                      Tickets (07/30/2008)                    U.S. Army Medical Command
 A-2008-0109-FFM Accounting                                                   (08/06/2008)
for Seized Assets and Development     A-2008-0189-FFF Military
Fund for Iraq Balances (05/22/2008)   Training Service Support—Dining         A-2008-0211-FFM Review of the
                                      Facilities Accountability, Fort Knox,   Audit Readiness Validation Plan—
A-2008-0116-FFM Accounting for        Kentucky (07/25/2008)                   Fund Balance with Treasury for the
Internal Use Software (04/18/2008                                             Army General Fund (08/28/2008)
                                      A-2008-0195-FFF Attestation             A-2008-0212-FFM Reimbursement
                                      Examination of Army Ideas for           and Accounting Practices, U.S.

138
                                                                                       Semiannual Report to Congress
Army Chemical Materials Agency            for FY 07, U.S. Army Corps of
(08/25/2008)                              Engineers, Pittsburgh District       N2008-0044 Validity of Selected
                                          (09/23/2008)                         Special Pays at Personnel Support
A-2008-0215-FFM Audit and                                                      Detachments Afloat (8/15/08)
Preliminary Investigation of the          A-2008-0263-FFM General Fund
Potential Antideficiency Act              Enterprise Business System--         N2008-0049 Naval Audit Service
Violation at the Military Group           Federal Financial Management         Opinion on the FY 2008 Annual
in Bogota, Columbia, Case 04-02           Improvement Act Compliance           Statement of Assurance (9/5/08)
(08/15/2008)                              Examination of Release 1.3
                                          Requirements (09/29/2008)            N2008-0051 Deobligation of Excess
A-2008-0222-FFM Examination                                                    Funds Prior to Contract Closeout
of Federal Financial Management           A-2008-0266-FFM Agreed-Upon          (9/24/08)
Improvement Act Compliance—               Procedures Attestation of the FY
Requirements Determination,               08 Administrative Fees Collected     N2008-0053 Independent
Formerly Used Defense Sites               by the HRsolutions Program Office    Attestation Report – Agreed-Upon
Management Information System             (09/23/2008)                         Procedures Attestation Engagement
(09/10/2008)                                                                   for the Naval Research Laboratory
                                          A-2008-0267-FFM Funds Control        (9/26/08)
A-2008-0230-FFM Review of                 Module (09/24/2008)
the Audit Readiness Validation
                                                                                       Air Force
Plan—Fund Balance with Treasury           A-2008-0275-FFM The Army
for the Army Working Capital Fund         Management Control Program                 Audit Agency
(08/29/2008)                              for FY 06, Program Management
                                          (09/30/2008)
                                                                               F-2008-0002-FB1000 Follow-
A-2008-0240-FFS Attestation of FY
                                                                               up Audit, Comptroller Quality
07 Business Transformation Benefits       A-2008-0284-FFM The Army
                                                                               Assurance Program (4/1/2008)
(09/16/2008)                              Managers’ Internal Control Program
                                          for FY 07, Deputy Chief of Staff,
                                                                               F-2008-0003-FB1000 Air Force
A-2008-0241-FFM Review of the             G-1 (09/29/2008)
                                                                               Smart Operations for the 21st
Army Management Control Process
                                                                               Century (4/2/2008)
for FY 06, Office of the Assistant        A-2008-0293-FFH
Secretary of the Army (Financial          Nonappropriated Fund Fixed Asset
                                                                               F-2008-0004-FB1000 Official
Management and Comptroller)               Valuations, U.S. Army Garrison,
                                                                               Representation Funds (6/16/2008)
(09/22/2008)                              Fort Hood, Texas (09/30/2008)
                                                                               F-2008-0005-FB1000 Air Force
A-2008-0249-FFM The Army
                                                                               Postal Operations (7/23/2008)
Managers’ Internal Control Program         Naval Audit Service                 F-2008-0006-FB1000 Financial
for FY 07, 3d Military Police Group
                                                                               Aspects of Using Government
(09/15/2008)
                                                                               Purchase Cards for Contract
                                          N2008-0029 Validity of
                                                                               Payments (8/8/2008)
A-2008-0252-FFM The Army                  Reimbursable Unliquidated
Managers’ Internal Control Program        Obligations at Marine Corps
                                                                               F-2008-0007-FB1000 Follow-
for FY 07, U.S. Army Corps of             (4/3/08)
                                                                               up Audit, Internal Controls Over
Engineers Fort Worth District
                                                                               Selected Aspects of Air National
(09/19/2008)                              N2008-0032 Auditor General
                                                                               Guard Financial Management
A-2008-0257-FFM The Army                  Advisory – Financial Management
                                                                               (8/11/2008)
Managers’ Internal Control Program        Systems Audit Followup (4/15/08)
                                                                                                                   139
Department of Defense Inspector General
F-2008-0004-FB2000 Financial       F-2008-0009-FD1000 Base              A-2008-0143-FFP Medical Ser-
Inventory Accounting and Billing   Realignment and Closure              vices Account, 18th Medical Com-
System Accounting Conformance      2005 Implementation Actions          mand, Eighth U.S. Army, Korea
(7/11/2008)                        (7/25/2008)                          (05/16/2008)

F-2008-0005-FB2000                 F-2008-0010-FD1000 Cooperative       A-2008-0146-FFP Pharmacy In-
Comprehensive Cost and             Agreement Closeout - McClellan       ventory Management, Tripler Army
Requirements System Controls       AFB CA (7/25/2008)                   Medical Center (FOR OFFICIAL
(7/23/2008)                                                             USE ONLY) (05/27/2008)
                                   F-2008-0011-FD1000 Follow-up
F-2008-0001-FB3000 Air Force       Audit, Qualified Recycling Program   A-2008-0148-FFH Pharmacy
General Fund Tri-Annual Review     Funds Use (8/13/2008)                Operations, Dunham U.S. Army
Process (4/28/2008)                                                     Health Clinic (05/20/2008)
                                   F-2008-0012-FD1000 Workers’
F-2008-0002-FB3000 Air Force       Compensation Fraud and Abuse         A-2008-0185-FFH Management of
Working Capital Fund Tri-Annual    Detection (8/25/2008)                Federal Employees’ Compensation
Review Process (5/12/2008)                                              Act Program, U.S. Army Medi-
                                                                        cal Command, Fort Sam Houston,
F-2008-0003-FB3000 Air Force                                            Texas (07/07/2008)
Working Capital Fund Organic              Healthcare
Depot Maintenance Activity Group                                        A-2008-0231-FFH Management
Accounts Payable (5/12/2008)                                            Controls for Medical Services
                                                                        Account, Brooke Army Medical
F-2008-0004-FB3000 Defense                                              Center, Fort Sam Houston, Texas
                                              DoD IG
Finance and Accounting Service                                          (08/26/2008)
Processing of Air Force Working
Capital Fund Accounts Payable      D-2008-080 DoD Accounting to         A-2008-0258-FFH Followup Audit
(6/9/2008)                         Support DoD Personnel During         of Contracting for Medical Goods
                                   Times of Civil Emergency (4/25/08)   and Services Contract DADA10-
F-2008-0005-FB3000 Defense                                              01-C-0007, U.S. Army Medical
Finance and Accounting Service     D-2008-136 Payments for Patients     Command (09/18/2008)
Manual Processing of Air Force     Referred to Overseas Providers
General Fund Accounts Payable      Under the Supplemental Health         Naval Audit Service
Accruals (8/8/2008)                Care Program (9/30/08)

F-2008-0006-FB3000 Air Force                                           N2008-0045 Independent Valida-
General Fund General Equipment      Army Audit Agency
                                                                       tion Report – Validation of Defense
(8/27/2008)                                                            Health Program Global War on Ter-
                                   A-2008-0049-FFP Agreed Upon         rorism Obligations for the Bureau
F-2008-0007-FC2000 Foreign         Procedures Attestation of Inventory of Medicine and Surgery (8/21/08)
Military Sales Unliquidated        Reconciliation, Tripler Army Medi-
Obligations (4/29/2008)            cal Center (FOR OFFICIAL USE        N2008-0046 Controls Over Phar-
                                   ONLY) (04/24/2008)                  maceutical Inventory and Dispens-
F-2008-0008-FD1000 Base                                                ing (8/26/08)
Realignment and Closure Funds
Execution (6/18/2008)

140
                                                                                 Semiannual Report to Congress
                                          D-2008-095 Interagency Review        N2008-0036 Navy High-Risk
         Air Force                        of Prior Inspector General Recom-    Training Mishap Reporting and
       Audit Agency                       mendations Related to U.S. Export    Oversight at Selected Activities
                                          Controls (9/30/08)                   (5/27/08)

F-2008-0006-FD1000 Air                    D-2008-116 DoD Section 801 On-       N2008-0037 Auditor General Ad-
Force Drinking Water Systems              Base Housing (8/12/08)               visory Followup to Audit Recom-
(5/30/2008)                                                                    mendations for Selected Research,
                                                                               Development, Acquisition, and
F-2008-0006-FD2000 Anti-Fraud              Army Audit Agency
                                                                               Logistics Audits (6/5/08)
Program at Military Treatment
Facilities (7/2/2008)                                                          N2008-0040 Selected Base Closure
                                          A-2008-0150-FFE Followup Audit
                                          of Remediation and Disposal          and Realignment Department of the
F-2008-0007-FD2000 Medical                                                     Navy Military Construction Proj-
and Physical Evaluation Boards            Strategies for Inactive Reactors,
                                          U. S. Army Corps of Engineers        ects for FY 2010 (7/3/08)
(7/18/2008)
                                          (05/30/2008)
                                                                               N2008-0050 Department of the
F-2008-0008-FD2000 Janitorial                                                  Navy Proposed FY 2010 Govern-
Services at Military Treatment            A-2008-0175-FFE Oversight and
                                          Enforcement Actions for Environ-     ment of Japan-Funded Military
Facilities (7/28/2008)                                                         Construction Projects Related to
                                          mental Compliance (06/26/2008)
                                                                               the U.S. Marine Corps’ Okinawa-
F-2008-0009-FD2000 Military                                                    Guam Base Relocation (9/17/08)
Treatment Facility Maintenance            A-2008-0217-FFP Master Labor
(8/8/2008)                                Agreement, U.S. Army, Japan
                                          (09/03/2008)                         N2008-0052 Department of the
                                                                               Defense Electronic Mall Internal
F-2008-0006-FD4000 Air Na-                                                     Controls (9/24/08)
tional Guard Emergency Medical            A-2008-0223-FFE Agent Account-
Response (FOR OFFICIAL USE                ability at Chemical Agent Disposal
                                          Facilities, U.S. Army Chemical       N2008-0054 Selected Department
ONLY) (8/6/2008)                                                               of the Navy Military Construction
                                          Materials Agency (08/26/2008)
                                                                               Projects for FY 2010 (9/30/08)

                                           Naval Audit Service
             OTHER

                                          N2008-0030 Status of Internal
                                          Controls at the Joint Guam Pro-
             DoD IG                       gram Office (4/8/08)

                                          N2008-0031 Operational Risk
D-2008-075 Commercial Solicita-           Management Implementation at
tion of Military Personnel on DoD         Selected Navy Shore Installations
Installations (4/7/08)                    (4/14/08)

                                          N2008-0034 Cancellation and
                                          Refund of Unused Airline Tickets
                                          for the Department of the Navy
                                          (5/12/08)

                                                                                                                  141
Department of Defense Inspector General
                                               Appendix B

              DoD IG Audit Reports Issued Containing Quantifiable
                         Potential Monetary Benefits


                                                                              Potential Monetary Benefits
                         Audit Reports Issued                                 Disallowed     Funds Put to
                                                                                Costs 1
                                                                                               Better Use
D-2008-080 DoD Accounting to Support DoD Personnel During Times
of Civil Emergency (04/25/2008)                                                    N/A              $ 10,700,000
D-2008-083 Obligation of Funds for Ship Maintenance and Repair at the
U.S. Fleet Forces Command Regional Maintenance Centers
(04/25/2008)                                                                       N/A             $103,000,000
D-2008-093 Processing of Deceased Retired Military Members’
Suspended Accounts (5/14/2008)                                                     N/A              $86,100,000
D-2008-097 Hurricane Relief Effort Costs on the Navy Construction
Capabilities Contract (5/23/2008)                                                  N/A               $8,600,000
D-2008-098 Internal Controls Over Payments Made in Iraq, Kuwait and
Egypt (5/22/2008)                                                                  N/A               $5,700,000
D-2008-099 Effect of Payments Into Boeing Pension Funds on Economic
Price Adjustment Clauses in DoD Contracts (5/28/2008)                              N/A             $520,600,000
D-2008-118 Host Nation Support of U.S. Forces in Korea (8/25/2008)                 N/A              $1,000,000
D-2008-121 Internal Controls for Air Force General Fund Cash and
Other Monetary Assets (8/18/2008)                                                  N/A                $320,000
D-2008-123 Internal Controls Over Navy General Fund, Cash and
Other Monetary Assets Held Outside of the Continental United States
(8/26/2008)                                                                        N/A               $1,374,000
D-2008-124 Management of the Noncombatant Evacuation Operations
Tracking System by U.S. Forces Korea (8/21/2008)                                   N/A                $98,000
D-2008-132 Ocean Freight Transportation Payments Using PowerTrack
(U) (9/26/2008)                                                                    N/A               $5,200,000
D-2008-136 Payments for Patients Referred to Overseas Providers Under
the Supplemental Health Care Program (9/30/2008)                                   N/A                $50, 170
Totals                                                                             N/A            $742,742,170
1
 There were no DoD IG audit reports during the period involving disallowed costs.
*Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
5(a)(6) (See Appendix A).



142
                                                                                         Semiannual Report to Congress
                                                 Appendix C

          DECISION STATUS OF DOD IG ISSUED AUDIT REPORTS AND DOLLAR VALUE OF
            RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE ($ in thousands)

                                  Status                                      Number                 Funds Put
                                                                                                   To Better Use 1
A.      For which no management decision had been made by the
        beginning of the reporting period.                                      44                    $667,101
B.	     Which were issued during the reporting period.                          70                    $742,742
        Subtotals (A+B)                                                         114                  $1,409,843
C.	     For which a management decision was made during the                     75                   $1,263,601
        reporting period.

       (i) 	     dollar value of recommendations that were agreed to
                 by management.
                 - based on proposed management action
                 - based on proposed legislative action
       (ii)	     dollar value of recommendations that were not agreed
                 to by management.                                                                  $1,263,6012
D.	      For which no management decision has been made by the
         end of the reporting period.                                            39                   $146,242
         Reports for which no management decision was made within
         6 months of issue (as of March 31, 2008).                               93                   $127,500


1.	 DoD OIG audit reports issued during the period involved no “questioned costs.”
2.	 On these audit reports management has agreed to take the recommended actions, but the amount of agreed
    monetary benefits cannot be determined until those actions are completed.
3.	 DoD OIG Report Nos. D-2005-099, “Status of Selected DoD Policies on Information Technology Gover-
    nance”; D-2006-112, “Selected Controls over the Military Personnel, Army Appropriation”; D-2007-003,
    “Internal Controls over the Army General Fund, Note 3, “Fund Balance With Treasury,” Disclosures”; D-2007-
    099, “Privacy Program and Privacy Impact Assessment”; D-2007-6-001, “Reimbursement of Settlement Costs at
    DCMA Melbourne,” D-2008-026, “Management of the Iraq Security Forces Fund in Southwest Asia – Phase
    III”; D-2008-045, “Controls over the TRICARE Overseas Healthcare Program”; D-2008-063, “Vendor Pay
    Disbursement Cycle Air Force General Fund”; and D-2008-5-003, “Review of Threat Assessment Guidance
    Regarding Nuclear Weapons Located Outside the Continental United States”; had no management decision as
    of September 30, 2008, but action to achieve a decision is in process.




* Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(8)(9) & (10).

                                                                                                                             143
Department of Defense Inspector General
                   STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                              Period ending September 30, 2008
                                       ($ in thousands)
                                                                      Funds Put
                                Status                         Number to Better
                                                                        Use 1
      DoD IG
        Action in Progress - Beginning of Period                                       253          $2,100
        Action Initiated - During Period                                                75        $1,263,601
        Action Completed - During Period                                                66         $907,481
        Action in Progress - End of Period                                             262          $2,1002
      Military Departments
        Action in Progress - Beginning of Period                                       565        $2,216,472
        Action Initiated - During Period                                               280        $2,197,368
        Action Completed - During Period                                               278        $1,401,331
        Action in Progress - End of Period                                             567        $3,012,509

      1
        DoD OIG audit reports opened during the period involved no “questioned costs.”
      2
        On certain reports (primarily from prior periods) with audit estimated monetary benefits of
      $2,046 million, we agreed that the resulting monetary benefits can only be estimated after comple-
      tion of management action, which is ongoing.


      * Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
       Section 5(b)(2) & (3).




144
                                                                                             Semiannual Report to Congress
                                                   Appendix D

                                CONTRACT AUDIT REPORTS ISSUED1
                                            ($ in millions)
                              April 1, 2008 through September 30, 2008


                                            Assignments        QUESTIONED FUNDS PUT TO
TYPE OF AUDIT            2
                                            Completed EXAMINED   COSTS3    BETTER USE
Incurred Costs, Ops Audits,
Special Audits                                   11,267           $71,911.3               $949.7                  $134.64
Forward Pricing Proposals                        4,064           $123,989.0                 ---                 $ 8,123.95
Cost Accounting Standards                          999              $173.1                $161.6                     ---
Defective Pricing                                  215             (Note 6)               $50.6                      ---
Totals                                          16,545          $196,073.4              $1,161.9                $8,258.5

                                                            Notes
1.	 This schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the 6 months
    ended March 31, 2008. This includes any audits that DCAA performed on a reimbursable basis for other govern-
    ment agencies and the associated statistics may also be reported in other OIGs’ Semiannual Reports to Congress. Both
    “Questioned Costs” and “Funds Put to Better Use” represent potential cost savings. Because of limited time between
    availability of management information system data and legislative reporting requirements, there is minimal opportunity
    for DCAA to verify the accuracy of reported data. Accordingly, submitted data is subject to change based on subsequent
    DCAA authentication.
2.	 This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
    Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are
    reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition
    Regulation Supplement, and provisions of the contract. Also included under incurred cost audits are Operations Audits,
    which evaluate a contractor’s operations and management practices to identify opportunities for increased efficiency and
    economy; and Special Audits, which include audits of terminations and claims. Forward Pricing Proposals – Audits of
    estimated future costs of proposed contract prices, proposed contract change orders, costs for redeterminable fixed-price
    contracts, and costs incurred but not yet covered by definitized contracts. Cost Accounting Standards – A review of a
    contractor’s cost impact statement required due to changes to disclosed practices, failure to consistently follow a disclosed
    or established cost accounting practice, or noncompliance with a CAS regulation. Defective Pricing – A review to deter-
    mine whether contracts are based on current, complete and accurate cost or pricing data (the Truth in Negotiations Act).
3.	 Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws,
    and/or contractual terms.
4.	 Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that funds
    could be used more effectively if management took action to implement cost reduction recommendations.
5.	 Represents potential cost reductions that may be realized during contract negotiations.
6.	 Defective pricing dollars examined are not reported because the original value was included in the audits associated with
    the original forward pricing proposals.



                                                                                                                               145
Department of Defense Inspector General
                                                                            Appendix E

                                             STATUS OF action on
                                 significant post‑award contract audits1
                                 Period Ending SEptember 30, 2008 ($ in millions)
                                                                          Number of
                                                                           Reports              Costs Questioned                    Disallowed Costs6

                   Open Reports:

                       Within Guidelines2                                     416                     $   1,042.4                              N/A7

                       Overage, greater than 6
                       months3
                                                                              670                     $ 1,264.3                                 N/A

                       Overage, greater than 12
                       months4                                                513                     $ 1,381.4                                 N/A

                        In Litigation5                                        118                     $ 1,614.5                                 N/A

                   Total Open Reports                                       1,717                     $ 5,302.6                                 N/A

                   Closed Reports                                             372                     $     590.5                     $253.3 (42.9%)

                   All Reports                                              2,089                     $ 5,893.1                        $253.3 (4.3%)

1 This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable adjustments, accounting and related internal control

systems, and noncompliances with the Cost Accounting Standards as reported by the Army, Navy, Air Force, Defense Contract Management Agency, Defense Intelligence Agency,

Defense Logistics Agency, National Geospatial-Intelligence Agency, National Security Agency and TRICARE Management Activity. Contract audit follow-up is reported in accordance

with DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports.” Because of limited time between availability of the data and reporting requirements, there is minimal

opportunity to verify the accuracy of the reported data.

2 These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up”, and DoD Directive 7640.2 as described in footnotes 3 and 4 below.

3 OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally, an audit is resolved when the contracting officer determines a course of

action which is documented and approved in accordance with agency policy.

4 DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of issuance. Generally, disposition is achieved when the contractor imple-

ments audit recommendations, the contracting officer negotiates a settlement with the contractor, or the contracting officer issues a final decision pursuant to the Disputes Clause.

5 Of the 114 reports in litigation, 18 are under criminal investigation

6 Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.

7 N/A (not applicable)



146
                                                                                                                                                Semiannual Report to Congress
                                              Appendix F

             STATUS OF DOD IG REPORTS MORE THAN 12 MONTHS OLD
                         WITH FINAL ACTION PENDING
                           (As of September 30, 2008)

       Report Number             Description of Action          Reason Action Not       Principle Action Office
          Title/Date                                                 Completed
 94-062, Financial Status of Changes to policy guidance     Coordination issues within USD(C)
 Air Force Expired Year Ap- to include refunds receiv-      DoD continue to be ad-
 propriations, 3/18/1994     able arising from matters in   dressed.
                             litigation.
 96-156, Implementation      Implement system changes       Correction of this material DFAS
 of the DoD Plan to Match to correct weaknesses in the      weakness involves a long-
 Disbursement to Obliga-     automated prevalidation        term effort.
 tions Prior to Payment,     process.
 6/11/1996
 97-134, Disposal of         Change regulations to ad-      The coordination process is USD(AT&L), DLA
 Munitions List Items in     vance the identification of    near the final stage be-
 the Possession of Defense munitions list items to the      tween the military services
 Contractors, 4/22/1997      early stages of the acquisi-   for the publication of the
                             tion process.                  revised regulation.
 98-049, DoD Sensitive       Report is classified.          Extensive time required to USD(I)
 Support Focal Point Sys-                                   revise guidance.
 tem (U), 1/20/1998
 98-063, Defense Logistics Revisions to DLA Instruc-        A decision was made to      DLA
 Agency Product Qual-        tion 4155.24, “Quality As-     combine the draft directive
 ity Deficiency Program,     surance Program for DLA        and instruction back into
 2/5/1998                    Inventory Control Points.”     a single regulation format.
                                                            Extended time needed to
                                                            coordinate and staff the
                                                            revised guidance.
 98-067, Access Reciprocity Standardize Special Access      Competing management        USD(I), Army, Navy, AF
 Between DoD Special Ac- Program (SAP) eligibility          priorities and extensive
 cess Programs, 2/10/1998 implementing criteria and         time to revise DoD publi-
                            develop a centralized SAP       cations. Lack of manage-
                            database.                       ment responsiveness.




                                                                                                              147
Department of Defense Inspector General
      Report Number            Description of Action          Reason Action Not          Principle Action Office
         Title/Date                                               Completed
98-116, Accounting for      Revise procedures for han- Competing management             DFAS
Defense Logistics Agency    dling accounts receivable to priorities.
Supply Management Re-       accrue and record interest,
ceivables, 4/20/1998        penalty, and administrative
                            charges on past due ac-
                            counts.
98-124, Department of       Implement peer review        Competing manage-              USD(I)
Defense Adjudication Pro- program and establish          ment priorities, funding
gram, 4/27/1998             continuing education stan- restraints and extended
                            dards and a program for      time needed to coordinate
                            the professional certifica-  and issue DoD policy.
                            tion for adjudicators.       Developing new testing
                                                         procedures for certification
                                                         program. Lack of manage-
                                                         ment responsiveness.
99-159, Interservice Avail- Revise Joint Service Regu- Delays have been experi-         Army
ability of Multiservice     lation to require consistent enced in coordinating and
Used Items, 5/14/1999       item management wher-        issuing policy.
                            ever economical and safe.
                            Services provide training
                            on disposal authority for
                            multi-service used items
                            and requirements related to
                            excess assets quantities.
D-2000-111, Security        Establish timeframes to      Corrective action delayed      USD(I), DSS
Clearance Investigative     expedite investigative pri- by the transfer of the per-
Priorities, 4/5/2000        orities.                     sonnel security investiga-
                                                         tive function from DSS to
                                                         OPM. Awaiting funding
                                                         for new electronic capabil-
                                                         ity and issuance of policy
                                                         guidance. Lack of man-
                                                         agement responsiveness.




148
                                                                                        Semiannual Report to Congress
       Report Number               Description of Action       Reason Action Not         Principle Action Office
         Title/Date                                                 Completed
 D-2000-134, Tracking Se-   The current database will      Extensive time/resources     DSS
 curity Clearance Requests, be modified to retain all      needed to modify an
 5/30/2000                  pertinent historical infor-    automated system. Im-
                            mation (including dates/       pacted by transformation
                            times for every occurrence of the personnel security
                            -- e.g., deletions, case type, program. Lack of manage-
                            changes, cancellations,        ment responsiveness.
                            duplicates, conversions,
                            reinstatements, etc.)
 D-2001-018, Manage-        Army assumed respon-           Remaining differences be- Army
 ment and Oversight of the sibility to update Joint        tween Army and Air Force
 DoD Weather Program,       Instruction AR 115-10/         comments have to be
 12/14/2000                 AFI 15-157, to require         resolved and incorporated
                            coordination of meteo-         into the joint instruction.
                            rological, oceanographic,
                            and space weather require-
                            ments across all Military
                            Departments to promote
                            interoperability and avoid
                            duplication.
 D-2001-037, Collection     Develop, test and deploy       Selected system for use as ASD(HA)
 and Reporting of Patient   Patient Safety Reporting       the patient safety reporting
 Safety Data Within the     Program.                       program did not dem-
 Military Health System,                                   onstrate to be effective,
 1/29/2001                                                 suitable or survivable for
                                                           limited deployment. Re-
                                                           placement system is being
                                                           sought.
 D-2001-065, DoD Ad-        Identify and process addi- Extensive time required          DSS, USD(I)
 judication of Contractor   tional adjudicative resourc- to update DoD guidance.
 Security Clearances Grant- es for Defense Industrial      DoD Regulation 5200.2-R
 ed by the Defense Security Security Clearance Office      delayed due to mandate by
 Service, 2/28/2001         (DISCO). Establishment the President, and signa-
                            of continuing education        ture of the “Springer-Had-
                            standards to facilitate the    ley” memorandum direct-
                            certification of profes-       ing personnel security and
                            sional adjudicators. Issue     suitability process reform
                            guidance on professional       across the Federal Govern-
                            certification and continu- ment. Lack of manage-
                            ous training program for       ment responsiveness.
                            all adjudicators.



                                                                                                               149
Department of Defense Inspector General
      Report Number            Description of Action           Reason Action Not      Principle Action Office
        Title/Date                                                 Completed
D-2001-099, Use of           Modify the Financial         Extensive time required    USD(C)
Contract Authority for       Management Regulation,       for changes to financial
Distribution Depots by the   Volume 11B, to include       policies.
Defense Logistics Agency,    procedures that require
4/16/2001                    that all use of contract
                             authority is adequately
                             posted and liquidated in
                             the DoD working capital
                             fund accounting records at
                             the activity group level.
D-2001-124, U.S. Special     Report is classified.        Extensive time required for JS
Operations Command Use                                    coordination and publica-
of Alternative or Compen-                                 tion of DoD document.
satory Control Measures                                   Awaiting copy of finalized
(U), 5/18/2001                                            documents and overdue
                                                          response from the Joint
                                                          Staff.
D-2001-135, Prevalida-   Develop cost-effective           Correction of this material USD(AT&L)
tion of Intergovernmentalautomated methods to             weakness involves a long-
Transactions, 6/6/2001   expand prevalidation.            term effort.
D-2001-141, Allegations  Amend DoD 5200.2-R               Delays continue in prepa- USD(I)
to the Defense Hotline   to address security inves-       ration and coordination of
on the Defense Security  tigation requirements for        DoD guidance.
Assistance Management    foreign national contractor
System, 6/19/2001        employees.
D-2001-148, Automated    Issue policy to address          Coordination and approval ASD(NII), USD(C)
Transportation Payments, information assurance re-        of the implementing policy
6/22/2001                quirements for commercial        continues.
                         automated processes.
D-2001-153, Pentagon     Develop processes to iden-       Implementation has been WHS
Reservation Maintenance tify the appropriate con-         delayed by higher manage-
Revolving Fund, 7/2/2001 struction costs to be used       ment priorities.
                         in transferring completed
                         projects from the construc-
                         tion in progress account to
                         the real property accounts.




150
                                                                                     Semiannual Report to Congress
       Report Number               Description of Action        Reason Action Not     Principle Action Office
          Title/Date                                                Completed
 D-2001-158, Compila-           Management will establish   Implementation has been DFAS
 tion of the FY 2000 Army       an action plan to meet      delayed by higher manage-
 General Fund Financial         revised requirements for    ment priorities.
 Statements at the Defense      reconciling suspense ac-
 Finance and Accounting         counts.
 Service Indianapolis (Sus-
 taining Forces), 7/13/2001
 D-2001-170, U.S. Trans-     Develop system changes to      Implementation has been TRANSCOM
 portation Command’s Re-     differentiate among US-        delayed by higher manage-
 porting of Property, Plant, TRANSCOM, Air Mobil-           ment priorities.
 and Equipment Assets on     ity Command (AMC), and
 the FY 2000 DoD Agency-     Defense Courier Service
 wide Financial Statements,  (DCS) assets. Create
 8/3/2001                    electronic interfaces be-
                             tween the logistics and the
                             accounting systems for
                             transferring data.
 D-2002-004, Import          Revise USFK Regulation         Delays in coordinating and USFK
 Processing of DoD Cargo 55-72 to update require-           issuing policy.
 Arriving in the Republic of ments and implement a
 Korea, 10/4/2001            cost-efficient system for
                             the automated processing
                             of customs forms using an
                             electronic data interchange.
 D-2002-008, Controls        Improve guidance on            Delays in coordinating and USD(C)
 Over the Computerized       criteria for proper and ac-    issuing policy.
 Accounts Payable System     curate receipt and invoice
 (CAPS) at Defense Finance documentation; improve
 and Accounting Service      organizational structures
 Kansas City (DFAS-KC), to provide better internal
 10/19/2002                  controls.
 D-2002-010, Armed           Establish a plan, controls,    Extended time needed to    Army, AF, ASD(HA)
 Services Blood Program      assessment requirements        FDA approval for upgrade
 Defense Blood Standard      and training related to the    and deployment of the
 System, 10/22/2001          Defense Blood Standard         upgraded DBSS system.
                             System (DBSS) upgrade.
                             Also, establish procedures
                             to ensure effective de-
                             ployment of those DBSS
                             upgrades.




                                                                                                            151
Department of Defense Inspector General
      Report Number            Description of Action            Reason Action Not      Principle Action Office
        Title/Date                                                 Completed
D-2002-024, Navy Fleet      Report is classified.          Corrective actions are de- Navy, PACOM
Hospital Requirements                                      layed by changing require-
(U), 12/12/2001                                            ments.
D-2002-056, Controls        Revise the Financial           Delays in coordinating and USD(C)
Over Vendor Payments        Management Regulation          issuing policy.
Made for the Army and       to incorporate the require-
Defense Agencies Using      ments of 5 CFR 1315.
the Computerized Ac-
counting Payable System
(CAPS), 3/6/2002
D-2002-073, Financial       Use transactional data from    Slow system development      DFAS
Management Ending           a centralized database to      process.
Balance Adjustments to      populate general ledger
General Ledger Data for     accounts in the Defense
the Army General Fund,      Departmental Reporting
3/27/2002                   System (DDRS) Budget-
                            ary and continue efforts to
                            analyze and correct causes
                            for current adjustments;
                            Use transactional data to
                            generate a general ledger
                            data file for DDRS Bud-
                            getary.
D-2002-075, Controls        Strengthen controls to         Corrective action requires   USD(AT&L)
Over the DoD Purchase       modify contract with banks     long-term development of
Card Program, 3/29/2002 to prevent accounts from           risk-assessment tools.
                            being reopened after notifi-
                            cation to close, and pro-
                            vide reports on oversight
                            reviews.
D-2002-076, Funding In- Revise Financial Manage-           Delays in coordinating and USD(C)
voices to Expedite the Clo- ment Regulation, Chapter       issuing policy.
sure of Contracts Before    10, Appendix B, number 7,
Transitioning to A New      “Accounting Requirements
DoD Payment System,         for Expired and Closed
3/29/2002                   Accounts, “ to require that
                            the DoD activity to which
                            a program has transferred
                            be responsible for provid-
                            ing current-year funding.




152
                                                                                        Semiannual Report to Congress
        Report Number              Description of Action       Reason Action Not              Principle Action Office
           Title/Date                                               Completed
 D-2002-091, Accountabil-       Comply with guidance for Lack of management re-              Army
 ity and Control of Mate-       storage of maintenance ma- sponsiveness.
 riel at the Corpus Christi     teriel and the preparation
 Army Depot, 5/21/2002          and submission of manage-
                                ment reports for review;
                                perform annual physical
                                inventory and quarterly
                                reviews of materiel.
 D-2002-117, Review of          Report is classified.      Competing management              DIA
 FY 2001 Financial State-                                  priorities.
 ment for the Defense
 Intelligence Agency (U),
 6/25/2002
 D-2002-122, Environ-           Develop a more detailed        Delays were caused by         USD(P&R)
 mental Community               DoD instruction on             broadening the scope
 Involvement Program at         Sustainable Ranges Out-        of the draft instruction,
 Test and Training Ranges,      reach. Continue work on        extensive revisions and
 6/28/2002                      implementation of the new      coordination issues.
                                Directive and development
                                of the new instruction.
 D-2002-140, Measure-           Establish and implement        Delays were caused by         Army, Navy, AF, WHS
 ment of Water Usage            procedures to verify that      installation and program
 by DoD Components              the DCWASA routinely           compatibility issues, other
 Serviced by the DC             inspects and reports results   technical difficulties, and
 Water and Sewer Service,       of inspections for DoD-        contract terminations.
 8/20/2002                      owned water meters;
                                develop and implement
                                effective controls and pro-
                                cedures to verify that the
                                DCWASA accurately reads
                                water meters; establish and
                                implement a maintenance
                                program.
 D-2003-001, DoD Inte-          Develop integrated natural     The remaining Army plan       Army
 grated Natural Resource        resource management plans      is on hold pending the
 Management Plans,              for military installations     resolution of an internal
 10/1/2002                      and coordinate the plans       disagreement within the
                                with the other Federal and     U.S. Fish and Wildlife
                                State agencies involved in     Service.
                                the process.




                                                                                                                    153
Department of Defense Inspector General
      Report Number           Description of Action           Reason Action Not      Principle Action Office
         Title/Date                                               Completed
D-2003-018, Validity of    Establish procedures to       Action is being taken by   DFAS
Registration in the Cen-   withhold payments to con- management to implement
tral Contractor Registra-  tractors and vendors until a manual, rather than an
tion (CCR) Database,       they are properly registered automated, solution.
10/30/2002                 with a valid Tax Identifica-
                           tion Number in the CCR
                           database.
D-2003-034, Adjustments Revise the Financial             Delays in coordinating and USD(C)
to the Intergovernmen-     Management Regulation         issuing policy.
tal Payments Account,      to specify the documenta-
12/10/2002                 tion required to support
                           adjustments from account
                           F3885, ‘Undistributed In-
                           tergovernmental Payments,’
                           to closed appropriations.
D-2003-056, Public/Pri-    AT&L is working with          Corrective actions are on  USD(AT&L)
vate Competition for the   OMB to address any over- schedule.
Defense Finance and Ac-    head ambiguities in OMB
counting Service Military Circular A-76, proposing
Retired and Annuitant Pay additional guidance to
Functions, 3/21/2003       clarify costing policies, and
                           providing definitions for
                           direct and indirect costs as
                           well as a revised definition
                           for overhead.
D-2003-067, Recoveries     Revise the Financial Man- Extensive time required        USD(C), DFAS
of Prior Year Obligations, agement Regulation to be for changes to financial
3/21/2003                  consistent with recovery      policies.
                           reporting guidance issued
                           by the OMB and the De-
                           partment of the Treasury.
                           Program DFAS account-
                           ing systems to properly
                           capture, record, and report
                           recoveries of prior year
                           obligations.
D-2003-072, DoD            AF is updating guidance       Publication of AF Instruc- AF
Compliance with the        to be consistent with DoD tion was delayed to include
Uniformed and Overseas     level guidance.               pending revision of DoD
Citizens Absentee Voting                                 guidance.
Act, 3/31/2003



154
                                                                                    Semiannual Report to Congress
       Report Number               Description of Action       Reason Action Not        Principle Action Office
          Title/Date                                               Completed
 D-2003-073, Reliability        Report is classified.      Corrective actions are on   NGA
 of the FY 2002 National                                   schedule.
 Imagery and Mapping
 Agency Financial State-
 ments and Adequacy of
 Related Procedures and
 Controls (U), 4/2/2003
 D-2003-074, Reliability of     Report is classified.      Competing management        DIA
 the FY 2002 Defense Intel-                                priorities.
 ligence Agency Financial
 Statements and Adequacy
 of Related Procedures and
 Controls (U), 4/7/2003
 D-2003-095, Accounting  Develop business practices        Long-term process to        DFAS, Navy
 for Reimbursable Work   for Navy fund administra-         develop and implement
                         tors to properly account for
 Orders at Defense Finance                                 improved business prac-
 and Accounting Service  reimbursable work orders.         tices, methodologies, and
 Charleston, 6/4/2003    Develop a methodology             guidance.
                         and provide guidance to
                         prevent Navy fund ad-
                         ministrators from over
                         obligating at the segment
                         level. Establish edit checks
                         that align with the business
                         practices of the Navy.
 D-2003-105, Management Report is FOUO.                    Extensive delays in coordi- USD(AT&L)
 of Developmental and                                      nating and issuing policy.
 Operational Test Waiv-
 ers for Defense System,
 6/20/2003




                                                                                                              155
Department of Defense Inspector General
      Report Number           Description of Action          Reason Action Not      Principle Action Office
         Title/Date                                               Completed
D-2003-106, Administra-    The Director, Defense         Corrective actions are on USD(AT&L)
tion of Performance-Based  Procurement and Acquisi- schedule. Normal time re-
Payments Made to Defense   tion Policy, will conduct an quired to update the FAR
Contractors, 6/25/2003     assessment of the benefits and DFARS.
                           of expanded performance-
                           based payments implemen-
                           tation. It will address con-
                           tracting officer compliance
                           with FAR Part 32.10, and
                           whether any changes are
                           needed to those policies,
                           the Performance-Based
                           Payments User’s Guide, or
                           training resources.
D-2003-110, Information System enhancements to           Extended time needed to   USD(P&R)
Technology Management: correct deficiencies are in       develop system enhance-
Defense Civilian Personnel process.                      ments.
Data System Functional-
ity and User Satisfaction,
7/27/2003
D-2003-122, Financial      Issue guidance for unrec-     Guidance delayed due to   USD(C)
Management: Closing        oncilable contracts; update re-writing and coordina-
the Army’s 1985 M1a1       the DoD FMR to specifi- tion issues, and competing
Tank Contract (Contract    cally address the require-    priorities.
DAAE07-85-C-A043),         ment to maintain vouchers
8/13/2003                  and supporting documen-
                           tation to facilitate complete
                           contract reconciliations.
D-2003-128, The Chemi- As directed by                    Extended time needed      USD(AT&L)
cal Demilitarization Pro-  USD(AT&L), Army de-           to coordinate and issue
gram: Increased Costs for velop and prioritize a plan policy.
Stockpile and Non-Stock- for the disposal of buried
pile Chemical Disposal     chemical warfare materiel.
Programs, 9/4/2003         Upon receipt of the Army
                           plan, USD(AT&L) deter-
                           mine which DoD compo-
                           nent should be assigned to
                           implement the plan.




156
                                                                                    Semiannual Report to Congress
      Report Number                Description of Action         Reason Action Not      Principle Action Office
         Title/Date                                                  Completed
 D-2003-133, Report             Emphasize the importance    Extensive time required    USD(C), DFAS
 on Controls Over DoD           of controls over the use of for changes to financial
 Closed Appropriations,         closed appropriations and   policies.
 9/15/2003                      monitor compliance with
                                applicable laws and regula-
                                tions. DFAS establish spe-
                                cific standard procedures
                                to ensure that accounting
                                personnel approve only
                                legal and proper adjust-
                                ments to closed appropria-
                                tions, validate the canceled
                                balances and report any
                                potential Antideficiency
                                Act violations.
 D-2003-134, System             Report is FOUO.              Lack of management re-    Army
 Security of the Army                                        sponsiveness.
 Corps of Engineers Finan-
 cial Management System,
 9/15/2003
 04-INTEL-02, DoD               Disparities between the     Extensive time required to USD(I)
 Security Clearance Adjudi-     contractor and military/    update DoD Regulations.
 cation and Appeals Process     civilian personnel adju-    DoD Regulation 5200.2-R
 (U), 12/12/2003                dicative process will be    delayed due to mandate by
                                eliminated with the pend-   the President, and signa-
                                ing revision to the DoD     ture of the “Springer-Had-
                                Regulation 5200.2-R.        ley” memorandum direct-
                                                            ing personnel security and
                                                            suitability process reform
                                                            across the federal govern-
                                                            ment. Lack of manage-
                                                            ment responsiveness.
 D-2004-007, Force Protec- Report is classified.            Army and USMC are in       Army, AF, PACOM, MC
 tion in the Pacific Theater                                process of updating their
 (U), 10/14/2003                                            guidance based on DoD
                                                            guidance published on
                                                            10/30/06.




                                                                                                              157
Department of Defense Inspector General
     Report Number             Description of Action          Reason Action Not        Principle Action Office
        Title/Date                                                Completed
04-INTEL-07, Audit of      Report is classified.         Extensive time required to   ATSD(NCB), AF
the Physical Security of                                 update and finalize DoD
Nuclear Weapons (U),                                     guidance. Manual out for
5/3/2004                                                 coordination with com-
                                                         ments due November 26,
                                                         2008.
D-2004-008, Implemen-      Update Army Regulations Coordination on issuance           Army
tation of Interoperability 70-1and 71-9 to require       of numerous related guid-
and Information Assur-     combat developers to iden- ance continues.
ance Policies for Acquisi- tify interoperability and
tion of Army Systems,      supportability requirements
10/15/2003                 in requirements documents
                           and update the require-
                           ments throughout the life
                           of the systems, as necessary,
                           in accordance with DoD
                           Directive 4630.5 and to
                           require program managers
                           to obtain the Joint Staff J6
                           certifications for interoper-
                           ability in accordance with
                           Chairman of the Joint
                           Chiefs of Staff Instruction
                           6212.01B.
D-2004-012, Sole-Source Report is FOUO.                  Lack of management em-       Army
Spare Parts Procured From                                phasis.
an Exclusive Distributor,
10/16/2003
D-2004-020, Allegations    Implement a formal acqui- Delays in staffing and           NGB
Concerning Impropri-       sition policy that integrates approving a charter that
eties in Awarding Na-      the existing roles of various is acceptable to the main
tional Guard Contracts,    Army National Guard and parties- National Guard
11/18/2003                 Federal communication         Bureau, Army National
                           and IT groups. Develop a Guard, and Air National
                           process with measurable IT Guard.
                           standards and defined busi-
                           ness processes. Coordinate
                           the requirements for help
                           desk support to eliminate
                           duplicate contract costs.




158
                                                                                      Semiannual Report to Congress
       Report Number               Description of Action        Reason Action Not         Principle Action Office
          Title/Date                                                Completed
 D-2004-034, Environ-           Clarify requirements for   The Corps’ guidance          Army
 ment: Defense Hotline          internal assessments.      update was put on hold
 Allegations Regarding the                                 pending the revision of a
 Environmental Compli-                                     higher level Army regula-
 ance Assessment Process at                                tion, and is currently being
 U.S. Army Corps of En-                                    reviewed by the Corps’ Of-
 gineers, Portland District,                               fice of General Counsel.
 12/4/2003
 D-2004-041, The Security       Report is FOUO.            Lack of management re-      Army
 of the Army Corps of En-                                  sponsiveness.
 gineers Enterprise Infra-
 structure Services Wide-
 Area Network, 12/26/2003
 D-2004-047, Implementa-  Program Managers will            Extensive time needed to Army
 tion of the DoD Manage-  be able to store acquisi-        publish DoD guidance and
 ment Control Program for tion documents in Virtual        revise Army regulation.
 Army Category II and III Insight (VIS) so the Mile-
 Programs, 1/23/2004      stone Decision Author-
                          ity can review document
                          status from development to
                          document approval. Army
                          Regulations will be updat-
                          ed to reflect new reporting
                          procedures.
 D-2004-050, Management Revise DoD guidance to             Extensive time required to DAM
 Structure of the Coop-   clarify the roles of respon-     coordinate and issue guid-
 erative Threat Reduction sible offices for the Coop-      ance.
 Program, 2/5/2004        erative Threat Reduction
                          Program.
 D-2004-053, Defense      Develop detailed guidance        Extensive time required to WHS
 Threat Reduction Agen-   on what should be con-           coordinate and issue guid-
 cy Relocation Costs,     sidered when determining         ance.
 2/19/2004                whether the relocation cost
                          cap in section 8020 of the
                          FY 2004 Appropriation
                          Act has been, or will be,
                          exceeded.




                                                                                                                159
Department of Defense Inspector General
       Report Number           Description of Action          Reason Action Not        Principle Action Office
          Title/Date                                              Completed
D-2004-059, Financial       Determine the appropriate The U.S. Army Corps of         Army
Management: Assets          useful life for all USACE- Engineers did not aggres-
Depreciation Reported on    owned assets. Request        sively pursue a USD(C)
the U.S. Army Corps of      a waiver from the DoD        response to the Corp’s
Engineers FY 2002 Finan-    FMR based on USACE-          request for a waiver from
cial Statements, 3/16/2004  unique mission require-      DoD FMR requirements.
                            ments.
D-2004-061, Export Con- Expand DoD guidance              Extensive time required to USD(P), USD(AT&L)
trols: Export Controlled    to encompass all export-     coordinate and issue policy
Technology at Contractor, controlled technology and guidance.
University and Federally    enumerate the roles and
Funded Research and De- duties of responsible per-
velopment Center Facili-    sonnel. Ensure incorpora-
ties, 3/25/2004             tion of appropriate export
                            compliance clauses into
                            solicitations and contracts.
D-2004-063, Financial       Improve the financial ac-    Implementation has been Army
Management: Controls        countability for buildings delayed by higher manage-
Over U.S. Army Corps of and other structures owned ment priorities.
Engineers (USACE) Build- by USACE.
ings and Other Structures,
3/26/2004
D-2004-065, DoD Imple- Revise Voting Assistance          Publication of AF Instruc- AF
mentation of the Vot-       Program guidance to reflect tion was delayed to include
ing Assistance Program,     recent changes to DoD        pending revision of DoD
3/31/2004                   guidance. Improve moni- guidance.
                            toring of voting assistance
                            program and training
                            of service members and
                            spouses.
D-2004-079, Reliability     Report is classified.        Competing management        DIA
of the Defense Intelligence                              priorities.
Agency FY 2003 Financial
Statements (U), 4/29/2004




160
                                                                                      Semiannual Report to Congress
       Report Number               Description of Action     Reason Action Not         Principle Action Office
         Title/Date                                              Completed
 D-2004-080, Environ-       Implement guidance to        Normal time to develop       USD(AT&L)
 mental Liabilities Requiredimprove the development, and implement new guid-
 to be Reported on An-      recording, and reporting of ance and procedures.
 nual Financial Statements, environmental liabilities.
 5/5/2004                   Establish a quality control
                            program to assess environ-
                            mental liability processes
                            and controls. Issue guid-
                            ance requiring that future
                            environmental liability
                            electronic cost estimating
                            system efforts comply with
                            Defense Environmental
                            Restoration Program Man-
                            agement Guidance.
 D-2004-087, Health         ASD (HA), in coordina-       Extended time needed for     Army, AF
 Care: DoD Management tion with the Military             update of Air Force publi-
 of Pharmaceutical Inven-   Surgeons General, develop cation.
 tory and Processing of     standard policies and pro-
 Returned Pharmaceuticals, cedures for pharmaceutical
 6/17/2004                  inventory management
                            at the Military Treatment
                            Facilities (MTFs) and
                            also require MTFs to use
                            a pharmaceutical returns
                            company.
 D-2004-091, Manage-        Report is FOUO.              Extensive time required      ASD(NII)
 ment of Network Cen-                                    to coordinate and issue
 tric Warfare Within the                                 revised policy.
 Department of Defense,
 6/22/2004
 D-2004-094, Acquisition: Develop a process for          Normal time needed for       USD(C), ASD(HA)
 Direct Care Medical Ser-   future payments of FICA      implementation.
 vices Contracts, 6/24/2004 tax for individual set-aside
                            contracts. Establish a pilot
                            program for the acquisi-
                            tion of direct care medical
                            services.
 D-2004-099, Reliability of Report is classified.        Corrective actions are on    NSA
 National Security Agency                                schedule.
 FY 2003 Financial State-
 ments (U), 7/15/2004


                                                                                                             161
Department of Defense Inspector General
      Report Number             Description of Action            Reason Action Not         Principle Action Office
         Title/Date                                                   Completed
D-2004-104, Purchase         Recommended actions are         Extensive time needed to     Army
Card Use and Contracting     designed to provide guid-       revise guidance.
Actions at the U.S. Army     ance and strengthen con-
Corps of Engineers, Louis-   trols over use of the Gov-
ville District, 7/27/2004    ernment Purchase Card at
                             the Louisville District and
                             at USACE Headquarters
                             levels.
D-2004-118, Army Gen-        Update the DoD FMR              Lack of management em-       USD(C), DFAS
eral Fund Controls Over      to require the disclosure       phasis; slow system devel-
Abnormal Balances for        of unresolved abnormal          opment process.
Field Accounting Activi-     balances for all proprietary
ties, 9/28/2004              and budgetary general
                             ledger accounts in the foot-
                             notes to the financial state-
                             ments. Identify abnormal
                             conditions impacting both
                             budgetary and proprietary
                             account balances; notify
                             accounting activities of ab-
                             normal proprietary balanc-
                             es and require explanations
                             of corrective actions; and
                             resolve abnormal balances
                             in the budgetary accounts.
05-INTEL-19, Nuclear         Report is Classified      Extensive time required to ATSD(NCB)
Command and Control                                    update and finalize DoD
(U), 6/30/2005                                         guidance. Manual out for
                                                       coordination with com-
                                                       ments due November 26,
                                                       2008.
D-2005-020, Defense       DLA is identifying cost      Normal time needed to       DLA
Logistics Agency Process- savings realized as a result determine the full scope of
ing of Special Program    of the DLA Customer Col- realized monetary benefits.
Requirements, 11/17/2004 laboration project.




162
                                                                                          Semiannual Report to Congress
      Report Number                Description of Action          Reason Action Not        Principle Action Office
         Title/Date                                                   Completed
D-2005-022, Financial      The contract has been               Closeout work continues.   DFAS
Management: Contract       logged and assigned to a
Classified as Unrecon-     contractor supporting the
cilable by the Defense     Commercial Pay Services
Finance and Accounting     Contract Reconciliation
Service, 12/2/2005         office for reconciliation.
                           Based on the reconcilia-
                           tion, recovery actions will
                           be initiated for any identi-
                           fied overpayments made to
                           the contractor.
D-2005-024, Management Develop a new method for                The Total Force Authori-   Navy
of Navy Senior Enlisted    tracking manning for all            zation and Requirements
Personnel Assignments in pay grades, Navy Enlisted             System has been shelved
Support of Operation Iraqi Classification codes, and           because the most recent
Freedom, 12/15/2004        knowledge, skills, and              Users Acceptance Test
                           abilities.                          showed it did not meet
                                                               essential requirements.
                                                               Awaiting details on an
                                                               alternative plan that will
                                                               address the Navy’s agreed
                                                               upon action.
D-2005-026, Financial           USACE is implementing          Implementation has been Army
Management: Reliability         system changes to improve      delayed by higher manage-
of U.S. Army Corps of En-       the reliability or recording   ment priorities.
gineers, Civil Works, Fund      and reporting Fund Bal-
Balance With Treasury and       ance With Treasury and
Unexpended Appropria-           Unexpended Appropria-
tions, 12/28/2004               tions accounts.
D-2005-028, DoD Work-           Establish minimum train-       Delays have been due       USD(AT&L)
force Employed to Con-          ing standards for compe-       to litigation, additional
duct Public Private Com-        tition officials and DoD       standard competitions, and
petitions Under the DoD         functional and technical       guidance development.
Competitive Sourcing            experts assigned to work
Program, 2/1/2005               on public-private competi-
                                tions, and advise the DoD
                                component competitive
                                sourcing officials concern-
                                ing defining and docu-
                                menting minimum edu-
                                cation and/or experience
                                requirements.


                                                                                                                 163
Department of Defense Inspector General
      Report Number            Description of Action         Reason Action Not          Principle Action Office
        Title/Date                                                Completed
D-2005-033, Acquisition:   Prepare and staff a DoD       Pending resolution of a       ASD(NII)
Implementation of In-      Directive that specifies the mediation on subsequent
teroperability and Infor-  types of systems and system issues concerning the defi-
mation Assurance Policies  information capability re- nition of a system.
for Acquisition of Navy    quirements to be included
Systems, 2/2/2005          in the inventory for Global
                           Information Grid assets;
                           and the responsibilities of
                           DoD Components in pop-
                           ulating and maintaining
                           the inventory for Global
                           Information Grid assets.
D-2005-035, Existence of USACE-wide implementa- Implementation has been                Army
U.S. Army Corps of Engi- tion of corrective actions      delayed by higher manage-
neers Buildings and Other regarding Buildings and        ment priorities.
Structures, 2/15/2005      Other Structures is being
                           performed.
D-2005-046, Financial      Correct the identified er-    Competing management          Army
Management: Indepen-       rors and perform a review priorities and insufficient
dent Examination of the    of other leased and trans-    resources.
Rights to U.S. Army Corps ferred structures for simi-
of Engineers Buildings     lar types of rights errors;
and Other Structures,      review and update policies
3/25/2005                  and procedures to prevent
                           future errors; and provide
                           and document training to
                           consistently implement the
                           new policies and proce-
                           dures.
D-2005-051, Independent USACE will establish an          Corrective actions are on-    Army
Examination of the Land    oversight process that pro- going.
Assets at the U.S. Army    vides periodic reviews by
Corps of Engineers, Civil Civil Works headquarters
Works, 4/6/2005            of land asset transactions at
                           the activity level.
D-2005-054, Audit of the Report is FOUO.                 Extensive time required to    ASD(NII)
DoD Information Tech-                                    coordinate and issue three
nology Security Certifica-                               policies that are in devel-
tion and Accreditation                                   opment, draft and formal
Process, 4/28/2005                                       coordination.




164
                                                                                       Semiannual Report to Congress
       Report Number               Description of Action          Reason Action Not         Principle Action Office
          Title/Date                                                  Completed
 D-2005-056, Reliability        Report is classified.         Corrective actions are on    NGA
 of the FY 2004 Financial                                     schedule.
 Statements for the Nation-
 al Geospatial-Intelligence
 Agency (U), 4/29/2005
 D-2005-074, Support            Report is classified.         Corrective actions are on    NSA
 for Reported Obligations                                     schedule.
 for the National Security
 Agency (U), 6/28/2005
 D-2005-093, Information        Report is FOUO.               Corrective actions are on    DFAS, DISA, Army
 Technology Management:                                       schedule.
 Technical Report on the
 Standard Finance System,
 8/17/2005
 D-2005-096, DoD Pur-           DoD is establishing new    Corrective actions are on-      USD(AT&L), USD(C)
 chases Made Through the        policies and revising the  going
 General Services Adminis-      DoD FMR to improve
 tration, 7/29/2005             intergovernmental transac-
                                tions, the use of Military
                                Departmental Purchase
                                Requests, and assisted
                                acquisitions.
 D-2005-097, Audit-             Report is classified.      Competing management            DIA
 ability Assessment of the                                 priorities.
 Financial Statements for
 the Defense Intelligence
 Agency (U), 8/18/2005
 D-2005-103, Develop-           Develop new controls and      Corrective actions are on-   Navy
 ment and Management of         fully implement existing      going.
 the Army Game Project,         controls to ensure that all
 8/24/2005                      resources are safeguarded;
                                and revise Navy guidance
                                on accountability over
                                pilferable property to be
                                consistent with the DoD
                                guidance.




                                                                                                                  165
Department of Defense Inspector General
     Report Number             Description of Action          Reason Action Not        Principle Action Office
        Title/Date                                                Completed
D-2005-108, Review of        The USACE is establishing Lack of management            Army
the U.S. Army Corps of       a comprehensive correc-      attention in fully imple-
Engineers, Civil Works       tion action program to       menting corrective action.
Balance Sheet Reporting      ensure that the instructions
and Financial Statement      provided in the informa-
Compilation, 9/16/2005       tion papers are fully and
                             consistently executed at all
                             USACE activities.
D-2006-003, Security         Report is FOUO.              Extended time required for Army, Navy, AF, USD(I),
Controls Over Selected                                    revision and coordination ASD(HA)
Military Health System                                    of guidance.
Corporate Database,
10/7/2005
D-2006-004, Acquisition      Report is FOUO.              Extensive time needed       USD(AT&L)
of the Objective Indi-                                    to coordinate and issue
vidual Combat Weapon,                                     policy.
10/7/2005
D-2006-007, Contracts        The DCAA will conduct an Normal time for DCAA to Army
Awarded to Assist the        audit of costs of task orders plan and conduct a review.
Global War on Terrorism      awarded under Contract
by the U.S. Army Corps of    No. DACA78 03 D0002.
Engineers, 10/14/2005
D-2006-009, Independent      The U.S. Army Corps          Corrective actions are on   Army
Examination of Valuation     of Engineers is updating     schedule.
and Completeness of U.S.     policy and procedures,
Army Corps of Engineers,     assessing system changes
Buildings and Other Struc-   to the Corps of Engineers
tures, 9/28/2005             Financial Management
                             System, and working
                             to correct data accuracy
                             deficiencies through new
                             regional assessment teams.




166
                                                                                      Semiannual Report to Congress
      Report Number                Description of Action        Reason Action Not         Principle Action Office
          Title/Date                                               Completed
 D-2006-010, Contract           The AT&L will issue guid-   Normal time to develop       USD(AT&L), Army
 Surveillance for Service       ance defining roles and     and implement new guid-
 Contracts, 10/28/2005          responsibilities of contractance and procedures.
                                administration personnel
                                regarding the monitoring
                                of contractor performance.
                                The Army will develop
                                management controls to
                                ensure contract surveillance
                                is adequately performed
                                and documented.
 D-2006-011, Report on          Improve internal controls Corrective actions are on      DFAS
 the Foreign Military Sales     of the FMS cash manage- schedule.
 Trust Fund Cash Manage-        ment program. Establish
 ment, 11/7/2005                adequate audit trails to en-
                                able managers or auditors
                                to verify disbursements.
 D-2006-026, Air Force          Report is classified.        Implementation is moving    AF
 Operational Mobility                                        forward now that the nec-
 Resources in the Pacific                                    essary guidance has been
 Theater (U), 11/17/2005                                     published.
 D-2006-028, DoD Re-            Revise DoD guidance to       Normal time to review,      USD(AT&L)
 porting System for the         improve accounting of        revise and implement new
 Competitive Sourcing           transition costs, tracking   guidance.
 Program, 11/22/2005            and reporting competition
                                costs, validating and re-
                                viewing records, capturing
                                contractors’ past perfor-
                                mance information, and
                                tracking and monitoring
                                the performance of MEOs.
 D-2006-030, Report on          Report is FOUO.              Corrective actions are on   DISA
 Diagnostic Testing at                                       schedule.
 the Defense Information
 Systems Agency, Center
 for Computing Services,
 11/30/2005




                                                                                                                167
Department of Defense Inspector General
      Report Number            Description of Action          Reason Action Not        Principle Action Office
         Title/Date                                               Completed
D-2006-031, Report on        Report is FOUO.              Corrective actions are on   DISA
Penetration Testing at                                    schedule.
the Defense Information
Systems Agency, Center
for Computing Services,
11/30/2005
D-2006-039, Internal         The USD(C) will update       Report had been in media- USD(C), DFAS
Controls Over the Com-       the FMR and DFAS will        tion and has been recently
pilation of the Air Force,   rescind an old instruction   resolved.
General Fund, Fund Bal-      and update and formal-
ance With Treasury for FY    ize other SOPs to improve
2004, 12/22/2005             internal controls over the
                             compilation of the Air
                             Force, General Fund, Fund
                             Balance with Treasury.
D-2006-041, Operational      Report is Classified.        Corrective actions are on   Army, USFK, MC
Mobility: Gap-Crossing                                    schedule.
Resources for the Korean
Theater, 12/26/2005
D-2006-042, Security         Ensure information in        Efforts are ongoing to fully ASD(NII)
Status for Systems Report-   DoD information technol-     implement the utilization
ed in DoD Information        ogy database is accurate     of automatic data integrity
Technology Databases,        and complete                 controls to preclude popu-
12/30/2005                                                lation of data elements
                                                          with invalid entries.
D-2006-043, Financial        Establish procedures to      Management corrective        Army
Management:                  ensure the appropriate       actions on schedule.
Report on Army Manage-       funding of the Army Game
ment of the Army Game        Project, determine if there
Project Funding, 1/6/2006    have been any Antidefi-
                             ciency Act violations and
                             report any such violations,
                             as required.
D-2006-044, Controls         Report is FOUO.             Management corrective        Army
Over the Export of Joint                                 actions on schedule.
Strike Fighter Technology,
1/11/2006
D-2006-046, Technical        Report is FOUO.              Corrective actions are on   USD(AT&L)
Report on the Defense                                     schedule.
Property Accountability
System, 1/27/2006


168
                                                                                      Semiannual Report to Congress
       Report Number               Description of Action             Reason Action Not         Principle Action Office
          Title/Date                                                     Completed
 D-2006-050, Report on          Cross SYSCOM Lean Six            Corrective actions are on    Navy
 Accuracy of Navy Con-          Sigma black belt project is      schedule.
 tract Financing Amounts,       being completed that will
 2/7/2006                       include an end-to-end re-
                                view of the disbursements
                                process.
 D-2006-053, Select Con-        Update the Ground Based          Deployment of prototype      MDA
 trols for the Information      Midcourse Defense Com-           and an access control
 Security of the Ground-        munications Network              server are planned for the
 Based Midcourse Defense        configuration to include:        follow on contract.
 Communications Net-            (1) Automated monitoring
 work, 2/24/2006                of the unencrypted and
                                encrypted communications
                                and monitoring systems;
                                and (2) Individual user
                                passwords to access the
                                unencrypted communica-
                                tions system.
 D-2006-054, DoD Pro-           The USD(C) is develop-           Corrective actions are gen- USD(C), Army, Navy, AF
 cess for Reporting Con-        ing a forum to address           erally on schedule.
 tingent Legal Liabilities,     development of solutions
 2/24/2006                      for providing meaningful
                                assessments of contingent
                                legal liabilities, and develop
                                and implement a uniform
                                methodology for estimat-
                                ing, aggregating, and re-
                                porting them. The Services
                                are working to ensure that
                                “Other Liabilities” and
                                contingent liabilities are
                                fully supported and appro-
                                priately disclosed.




                                                                                                                     169
Department of Defense Inspector General
      Report Number            Description of Action           Reason Action Not         Principle Action Office
          Title/Date                                               Completed
D-2006-055, Spare Parts     The DLA will revise guid-      Corrective actions are on-   DLA
Procurements From Trans- ance and conduct training         going.
Digm, Inc., 2/23/2006       to strengthen contracting
                            policies and procedures.
                            Additionally, the DLA
                            will meet with TransDigm
                            management to achieve
                            improvements and DLA
                            will also evaluate the suit-
                            ability of reverse engineer-
                            ing TransDigm items.
D-2006-056, Financial       The Air Force will conduct     Normal time to revise and    AF
Management: Report on       reviews of potential ADA       implement new guidance
Vendor Pay Disbursement violations, review and             and training.
Cycle, Air Force General    revise existing policy guid-
Fund: Contract Formation ance and training.
and Funding, 3/6/2006
D-2006-057, Corrective      Report is classified.          Corrective actions are on    NGA
Actions for Previously                                     schedule.
Identified Deficiencies Re-
lated to the National Geo-
spatial-Intelligence Agency
Financial Statements (U),
2/28/2006
D-2006-059, Air Force       The Air Force will perform     Corrective actions are on    AF
Procurement of 60K Tun- analyses to determine the          schedule.
ner Cargo Loader Con-       best value approach and
tractor Logistics Support, the feasibility of teaming
3/3/2006                    with the Marine Corps.
D-2006-060, Systems En- Report is FOUO.                    Extended time needed       MDA
gineering Planning for the                                 to coordinate and issue
Ballistic Missile Defense                                  policy. Continued sys-
System, 3/2/2006                                           tem development on held
                                                           pending results of planned
                                                           test.
D-2006-061, Source Selec- Report is FOUO.                  Corrective actions are on  USD(AT&L)
tion Procedures for the                                    schedule.
Navy Construction Capa-
bilities, 3/3/2006




170
                                                                                        Semiannual Report to Congress
       Report Number               Description of Action            Reason Action Not       Principle Action Office
          Title/Date                                                    Completed
 D-2006-062, Internal           Improve internal controls       Corrective actions of this AF
 Controls Over Compiling        over the compilation and        material weakness involves
 and Reporting Environ-         reporting of cost-to-com-       a long-term effort.
 mental Liabilities Data,       plete estimates for environ-
 3/15/2006                      mental liabilities.
 D-2006-063, Financial          Perform reviews and rec-        Required coordination          DFAS
 Management: Report on          onciliations of uncleared       efforts for discontinued
 Internal Controls Over         transactions, ensure ap-        research are taking longer
 Department Expenditure         propriate resolution, and       than expected.
 Operations at Defense          enforce applicable DoD
 Finance and Account-           FMR policy.
 ing Service Indianapolis,
 3/10/2006
 D-2006-067, Controls           Improve the guidance            Management corrective          USD(P)
 Over Exports to China,         and documentation for           actions on schedule.
 3/30/2006                      the export review process.
                                Expand access to USX-
                                PORTS within DoD.
 D-2006-071, Acquisition:       Finalize and approve mutu-      Delays continue in coordi- STRATCOM, MDA
 Capabilities Definition        ally supportive directives      nating and issuing policy.
 Process at the Missile De-     outlining each organiza-
 fense Agency, 4/5/2006         tions roles and responsibili-
                                ties with respect to capabil-
                                ity-based requirements.
 D-2006-072, Internal           The Department is work-         Corrective actions and         Army, Navy, AF,
 Controls Related to De-        ing to improve internal         efforts to verify corrective   USD(AT&L), USD(C)
 partment of Defense Real       controls at the installa-       actions are on-going.
 Property, 4/6/2006             tion level for real property
                                offices. The Air Force is
                                working to: identify which
                                FY they can prove exis-
                                tence, completeness, and
                                valuation and use that FY
                                as their baseline for real
                                property; and maintain an
                                audit trail that supports
                                the real property values
                                reported on the financial
                                statements.




                                                                                                                   171
Department of Defense Inspector General
      Report Number            Description of Action             Reason Action Not        Principle Action Office
         Title/Date                                                  Completed
D-2006-073, Human           Develop and implement            Corrective actions are on   USD(AT&L)
Capital: Report on the      written standard operating       schedule.
DoD Acquisition Work-       procedures and guidance
force Count, 4/17/2006      for counting the acquisi-
                            tion workforce to include
                            definitions of workforce
                            count and methodologies
                            and procedures used to
                            perform periodic counts,
                            and requirements to main-
                            tain and support related
                            documentation. Revise
                            DoD guidance to update
                            information requirements
                            for automated data files.
D-2006-076, Financial       DFAS will process a              Additional time required    Army
Management: Report on       System Change Request            to implement operational
DoD Compliance With         to have the Prompt Pay ap-       capabilities and issue
the Prompt Payment Act      plication (system) changed       policy.
on Payments to Contrac-     to ensure that invoices are
tors., 4/19/2006            paid in accordance with the
                            Prompt Payment Act.
D-2006-077, DoD Se-         Updating policies for the        DoD Regulation 5200.2-R USD(I), DISA, AF
curity Clearance Process    DoD Personnel Security           delayed due to mandate by
at Requesting Activities,   Clearance Program to in-         the President, and signa-
4/19/2006                   clude various information        ture of the “Springer-Had-
                            including program man-           ley” memorandum direct-
                            agement and investigative        ing personnel security and
                            responsibilities, security       suitability process reform
                            clearance systems, submis-       across the federal govern-
                            sion processes, types and        ment. Other issuances
                            levels of security clearances,   are dependent upon that
                            and training requirements        updated version of that
                            for security personnel.          Regulation.
D-2006-078, Information     Report is FOUO.                  Revisions to DoD guid-     ASD(NII)
Systems Security: Defense                                    ance delayed. New esti-
Information Systems                                          mated completion date is
Agency Encore II Informa-                                    October 2008.
tion Technology Solutions
Contract, 4/21/2006




172
                                                                                         Semiannual Report to Congress
       Report Number               Description of Action          Reason Action Not       Principle Action Office
          Title/Date                                                  Completed
 D-2006-079, Review of          Update Business Systems      New deployment schedule DLA
 the Information Security       Modernization Energy         developed because of de-
 Operational Controls of        (Fuels Automated Sys-        lays caused by the military
 the Defense Logistics          tem) plan of action and      services’ internal coordina-
 Agency’s Business Systems      milestones to include all    tion processes.
 Modernization-Energy,          security weaknesses based
 4/24/2006                      on the current system con-
                                figuration.
 D-2006-080, Use of En-         Identify practices, pro-     Long-term corrective ac-    USD(AT&L)
 vironmental Insurance by       cesses, and strategies for   tion on schedule.
 the Military Departments,      effectively using environ-
 4/27/2006                      mental insurance; estab-
                                lish milestones for issuing
                                overarching guidance on
                                the Department’s position
                                on the use of environmen-
                                tal insurance; establish a
                                process to evaluate whether
                                DoD is achieving the
                                anticipated benefits of risk
                                reduction, cost savings,
                                timely completion of clean-
                                up projects, and increased
                                used of performance-based
                                contracting for environ-
                                mental cleanup services, as
                                it relates to environmental
                                insurance.
 D-2006-081, Financial          Report is FOUO.              Corrective actions are on   NSA
 Management: Recording                                       schedule.
 and Reporting of Transac-
 tions by Others for the
 National Security Agency,
 4/26/2006
 D-2006-083, Report on     Report is Classified.             Corrective actions are on   JS, STRATCOM, USD (I)
 Information Operations in                                   schedule.
 U.S. European Command
 (U), 5/12/2006




                                                                                                                173
Department of Defense Inspector General
     Report Number               Description of Action          Reason Action Not        Principle Action Office
        Title/Date                                                  Completed
D-2006-085, Vendor            The Air Force will strength- Corrective actions are on    AF
Pay Disbursement Cycle,       en internal controls on       schedule
Air Force General Fund:       the coordinated efforts of
Funds Control, 5/15/2006      receiving officials, resource
                              managers, and funds hold-
                              ers who oversee the status
                              of funds.
D-2006-086, Information       Report is FOUO.               Corrective actions are on   DISA
Technology Management:                                      schedule.
Report on General and
Applications Controls at
the Defense Information
Systems Agency, Center
for Computing Services,
5/18/2006
D-2006-087, Acquisition:      Report is FOUO.               Change in requirements      Army
Acquisition of the Objec-                                   and competing priorities.
tive Individual Combat
Weapon Increments II and
III, 5/15/2006
D-2006-089, Acquisi-          Develop additional or         Normal time needed for      ASD(HA)
tion of the Armed Forces      more robust mitigation        implementation.
Health Longitudinal           strategies that address the
Technology Application,       risks related to Commer-
5/18/2006                     cial Off the Shelf product
                              integration.
D-2006-096, Information       Report is FOUO.               Corrective actions are on   MDA
Technology Management:                                      schedule.
Select Controls for the In-
formation Security of the
Command and the Con-
trol Battle Management
Communications System,
7/14/2006




174
                                                                                        Semiannual Report to Congress
      Report Number                Description of Action          Reason Action Not         Principle Action Office
         Title/Date                                                    Completed
 D-2006-100, Procurement        The Air Force will de-        Extensive time required to   AF
 Procedures Used for Next       velop a plan to improve       coordinate the transition
 Generation Small Loader        the collection, analysis, and from ICS to CLS and is-
 Contracts, 8/1/2006            reporting of maintenance      sue the basing plan review
                                data for the Halvorsen        results for all loaders.
                                fleet; and transition from a
                                base level funded sustain-
                                ment construct to ICS, and
                                then to a CLS contract to
                                improve readiness. Also,
                                the Air Force agreed to re-
                                view the basing plan for all
                                loaders to ensure optimum
                                usage, and ensure that fu-
                                ture FAR Part 12 and Part
                                15 acquisitions adequately
                                meet operational require-
                                ments.
 D-2006-101, Acquisition:       Complete a thorough BCA Normal time needed for             AF
 Procurement Procedures         that evaluates multiple       implementation.
 Used for C-17 Globe-           sustainment options for the
 master III Sustainment         C-17 Globemaster III air-
 Partnership Total System       craft. Also, develop policy
 Support, 7/21/2006             that will require future
                                Air Force public-private
                                partnership contracts to
                                identify the resources be-
                                ing procured with private
                                investment.
 D-2006-102, Marine             The USMC will up-             Corrective actions are on    USD(C), MC
 Corps Governmental Pur-        date MCO P7300.21 to          schedule.
 chases, 7/31/2006              strengthen policies and
                                procedures and training
                                for the use of Military
                                Interdepartmental Purchase
                                Requests.




                                                                                                                  175
Department of Defense Inspector General
     Report Number            Description of Action        Reason Action Not         Principle Action Office
        Title/Date                                             Completed
D-2006-106, Allegations   Issue revised guidance to    Delays have been caused      AF
Concerning Mismanage-     mitigate frequency interfer- by personnel turnover, the
ment of the Aerial Targetsence risks and to emphasize need to reflect the reinsti-
Program, 8/4/2006         Joint Tactical Radio System tution of the JTRS waiver
                          notification requirements. process for handheld radios
                                                       only, and re-combinations
                                                       of guidance documents.
D-2006-107, Defense De- Report is FOUO.                The report’s disputed issues USD(AT&L), DTSA
partmental Reporting Sys-                              that were being addressed
tem and Related Financial                              through the mediation
Statement Compilation                                  process were decided Sep-
Process Controls Placed                                tember 30, 2008.
in Operation and Tests of
Operating Effectiveness
for the Period October 1,
2004, through March 31,
2005, 8/18/2006
D-2006-108, Provid-       AT&L will establish a De- Corrective actions are on       USD(AT&L), USD(C),
ing Interim Payments to   fense Federal Acquisition    schedule. Normal time        DFAS
Contractors in Accordance Regulation Supplement        required to update the
With the Prompt Payment case to evaluate the costs     DFARS.
Act, 9/1/2006             and benefits of revising
                          the DoD policy of paying
                          cost reimbursable service
                          contracts on an accelerated
                          basis(14 days). Also, the
                          USD (C) will revise the
                          DoD Financial Manage-
                          ment Regulation, Volume
                          10, Chapter 7, entitled
                          “Prompt Payment Act”, to
                          reflect the list of contract
                          financing payments identi-
                          fied in the Federal Acqui-
                          sition Regulations, Part
                          32.001.




176
                                                                                    Semiannual Report to Congress
       Report Number               Description of Action           Reason Action Not       Principle Action Office
         Title/Date                                                    Completed
 D-2006-111, Expanded           Revise contingency-related     Extensive time required    USD(AT&L), AF, DISA
 Micro-Purchase Authority       purchase card guidance         to coordinate and issue
 for Purchase Card Transac-     and improve efforts to dis-    policy.
 tions Related to Hurricane     seminate and implement
 Katrina, 9/27/2006             guidance. Also, establish a
                                robust oversight presence
                                and significantly strength-
                                en internal controls to
                                mitigate the risk of fraud,
                                waste, and abuse.
 D-2006-114, Budget             Develop and execute SOPs       Long-term corrective ac-   DFAS
 Execution Reporting at         to: record and report ob-      tion on schedule.
 Defense Finance and            ligations incurred against
 Accounting Service India-      category codes that are
 napolis, 9/25/2006             consistent with the ap-
                                portionment category
                                codes; adjust the amounts
                                submitted to the Trea-
                                sury and reported on the
                                Army Report on Budget
                                Execution and Budget-
                                ary Resources; perform a
                                quarterly reconciliation on
                                those amounts; notify the
                                Treasury when amounts
                                on the OMB Report on
                                Budget Execution and
                                Budgetary Resources are
                                not accurate; and disclose
                                the existence of material
                                unreconciled differences in
                                budget execution data as
                                part of the footnote disclo-
                                sures to the Army financial
                                statements.
 D-2006-115, Acquisition:       DoD is in the process of       Extensive time required for USD(AT&L)
 Commercial Contracting         clarifying the term “Com-      approval process to update
 for the Acquisition of De-     mercial Item” in appropri-     DoD guidance.
 fense Systems, 9/29/2006       ate DoD guidance.




                                                                                                                 177
Department of Defense Inspector General
     Report Number           Description of Action         Reason Action Not       Principle Action Office
        Title/Date                                              Completed
D-2006-117, American       Update DoD Regulation       Guidance update delayed ASD(PA)
Forces Network Radio       5120.20-R to provide writ- by BRAC consolidation of
Programming Decisions,     ten policies, controls, and American Forces Informa-
9/27/2006                  procedures for the radio    tion Service and internal
                           programming decision-       communications functions
                           making process.             of the services.
D-2006-118, Financial      Issue policy guidance       USD (C) actions contin-   USD(C), NORTHCOM
Management: Financial      directing the closeout of   gent on revision of ASD
Management of Hurricane Hurricane Katrina mission (HD) guidance; corrective
Katrina Relief Efforts at  assignments and return      actions predicated upon
Selected DoD Compo-        of reimbursable funding     actions by outside agen-
nents, 9/27/2006           authority to FEMA. Revise cies.
                           DoD FMR to reflect
                           changes in financial man-
                           agement responsibilities.
D-2006-123, Program        Report is FOUO.             Change in requirements    Army
Management of the Objec-                               and competing priorities
tive Individual Combat
Weapon Increment I,
9/29/2006
D-2007-002, Logistics:     Revise DoDD 3025.1,         Normal time needed for    ASD(HD)
Use of DoD Resources       Military Support to Civil   implementation.
Supporting Hurricane Ka- Authorities, to identify
trina Disaster, 10/16/2006 ASD (HD) as executive
                           agent for defense support
                           of civil authorities and
                           the USNORTHCOM as
                           the supporting combatant
                           command for defense sup-
                           port of civil authorities.
D-2007-005, Army Acqui- Ensure that critical system Extended time needed         Army
sition Executive’s Man-    operational and devel-      to coordinate and issue
agement Oversight and      opmental performance        policy.
Procurement Authority for deficiencies identified at
Acquisition Category I and the full-rate production
II Programs, 10/12/2006    decision are corrected on a
                           timely basis.




178
                                                                                  Semiannual Report to Congress
       Report Number               Description of Action       Reason Action Not     Principle Action Office
         Title/Date                                                Completed
 D-2007-008, Acceptance      The Air Force and the         Extensive time required   AF
 and Surveillance of F-16    DCMA will develop qual-       to coordinate and issue
 Mission Training Cen-       ity assurance surveillance    policy.
 ter Simulation Services,    plans for the follow on
 11/1/2006                   F-16 Mission Training
                             Center simulation service
                             contract. The Air Force
                             will revise AFI 36-2251
                             to more clearly define the
                             roles and responsibilities of
                             personnel who manage and
                             administer simulation ser-
                             vice contracts throughout
                             all major commands.
 D-2007-010, Army Small Army is following up on            Lack of management re-    Army
 Arms Program that Relates the findings and recom-         sponsiveness.
 to Availability, Maintain-  mendations of the Soldier
 ability, and Reliability of Weapons Assessment Team
 Small Arms Support for      Report Number 6-03.
 the Warfighter, 11/2/2006
 07-INTEL-10, Report on Report is classified.              Management corrective ac- AF, DAM
 Defense Hotline Com-                                      tions are on schedule.
 plaint on Pentagon Force
 Protection Agency Acquisi-
 tion of Technical Surveil-
 lance Countermeasures
 and Security Support (U),
 7/11/2007




                                                                                                           179
Department of Defense Inspector General
     Report Number            Description of Action          Reason Action Not        Principle Action Office
        Title/Date                                               Completed
D-2007-023, DoD Pur-       The USD(AT&L) will            Corrective actions are on USD(AT&L), Navy, DISA
chases Made Through the    develop and imple-            schedule.
National Aeronautics and   ment policy guidance to
Space Administration,      strengthen DoD contract-
11/13/2006                 ing procedures and training
                           requirements. The Navy
                           will develop training for
                           contracting personnel on
                           proper acquisition plan-
                           ning and administration of
                           interagency acquisitions.
                           The DISA will strengthen
                           contracting procedures
                           in the proper use of non-
                           DoD contracts.
D-2007-024, Management USD(P&R) will establish a Long-term corrective ac-          USD(P&R), DFAS
and Use of the Defense     process to collect complete, tions on schedule.
Travel System, 11/13/2006 reliable, and timely DoD
                           travel information and es-
                           tablish necessary improve-
                           ments to maximize benefits
                           of Defense Travel System.
                           DFAS will develop, docu-
                           ment, and implement a
                           reconciliatory process from
                           disbursing systems to work
                           counts in e-Biz.
D-2007-025, Acquisi-       Report is FOUO.              Extended time needed to    PACOM
tion of the Pacific Mobile                              analyze costs and complete
Emergency Radio System,                                 required program docu-
11/22/2006                                              ments.

D-2007-028, Controls       DFAS has developed the        Corrective actions are on   DFAS
Over Army Cash and         agent officer roster but it   schedule.
Other Monetary Assets,     needs to be verified.
11/24/2006




180
                                                                                     Semiannual Report to Congress
       Report Number               Description of Action        Reason Action Not        Principle Action Office
         Title/Date                                                 Completed
                                Report is classified.       Corrective actions are on   DIA
 D-2007-029, Auditability                                   schedule.
 Assessment of the Defense
 Intelligence Agency Busi-
 ness Processes for the Iden-
 tification, Documentation,
 and Reporting of Property,
 Plant, and Equipment (U),
 11/30/2006
 D-2007-039, Informa-           Report is FOUO.             Corrective actions are on   MDA
 tion Assurance of Missile                                  schedule.
 Defense Agency Informa-
 tion Systems (FOUO),
 12/21/2006
 D-2007-040, General and        Improve the reliability of  Long-term corrective ac-    Navy
 Application Controls Over      financial information by    tion on schedule.
 the Financial Management       strengthening the general
 System at the Military Sea-    and application controls
 lift Command, 1/2/2007         over the Military Sealift
                                Command’s Financial
                                Management System. Spe-
                                cifically, improve internal
                                controls over entity-wide
                                security program planning
                                and management, access
                                controls, software develop-
                                ment and change controls,
                                system software, segrega-
                                tions of duties, service
                                continuity, authorization,
                                and accuracy.




                                                                                                               181
Department of Defense Inspector General
      Report Number            Description of Action            Reason Action Not        Principle Action Office
         Title/Date                                                 Completed
D-2007-041, Navy Gener-      Update the DoD FMR             Corrective actions are on   USD(C), DFAS, Navy
al Fund Vendor Payments      to be in full compliance       schedule.
Processed By Defense         with Statement of Federal
Finance and Accounting       Financial Accounting Stan-
Service, 1/2/2007            dards Number 1; improve
                             the recording of DoN
                             accounts payable (A/P)
                             transactions; identify the
                             accounts payable record-
                             ing as an assessable unit
                             and develop procedures to
                             test compliance with Navy
                             General Fund; strengthen
                             procedures to ensure that
                             supporting documentation
                             for all non-Electronic Data
                             Interchange vendor pay-
                             ment transactions is main-
                             tained and supports proper
                             disbursements; improve
                             payment and operating
                             procedures used to make
                             vendor payments; require
                             all certifying officials to
                             provide supporting docu-
                             ments.
D-2007-043, Controls         The Army and Air Force         Extensive time required to Army, AF
Over the Army, Navy, and     will issue purchase card       coordinate and issue policy
Air Force Purchase Card      guidance and improve           guidance.
Programs, 1/10/2007          efforts to disseminate and
                             implement guidance.
D-2007-044, FY 2005          The U.S. Army will revise      Extensive time required to Army
DoD Purchases Made           its internal policy guidance   coordinate and issue policy
Through the Department       on the proper use of non-      guidance.
of the Interior, 1/16/2007   DoD contract instruments.

D-2007-048, Navy Spon-       The Navy is working to      Corrective actions are on      Navy
sor Owned Material Stored    improve controls over       schedule.
at the Space and Naval       the financial reporting of
Warfare Systems Centers,     sponsor-owned material
1/26/2007                    and inventory controls over
                             sponsor-owned materials.


182
                                                                                        Semiannual Report to Congress
       Report Number               Description of Action       Reason Action Not        Principle Action Office
          Title/Date                                               Completed
 D-2007-049, Equipment          Report is Classified.       Awaiting publication of    USD(P&R)
 Status of Deployed Forces                                  pending guidance.
 Within the U.S. Central
 Command, 1/25/2007

 D-2007-054, Quality        ASD (HA) will revise DoD        Normal time required for   ASD(HA), Army, Navy,
 Assurance in the DoD       6025-13-R, “Military            implementation of recom-   AF
 Healthcare System,         Health System (MHS)             mendations.
 2/20/2007                  Clinical Quality Assurance
                            (CQA) Program Regula-
                            tion,” dated 6/11/04 to
                            help Military Health
                            System managers monitor
                            and improve the quality of
                            medical care in the MHS
                            and mitigate the risk of fi-
                            nancial loss. Upon revision
                            of the DoD regulation, the
                            Services will revise Service-
                            level guidance as necessary.
 D-2007-055, Contract       The USACE Ordering Dis-         Lack of management re-     Army
 Administration of the      tricts will monitor timeli-     sponsiveness.
 Water Delivery Contract    ness of bottled water deliv-
 Between the Lipsey Moun- eries and each contracting
 tain Spring Water Com-     office and their internal
 pany and the United States review offices will review
 Army Corps of Engineers, processes to ensure en-
 2/5/2007                   forcement of contract time
                            delivery parameters. The
                            USACE will issue guid-
                            ance addressing contract
                            requirements for properly
                            supported invoices and
                            proper recordkeeping and
                            process actions to recoup
                            disbursements associated
                            with government-ordered
                            delay of work and unsup-
                            ported payments to con-
                            tractors.




                                                                                                              183
Department of Defense Inspector General
      Report Number            Description of Action           Reason Action Not        Principle Action Office
        Title/Date                                                 Completed
D-2007-057, Use and          Report is FOUO.               Corrective actions are on   NGA
Controls Over Military In-                                 schedule.
terdepartmental Purchase
Requests at the National
Geospatial-Intelligence
Agency, 2/13/2007
D-2007-061, Defense          Improve processes and         Management corrective       DFAS
Finance and Accounting       procedures to ensure com-     actions on schedule.
Service Dayton Network       pliance with the Prompt
Compliance With the          Payment Act.
Prompt Payment Act,
3/1/2007
D-2007-062, Department       The DUSD Installations        Extensive time required     USD(AT&L), Navy
of the Navy Purchases for    and Environment is to         to revise policy guidance
and From Governmental        update DoDI 4000.19 to        and develop new training
Sources, 2/28/2007           include the requirements      course.
                             of the DoD Financial
                             Management Regulation,
                             Volume 11A, Chapter
                             3. Also, the DoN will
                             update the Funds Usage
                             Documents Course and
                             the Financial Management
                             Policy Manual to include
                             more detailed procedures
                             associated with MIPRs to
                             both DoD and Non-DoD
                             providers.

D-2007-065, Controls         Implement more effective      Management corrective       USD(C), DFAS, BTA,
Over the Prevalidation of    internal controls to ensure   actions on schedule.        Army
DOD Commercial Pay-          that DoD matches each
ments, 3/2/2007              commercial payment re-
                             quest to the corresponding
                             obligation and that, once
                             prevalidated, the disburse-
                             ment transaction correctly
                             posts in the official ac-
                             counting records without
                             manual intervention.




184
                                                                                       Semiannual Report to Congress
        Report Number              Description of Action           Reason Action Not       Principle Action Office
           Title/Date                                                   Completed
 D-2007-066, Navy Acqui-        Improve the Dashboard          Corrective actions are in  Navy
 sition Executive’s Man-        reporting system. Imple-       progress. Currently await-
 agement Oversight and          ment documentation and         ing status update from
 Procurement Authority for      testing requirements in        Navy.
 Acquisition Category I and     support of program mile-
 II Programs, 3/9/2007          stone decision reviews.
 D-2007-067, DoD Initia-        Report is FOUO.                Extensive time needed to      USD(AT&L), JS, STRAT-
 tives for Combating Weap-                                     coordinate and issue policy   COM
 ons of Mass Destruction,                                      (USD(AT&L)) and to
 3/30/2007                                                     conduct DoD-wide assess-
                                                               ment (Joint Staff). Delays
                                                               have been experienced in
                                                               integrating Command
                                                               oversight with DoD initia-
                                                               tive.
 D-2007-073, Financial          Develop appropriate ac-        Management corrective         USD(C), ASD(HA),
 Data Processed By the          counting, measurement,         actions on schedule.          Army, Navy, AF
 Medical Expense and            and recognition methods
 Performance Reporting          for the data used in the
 System, 3/21/2007              MEPRS allocation pro-
                                cess at the military treat-
                                ment facilities.
 D-2007-078, Audit Prac-        The C-17 program of-           Implementation has been       AF
 tices for the C-17 Globe-      ficials will ensure that the   delayed by budget reduc-
 master III Sustainment         contractor complies with       tions and requirement
 Partnership Contract,          the requirements of FAR        revisions.
 4/9/2007                       15.403-4 and provides
                                Certified Cost or Pricing
                                Data to support the priced
                                proposal for FY 2009-FY
                                2011. Additionally, the
                                CCPD will be examined
                                and confirmed to be cur-
                                rent, accurate, and com-
                                plete in accordance with
                                the Truth in Negotiations
                                Act.




                                                                                                                 185
Department of Defense Inspector General
      Report Number            Description of Action        Reason Action Not         Principle Action Office
         Title/Date                                             Completed
D-2007-079, Perfor-         NAVFAC SW will expand Long-term corrective ac-           Navy
mance-Based Service         the workload fluctuation    tions on schedule.
Contract for Environmen-    language in future envi-
tal Services at the Navy    ronmental services con-
Public Works Center,        tracts to address amount
4/3/2007                    limits exceeded and any
                            changes to pricing, and
                            will gather lessons learned
                            and best practices and in-
                            corporate into future con-
                            tracts. Also, the NAVFAC
                            SW will evaluate the tech-
                            nical workload required
                            by the contract and will
                            provide two additional
                            technical personnel to the
                            residual organization.
D-2007-081, Financial       Revise Engineering Pam-     Extensive time needed to     Army
Management of Hurri-        phlet 37-1-6 to include the update guidance.
cane Katrina Relief Efforts Standard Operating Pro-
at the U.S. Army Corps      cedure for the new Intra-
of Engineers (USACE),       Governmental Payment
4/6/2007                    and Collection System
                            procedures for streamlining
                            the billing process between
                            the USACE and FEMA.
D-2007-082, Defense In- Report is FOUO.                 Corrective actions are on    DISA
formation Systems Agency                                schedule.
Controls Over the Center
for Computing Services,
4/9/2007
D-2007-084, Acquisi-        Report is FOUO.             Slow system development      Navy, DCMA
tion of the Navy Rapid                                  and long-term process to
Airborne Mine Clearance                                 develop and implement
System, 4/11/2007                                       guidance.

D-2007-085, Reporting of     The Navy is working to      Corrective actions are on   Navy
Navy Sponsor Owned Ma-       improve financial reporting schedule.
terial Stored at the Naval   and controls over sponsor-
Systems Command Activi-      owned material.
ties, 4/24/2007



186
                                                                                     Semiannual Report to Congress
       Report Number               Description of Action            Reason Action Not        Principle Action Office
          Title/Date                                                    Completed
 D-2007-086, Audit of           Report is classified.           Corrective actions are on   NSA
 Incoming Reimbursable                                          schedule.
 Orders for the National
 Security Agency (U),
 4/24/2007
 D-2007-087, Internal           DFAS will implement poli-       Corrective actions will be DFAS
 Controls Over Army             cy to maintain documenta-       verified during an up-com-
 General Fund Transactions      tion of any off-line filter     ing audit.
 Processed by the Business      transaction corrections;
 Enterprise Information         reconcile combinations
 Services, 4/25/2007            listed in the Filter Criteria
                                Table with applicable guid-
                                ance and document the
                                justification for any differ-
                                ences; and document the
                                BEIS transaction process-
                                ing to include explanations
                                for exceptions to normal
                                processing.
 D-2007-094, Consolida-         Report is FOUO.                 Management corrective       DCMA
 tion of Lockheed Martin                                        actions on schedule.
 Pension Accounting Re-
 cords for Selected Business
 Acquisitions, 5/14/2007
 D-2007-095, Consolida-         Report is FOUO.                 Management corrective       DCAA, DCMA
 tion of Raytheon Pension                                       actions on schedule.
 Accounting Records for
 Selected Business Acquisi-
 tions, 5/14/2007
 D-2007-098, The Use            The DIA will establish      Corrective actions are on       DIA
 and Control of Intragov-       procedures and controls     schedule.
 ernmental Purchases at         over receiving of incoming
 the Defense Intelligence       customer orders, payments
 Agency, 5/18/2007              and deobligations of funds,
                                and reimbursements to
                                the services for details of
                                military personnel outside
                                of DoD.
 D-2007-100, Audit of the       Report is FOUO.             Management corrective           USD(AT&L), USD(C),
 Special Operations Forces                                  actions on schedule.            SOCOM
 Support Activity Contract,
 5/18/2007

                                                                                                                   187
Department of Defense Inspector General
      Report Number             Description of Action       Reason Action Not         Principle Action Office
        Title/Date                                              Completed
D-2007-102, Charges       The MDA will complete         MDA review results cur-      MDA, AF
Relating to Air Force Host/
                          a review of calendar year     rently being verified by the
Tenant Agreements Where   2005 and 2006 costs billed DoD IG.
the AF is Either Host or  to their tenants using the
Tenant, 8/14/2007         new guidelines for calcu-
                          lating tenant charges. The
                          MDA will then refund or
                          credit overcharges to the
                          tenant, return overcharges
                          to Treasury, or ask for reim-
                          bursement of undercharg-
                          es, as appropriate, based on
                          the review results.
D-2007-106, Air Force     The contract will be modi- Corrective actions are on       AF
Network-Centric Solutions fied to remove small busi- schedule.
Contract, 6/29/2007       ness set-aside language.


D-2007-109, Special           The USSOCOM will revise       Extensive time required to   SOCOM
Operations Command            Regulation 37-4, Military     revise policy guidance.
Governmental Purchases,       Interdepartmental Purchase
7/9/2007                      Request Process, to place
                              added responsibilities on
                              all players involved in the
                              MIPR process and ensure
                              MIPRs are processed cor-
                              rectly.
D-2007-110, Identifi-         DoD will evaluate the         Corrective actions are on    USD(C)
cation and Reporting          reported impediments          schedule.
of Improper Payments          in recovery auditing and
Through Recovery Audit-       take action to improve the
ing, 7/9/2007                 program by including data
                              access, providing quality
                              data to DoD, and by mini-
                              mizing delays from exces-
                              sive oversight in DoD by
                              establishing performance
                              metrics that ensure expe-
                              dited recoveries.




188
                                                                                         Semiannual Report to Congress
      Report Number                Description of Action      Reason Action Not          Principle Action Office
        Title/Date                                                Completed
 D-2007-114, DoD             Take steps to improve the Management corrective            DFAS
 Garnishment Program,        accuracy and completeness actions on schedule.
 7/19/2007                   of amount garnished from
                             current and retired DoD
                             employees to pay debt
                             obligations.
 D-2007-115, Audit of the Improve small business          Coordination issues within    Army
 Army Information Tech-      participation in indefinite- the Army continue to be
 nology Enterprise Solu-     delivery, indefinite-quan-   addressed.
 tions-2 Services Contract, tity contracts for informa-
 9/9/2007                    tion technology services by
                             creating a small business
                             set-aside, complying with
                             consolidation and bundling
                             requirements, and improv-
                             ing internal controls.
 D-2007-118, Contract        Ensure all Army Corps        Corrective actions are on     Army
 Administration of the Ice personnel at the Districts     schedule.
 Delivery Contract Between performing the National
 International American      Ice/Water mission are
 Products, Worldwide Ser- adequately trained on
 vices and the U.S. Army     procedures applicable to
 Corps of Engineers During their duties. Also, final-
 the Hurricane Katrina Re- ize the Standard Operat-
 covery Effort, 8/24/2007    ing Procedures for invoice
                             processing.
 D-2007-119, Procurement The DSCR will address            Corrective actions are on     DLA
 of Propeller Blade Heat-    the issue of changing the    schedule.
 ers for the C-130 Aircraft, contracts deletion of items
 8/27/2007                   provision with Hamilton
                             Sundstrand.
 D-2007-121, Emergency       Update DoD FMR to            Extensive time required to    USD(C)
 Supplemental Appro-         address issues related to    coordinate and revise guid-
 priations for DoD Needs     domestic contingencies and ance and closeout FEMA
 Arising From Hurricane      seek reimbursement from mission assignments.
 Katrina at Selected DoD     FEMA for funds expended
 Components, 9/12/2007       on the FEMA mission as-
                             signments related to Hur-
                             ricane Katrina.




                                                                                                               189
Department of Defense Inspector General
      Report Number           Description of Action            Reason Action Not        Principle Action Office
        Title/Date                                                 Completed
D-2007-122, Report Of      Revise the Marine Corps         Management corrective       MC
Marine Corps Internal      Order P7300.21 to in-           actions on schedule.
Controls Over Mili-        clude the DoD Financial
tary Equipment Funds,      Management Regula-
9/11/2007                  tion, volume 3, chapter
                           8 requirement that funds
                           be obligated and deob-
                           ligated no more than 10
                           calendar days after being
                           incurred and within the
                           same month incurred for
                           obligations of $100,000 or
                           more.
D-2007-124, Audit of       Revisions to USJFCOM            Corrective actions are on   JFCOM
Purchases Made Us-         Instruction 4200.1 and to       schedule.
ing USJFCOM Limited        develop memorandum of
Acquisition Authority,     agreements that identify
9/27/2007                  roles and responsibilities
                           for all participants for lim-
                           ited acquisition authority
                           purchases. Also to adopt
                           the practice of identifying
                           funding documents for
                           limited acquisition author-
                           ity purchases.
D-2007-128, Hotline Al-    The DTRA will develop           Corrective action is on     DTRA
legations Concerning the   its acquisition strategy for    schedule
Defense Threat Reduc-      future A&AS contracts
tion Agency Advisory       with the goal of maxi-
and Assistance Services    mizing competition, and
Contract, 9/26/2007        will determine whether a
                           multiple award Indefinite-
                           Delivery, Indefinite-Quan-
                           tity contract is in the best
                           interest of the govern-
                           ment.
D-2007-129, Civilian       Continue to implement           Corrective actions will be Navy, DoDEA
Payroll and Withhold-      and improve payroll with-       verified during an up-
ing Data for FY 2007,      holding procedures at per-      coming audit.
9/28/2007                  sonnel offices to ensure
                           that payroll withholding
                           authorizations support the
                           amounts withheld.

190
                                                                                       Semiannual Report to Congress
      Report Number                Description of Action        Reason Action Not        Principle Action Office
         Title/Date                                                 Completed
 D-2007-130, Contract-          Revision of Air Force        Extensive time needed to   AF
 ing Practices at Air Force     Instruction 63-101 to        update guidance.
 Laboratory Facilities,         include guidance that each
 9/28/2007                      Air Force Laboratory de-
                                velop a quality assurance
                                surveillance plan for each
                                contract to reduce the risk
                                of overpayment for ser-
                                vices received and ensure
                                surveillance responsibili-
                                ties are carried out.
 D-2007-131, Report             Establish followup proce- Management corrective         USD(AT&L)
 on Followup Audit on           dures to ensure that timely actions on schedule.
 Recommendations for            and responsive actions
 Controls Over Exporting        are taken to implement all
 Sensitive Technologies         audit recommendations.
 to Countries of Concern,
 9/28/2007
 D-2007-132, Army Use           Revise Army Regulation       Management corrective      Army
 of and Controls Over the       170-2 to update require-     actions are on schedule.
 DoD Aviation Into-Plane        ments and appropriate use
 Reimbursement Card,            of the Aviation Into-Plane
 9/28/2007                      Reimbursement Card.
 D-2007-6-004, Defense          DCMA is working to as-       Corrective actions and       DCMA
 Contract Management            sess and collect penalties   efforts to verify corrective
 Agency Virginia’s Actions      as appropriate, improve      actions are on-going.
 on Incurred Cost Audit         internal controls over
 Reports, 4/20/2007             unresolved costs, and im-
                                prove processes for taking
                                timely and proper actions
                                on audit report findings,
                                including holding con-
                                tracting officers account-
                                able for their actions.




                                                                                                               191
Department of Defense Inspector General
     Report Number           Description of Action           Reason Action Not        Principle Action Office
         Title/Date                                             Completed
D-2007-6-009, Actions      The DCMA will reinsti-        Corrective actions are on   DCMA
on Reportable Contract     tute its Contract Manage-     schedule.
Audit Reports by the De-   ment Boards of Review
fense Contract Manage-     with the Office of Gen-
ment Agency’s Northrop     eral Counsel as one of its
Grumman El Segundo         members. Negotiation
Office, 9/28/2007          of final overhead rates
                           depending on their dollar
                           value and disagreements
                           concerning the allowabil-
                           ity of legal costs will
                           be subject to boards of
                           review. Also, all contract-
                           ing instructions, guidance
                           and administrative proce-
                           dures will be reviewed to
                           confirm they provide ad-
                           equate support to Agency
                           Contracting Officers.




192
                                                                                     Semiannual Report to Congress
                                           Appendix H

                                              Acronyms

(A&AS) Advisory and Assistance Services                 (CAC) Common Access Cards
(ACC) Air Combat Command                                (CAPS) Computerized Accounting Payable Systems
(ACERT) Army Computer Emergency Response Team           (CBA) Centrally Billed Accounts
(AFAA) Air Force Audit Agency                           (CbT) Combating Terrorism
(AFB) Air Force Base                                    (CCC) Central Criminal Court (Iraq)
(AFCEE) Air Force Center for Engineering and the        (CCPD) Certified Cost of Pricing Data
Environment                                             (CCR) Central Contractor Registration
(AFE) Alternate Fighter Engine                          (CENTCOM) U.S. Central Command
(AFEMS) Air Force Equipment Management System           (CERT/CC) Computer Emergency Response Team
(AFMC) Air Force Materiel Command                       Coordination Center
(AFOSI) Air Force Office of Special Investigations      (CF) Coalition Forces
(AFRH) Armed Forces Retirement Home                     (CFO) Chief Financial Officer
(AGM) Air-To-Ground Missiles                            (CFT) Contract Field Team
(AGM-86) Air-Launched Cruise Missiles                   (CI) Counterintelligence
(AGM-129) Advanced Cruise Missiles                      (CITF) Criminal Investigation Task Force
(AIO) Acquisition Integrity Office                      (CLS) Contractor Logistics Support
(ANSF) Afghan National Security Forces                  (CMG) Clover Merchant Group
(AOR) Area of Responsibility                            (COCOM) Combatant Command
(AP) Airborne Payload                                   (CONCAP) Navy Construction Capabilities Contract
(APO) Audit Policy and Oversight                        (CONUS) Continental United States
(AQIZ) al-Qaeda in Iraq                                 (COTS) Commercial Off the Shelf
(Army CID) U.S. Army Criminal Investigation Com-        (Cpl) Corporal
mand                                                    (CPT) Current Procedural Terminology
(ART) Air Expeditionary Force Reporting Tool            (CQA) Clinical Quality Assurance
(ASMC) American Society of Military Comptroller’s       (CW) Cooperating Witness
(ASTAMIDS) Airborne Surveillance, Target Acquisition,   (CY) Calendar Year
and Minefield Detection System                          (D200A) Secondary Item Requirements System
(ATF) Alcohol, Tobacco, and Firearms                    (DA) Department of the Army
(BATFE) Bureau of Alcohol, Tobacco, Firearms and        (DARPA)
Explosives                                              (DBSS) Defense Blood Standard System
(BCS-F) Battle Control System-Fixed                     (DCAA) Defense Contract Audit Agency
(BEIS) Business Enterprise Information Services         (DCIE) Defense Council on Integrity and Efficiency
(BFR) Basic Facility Requirement                        (DCIO) Defense Criminal Investigative Organizations
(BLRA) Bayonne Local Redevelopment Authority            (DCIS) Defense Criminal Investigative Service
(BLS) Bureau of Labor Standards                         (DCMA) Defense Contract Management Agency
(BOM) Bill of Material                                  (DCWASA) D.C. Water and Sewer Authority
(BRAC) Base Realignment and Closure                     (DDRS) Defense Departmental Reporting System
(BSO) Battle Space Owner                                (DFARS) Defense Financial Acqusiition Regulation
(BTL) Build-to-Lease                                    Supplement


                                                                                                          193
Department of Defense Inspector General
(DFAS) Defense Finance and Accounting Service          (ICC) International Contract Corruption
(DFAS-KC) Defense Finance and Accounting Service-      (ICE) Immigrations and Customs Enforcement
Kansas City                                            (ICF) Intelligence Contingency Funds
(DHS) Department of Homeland Security                  (ICS) Interim Contractor Support
(DIB) Defense Industrial Base                          (ICTTF) International Contract Corruption Task Force
(DISA) Defense Information Systems Agency              (IDF) Indirect Fire
(DISCO) Defense Industrial Security Clearance Office   (IED) Improvised Explosive Device
(DLA) Defense Logistics Agency                         (IRS) Internal Revenue Service
(DMAG) Depot Maintenance Activity Group                (ISF) Iraq Security Forces
(DoC) Department of Commerce                           (IT) Information Technology
(DoD) Department of Defense                            (ITT) Intelligence Transition Teams
(DoD IG) Department of Defense Inspector General       (JBB) Joint Base Balad
(DoJ) Department of Justice                            (JEFF) Joint Expeditionary Forensic Facilities
(DoN) Department of Navy                               (JGPO) Joint Guam Program Office
(DoS) Department of State                              (JIS) Jam’iyyat Ul-Islam Is-Shaheen
(DSCR) Debt Service Coverage Ratio                     (JOA) Joint Operating Area
(DSS) Defense Security Service                         (JOC) Joint Operations Center
(DTAS) Deployed Theater Accountability System          (JPG) Joint Planning Group
(ECIE) Executive Council on Integrity and Efficiency   (JSF) Joint Strike Fighter
(EFP) Explosive Formed Penetrator                      (JTF-CND) Joint Task Force- Computer Network De-
(EPA) Economic Price Adjustments                       fense
(ESOH) Environment, Safety, and Occupational Health    (JTF-CNO) Joint Task Force- Computer Network Op-
(EVM) Earned Value Management                          erations
(EVMS)Earned Value Management System                   (JTF-GNO) Joint Task Force- Global Network Opera-
(FAEC) Federal Audit Executive Council                 tions
(FAR) Federal Acquisition Regulation                   (JTRS) Joint Tactical Radio System
(FBI) Federal Bureau of Investigation                  (JTTF) Joint Terrorism Task Force
(FCS) Future Combat Systems                            (KBR) Kellog, Brown and Root Inc. (Formerly)
(FED) Far East District                                (LAFO) Los Angeles Field Office
(FICA) Federal Insurance Confirmations Act             (LAJTTF) Los Angeles Joint Terrorism Task Force
(FISMA) Federal Information Security Management Act    (Lcpl) Lance Corporal
(FOUO) For Official Use Only                           (LCS) Littoral Combat Ship
(FVAP) Federal Voting Assistance Program               (LEP) Law Enforcement Program
(FY) Fiscal Year                                       (LOGCAP) Logistics Civil Augmentation Program
(GAO) Government Accountability Office                 (LRA) Local Redevelopment Authorities
(GD/BIW) General Dynamics/Bath Iron Works              (MAC) Mission Assurance Category
(GIG) Global Information Grid                          (MAJCOM) Major Commands
(GOJ) Government of Japan                              (MARCERT) Marine Computer Emergency Response
(GNOSC) Global Network Operations Security Center      Team
(GWOT) Global War on Terror                            (MEDEVAC) Medical Evacuation
(HASC) House of Representatives Armed Services Com-    (MEO) Military Equal Opportunity
mittee                                                 (MEPRS) Military Expense and Performance Reporting
(HKFTF) Hurricane Katrina Fraud Task Force             System
(HRT) High-Risk Training                               (MHS) Military Health System
(HSPD) Homeland Security Presidential Directive        (MILCON) Military Construction
(HVI) High Value Individual                            (MNF-I) Multi-National Force-Iraq
(IC) Intelligence Community                            (MNF-W) Multi-National Force-West
                                                       (MPA) Military Appropriation Account
194
                                                                                  Semiannual Report to Congress
(MPFU) Major Procurement Fraud Unit                      (SCID-A) Strategic Counterintelligence Directorate-
(MRE) Meals Ready to Eat                                 Afghanistan
(MTF) Medical Treatment Facilities                       (SDWA) Safe Drinking Water Act
(MTF) Military Treatment Facilities                      (SEI) Software Engineering Institute
(NAR) Notice of Ammunition Reclassification              (SIGAR) Special Inspector General for Afghanistan
(NATO) North Atlantic Treaty Organization                Reconstruction
(NAVAUDSVC) Naval Audit Service                          (SIGIR) Special Inspector General for Iraq Reconstruc-
(NAVCIRT) Navy Computer Incident Response Team           tion
(NAVFAC) Naval Facilities                                (SPO) Office of Special Plans and Operations
(NBC) Nuclear, Biological, Chemical                      (SPOT) Synchronized Pre-deployment and Operational
(NCIS) Naval Criminal Investigative Service              Tracker
(NCR) National Capital Region                            (SSG) Staff Sergeant
(NCTC) National Counterterrorism Center                  (SSTR) Stability, Security, Transition, Reconstruction
(NETC) Naval Education and Training Command              (S&T) Science and Technology
(NIST) National Institute of Standards and Technology    (STR) Service Treatment Record
(NJTTF) National Joint Terrorism Task Force              (STRATCOM) Strategic Command
(NOSC) Network Operations Security Center                (SUPSHIP) Supervisor of Shipbuilding
(NPFTF) National Procurement Fraud Task Force            (SWA) Southwest Asia
(NSC) National Safety Council                            (SWA JPG) Southwest Asia Joint Planning Group
(OCONUS) Outside Continental United States               (SYSCOM) Systems and Materiel Command
(ODIG-AUD) Office of Deputy Inspector General for        (TACOM) Tactical Army Command
Audit                                                    (TACON) Tactical Control
(ODIG-INTEL) Office of Deputy Inspector General for      (TCS) Temporary Change of Station
Intelligence                                             (TCTO) Time Compliance Technical Order
(ODIG-P&O) Office of Deputy Inspector General for        (TPD) Torrance Police Department
Policy and Oversight                                     (TPEG) Technology Protection Enforcement Working
(OIF) Operation Iraqi Freedom                            Group
(OEE) Office of Export Enforcement                       (TSE) Tactical Support Element
(OEF) Operation Enduring Freedom                         (TTA) Technology Transition Agreements
(OMB) Office of Management and Budget                    (TTP) Training, Tactics and Procedures
(OPCON) Operational Control                              (UBO/UBU) Uniform Business Office/ Unified Bio-
(OPP) Okinawa Prefectural Police                         statistical Utility
(ORM) Operational Risk Management                        (USAAA) U.S. Army Audit Agency
(OSC) U.S. Office of Special Counsel                     (USACE) U.S. Army Corps. of Engineers
(PCIE) President’s Council on Integrity and Efficiency   (USACIDIC) U.S. Army Criminal Investigation Com-
(PCS) Planning and Control System                        mand
(PKI) Public Key Infrastructure                          (USACIL) U.S. Army Criminal Investigation Command
(PII) Personally Identifiable Information                Laboratory
(PIV) Physical Inventory Verification                    (USAF) United States Air Force
(PMO) Program Management Office                          (USAFCENT) U.S. Air Force Central
(PP&E) Property, Plant and Equipment                     (USAREUR) U.S. Army Europe
(PSB) Protective Services Battalion                      (USD(C)) Under Secretary of Defense, Comptroller
(RSTA/LD) Reconnaissance, Surveillance, Target Acqui-    (USFK) U.S. Forces Korea
sition and Laser Designator                              (USJFCOM) U.S. Joint Forces Command
(SAP) Special Access Program                             (USC) United States Code
(SBCT) Stryker Brigade Combat Team                       (USMC) United States Marine Corps
                                                         (USN) U.S. Navy
                                                         (USPS) U.S. Postal Service
195
                                                                                     Semiannual Report to Congress
(USSOCOM) U.S. Southern Command
(USSPACECOM) U.S. Space Command
(USTRANSCOM) U.S. Transportation Command
(USSTRATCOM) U.S. Strategic Command
(USXPORTS) U.S. Exports
(VA) Veterans Affairs
(VCO) Voltage Control Oscillators
(VDP) Voluntary Disclosure Program
(WESS) Web Enabled Safety System
(WMD) Weapons of Mass Destruction




196
                                           Semiannual Report to Congress
